<html>
<title> - MODERNIZING THE WORKFORCE INVESTMENT ACT (WIA) OF 1998 TO HELP WORKERS AND EMPLOYERS MEET THE CHANGING DEMANDS OF A GLOBAL MARKET</title>
<body><pre>[Senate Hearing 111-989]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 111-989

MODERNIZING THE WORKFORCE INVESTMENT ACT (WIA) OF 1998 TO HELP WORKERS 
       AND EMPLOYERS MEET THE CHANGING DEMANDS OF A GLOBAL MARKET

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EMPLOYMENT AND 
                            WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

             EXAMINING THE WORKFORCE INVESTMENT ACT OF 1998

                               __________

                             JULY 16, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                  U.S. GOVERNMENT PRINTING OFFICE
51-264 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut      MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                      JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland         LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico             RICHARD BURR, North Carolina
PATTY MURRAY, Washington              JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island               JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont          ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                   LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania    TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina          PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon                  
AL FRANKEN, Minnesota                 

           J. Michael Myers, Staff Director and Chief Counsel
     Frank Macchiarola, Republican Staff Director and Chief Counsel
                                 ------                                

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman
CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        RICHARD BURR, North Carolina
SHERROD BROWN, Ohio                  JOHN McCAIN, Arizona
KAY R. HAGAN, North Carolina         ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                 LISA MURKOWSKI, Alaska
AL FRANKEN, Minnesota                MICHAEL B. ENZI, Wyoming (ex 
EDWARD M. KENNEDY, Massachusetts         officio)
    (ex officio)
                      Gerri Fiala, Staff Director
                  Edwin Egee, Minority Staff Director

                                  (ii)








                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        THURSDAY, JULY 16, 2009

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     3
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
  statement......................................................     4
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  prepared statement.............................................     5
Oates, Jane, Assistant Secretary of Labor, Employment and 
  Training Administration, Washington, DC........................     7
    Prepared statement...........................................    10
Kanter, Martha, Under Secretary, U.S. Department of Education, 
  Washington, DC.................................................    11
    Prepared statement...........................................    14
McQueen, Clyde, President/CEO, Full Employment Council, Kansas 
  City, MO.......................................................    25
    Prepared statement...........................................    27
Thurmond, Michael L., Commissioner, Georgia Department of Labor, 
  Atlanta, GA....................................................    32
    Prepared statement...........................................    34
Bender, Rick S., President, Washington, State Labor Council, AFL-
  CIO, Seattle, WA...............................................    38
    Prepared statement...........................................    40
Kiernan, William E., Ph.D., Director and Research Professor, 
  Institute for Community Inclusion, Boston, MA..................    41
    Prepared statement...........................................    43
Sarris, Mary W., Executive Director, North Shore Workforce 
  Investment Board, Salem, MA....................................    55
    Prepared statement...........................................    56
Cooper, Kathy, Policy Associate, Office of Adult Literacy, 
  Washington State Board for Community and Technical Colleges, 
  Olympia, WA....................................................    64
    Prepared statement...........................................    66
Wing, Stephen, Director of Workforce Initiatives, CVS Caremark, 
  Twinsburg, OH..................................................    68
    Prepared statement...........................................    69

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Kennedy, prepared statement..........................    78
    Response to questions of Senator Murray by:
        Jane Oates...............................................    79
        Martha Kanter............................................    93
        Clyde McQueen............................................   102
        Michael L. Thurmond......................................   103
        William E. Kiernan, Ph.D.................................   107
        Mary W. Sarris...........................................   124
        Kathy Cooper.............................................   126
        Stephen Wing.............................................   130

                                 (iii)

    Response to questions of Senator Enzi by:
        Jane Oates...............................................    86
        Martha Kanter............................................    97
        Clyde McQueen............................................   103
        Michael L. Thurmond......................................   105
        William E. Kiernan, Ph.D.................................   114
        Mary W. Sarris...........................................   125
        Kathy Cooper.............................................   129
        Stephen Wing.............................................   131
    Response to questions of Senator Coburn by:
        Jane Oates...............................................    91
        Martha Kanter............................................   101
    Consortium for Citizens With Disabilities (CCD)..............   131
    Council of State Administrators of Vocational Rehabilitation 
      (CSAVR)....................................................   132
    National Organization for Competency Assurance (NOCA)........   142





 
MODERNIZING THE WORKFORCE INVESTMENT ACT (WIA) OF 1998 TO HELP WORKERS 
       AND EMPLOYERS MEET THE CHANGING DEMANDS OF A GLOBAL MARKET

                              ----------                              


                        THURSDAY, JULY 16, 2009

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray, Brown, and Isakson.

                  Opening Statement of Senator Murray

    Senator Murray. This hearing of the Subcommittee on 
Employment and Workplace Safety will come to order.
    Before we begin, I would like to recognize Senator Kennedy 
for his leadership on workforce development and the workforce 
investment system in particular. We miss him on this committee 
and send him our best.
    I also want to thank two individuals who took the time to 
fly in all the way from my home State of Washington to be with 
us today. Kathy Cooper, who is from the Washington State Board 
for Community and Technical Colleges, and has done so much in 
Washington State to keep our workforce competitive. Also, Rick 
Bender, who is the President of our Washington State Labor 
Council, AFL-CIO. Rick is a passionate advocate for investing 
in our workers and our economy. I thank both of them for being 
here.
    Throughout my time on this committee, I have had the 
pleasure of working with members, from both sides of the aisle, 
who are committed to helping workers access the skills, 
training, and education needed to be successful in the 
workplace. Specifically, I would like to thank Senator Enzi. He 
was scheduled to be here this morning, but is in the Finance 
Committee working on health care right now, and expects to join 
us shortly. I would also like to thank Senators Kennedy and 
Isakson, and all of their staffs, for their great bipartisan 
work on this important issue.
    Helping workers and employers access the information and 
services needed to be competitive is a win for everyone. It is 
a win for our workers, for our employers, and it is a big win 
for our economy. I believe, now more than ever, that building a 
competitive and skilled workforce is the issue that will make 
or break us as a nation. Where the skilled workers are, the 
jobs will follow.
    As Rick Bender knows, we are working hard in Washington 
State to ensure that our highly skilled and competitive 
aerospace workforce, one of our greatest resources, gets the 
support they need to compete in the global economy. In the 
Puget Sound region, our aerospace industry is the lifeblood of 
many of our communities; but, our skilled workforce like 
machinists are aging out of their jobs, and we have not done 
enough to train the next generation of workers. We need to 
think more strategically about how we align our training needs 
with our larger economic goals.
    Earlier this week, we learned that nearly 330,000 people 
are unemployed and looking for work in Washington State. Other 
workers are under-employed or have even stopped looking because 
they believe that there are no jobs available for them.
    Like others in this room, I am very involved in the work we 
are doing to reform our health care system. One of the issues 
we are working on is that, while many workers are struggling to 
find jobs, hospitals and health clinics are having trouble 
finding workers with the right skills to fill the open 
positions. There are literally thousands of jobs just waiting 
for skilled workers to fill them.
    We need to do a better job of matching up the skills of our 
workers with the needs of our industries. That is why I helped 
write the section of the health care bill we passed yesterday 
in the HELP Committee, which provides resources to our States, 
so they along with key partners can develop a coherent and 
comprehensive strategy for training a health care workforce. I 
believe that investing in a skilled health care workforce will 
benefit all of us. That is why this section makes a number of 
investments in recruitment and training of health care workers. 
This section will help keep our health care system and it will 
help workers get good family-sustaining jobs. In this tough 
economic climate, nothing could be more important than 
investing in our workers and rebuilding our economic strength.
    That is why I joined my colleagues in a bipartisan effort 
beginning last fall to modernize and reauthorize the Workforce 
Investment Act, the legislative cornerstone of our Nation's 
workforce development system.
    We have spent hours listening to stakeholders about what 
has worked well, what should be eliminated and what ideas they 
have for innovative change. I am excited to be here today to 
continue that conversation.
    The public workforce investment system established under 
WIA provides a framework for these conversations to happen at 
State and regional levels, that is important because workers 
look for jobs and employers hire in their own communities.
    It is also important that our States and communities make 
strategic connections between their workforce development 
efforts and what they teach their young people in High School 
classrooms and beyond.
    That is why, in addition to reauthorizing the WIA, I am 
also re-introducing my Promoting Innovations to 21st Century 
Careers Act. The 21st Century Act is a major legislative 
proposal to help State and regional leaders increase high 
school graduation rates and prepare America's next generation 
of highly skilled workers. If we do not take a comprehensive 
approach to preparing all of America's workers for the demands 
of a competitive and constantly changing economy, many will 
continue to fall behind, and that is a price our Nation cannot 
afford to pay.
    Since last November, I have made it clear that I want to 
work with the Administration on workforce development 
initiatives. In particular, the modernization and 
reauthorization of the Workforce Investment Act. This committee 
has a long history and wealth of knowledge on this issue. We 
hope this Administration will take advantage of this as we work 
to modernize and reauthorize WIA. We look forward to a 
productive partnership with the Departments of Labor and 
Education.
    Before I close on my opening remarks, I would like to make 
a request of my colleagues, the Administration, and all the 
stakeholders who serve workers, job seekers, and employers 
every day. Let us work together to reach a consensus and move 
forward now. America's working families deserve nothing less.
    With that, I want to turn to Senator Isakson, who has been 
a great partner on this issue, for his opening statement.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, thank you, Chairman Murray. I am 
delighted to be here today and I appreciate all your hard work 
and that of Senator Kennedy and Senator Enzi and the others on 
workforce investment. Since my election to the Congress 11 
years ago, I have worked on workforce investment, first on the 
House Education Committee and now in this committee, and I am 
just delighted to be here today to talk about the 
reauthorization and enrichment of the Workforce Investment Act.
    Rather than make a lot of remarks, because we have a number 
of people who will testify today, I will reserve just two 
comments in my remarks about two of our fine panelists who will 
testify today.
    First is Secretary Jane Oates, with whom I had the pleasure 
of working, I guess, now almost 8 years ago on the No Child 
Left Behind Act, when she was the head of Senator Kennedy's 
education team. She is a marvelous individual with a background 
in teaching and an understanding of the value of education and 
is in exactly the right time and place for this Administration. 
I welcome you and congratulate you on being here.
    Second is Commissioner Mike Thurmond from Georgia. I served 
20 years in State government before coming to Washington. I 
worked with Mike's sister, Barbara Archibald, when she served 
with me on the State Board of Education. I worked with Mike 
together in the Georgia House of Representatives. And without 
appearing to just brag about a hometown guy because that is 
what you are supposed to do, I never knew a finer 
representative in the assembly, and I am sure there is no 
better commissioner of labor in the United States. The evidence 
in that is his accomplishments in two areas.
    One is when we gave some latitude for innovation, it was 
Mike that really developed the One-Stop shop concept in Georgia 
and was aggressive in opening what is now 46 centers in our 
State for One-Stop shop services for those seeking employment.
    Second, in our unemployment offices, Mike changed the name 
and changed the attitude and changed the results. He turned 
them into career centers rather than unemployment offices. He 
redecorated them into colors that made somebody feel good when 
they walked in the office rather than feel depressed.
    And the results are the following. In the last fiscal year, 
of the people that came in to look for work through the 
Department of Labor in Georgia, 66 percent, 296,000, found 
employment, and 80 percent of them were still employed 6 months 
later. In these economic times, that is a remarkable 
achievement which only happens under great leadership, and Mike 
is a great leader, and I am delighted he is here today to 
testify before the committee.
    Madam Chairman, I will reserve the rest of my time for our 
testimony.
    Senator Murray. Thank you very much, Senator Isakson.
    Senator Brown has joined us. Would you like to give an 
opening statement?

                       Statement of Senator Brown

    Senator Brown. Yes, thank you, Madam Chair. I appreciate 
that. And Senator Isakson, thank you for your comments.
    I appreciate very much this hearing. A special thank you to 
Stephen Wing from Twinsburg, OH. Thank you for joining us. He 
is representing CVS Caremark on the second panel, and that is 
the company that has done terrific things in our State.
    Over the last couple of years, I have conducted about 150 
roundtables around Ohio and been in each of the 88 counties. I 
will gather 15, 20, 25 people around a table, a cross section 
of the community, and ask them questions for an hour and a 
half. I hear two things consistently from employers.
    One is that infrastructure is a significant problem, water, 
sewer, highways, bridges, broadband, and infrastructure in 
terms of education too.
    The second thing I hear repeatedly in almost every 
roundtable over the last 2\1/2\ years--and many of these were 
before the severe economic downturn--is that employers, whether 
they are social service agencies or manufacturing or service 
industry or whatever, cannot find the right employees, cannot 
find the match-up of skills they need even in a relatively high 
unemployment State, from building trades to engineers to 
computer operators to manufacturing.
    Ohio now has been getting much better with the new 
Governor, who has been in office for a couple of years, to 
align its education and its job training activities. The adult 
education training programs have been brought under the 
university system of Ohio. A major player in that, of course, 
is our community colleges and our community college system.
    That is why I introduced with Senator Murray and Senator 
Snowe the Sectors Act to provide grants to industry or sector 
partnerships. It is so important that we focus these Federal 
WIA dollars on job training, obviously, that leads to 
employment better than we have, and that needs to come from the 
bottom up. It needs to come from community colleges working 
with local businesses, working with local trade unions, working 
with the local workforce investment board to decide what does 
our community need.
    Toledo, OH has more solar energy jobs than any city in 
America. The local official, local employers, local unions, 
local community colleges and the University of Toledo and 
others would like to use those WIA dollars to train workers to 
work in that industry or advanced manufacturing in Columbus or 
some of the things that they are doing with composites that 
lead the country in Dayton. I mean, there are those 
opportunities all over, and that is what is so very, very 
important.
    The last thing I want to mention is a real brief story, 
Madam Chair. In light of the President's bold and important 
announcement yesterday and the last couple days on community 
colleges and how important that is, I was a graduation speaker 
at Sinclair Community College in Dayton a couple of years ago, 
and the president of the college--we rode in from the airport. 
It was a Friday night. There were about 1,000 graduates of the 
community college, one of Ohio's best community colleges.
    We were just talking away about his speech and my speech, 
and he decided at the beginning of this commencement to ask two 
questions of the students. And he said keep your eye on the 
seven students sitting in the right front row of these 1,000 
students in the audience. The two questions he asked was, how 
many of you are first in your family to go to college? And 
about 40 percent of the students raised their hands of 1,000 
graduates, and all seven of the students in the front row did. 
And I will tell you who they are in a second. And second, he 
said, how many of you were told you are not college material? 
And probably a third or a fourth of those students put their 
hands up, and four of the seven kids in the front row put their 
hands up.
    This was a Friday night. The seven students in the front 
row had graduated from Dayton public schools on Tuesday night, 
and they were first in their family to go to college. Half of 
them had been told they were not college material.
    That is the challenge we have. That is the great thing 
about the community college system, the great thing about what 
we can do with workforce investment, why this hearing is so 
important and why, as we move forward on developing all this, 
it is so important.
    I thank the chair for her work.
    Senator Isakson. Madam Chairman, could I ask unanimous 
consent that the full statement of Senator Enzi be entered in 
the record?
    Senator Murray. Absolutely. Without objection, we will do 
that.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Chairman Murray and Senator Isakson, I want to thank you 
for holding this hearing on this important issue--
reauthorization of the Workforce Investment Act (WIA).
    Dramatic changes have occurred in all of our lives over the 
past 10 to 11 years. For example, I have become a grandfather. 
Staying in touch 10 years ago meant calling or writing someone 
instead of the instant and text messaging of today. Then, 
personal GPS systems were not available in cars, so that meant 
many of us spent much more time trying to find the way to our 
destinations. And ``twittering' now has a totally different 
meaning. Well, dramatic changes have occurred in the workplace, 
workforce and economy, too.
    It has been over 10 years since WIA was first enacted. And 
now more than ever is when we need to modernize and strengthen 
the system, building on what has worked. America's workers and 
employers need to be confident that the workforce development 
system will provide the skills that are needed to keep jobs in 
America and keep us competitive in the 21st century economy.
    Although the Senate has passed a bill to reauthorize the 
Workforce Investment Act (WIA) several times over the past 6 
years, Congress has not been able to ``get it done.'' However, 
reauthorizing WIA is especially important now.
    With an unemployment rate of almost 10 percent and a 
widening skills gap for our students and workers, we need to 
have in place a workforce development system that will meet the 
challenges of a global economy and the 21st century workplace. 
We need to help workers secure the skills they need for the 
jobs being created as our economy comes out of the economic 
downturn, and we need to make sure that employers have the 
skilled workers they need to be competitive. Workers need 
ongoing access to quality education and skills training 
programs for the high-demand, high-skill, high-wage jobs of the 
future.
    I am pleased that we have both the Department of Labor and 
the Department of Education with us today to discuss how the 
programs they operate contribute to the workforce development 
system established through the One-Stop Career Centers. I also 
look forward to hearing from the second panel that is made up 
of seven practitioners who represent the various constituencies 
of the workforce system. Using a modified roundtable structure, 
they will discuss their perspective of the workforce system in 
response to two questions--what works and what doesn't and how 
can we improve the system as we move forward?
    We must also find ways that our education and job training 
programs can come together so that our young people get the 
education and training they need to graduate from high school 
and be successful in college and the workforce. For every 100 
students entering ninth grade, 68 graduate from high school on 
time. Out of 40 who immediately enter college, only 18 graduate 
from college on time. Over 275 students drop out of school 
every school hour, which costs in lost wages and revenue 
approximately $73 million over the lifetime of those dropouts. 
Lower earnings translate into less revenue for local, State and 
Federal Governments in the form of income, property, and 
consumption taxes.
    Education and training beyond high school is a prerequisite 
for employment in jobs and careers that support a middle-class 
life. Individuals with a bachelor's degree earn, on average, 
almost twice as much over their lifetimes as high school 
graduates. Jobs requiring bachelor's degrees are predicted to 
grow 15 percent by 2016, yet the completion rate for students 
entering college is low with the United States coming in at 
15th among 29 industrialized countries. What this means is that 
the number of jobs requiring some form of post-secondary 
education or training will grow 60 percent faster than the job 
market as a whole, while the number of people with the 
necessary knowledge and skills is not keeping pace.
    The United States still ranks second among developed 
nations in the proportion of workers over the age of 55 with a 
post-secondary credential, but we drop to No. 11 among younger 
workers, age 25 to 34. For the first time in the history of our 
country we face the prospect that the educational level of a 
generation of Americans will not exceed that of the workers who 
preceded them.
    I want to welcome and thank all of the witnesses who are 
here today--I look forward to what you have to say. A strong 
education and workforce development system is required in order 
for our students and workers to be prepared to meet the ever 
escalating knowledge and skill requirements of the 21st 
century. For this reason I am committed to working with the 
Administration and my Senate and House colleagues to put 
together a bipartisan bill that reauthorizes, strengthens and 
modernizes WIA. We need to act now because our students, 
workers, employers and communities expect and deserve more from 
us than the status quo.

    Senator Murray. With that, we will turn to our first panel. 
We have two witnesses today.
    Jane Oates is the Assistant Secretary of Labor for the 
Employment and Training Administration. She now leads the ETA 
in its mission to design and deliver training and employment 
programs for our Nation's workers, including programs under the 
Workforce Investment Act.
    We also have Martha Kanter, who was confirmed on June 19 as 
the Under Secretary of Education for the U.S. Department of 
Education. She oversees policies, programs, and activities 
related to post-secondary education, vocational and adult 
education and Federal student aid.
    Jane, we will start with you. Both of your testimony will 
be submitted in whole in the record, and we look forward to 
your comments.

  STATEMENT OF HON. JANE OATES, ASSISTANT SECRETARY OF LABOR, 
     EMPLOYMENT AND TRAINING ADMINISTRATION, WASHINGTON, DC

    Ms. Oates. Senator, thanks so much to you, to Senator 
Isakson for your kind words, and to Senator Brown, I could not 
begin without thanking you for that reference to Senator 
Kennedy who I share--I wish he was sitting up there, but he 
would probably ask me tougher questions than anybody else. So I 
should be careful of what I wish for.
    It feels very odd sitting on this side of the table. I have 
such a history with this committee, and I hope that history 
with this committee is testimony to you to the fact that we 
will work together. We are committed at the Department of 
Labor, and I know my friends at Education share that. We 
respect this committee far too much to try to go anywhere else 
but here to get the answers that we need and the legislation 
that we know is going to be the improvements to the system that 
we all care about.
    Secretary Solis--a new team that I am very proud to be a 
part of--has established the goal of a good job for everyone. 
For those of you who have met Secretary Solis, I think you are 
probably well aware that she does mean everyone, and that some 
of the things that need to be improved in our system are things 
that get directly to that point. Many of our clients who face 
real barriers to employment have not fully accessed the system. 
I hope that we will work together to change that in the 
reauthorization.
    It is exciting to be talking about workforce now. Those of 
us that have been talking about it for the last 11 years felt 
like we were the only ones who were interested. Now we have a 
President who is very interested in it, an Administration, and 
this committee remains interested, as well as our sister 
committee in the House. So I believe all the stars are aligned 
that we are going to get the best bill possible done as soon as 
possible.
    The system is being tested. These are hard times for 
everyone, but this system is stretched to the limits. I am here 
to tell you that after receiving all the State plans on June 
30, this system is working and it is working hard. It does not 
mean there do not need to be improvements, but there should be 
no doubt in anybody's mind that this system is working to 
improve the lives of people who, without any fault of their 
own, have been displaced.
    In addition, it is working hard with youth who face 
extraordinary barriers and it is working hard with 
disadvantaged adults who had a hard time in a full-employment 
economy getting the jobs that they so needed and are having a 
more challenging time now.
    You know that my past has an equal kind of foot in 
education and in workforce, and I think that is exactly where 
we need to be moving forward. The idea that education and the 
credentials that have been associated with the education world, 
both industry-
recognized credentials, associates degree, bachelors degrees 
and beyond, are exactly where the workforce system should be 
leading.
    We should be making sure that when people come to us for 
training, they get a portable credential. That means if they 
have to move for personal reasons, they are equally able to get 
a good job somewhere else because they have a piece of paper 
that is recognized that can qualify them for that job anywhere 
that they go. I think in the reauthorization, it gives us an 
opportunity to make sure we articulate that more clearly.
    One of the things that I think all of us have heard in our 
listening sessions is that in 1998 we wrote a bill that said 
local areas had to partner. In doing that, we did not model at 
the Federal level by our own behavior. One of the commitments 
that I am here to make to you today is, that is going to 
change.
    The Department of Education and the Department of Labor 
already, since my limited time here, April 30, as an advisor to 
the Secretary, have had serious meetings together about how we 
move forward not only on creating new ideas but expanding the 
opportunities that exist now. And I would point to the UI Pell 
Memorandum that went out. We have been working together on 
every piece of information we put out to expand the opportunity 
for unemployed workers to qualify for Pell using their current 
status rather than last year's earnings.
    I hope that as we meet with you over the months to come, 
the list of joint projects that we work on will continue to 
grow, and I know that having Martha here today is a clear 
indication that we intend to work hand in hand on everything 
regarding WIA implementation.
    The Department of Labor does not want to stop with our 
partners at the Department of Education. We want to extend 
that, as things are developing, with our partners at HHS. We 
want to work closely with the Department of Defense, as we are 
looking at bringing more technology into the public workforce 
system, because Defense has been a high watermark in getting 
their soldiers up to speed, allowing them, even in the middle 
of battlefields, to continue their education. We need to learn 
from them as we look for electronic tools to expand 
opportunities for people in the public workforce system.
    We all believe that the dual customer approach is one that 
we should continue, but we should continue to work on it. 
Therefore, you have our commitment that we are going to reach 
out to departments like the Small Business Administration to 
find ways that our One-Stop Centers can provide all businesses, 
but particularly small businesses who hopefully will be the 
engine for job growth in the coming months and years, to 
provide them with the kind of information that would help them 
kind of work through the Federal system the best way that we 
can and help them grow their businesses at an accelerated pace.
    The reauthorization presents us with many things that we 
have heard. We have all heard that the boards need work. We 
need to more clearly define roles of States and local boards. 
We have all heard that the eligibility system is sometimes 
cumbersome and often embarrassing for people to come in and 
bring paperwork to prove that they are poor. My staff has heard 
me say more times than they would care to admit right now that 
someone who is poor should not have to continue to prove it 
time and time again. We need to look at youth eligibility and 
the eligibility criteria for disadvantaged adults to make it 
less embarrassing and more open to those youth and adults who 
need our services so dramatically especially in these times.
    I was a part of this committee and happily a part of this 
committee when we created the Workforce Investment Act, but for 
some reason, misperceptions and misconceptions remain. We never 
intended a sequence of service, and yet too often I hear from 
local areas that people have to go through that sequence of 
service. We need to find a way in legislative language to kill 
that for good, to make sure that we are clear in articulating 
that client needs need to be met without waiting to go through 
undue hardship to get to the gold star of job training. And we 
need to make sure that work first is only an option if that is 
what the client wants. It should not be an operating maxim by a 
One-Stop.
    I think that we have lots of things that we have heard, 
lots of things that you are going to tell us, and we are going 
to look forward to sharing those.
    I end with my commitment to the members of this committee, 
both the members and your staff who have been so kind to me 
since confirming me. You have our commitment for technical 
assistance for working as a team, and I know that Martha will 
echo that as well.
    I look forward to your questions.
    [The prepared statement of Ms. Oates follows:]
                    Prepared Statement of Jane Oates
    Good morning, Chairperson Murray and members of the subcommittee. 
Thank you for extending the invitation to speak with you about the 
reauthorization of the Workforce Investment Act of 1998, or WIA.
    Secretary of Labor Solis has established a goal of ``A good job for 
everyone.'' The reauthorization of WIA is critical to achieving the 
Secretary's goal by helping workers who are unemployed or in low-wage 
jobs find a path to middle class jobs, providing them with the skills 
and knowledge they need to succeed in a knowledge-based economy. 
Helping Americans build the skills to compete for the jobs of the 
future is a top priority of this Administration, as President Obama 
made clear earlier this week when he announced a new initiative to 
transform the opportunities available at our Nation's community 
colleges. The Departments of Labor and Education have also taken steps 
to make it easier for recipients of Unemployment Insurance to seek 
retraining and educational opportunities while the economy recovers.
    Our WIA system has been tested in these harsh economic times. WIA 
One-Stops are welcoming record numbers of your constituents who are 
looking for career counseling, work-related services, and job training. 
With the additional funding provided through the American Recovery and 
Reinvestment Act of 2009 (Recovery Act), we are helping more job-
seekers and workers through the workforce system. For example, in your 
home State of Washington, Senator Murray, Recovery Act funds are making 
it possible to place additional staff where they are needed most to 
provide re-employment services to Unemployment Insurance claimants and 
other job seekers. Beginning in May 2009, 1,500 new computers are being 
installed in job-seeker resource rooms at local WorkSource offices all 
over Washington in order to speed up and improve service to out-of-work 
Washington residents. Also using Recovery Act resources, the State has 
identified over 980 different worksites statewide that will provide 
over 5,000 youth with a meaningful work experience during the summer 
employment program. These worksites include private, public, and non-
profit employers that are giving youth opportunities that will help 
them in choosing a career path in green industries and other high-
demand fields.
    Georgia is using Recovery Act funds to re-invigorate its workforce 
system and serve the large numbers of workers now seeking its services. 
For example, the State is extending the hours of operation at One-Stop 
Career Centers and expanding service capacity through the use of mobile 
units. Georgia is also using Recovery Act funds to provide individuals 
served through the WIA Adult program with additional supportive 
services and needs-based payments for items such as emergency rent, car 
repairs, eye glasses, and other unexpected needs, to help individuals 
remain in the training they need to find a new job.
    In Michigan, an established initiative, ``No Worker Left Behind'' 
combines WIA with other workforce funds to provide any unemployed, laid 
off, or low-income job seekers with 2 years of tuition, up to $10,000 
total, to attend any Michigan community college, university, or 
approved training program after a skills assessment. Participants must 
use the funds to pursue a credential in a high-demand occupation or 
emerging industry or in entrepreneurship. In addition, the funds 
received under the Recovery Act have allowed Michigan to bolster its 
services to Unemployment Insurance claimants. The State has added 
significant numbers of staff to provide career readiness assessments, 
one-on-one career guidance and case management, individual service 
strategies, and referrals to training.
    However, in each case these services are being provided through a 
law enacted over a decade ago, and whose authorization expired in 2003. 
Although there is a widespread consensus that WIA needs to be reformed 
and re-invigorated, past efforts to do so have failed. With a new 
Administration and Congress, we now have an opportunity for a 
successful reauthorization of this important law.
    The Administration supports the reauthorization of WIA. We believe 
WIA reauthorization should create a modernized system that provides 
seamless career advancement services for low-skilled adults, at-risk 
youth, and dislocated workers and others needing employment, training 
and retraining services. This system should embody a dual customer 
approach, which meets the needs of both workers and employers, in 
developing thriving communities where all citizens succeed and 
businesses prosper.
    Our approach will be to reach broadly across multiple departments, 
including the Departments of Education and Health and Human Services, 
to ensure that programs work harmoniously and effectively at the local 
level. For example, we believe customers should be able to access any 
Federal education and training program, as well as education and 
training opportunities provided by community colleges, through the One-
Stop system in a manner that supports the achievement of the 
individual's educational and career goals. Services should be available 
in person as well as virtually, and the system should make the best use 
of technology to reach and serve job seekers and workers. The system 
should be accessible to all individuals with disabilities seeking 
employment and meet their unique needs. Eligibility determination 
processes for the various programs should be simplified and harmonized 
to the maximum extent possible, to ensure that individuals can readily 
access the services they need. The One-Stop Career Centers should be 
able to provide each individual a quick and effective assessment of 
skills and the best plan of services given the customer's interests and 
skill level. Performance measures for accountability should be designed 
to recognize the value-added of services and avoid creating 
disincentives to serve participants who have the greatest need for 
assistance. And performance information on training programs should be 
widely available, so individuals can make informed choices about which 
programs best meet their needs.
    One criticism that we hear repeatedly is that we have asked local 
areas to partner with various stakeholders, and yet inside the Beltway 
we are conducting siloed business as usual. We have already begun to 
address that in our preliminary interagency discussions. I know that 
this Federal-level collaboration will require on-going commitment and 
daily effort. I know that the leadership at the Department of Education 
shares our genuine commitment to a real partnership. Our hope is that 
in working together, we can reduce the burden of duplicative reporting 
for local providers and that we can make real progress toward a 
seamless delivery system at the Federal level.
    We are looking to build on the WIA structure that this committee 
created in 1998, and to make improvements based on the lessons learned 
over the decade of its implementation. We are committed to working to 
support you as you begin the job of drafting that legislation. We hope 
to be a valued partner, and we hope that today will be the beginning of 
a collaborative process that ends with President Obama signing into law 
a re-invigorated WIA that will help put our country back to work.
    This concludes my prepared remarks, and I would be pleased to 
answer any questions you may have.

    Senator Murray. Thank you very much, Secretary Oates.
    Secretary Kanter.

    STATEMENT OF HON. MARTHA KANTER, UNDER SECRETARY, U.S. 
            DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Ms. Kanter. Good morning, Chairman Murray and members of 
the subcommittee. I want to thank you so much for inviting me 
on my 15th day as the new Under Secretary.
    I am delighted to talk about the reauthorization of the 
Workforce Investment Act, having served on the local workforce 
investment board for many years in Silicon Valley.
    The current economic crisis requires us to think both 
strategically and systemically about how we are going to 
recommend to you investing Federal dollars so that the WIA 
programs will help people obtain the skills that are necessary 
for success in post-secondary education and the workforce. I 
have been talking to a number of groups over the last week 
about the interrelationship between work, family, and education 
and also thinking about those interactions across the life of 
individuals who become clients to WIA and then become dually 
enrolled in education and training.
    The Department of Education makes significant contributions 
to the effort through our programs for adult, career, and 
technical education. I think Senator Brown referenced many of 
those great programs. Literacy and English language acquisition 
is a huge portion of what we do, thus the need to collaborate 
and really integrate those programs not only into careers and 
meaningful work, but also into advanced skill levels so that 
individuals can ladder up to better jobs over time. Vocational 
rehabilitation services for individuals with disabilities have 
been a big part of our responsibility, and services for under-
skilled and/or at-risk youth is part of our responsibility.
    So the WIA reauthorization gives us a unique opportunity to 
better align and integrate the WIA programs within and across 
Federal agencies that Jane mentioned, among those HHS, of 
course, Labor being the centerpiece in our first effort here. 
But DOD has curriculum that I think we can take advantage of to 
accelerate learning and success in the workforce. Department of 
Energy, of course, is going to be expanding, and Commerce is 
another one.
    As we look toward reauthorization, we want to really 
integrate all of what we do with Labor and the other agencies 
and also think about the best impact we can have with States 
and localities so that educational and employment outcomes are 
transparent and clear for those that we serve. That was one of 
the first questions I asked coming on board. What are the 
outcomes today and how are we going to measure progress going 
forward?
    We have to integrate adult basic education and workforce 
development more effectively. We have great practices. One is 
in Washington State, the Yakima Valley Community College and 
the South Central Workforce Council, which had been working 
together to enhance adult learners' basic literacy in their 
transition to employment. We have some great best practices to 
build upon. Through this collaboration, the clients who receive 
benefits under TANF, Temporary Assistance for Needy Families, 
are assessed. Those with appropriate skills and interests in 
allied health are referred to a nurse's assistant certification 
training program that the college offers. And this is an 
example of a successful program where literacy training is not 
only contextual but goal-oriented and embedded, integrated into 
career and technical education and employment training. So you 
see that interaction, and that is what we want, that level of 
success for the clients who are also students.
    We have to really identify those best practice models 
through the States across the country so that we can integrate 
career pathways and connect those individuals who are under-
skilled youth and adults and individuals with disabilities to 
the high-growth sectors that Senator Brown mentioned: 
manufacturing; solar is huge and growing; energy and health 
care, the unmet need that, Senator Murray, you talked about.
    We also want to work with the Department of Labor to 
recognize and reward progress on both educational and 
employment outcomes, as I said, and develop integrated or 
linked data systems so that we can measure our progress moving 
forward.
    With the reauthorization, we have an opportunity to 
modernize our literacy training programs, and there are lots of 
great examples that we hope to be able to transfer as best 
practices to programs like the one I served on and the 
community college that I represented for many years. Cutting-
edge technology can efficiently remove barriers and accelerate 
the performance of low-skilled adults as long as the faculty 
are engaged and working with those programs to best educate 
students as quickly as possible so that we can have the goal of 
entering the workforce more quickly and then re-entering when 
jobs change, as they will continue to do.
    We want to talk more specifically about WIA changes, but I 
would like to highlight just a couple of target populations 
that we would like you to consider as the legislation develops.
    The first is youth. Approximately 1.2 million students drop 
out of school each year, greatly reducing their earning 
potential. And the Department of Education considers this 
crisis a high priority, and Secretary Duncan has been talking 
about that as he has gone out to communities across the 
country.
    In the fiscal year 2010 budget request, we support the in-
school program so that we can do a better job of identifying 
the students early, helping them stay on track, and developing 
strategies with labor and the business community, as well as 
community-based organizations so that we can re-engage them 
more quickly. The WIA youth programs are essential to this 
effort. By giving students real-world work experience and 
giving them the skills training and mentors, the youth programs 
can get the youth back on track more quickly so that they can 
graduate and move on to post-secondary education and the 
workforce after graduation.
    We look forward to collaborating with Labor about that, 
especially the under-prepared youth. When we distribute 
employment training funds for summer youth, we would like to 
see education be part of that more integrally. And these are 
the kinds of things that Assistant Secretary Oates and I want 
to work on.
    The second is individuals with disabilities, including 
youth with disabilities. We want to make sure that the One-Stop 
Centers are both prepared to serve those individuals with 
disabilities and are physically and programmatically 
accessible. We have to ensure that the vocational 
rehabilitation system will prepare those individuals with 
significant disabilities--you will see a lot of work in that--
for high-quality employment that is geared to what the local 
workforce needs, suited to those individuals' abilities and 
interests.
    We also want to promote early intervention in the 
transition process so that youth with disabilities can access 
post-secondary education and high-quality employment. Just as 
an example, more than half of the students in post-secondary 
education are working while they go to school. So the models 
really have to change and be more inclusive of both education 
and training along the lifetime of the continuum of earning 
power and lifetimes.
    This will maximize potential for success in a variety of 
careers, self-sufficiency for people with disabilities, and 
independent living, and is going to build upon the foundation 
of the Individuals with Disabilities Act.
    Finally, we want to promote evidence-based practices. That 
is a language that you will see Secretary Duncan and I talking 
about, using research to make decisions that are in the best 
interests of the students/clients to get them into the 
workforce and with the education and training they need and 
really build on the innovation across the country that we are 
seeing in many of the local workforce programs that are 
integrated with the education programs.
    And we would like to find ways to reward States for 
experimenting with new service delivery approaches like Jane 
had mentioned that can be replicated by other States if they so 
wish.
    The last population we would like to keep in mind, as we 
look at WIA and consider changes to the program, are 
individuals with low-English proficiency. About three-quarters 
of adults enrolled in courses to improve their English 
proficiency were found to have low-beginning to low-
intermediate English literacy skills. And I know this. We 
opened up a center this last year and we went from 100 clients 
to 400 in one 3-month period. So the demand is tremendous. I 
think all of these funds can be used in collaboration to 
increase programs that will meet that demand locally. We have 
many, many thousands of individuals striving to integrate into, 
advance within, and contribute to society and economic 
prosperity, but face significant language barriers.
    WIA has been successful on a number of fronts, but 
alignments and outcomes have been inconsistent, and we know, 
working with Jane and the Department, we can do a much better 
job there.
    We have many opportunities to reform WIA, and we have been 
discussing ways to better align our programs, leverage 
resources, and ensure that youth and adults receive the 
services and support they need, whether students are in school, 
out of school, need academic training, need job placement, 
social services, or a combination. And it really has to be 
client-based.
    We look forward to reaching out to the partners across 
various agencies and most prominently Labor and look forward to 
working with Congress and coming back to this committee for 
your guidance and recommendations and bringing to you the best 
of what we have across the country in ways that we can work 
together to really make WIA ready for the next generation, as 
well as getting people back to work right now who need the 
services.
    I will be available to answer any questions and, just 
again, want to thank you for the opportunity to join you this 
morning at my first Senate hearing. Thank you.
    [The prepared statement of Ms. Kanter follows:]
                  Prepared Statement of Martha Kanter
    Good morning, Chairman Murray and members of the subcommittee. 
Thank you for inviting me to speak with you about the reauthorization 
of the Workforce Investment Act (WIA). The current economic crisis 
shows that we must think strategically and systematically about how 
best to invest Federal dollars to ensure that the programs under WIA 
assist people in obtaining the necessary skills to succeed in post-
secondary education and the workforce. The Department of Education 
makes significant contributions to this effort through our programs for 
adult, career and technical education, literacy and English language 
training, vocational rehabilitation services for people with 
disabilities, and services for under-skilled or at-risk youth. The 
reauthorization of WIA provides a unique opportunity to better align 
and integrate programs within and across Federal agencies, States, and 
localities to improve educational and employment outcomes for those we 
serve.
    As we look toward reauthorization, we must continue to recognize 
the interconnection between adult basic education and workforce 
development and provide services accordingly. Many examples exist where 
these goals intersect. For example, literacy training must be 
contextual, goal-oriented, and embedded into career and technical 
education and employment training. We must develop best practices for 
integrated career pathways and connect our under-skilled youth and 
students with disabilities to high-growth sectors.
    One high-growth, high-demand industry toward which programs can 
gear their efforts is healthcare. In California there are a number of 
examples of hospitals and hospital foundations partnering with high 
schools, literacy centers, and community colleges to expand and enhance 
training programs for registered nurses, medical lab technicians, and 
other in-demand healthcare positions. These programs fund more faculty 
as well as tuition, fees, books, and other expenses for students. 
Working collaboratively with the Department of Labor, the Department 
can help ensure that our students get the skills and jobs they need.
    In Illinois, the Instituto del Progreso Latino (IPL) is extending 
its certified nursing assistant program and creating a certified 
medical assistant program in response to the local labor-market demands 
in healthcare. Career pathway programs like the one at IPL link basic 
education funding with projects for academic post-secondary coursework, 
work-specific instruction, hands-on classroom, and worksite training 
supported by others.
    Washington State's Yakima Valley Community College and South 
Central Workforce Council work together to enhance adult learners' 
basic literacy skills and their transition to employment. The project 
assessed clients receiving Temporary Assistance for Needy Families 
(TANF) benefits and referred those with appropriate skills and 
interests in allied health to a nurse's assistant certification 
training program offered by the college.
    The Department of Education also has been working with the 
Department of Labor to address these interconnected goals in other 
areas--for example, in Madison, WI, at Madison Area Technical College 
(MATC), one of five sites participating in the Department's Career 
Connections initiative. MATC, a recipient of a DOL Community-Based Job 
Training grant and a WIRED grant, leveraged these resources to develop 
a ``Prep for Success'' course to promote the success of limited 
literacy students in Lab Animal Caretaker training and to map career 
pathways associated with animal lab science. This collaboration 
provides one clear pathway to move under-skilled adults into post-
secondary pathway programs in high-demand, high-growth industries.
    We must take these pockets of best practices and turn them into 
standard practices to ensure that all students are achieving 
educational and employment success.
    While we will have many opportunities to talk about specific 
changes to WIA, I would like to highlight a few key target populations 
that should be considered as we move forward.
    The first is youth. Approximately 1.2 million students drop out of 
school each year. By dropping out, these students greatly reduce their 
earning potential. The Department of Education has made addressing this 
crisis a high priority by supporting in-school programs to identify 
these students early and help keep them on track, and develop 
comprehensive strategies in partnership with businesses and community-
based organizations to re-engage those who do drop out. WIA Youth 
programs can be key to this effort. By giving students work experience, 
skills training, mentoring--helping them to understand the connections 
between school and post-secondary education and work--WIA Youth 
programs can help get youth back on track and re-engage them in school 
so that they graduate prepared to succeed in post-secondary education 
and the workforce.
    We are collaborating with our Federal partners to support these 
programs in an efficient and effective manner. The Departments of 
Education and Labor have been meeting and discussing ways to align 
programs, leverage resources, and ensure that youth receive the 
services and support they need--whether in school, out of school, 
academic, job training, or social services--or a combination of all of 
these. We intend to reach out to other Federal partners, including the 
Department of Health and Human Services, in these efforts.
    The second group I would like to address is people with 
disabilities, including youth with disabilities. We must ensure that 
WIA One-Stop Centers are prepared to serve people with all disabilities 
and that they are physically and programmatically accessible. We must 
ensure that the vocational rehabilitation system helps to prepare 
people with significant disabilities for high-quality employment, 
suited to an individual's abilities and informed choice and to local 
workforce opportunities. We must also promote early intervention in the 
transition process so that youths with disabilities are prepared to 
access post-secondary education and high-quality employment to maximize 
their potential for successful careers, self-sufficiency, and 
independent living. Investing in WIA services for transitioning youth 
with disabilities will build upon the educational foundation of the 
Individuals with Disabilities Education Act and increase their 
potential for gainful employment and self-support. Finally, we must 
promote activities that foster innovation and evidence-based practices 
and reward States for testing innovative service-delivery approaches 
that can be replicated by other States and service providers.
    The final group I would like to address is those with low English 
proficiency. About three-quarters of adults enrolled in courses aimed 
at improving their English proficiency were found to have ``low-
beginning'' to ``low-intermediate'' English literacy levels. These are 
individuals looking to integrate, advance, and contribute to our 
economic prosperity, but who face a significant language barrier to 
doing so. As we design programs, we must keep this low-English group in 
mind.
    We have many opportunities for reform through WIA. There are a 
number of examples of best practices, but alignment and outcomes have 
been inconsistent. We need to recognize and reward progress on both 
educational and employment outcomes--and we need integrated data 
systems to track our progress as we go. We should also use this 
opportunity to modernize our literacy training programs, using 
technologies not available during the last reauthorization. Cutting-
edge technology can more efficiently remove barriers and accelerate the 
performance of low-skilled adults so they can enter the workforce more 
quickly.
    The Department of Education looks forward to continuing 
collaboration with the Department of Labor and working with Congress to 
ensure that the individuals served by our programs have the skills they 
need to become full and successful contributors to our Nation's 
economy.
    I would be happy to answer any questions you might have. Thank you.

    Senator Murray. Thank you very much to both of you for your 
testimony.
    I appreciate both of you, in your testimony, speaking to 
the need for strong partnerships as we work to make sure that 
our workers of today have the skills they need. Whether it is 
between State or local, private or business, and the Federal 
agencies, everybody has to be working together, and I want to 
talk about that a little bit.
    Before I do that, let me just start with asking each of you 
what the President's vision is for workforce development. 
Secretary Oates, let us start with you.
    Ms. Oates. When I first came on board, Senator Murray, it 
was described to me very briefly that the President is 
responding every day to the crisis that is presented in the 
economy and that he is going to have a multi-pronged approach 
of which WIA reauthorization would be a strong piece. 
Obviously, this week we saw his initiative on community 
colleges which will be another piece of how do we serve people 
better and more efficiently.
    Obviously, Secretary Solis' goal of a good job for everyone 
comes as a sub-message from the President. I think he wants to 
get people back to work. I think he is committed to high-
quality job training. He is committed to doing things that 
align the needs of business and growing business with what we 
are doing with training, and I think we are going to continue 
to see every initiative that comes out in this area being part 
of that multi-pronged approach that he spoke about. I think 
some of the things like the community college piece are better 
articulated right now as there is legislative language on the 
House side. I think that legislation will continue to improve, 
and it will get to its best form when it comes to the Senate. 
That is a little prejudicial statement. There is someone from 
the House probably throwing something at me from behind.
    But I think that we will continue to see innovative 
strategies that will come forward, and I would hope that as 
those strategies are developed now, that the political team is 
in place in each of the Departments and that the political 
teams, as well as the career folks at my Department, as well as 
our sister agencies, will be a part of the development of those 
ideas. And I sincerely hope from the beginning stages this 
committee will be a part of those ideas in the future.
    Senator Murray. Secretary Kanter.
    Ms. Kanter. Yes. I would just add he said--and President 
Obama said it again on Tuesday, and I have been tracking every 
time he makes a statement about having the most highly 
competitive, highly educated workforce in the world. And to do 
that, on Tuesday, he recommended that the community colleges 
specifically graduate 5 million more students in the next 10 
years.
    If you step back from all of that, you will see the 
underpinnings of what we have been talking about that are 
really consistent with that vision and goal, which is to have 
students going through and completing programs, whether it is 
the short-term credential that Jane talked about that is 
employer-based, provided in a community-based organization, or 
whether it is a nursing assistant program that takes a year at 
a community college to get us an industry-recognized, hospital-
approved certificate, all of that training is integrated with 
getting students the literacy levels in science, mathematics, 
and language that are so sorely needed. So the President's 
vision really includes educating everyone and having a vision 
that everyone in America could have at least 1 year of college 
or advanced training.
    So we have to look at this broadly because there are great 
training programs that may be separate from a college or the 
adult ed program in a local high school that are meeting the 
workforce the employer needs--solar tech, inspection, just on 
and on and on. But I think all of that is to say that we have 
to have a more highly trained, highly skilled workforce.
    Education plays a role and Labor plays a central role. The 
business community needs to be part of the conversation so that 
we can move forward and go from 40 percent of Americans, which 
the President has said, who have baccalaureate degrees to 60 
percent. I came back from UNESCO 2 weeks ago, and Canada has 51 
percent of baccalaureate degreed students, individuals across 
the country, and we want to go better. We want to have as 
highly trained, highly skilled workforce as we can, and the 
credentials and degrees and certificates are measures of that 
level of training.
    So we are thrilled to be working on that agenda. It is 
extremely difficult. It is very ambitious. But I do think it is 
possible.
    Senator Murray. How do you envision the Department of 
Education and the Department of Labor working together on this?
    Ms. Kanter. Well, first of all, we will have regular 
meetings. We are looking at principles that each other is 
working on now that we would be bringing back to this 
committee. So integrating the policy proposals and our thinking 
about really doing a review of everything that we can do 
together and what more we can do with what we have. So I have 
been looking at the outcomes of adult learners and literacy 
levels and how many people have GEDs and what jobs would they 
be ready for. And Labor looks at what jobs are out there and 
what are the specific skills and training that those 
individuals need, and we need to marry that.
    So I do not know if you want to add anything.
    Ms. Oates. Let me give you a very specific example. I think 
Martha is exactly right. We have a literacy problem in this 
country, but right now in our current system, you either go for 
adult literacy or you go for job training. That has to be 
changed immediately, and I-BEST does that very well.
    I also think we have to change remedial education because I 
think that--and again, this is my foot in your door, and I am 
sorry, but I know we agree on this. We cannot say to someone 
who wants to be a nurse and goes to a community college and 
finds out that it is going to take him or her 2 years of 
remedial work before they can take a course that bears credit. 
They are going to lose their taste for nursing. We have to 
figure out ways together to integrate the contextualized 
skills, that you need in the area that you want to be trained 
in, with adult basic ed.
    If you need to learn sight vocabulary and you want to be a 
nurse, there is no reason that your sight vocabulary cannot be 
related to the medical profession. We have done that in so many 
instances in pockets of excellence. We need to do that across 
the country. And I think we do it with a 55-year-old worker the 
same as we do it with an 18-year-old potential worker.
    Senator Murray. Specifically on health care, some Labor 
programs or Education programs are overseen by HHS, Health and 
Human Services. How can we help better align those so that we 
are not fighting with each other, but we are all working 
together?
    Ms. Oates. I will start and give Martha a chance to catch 
her breath.
    I think the first thing is in performance measures. I think 
that there are clear performance measures that we could agree 
to. I think far too many people at the local area are wasting 
their time answering a question one way for me at Labor, 
another way for Martha at Education, and another way for Mary 
Wakefield at HRSA. I think that is a real problem. We cannot 
afford in this economy or ever to waste people's time doing 
duplicative, redundant paperwork. So I would say that 
performance measures are a real way that we could do that and 
reporting requirements.
    I think we can also make sure that we are getting the best 
geographic spread on what we are doing. I think we all know--I 
just came from New Jersey--in every State there are high 
performers, people that go after grants from Labor and are 
successful, and the same people go after grants from Education. 
So they have $3 for every dollar that they need, and they serve 
the people. And do not get me wrong, but we are leaving other 
community colleges and other community-based organizations out 
of the mix because they cannot compete with the star in their 
State. And all of us are hit with scarce resources. So 
oftentimes we will not fund more than one program in a certain 
geographic area.
    We need to work together and create a real scatter map 
about where in States have we not penetrated at all with 
innovative ideas and training. And then we need to agree that 
we would work with those folks to build their skills. Whether 
they are in urban or rural areas, suburban areas, it does make 
a difference. How do we build their skills so that they can 
write more competitive grants? And none of us are putting 
really any time into that right now.
    Senator Murray. I am way over my time, but Secretary 
Kanter, if you want to just add a----
    Ms. Kanter. Well, I would just add that the integrated data 
systems are really essential. So your guidance in terms of 
working with States to link up with Federal data that is 
already being reported, already being used, that we can better 
align. It would be a major investment in infrastructure, but 
would be of tremendous benefit to everyone at the local level 
who are doing the intakes and doing the tracking and 
performance measures on the clients going through whether they 
are in education at a community college, in a local community-
based organization over at the Department of Labor. Maybe it is 
a person with disability receiving VR services. And all of that 
integration is duplicative. So I agree with what Jane said.
    The other thing I would add is that the standards for 
this--what are the expectations we want for different sectors 
of the clients we serve and how quickly can we accelerate. So 
your support for innovation and transferring those best 
practices to the programs that desperately need more of those 
would be of great value to us.
    Senator Murray. Thank you very much.
    Senator Isakson, we will turn it over to you.
    Senator Isakson. Thank you, Chairman Murray.
    I have a question for both of you. I was really pleased to 
hear Secretary Kanter talk about evidence-based decisions. One 
of the biggest battles of the last reauthorization of WIA was 
the flexibility at the local level to a certain degree, and the 
way we solved that was with five demonstration projects for 
States, one of which was Georgia, out of which the One-Stop 
shop emerged.
    I just wanted to ask both of you if you recognize the 
importance of allowing some levels of flexibility at the State 
level to encourage innovation and development of new programs 
rather than a central government-down approach?
    Ms. Oates. Senator, I think we need to let the States have 
room for innovation, and I think we need to listen so that 
every State does not have to necessarily re-invent the wheel. I 
think we have done far too little sharing within States and a 
much worse case of sharing State to State. We need to make sure 
that the innovative room that we give States produces lessons 
learned that we then share, and I think both our Departments 
are committed to doing a better job on that.
    But I think we would all be in line with you that it is not 
a cookie cutter. Georgia is not New Jersey or Massachusetts or 
Washington State, and we need to make sure that we recognize 
the uniqueness of each of the States and allow them within a 
parameter of accountability. I know that you mean that as well. 
We need to keep them accountable to whatever measures you are 
going to develop in the new reauthorization, but we do not need 
to tell them how to get there.
    Ms. Kanter. I would just add. I was speaking yesterday to 
about 100 people who represent State higher education 
officials. These are the people that run the higher education 
coordinating councils across the 50 States. One gentleman stood 
up and said that 10 States had already agreed to look at common 
standards for career and college readiness. I think that is 
going to be essential going forward so that, for example, high 
school graduation means that you are ready for this level of 
career and you are ready for this level of college, instead of 
the variation that we have. So I was encouraged that States 
already are working together in new collaborative ways, and I 
think that is an area where the Federal Government can 
encourage that.
    Each State is going to have its own unique culture and 
history and will have its own best practices. Some may be 
easily adopted. Others may not. So I think we have to look 
State by State and really see where can we have the greatest 
impact at this level, and of course, me being new to this whole 
environment, really trying to figure out how can the Federal 
Government be the most effective, have the most impact, and 
part of that is really looking at what is evidence-based and 
how are we using these grant funds, these Challenge Grants, and 
all of the other programmatic ways that we can encourage 
innovation, how can we then deploy that into delivery models 
that will both streamline service to the customers and get more 
people educated and into better and better careers going 
forward.
    Senator Isakson. Thank you.
    Secretary Oates, the most compelling and delightful 
statement you made in your prepared remarks was about the dual 
customer approach of those who seek employment as well as the 
employers. Although I am reticent to bring this up with Senator 
Brown in the room, I am going to go ahead and do it anyway 
because it is a testimony to exactly what you said.
    NCR recently decided to move to Georgia, and I was asked to 
speak to their executives this past Sunday at Georgia Tech. 
They were having a symposium. One of the things that our State 
developed through its adult and technical education was a quick 
start program where they guarantee training of employees which 
ultimately is on the location of an ATM and kiosk construction 
facility, that was the deciding factor for the move to 
Columbus, GA for that facility.
    It was the exact reason why this interagency cooperation is 
so important because you want to help people get jobs, but you 
have to have those who train people for jobs a part of the 
program and the needs of the employer to be part of it.
    So I commend you on that, and I will take any comment you 
might have about it.
    Ms. Oates. Well, the only comment I would make, Senator, is 
that you and every Senator on this subcommittee and the full 
committee hold me accountable to that because if in a year I 
cannot give you new things that we have done to get information 
out to all of our One-Stops about how to improve the dual 
customer approach, then I should not have this job.
    Senator Isakson. Secretary Kanter, last question real 
quickly. You talked about individuals with disabilities twice, 
which I really appreciate you doing because there are two 
things I think we need to look at.
    First, is making high-tech assistance available to people 
with disabilities. There are a lot of people with disabilities 
who are employable with assisted technology, and that gets 
missed. There are a lot of things they could do with a computer 
for people with MS, people with any number of very restrictive 
afflictions, but they can be contributors to society. So that 
is one area.
    The second area is the public transportation mechanisms in 
each of the States, particularly in the major urban centers, 
because one of the most difficult problems for a person with 
disabilities to be employed is transportation. And the 
development of van pools and things of that nature, to be able 
to get a person with a disability to work and back again, is an 
important part of interagency cooperation and workforce 
development.
    So I would just encourage both of you to consider when you 
are talking about interagency cooperation, do not forget those 
catalysts for public transportation. Where it is available, it 
can make a big difference.
    Thank you, Madam Chairman.
    Senator Murray. Thank you very much, Senator Isakson.
    Senator Brown.
    Senator Brown. Thank you, Madam Chair.
    I thank you both for your willingness to serve and your 
willingness to take on these immense challenges in very 
difficult times. This job is harder perhaps than when you first 
thought about it.
    Just really one question, but I will sort of flesh out for 
both of you your thoughts about it. The ARRA money for 
workforce investment--the legislation that is coming up with 
reauthorization and the dollars that will come with that--how 
do you see the whole--I talked about the Sectors Act that 
several of us are working on. How do you see the sector-based 
strategies fitting into our workforce system? Just give me more 
details about how you think that works. How do we provide the 
right incentives to existing workforce investment boards, to 
employers, to unions, to community colleges, to other 
institutions of higher learning to put together these sector 
approaches?
    Ms. Kanter. One thing that we are emphasizing--and I think 
you will see it in a lot of the language that is coming out in 
various proposals--is partnerships among the sectors for 
improving workforce training, education, and placement into 
jobs, and then together, tracking outcomes and hopefully 
simplifying the processes to do all of that.
    But I think when we encourage collaborative proposals and 
Challenge Grants or in special initiatives, that we are getting 
people to the table that may have had a sector missing 
especially, for example, Senator Isakson mentioned the 
vocational rehabilitation. You see in the One-Stops some great 
examples of where vocational rehabilitation is actually seated 
at the table in the One-Stop, and that is so helpful in terms 
of streamlining access for students, making sure the 
transportation is there, and really focused around getting that 
individual to that next level of success, whether it is 
directly into a job, whether it is training and a job at the 
same time at an entry level, or laddering up with literacy 
skills and other things, child care and other things that that 
individual may need.
    So I think it is really a question of how we are going to 
work together in designing all of the implementation programs 
to build upon these pots of funding, whether it is ARRA or the 
new initiatives that the President mentioned on Tuesday for 
community college Challenge Grants, or WIA, which is the 
subject of this great hearing that I am learning so much in.
    The other thing we want to do is really work together on 
who is at the table in workforce investment. Do we have the 
community colleges represented on the workforce investment 
boards? Are the partners, are the sectors of health care and 
manufacturing and energy represented, those business leaders 
locally? And I think we have great experts here to testify on 
who is at the table and how they are working together.
    But really, those would be my two suggestions going forward 
on things that we could really do to ramp up.
    Senator Brown. Madam Secretary.
    Ms. Oates. Senator, the Recovery Act certainly gave us an 
area to start with and that is green jobs. We certainly are 
putting out grants now and looking at, cross-sector, what is 
green.
    Some of the innovative things that States have done even 
with summer youth to get kids focused on a sectoral approach, 
some again in green, some in allied health, some in the 
education sector, all areas, we hope, of continued growth--but 
Labor has to do a better job of getting sectors together at a 
national level so that we can press down some of the 
information to a local level.
    If a sectoral approach is going to be the way we go--and I 
think actually it has tremendous promise--we need to make sure 
from the beginning the varied business components of that 
sector are together with the varied educational components, 
starting with high school and working through graduate school, 
to not only articulate their immediate needs but articulate 
their future needs as the sector grows and expands.
    But it is not a one-time meeting, and that is somehow 
difficult for our system. We think we have a meeting and we 
check off the box. It is, indeed, a different kind of 
partnership where planning and implementation and evaluation 
all have to be done collaboratively. Whether it is the new 
manufacturing, whether it is green, whether it is health care, 
we have to make sure that we are incenting those kinds of 
discussions, continuous discussions, so that the sectoral 
approach is the embodiment of continuous improvement linking 
employer needs with educational needs on not only the short-
term basis but longer-term as well.
    I would throw out there we need line workers in 
manufacturing, but we also need engineers. And you are going to 
be able to train a line worker in 6 months to a year, thanks to 
terrific apprenticeship programs that are operating and 
adapting all the time. An engineer--there is really no way to 
cut that any shorter than an engineering masters or a bachelors 
degree. And we do not want to truncate that. We want someone to 
have the full credential.
    So we are going to need advance notice on those things, and 
I think the sectoral approach is the one way we do have that 
continuous and ongoing conversation.
    Senator Brown. Thank you, Madam Chairman.
    Senator Murray. Thank you very much.
    I have a number of questions I am going to submit to you. 
We do have a large panel. I want to get to them. I just want to 
ask two follow-up questions and turn to Senator Isakson.
    I have heard you, Secretary Kanter, this morning, as well 
as the President, talk about the goal of 1-year post-secondary 
education for everyone. For most of us, we think a 2-year 
degree, 4-year degree. But it also means other credentials, a 
certificate, a license, a journeyman's card. Can both of you 
tell me how your Department defines post-secondary education?
    Ms. Kanter. Well, we have been talking about--actually in 
the international community, they use the word ``tertiary'' 
because what that means is that you could get an apprenticeship 
training, you could become a journeyman, and that would qualify 
for what we call post-secondary education. So I think the 
language of how we talk about advanced training--I have been 
using the word advanced training after high school, hopefully 
leading to the credentials that Jane talked about, the 
certificates of achievement which are typical for community 
colleges across the country. That is generally a year you 
become an automotive technician, a lab tech, a biotechnician, 
and so forth, and then moving up to get the associates degree, 
the baccalaureate degree, and so forth. But we are looking at 
advanced training broadly. I think that is the basic point.
    And there are many sectors within the educational 
community, whether it is at a community-based organization, a 
public community college, or a private school to provide the 
training. We want to make sure that the quality assurance is 
there. So these are high-quality training programs that lead to 
jobs that employers have ready so that we can put people into 
those jobs and they are ready for them.
    We will be glad to work with the Department of Labor on 
clarifying language that you may be requesting.
    Ms. Oates. And we want to make sure that it is seen as a 
step. So, therefore, if you get a credential, that does not 
mean that you are finished, that you move on to an associates 
degree and a baccalaureate degree. But we think, too rarely 
people who stay for a semester or two contiguous semesters do 
not get anything to prove that they have achieved a level of 
learning. As Martha said in her testimony, more than half of 
the people going to post-secondary education, what we would 
have considered community college or a 4-year college, now are 
working almost full-time. So we should give them something to 
improve their status in the workforce.
    Obviously, for us it is apprenticeships, as well as 
everything else. We are going to promote that and getting 
better articulation on new--in the area of the manufacturing 
sector--getting new credentials. This committee's early work 
with the National Skills Standards Board, which did not get 
where this committee ever intended it to be, did great 
groundbreaking work. It just did not get to the finish line. We 
need to get sectors to complete that work. I do not know how we 
do it without a money incentive.
    But I hope that we can do it because there are folks who 
are really talented who could take that talent, what they are 
learning in an apprenticeship program and translate it, where 
appropriate, to credits toward an associates degree. And we 
should be doing that more and more.
    In my own house, we should be doing it more in programs 
like Youth Build and Job Corps and our apprenticeship programs, 
but more broadly, we should be encouraging things like dual 
enrollment in high schools. I know Martha cares deeply about 
that and community colleges. So more kids can graduate with not 
only their high school diploma, which is so critical, but also 
an advanced certificate.
    Senator Murray. Let me ask one final question about a 
population I care deeply about, our veterans. A number of men 
and women who are coming home have suffered both visible and 
invisible wounds of war and will need additional support to get 
the necessary skills to move into the workforce.
    Can you tell me, are both of your Departments willing to 
work with the Department of Defense and Veterans Affairs to 
make sure that we are coordinating systemwide for these young 
men and women? Not for this morning, but I would like both of 
you to get back to me about how you think we can be more 
responsive to that population in the WIA legislation.
    Ms. Kanter. Yes. I can just say that we have had a number 
of meetings with the Veterans Administration, specifically 
around Federal student aid and how veterans are moving through 
that system when they come back to get education and training. 
So we look forward to more conversations in that regard. We 
want to get everybody back to education and work.
    Ms. Oates. We have begun to get our One-Stop operations 
aware of the servicemen opportunity colleges so that they can 
make sure that they have that information. The Veterans 
Administration does a wonderful job, but it is a place where we 
do need redundancy. We need to make sure, no matter which door 
a returning veteran comes in--because so many now that are 
called up to active duty are from places like the National 
Guard that do not get the same careful attention from the 
military that their full-time veterans would get. So we are 
trying to do more, but Senator, this is an area where we are 
never going to do enough.
    Senator Murray. We have a lot of work to do. There are a 
lot of Veterans who have skills they earned in the military 
that do not count towards traditional business credentials. So, 
you both know, this is a conversation I am going to continue to 
have with you.
    I thank both of you. We will have questions that will be 
submitted for the record for you. And we need to be done by 
noon today, so I am going to move our next panel up. But thank 
you, both of you.
    With that, I ask the second panel to move to the witness 
table. As they do that, I want to describe how this very large 
panel is going to work this morning.
    Each panelist will have 5 minutes to respond to two 
questions that the committee has asked them. The first one is 
what each of them believes works and should be preserved and 
refined in the current workforce system, and what should be 
eliminated.
    As a former preschool teacher, I know when to stop talking 
and wait for everybody to sit down.
    [Laughter.]
    All right. I will again tell everyone that what we have 
done here is asked each one of the panelists to respond to two 
questions. The first one is to respond to what they believe 
works, how should it be preserved and refined, in the current 
workforce system and what should be eliminated. Second, what 
innovative policy recommendations they would offer to modernize 
WIA.
    After the panel completes their remarks, we will have the 
opportunity to ask questions. Additionally, I would just let 
the witnesses know that, although we do have a short amount of 
time, if you would like to respond to any of our questions, 
please let us know and we will try and do that within a timely 
amount of time.
    I am going to introduce the panelists. We have Clyde 
McQueen, currently President and CEO of the Full Employment 
Council in Kansas City, MO. Michael Thurmond, Commissioner of 
the Georgia State Department of Labor. Rick Bender, President 
of the Washington State Labor Council in Seattle, WA. Dr. 
William Kiernan, Director of the Institute for Community 
Inclusion, and Research Professor in the graduate college of 
education in the McCormick School of Policy Studies at the 
University of Massachusetts in Boston. Mary Sarris is the 
Executive Director of the North Shore Workforce Investment 
Board. Kathy Cooper is Policy Associate with Washington State's 
Office of Adult Basic Education, and Stephen Wing is the 
Director of Workforce Initiatives for CVS Caremark.
    Thank you to all of our panelists for joining us today. We 
look forward to hearing your remarks, and Mr. McQueen, we are 
going to begin with you.

  STATEMENT OF CLYDE McQUEEN, PRESIDENT/CEO, FULL EMPLOYMENT 
                    COUNCIL, KANSAS CITY, MO

    Mr. McQueen. Good morning, Madam Chairman and members of 
the committee. Again, I am pleased to be here to address the 
reauthorization of this important piece of legislation.
    The Full Employment Council serves as the One-Stop operator 
and fiscal agent for the Kansas City Vicinity and Eastern 
Jackson County Workforce Investment Boards in Missouri. The 
regions served by these two policy bodies cover 2,700 square 
miles with over 1 million people. We have the largest city in 
the State, Kansas City, MO, and we have one of the smallest 
counties which has 20,000 people in population.
    The current unemployment rate of the city of Kansas City, 
MO is 11.6 percent. In the five-county region, the unemployment 
rate is 9.6 percent.
    Our workforce system has dealt with the ups and downs of 
the economies in four basic ways. First, we have been conveners 
of partnerships that produce results for workers and employers. 
Second, we have been a catalyst for workforce innovation. 
Third, we have been leaders or providers of workforce 
information to determine where the jobs are for people and 
where the people are for emerging employers. And finally, we 
have been career navigators for disconnected youth, dislocated 
workers, and low-income families.
    The local workforce system enjoys an excellent partnership 
with organized labor, working with the Greater Kansas City AFL-
CIO and its president, Bridgette Williams, which has led to the 
creation of a locally funded pre-apprenticeship training 
program called Project Prepare. This serves as a training 
effort for low-income women, minorities, and youth to enter 
apprenticeships in skilled areas. This partnership has led to 
the creation of a local workforce ordinance that establishes a 
First Source program targeting KC, MO residents as a first 
choice for city construction jobs. It establishes goals for 
women and minorities on construction projects and establishes a 
construction workforce board to oversee the program. This 
partnership has also worked with the local fire fighters union 
and the machinists union who are being impacted by the 
downsizing of the local overall base.
    The system has sector partnership with the Kansas City 
Metropolitan Healthcare Council that has generated over $2 
million in public and private funding to reduce the shortage of 
nurses in the greater Kansas City region. Through this 
partnership, the number of nursing students increased by 30 
percent, or 300, in a 2-year period.
    The Kansas City system established a partnership with 10 
regional economic development agencies to form the first 
regional business retention council in the State of Missouri. 
The BRC in their last 2 years has assisted 367 companies and 
saved or added 837 jobs in the process.
    Our local education partnerships in the region exist with 
community colleges, vocational schools, universities, and 
proprietary schools to establish just-in-time, on-demand 
training programs to serve businesses and job seekers more 
effectively in the region. The local system works in 
partnership with the State education agency to certify and 
fast-track training courses to meet the immediate regional 
skill requirements on a bi-State basis that are needed either 
because of economic expansion or economic dislocation in the 
area.
    We also work as career navigators as we determine career 
pathways for disconnected youth, low-income adults, and 
dislocated workers. This has been a major focus of the KC local 
workforce system, and more recently a partnership of the 
workforce investment board, the Kansas City public library, and 
the Kansas City Parks and Rec Department will lead to the 
development of a 20,000 square foot, $3 million green facility 
that will host a youth career center and the Black Archives of 
Mid-America.
    ARRA stimulus funds were used to provide youth summer 
internships, and $1,000 scholarships after the end of their 
summer job to attend a community college or vocational school 
or a $500 book scholarship to attend a university of their 
choice, if they desire.
    In addition, over five different course offerings have been 
developed that combine education, work readiness, skill 
training in each career area.
    The One-Stop concept has been the local focal point for the 
coordination of the workforce system, creating opportunities 
and leveraging funds and programs with one WIB member 
contributing over $2 million in a 20-year period.
    WIA can be reformed by reducing board size, to reducing 
mandated public sector representation, requiring local 
partnership agreements only with systems that contribute to the 
local workforce system, reducing youth eligibility requirements 
to encourage system utilization by at-risk, disconnected youth, 
improving State and Federal MIS systems to effectively capture 
real-time system productivity, and review performance metrics 
to encourage incentive systems to low-skill populations, and 
discourage low-cost programming that leaves low-income, basic 
skill-deficient populations behind.
    An innovation fund could be locally budgeted to encourage 
local program innovation.
    A training ``smart pass'' that facilitates client referral 
of persons presently in HUD, HHS, or DOL programs who are 
economically disadvantaged and seek training services.
    And finally, a stand-alone summer jobs career intern 
program focused on 16- to 24-year-old youth in post-secondary 
skill areas.
    Thank you very much.
    [The prepared statement of Mr. McQueen follows:]
                  Prepared Statement of Clyde McQueen
    Good Morning, Madam Chairman and members of the HELP Committee.
    My name is Clyde McQueen, and I have the privilege of serving as 
the Chief Executive Officer of the Full Employment Council, the 
Regional workforce agency for the city of Kansas City, MO, and the 
surrounding counties of Jackson, Clay, Platte, Cass and Ray. This area 
covers 2,700 square miles with a population of 1,091,900 in urban, 
suburban, and rural areas.
    I am fortunate to be representing the Kansas City Region, where 
business, organized labor, community and governmental leadership forge 
local partnerships to assist its citizenry. I have served in my career 
as an Economic Development Administrator, a State Workforce Development 
Director, and Regional Workforce Chief Executive, during every economic 
downturn that has occurred since 1978.
    I am honored that the Senate has asked me to speak on the 
Reauthorization and Modernization of the Workforce Investment Act, as 
we face unprecedented challenges and opportunities to develop the 
skills of our workforce to compete in the global marketplace of the 
21st Century.
    In serving this diverse Region of major corporations, small 
businesses, Adults in Career transition, or Youth beginning their 
career journey, the Kansas City Regional workforce system has achieved 
significant successes. These accomplishments have occurred as the 
Kansas City Regional workforce system has been:

    <bullet> Conveners of results-oriented partnerships.
    <bullet> Catalysts for innovative workforce strategies that serve 
growth industries and generate financial support.
    <bullet> Strategic leadership for the compilation and distribution 
of real-time workforce information.
    <bullet> Career Navigators steering through career pathways for 
Disconnected Youth, Low-Income Adults, Dislocated Workers and other Job 
Seekers in their search for meaningful careers and family-supporting 
incomes.

    This bi-state Region is home to General Motors (Chevy Malibu 
production), Ford (Escape & F-150 truck production), Harley Davidson 
(V-Rod production), Garmin (GPS production), H&R Block Corporation, 
Cerner (medical records technology), Hallmark Cards and Sprint. There 
are at least 24 hospitals and innumerable nursing home facilities in 
the area. The most current May 2009 Regional rate of unemployment is 
9.6 percent and the city of Kansas City's unemployment rate is 11.6 
percent. There are 21 school districts, two State community college 
systems, and two major State university systems.
                an exemplary organized labor partnership
    The Organized Labor partnership is crucial to the local workforce 
system in the Kansas City region. We have achieved success with 
results, by working closely with the Greater Kansas City AFL-CIO, and 
its President, Bridgette Williams, in developing local workforce 
projects and programs. This partnership has led to the development of a 
pre-apprenticeship program, ``known as Project Prepare,'' administered 
jointly by the Greater Kansas City AFL-CIO and the Full Employment 
Council. This program targets low-income women, minorities and youth 
for apprenticeship opportunities in the various construction trade 
unions. We also work closely with the Heavy Highway Constructors 
Association, the Builders Association of Kansas City and the Mechanical 
Contractors Association. This initiative facilitated the creation of a 
Workforce Ordinance that established a First Source agreement, in which 
Kansas City residents are given the first opportunity to apply for jobs 
created by city-funded or tax-abated construction. In addition, it sets 
goals for hiring women and minorities for all construction trades and 
apprentice programs. This ordinance provides oversight by a city-
appointed Construction Workforce Board that recognizes superior 
performers in this effort, as well as levies sanctions for non-
compliance.
    Project Prepare has also been effective in working with the Local 
Firefighter's Union to recruit and screen potential applicants to be 
trained as cadets for the city of Kansas City, MO, as well as the city 
of Independence, MO Fire Departments.
    This organized labor partnership has also been effective in working 
with employers and their workforce(s) impacted by the economic 
downturn. An example of that partnership includes the workers of the 
Machinists Union impacted by the American Airline Overhaul Base 
downsizing at the Kansas City International Airport. In the previous 4 
years, these reductions which have impacted at least 1,000 employees, 
the Kansas City Workforce System has worked efficiently with labor/
management transition teams to provide on-site services for Union 
members. These services have included the hiring of Union peer 
counselors; the establishment of on-site computerized resource rooms to 
facilitate easy access to career center services; the implementation of 
``Fast Track'' entrepreneurial training programs; and the 
implementation of on-demand training for emerging growth industries. 
Dislocated Union workers can access the bi-state individual training 
account system (ITA) to access multiple training options at community 
colleges, universities, vocational schools, and proprietary training 
institutions.
    This partnership has received over $400,000 in support from the 
city of Kansas City; $200,000 in support from the Missouri Department 
of Transportation; and significant in-kind support from various 
construction trade unions. This partnership has also led to community 
dialogue between the unions, construction contractors, city 
administrators, community residents, and the Workforce System, and 
resulted in developing a common vision and approach for addressing 
training and workforce needs in the construction sector, as well as 
other skilled occupations.
   sector partnership: healthcare/workforce system increases nursing 
                      students and nurse educators
    The Kansas City Regional Workforce System, in collaboration with 
the Kansas City Metropolitan Healthcare Council, has generated over $2 
million in public and private funding to reduce the shortage of nurses 
in the Greater Kansas City Region; increase the number of nurse 
educators; and increase the training capacity of local schools, 
community colleges and other secondary educational institutions.
    This local Workforce System/Healthcare partnership led to the 
development of a Nurse Preceptor Academy that provide mentors for new 
nurses and nursing students; provides financial support to nurses 
pursuing masters' degrees to become nurse educators through a $500,000 
privately funded bi-state scholarship program administered by the Full 
Employment Council; and establishes a bi-state workforce system 
protocol that governs how Missouri and Kansas Workforce Systems 
interact with Missouri and Kansas Hospital programs in the Region 
bordering the State Line. This partnership also increased the number of 
nursing students by 30 percent or 300 nurses.
    This close association with the Healthcare industry also led to the 
first Healthcare online training program in the Region through Truman 
Medical Center (Kansas City, Missouri's public hospital), where 
licensed practical nurses are trained to become registered nurses on 
the hospital premises by Excelsior College of New York. Tuition costs 
are funded equally by the Kansas City Workforce System and Truman 
Medical Center. This online training program reduces the impact of 
childcare and transportation expenses on trainees; increases the number 
of registered nurses at the public hospital; and significantly 
increases the wages of training graduates.
      successful board member partnerships lead in support of the 
                            workforce system
    Great Plains Energy/Kansas City Power & Light has maintained a 
successful workforce partnership with the Workforce Investment Board 
over a span of 20 years. Initially, this partnership was established to 
provide summer interns to KCP&L's facility, but has now evolved to 
placing persons in their plant operations, such as utility linemen and 
responding to other career opportunities resulting from retirements and 
transitioning of an aging workforce, and implementation of ``Green'' 
technologies. In addition to utilizing the career center system for its 
corporate workforce needs, Kansas City Power & Light has been a 
financial supporter of the local Workforce Investment Board, providing 
over $2 million in private funding to support career center programs. 
Kansas City Power & Light's Senior Vice-President and Corporate 
Secretary, Barbara Curry, also serves as Chairperson of the Workforce 
Investment Board. Great Plains Energy/KCP&L has been the community 
leader in Workforce/Economic Development partnerships.
    The Board members of the Kansas City/Eastern Jackson Workforce 
Investment Boards have created the opportunity for the local workforce 
system to innovate, and move beyond traditional workforce approaches. 
Strategies working with Organized Labor; linking with Economic 
Development entities; developing sector-specific initiatives with 
manufacturing, healthcare, and bioscience training; developing 
innovative training course design and delivery; and innovating fund 
development are driven by the Board members who have created 
opportunities within their own organizations, affiliates, or 
organizational peers.
            locally appointed business-led workforce system
    The appointment of a Local/Regional Workforce system by local-
elected officials has increased Workforce System responsiveness, 
resulting in a more user-friendly Workforce System that meets business 
and job seeker needs, as determined by the Board of their respective 
Regions. As mentioned previously, the Full Employment Council serves as 
the One-Stop Operator/Fiscal Agent for two Workforce Investment Regions 
that border each other, yet are unique in their constituent and 
employer market. These Boards incorporate similar, but distinct job 
training approaches, yet have reduced operational/administrative costs 
by using the same operational entity. These Boards, in partnership with 
their local-elected officials, have effectively determined structure 
and service delivery, budget, strategic priorities, and board size.
    This approach has generated substantial local financial support, 
and reduced duplicate workforce systems in two regions.
 educational partnerships for just-in-time/immediate response training
    In the Kansas City Region, we have formed partnerships with 4-year 
colleges, vocational schools, proprietary schools, Job Corps and 
community colleges to develop a just-in-time/immediate response/
credentialed training system. The foundation of the partnership is the 
Missouri Department of Secondary and Elementary Education retained by 
the Workforce Investment Boards to verify and certify the curriculum 
and training to be provided by potential training vendors. DESE 
approval is necessary before training can be assessed by job seekers 
enrolled in the local Workforce System. This system enables the Kansas 
City Region's job seekers to access training programs that cover both 
Missouri and Kansas, including its eight county areas, as long as the 
programs meet DESE criteria. Training Providers include proprietary 
schools, community colleges, vocational schools, universities and 
private training establishments.
    The timeframe of semester-based skill training has become 
increasingly incompatible with the quarterly business cycles of 
employers or the fierce velocity of global competition. Utilizing only 
semester-based training compromises the ability to be proactive in 
meeting workforce needs required by economic expansion, or respond to 
sudden economic dislocation. Therefore, the Region has prodded training 
providers to create more on-demand and just-in-time training courses to 
respond to the ups and downs of Regional economies.
    The Metropolitan Community College of Kansas City responded by 
reorganizing its administrative structure to provide immediate response 
to on-demand/customized training needs. This realignment has led to 
immediate response training courses in Advanced Manufacturing, 
Certified Medication Technician, and Welding, to name only a few.
    The University of Central Missouri based in Warrensburg, MO, with 
local branches in the Region, has responded by providing on-demand 
courses in Healthcare, Weatherization, Warehouse/Supply Chain and 
Customer Service careers.
    In March 2009, the University of Kansas responded by initiating a 
course in Bioscience Technician training. Vocational and proprietary 
schools have other job-
related fields. This diverse and growing menu of on-demand training in 
the total post-secondary training structure increases responsiveness to 
Job Seekers and Employers.
 economic development partnerships that help existing businesses to be 
                 retained or to expand in their region
    Economic Development Partnerships are necessary to provide 
assistance to businesses to keep them in the area, or help them to 
expand. The Full Employment Council served as the catalyst to form a 
Regional Business Retention Council, whose sole purpose is to assist 
existing businesses in Retention and/or expansion efforts. The Council 
is comprised of the Economic Development Partners on the WIB, as well 
as those in the Region.
    The Business Retention Council (BRC) is a diverse conglomerate of 
Economic Development agencies in the Region that includes:

    <bullet> The Economic Development Corporation of Kansas City;
    <bullet> Clay County Economic Development Corporation;
    <bullet> Lee's Summit Economic Development Corporation;
    <bullet> Independence Council of Economic Development;
    <bullet> Blue Springs Economic Development Council;
    <bullet> The Liberty Partnership for Growth;
    <bullet> The Greater Kansas City Chamber of Commerce;
    <bullet> Richmond Chamber of Commerce;
    <bullet> Grandview Chamber of Commerce; and
    <bullet> Grain Valley Economic Development Corporation.

    Members of the Business Retention Council make on-site visits to 
existing businesses to determine their needs in workforce, financing, 
marketing, etc., and begin immediately to accommodate their requests. A 
Business Retention Coordinator hired by the Full Employment Council, 
serves as the primary contact for the Economic Development Agencies and 
coordinates the total Workforce System support to the client businesses 
in this effort.
    In the last 2 years, over 367 businesses have been provided support 
and 837 jobs have been retained or added through this effort. Funding 
to support this effort for the upcoming year has been provided by the 
Governor's 15 percent fund, and the American Recovery and Reinvestment 
Act (ARRA) Stimulus fund.
    Another critical support agency has been the Manufacturing 
Extension Partnership (MEP), a program funded by the U.S. Department of 
Commerce in all 50 States, to provide technical support to 
manufacturing companies to increase their efficiency, and market 
penetration for their products. Missouri Enterprise, the State of 
Missouri's MEP program, has provided technical support to over 50 
companies identified through the Business Retention Council in areas of 
business, such as Energy and Efficiency audits and Supply Chain 
analysis. This technical support is highly valued by companies assisted 
by the Business Retention Council.
  the kansas city workforce system as a ``career navigator'' through 
    career pathways for disconnected youth, low-income adults, and 
                           dislocated workers
    The Full Employment Council has been a catalyst in facilitating and 
developing career pathways and employment opportunities for 
economically disadvantaged/disconnected youth through enrollment in 
universities, community colleges, vocational/proprietary schools, and 
apprenticeship programs. The Workforce Investment Board has introduced 
the 21st Century Workforce Scholarship program to provide tuition 
scholarships in healthcare, manufacturing, and bioscience careers. The 
Kansas City Region sponsored the ``Dream It Do It'' campaign to promote 
manufacturing careers as viable options for young adults and 
successfully raised the visibility of manufacturing careers.
    In addition, the Workforce Investment Board has led local efforts 
to promote youth employment policy and programs designed to facilitate 
employment opportunity and work advancement. In September 2009, a 
partnership of the Full Employment Council, Kansas City Public Library, 
Kansas City Parks and Recreation Department; and Black Archives of Mid-
America will open a 20,000-square foot LEED-certified ``Green'' 
facility. This facility will house an education and resource facility 
highlighting the historical accomplishments of African-Americans in the 
Midwest, and a Youth Opportunity Career Center focusing on education 
and career pathways for Low-Income/Disconnected Youth.
    This $2.5 million historic facility is locally funded, but was 
initially seeded through $300,000 in grants leveraged by the Workforce 
Investment Board. This center is adjacent to the Negro Leagues Baseball 
Museum and the American Jazz Museum in the 18th Vine Street Historic 
Jazz area. This focus on post-secondary training opportunities and 
careers for youth was further re-inforced in the Summer Job Program 
funded through the American Recovery and Reinvestment Act. Each high 
school or GED graduate that successfully completes the 8-week summer 
internship will be provided a $1,000 scholarship to attend a vocational 
school or community college, or a $500 book scholarship to attend a 4-
year institution.
    The Kansas City & Vicinity Workforce Investment Board has been a 
programs catalyst and convener in developing career pathways for low-
income populations such as Project NOW (New Opportunities for Work.) 
The Missouri Career Center worked with the University of Central 
Missouri and Metropolitan Community Colleges to develop training 
courses that combined basic education course work to increase basic 
skills or GED certification; skill training courses to acquire a 
specific skill credential; and career readiness skills that emphasize 
teamwork, conflict resolution, and problem solving. These courses were 
provided at accessible community training sites or at local career 
centers. These training formats have increased the participation of 
basic skill-deficient clients and high school dropouts in job-skill 
training programs. This has led to the development of an entirely new 
design of coursework for basic skill-deficient persons in customer 
service, warehouse/supply chain management; certified medical 
technician; certified nurse assistant careers; and will lead to more 
and a greater variety of career pathways.
         the local workforce system as an ``innovation system''
    Innovation, entrepreneurship, workforce development and resource 
leveraging are critical in order for the Workforce System to become a 
catalyst and convener as has been outlined. The 501c3 status of the 
Workforce Investment Boards, and Full Employment Council as the One-
Stop Operator, provides the ability to leverage local public and 
private resources as it mobilizes the region to move forward with 
different workforce approaches not readily available as an option for 
governmental agencies, primarily due to the preference of philanthropy 
to support non-profit agencies. This organizational framework has 
resulted in 91 percent of the prototype programs undertaken, attracting 
private funding and local government financial support. The governor's 
15 percent reserve has been the primary seed funding in the majority of 
these special initiatives because of its spending flexibility. This 
``demonstration'' funding is critical to spurring new program design 
and innovation in the local workforce system.
                       the one-stop career center
    The One-Stop Career Center concept has also been an organizational 
platform that has led to resource sharing; better job seeker and 
business access to program services; and workforce and labor-market 
information sharing that enables the local system to more effectively 
serve job seekers and employers. This co-location and enhanced customer 
information function helps career counselors to use more accurate/real-
time job market data to assist job seekers in making informed training 
and career choices. Simultaneously, the assimilation of data relating 
to the skill, work histories, and training options of career center job 
seekers is of major strategic importance to employers as they determine 
how to meet their workforce requirements in the region.
                          green job innovation
    The Kansas City & Vicinity Workforce Investment Board has launched 
a number of Green Career initiatives as a result of receiving ARRA 
Stimulus funds. Working in partnership with the Metropolitan Energy 
Center and the University of Central Missouri, the first curriculum for 
career pathways for green jobs was established in the Kansas City & 
Vicinity Workforce Investment Board Region. This initial career pathway 
begins as a Weatherization Technician; transitions to an Energy 
analyst; and culminates in an Energy auditor. The first 12 graduates of 
this program as Weatherization Technicians graduated in June 2009, and 
10 of them have secured employment in the field. The Metropolitan 
Community Colleges in Kansas City, MO have also initiated a number of 
new course offerings in Green Careers that will become a part of their 
on-demand course offerings. Across the State Line at Johnson County 
Community College in Kansas, an Energy Auditor Certification Training 
program has been in existence for over a year.
    The Full Employment Council is also a Training Agency Designee for 
the Green Impact Zone, a special impact area of the 5th Congressional 
District, which targets 150 blocks of an area with some of the highest 
numbers of unemployment, poverty, and distress in the area. The zone 
will have a targeted focus on resources from job training, to housing, 
to transportation in a focused effort to reduce unemployment and 
economic decline. The Full Employment Council will be a part of the 
Community Impact Team to provide intensive assistance to this area.
    Despite the success enjoyed by the Local Workforce System, there 
are areas of the law that must be changed or eliminated:

    1. Public sector board membership must be reduced unless the local 
board determines it is a strategic value.  Mandated public appointments 
increase Board size to sustain a business majority, and make quorum 
requirements difficult to achieve.
    2. Mandated local partnerships must be eliminated unless the non-
WIA partner also contributes funds to the Local Workforce System.  
Presently, the partnership agreements as configured, place all 
accountability and funding on the Local Workforce System and minimal 
reciprocal accountability from the non-WIA partner.
    3. Youth eligibility requirements must be minimized to increase the 
services to youth most in need (Low-Income and other barriers to 
employment). However, local options for determining eligibility, such 
as documentation from a TANF agency or Food Stamp entity could be a 
substitute for income information verified through check stubs.
                   innovation-policy recommendations
    1. A local innovations budget. To support maximum 2-year programs 
or projects that creates, enhance or expand training options/results 
for Low Wage Workers, Disconnected Youth, as sector-based training. The 
objective would be to increase training participation, require wage 
gains in target populations, or market penetration in specific industry 
sectors.
    2. Establish a training ``Smart Pass.'' To be used to facilitate 
the referral and enrollment of Economically Disadvantaged clients 
presently participating in HUD, HHS, or other DOL programs that are 
seeking training services. An Electronic Referral from these agencies 
would satisfy eligibility and audit requirements for the WIA Program, 
for enrollment or referral to appropriate workforce programs.
    3. Establish a stand-alone Career/Internship/Summer Jobs program. 
Primarily for 16-24-year-old youth, focusing on subsidized employment 
experience that leads to a GED/H.S. diploma; enrollment into community 
college, vocational school, a 4-year institution with certificate 
programs; enrollment into an apprenticeship or employment. This 
internship could be available anytime during the year for an 8-12-week 
period.
    4. Adopt measures that reflect job placement, retention, earnings, 
and credential attainment. Discourage measures that encourage low 
investment approaches or discourage serving hard-to-place clients.
    5. Funding to reflect the reality of a ``Global Skills 
Competition''. The United States must skill up its Youth and Adult 
populations at an accelerated rate to compete in the world market, and 
to make the economic adjustment necessary to arm large and small 
business with a skilled and agile workforce. This became evident to me 
as I looked at the formula budget that was provided to our Region for 
PY2009, leading to a 12 percent decrease in our formula funds. This 
decrease was offset by our ARRA budget, which provided needed relief to 
meet the 400 percent increase of clients in our system. However, it was 
unsettling that in a time when our unemployment rate is 10 percent in 
Kansas City, the highest recorded in 25 years, that without ARRA, our 
budget would be cut by 12 percent. I would recommend some type of 
budget ``fail safe'' mechanism that would act similar to the 
unemployment insurance mechanism that would trigger training fund 
budget authority when severe economic downturns occur.

    In addition, employment and training budget authority has remained 
the same since I made the transition to the Workforce Development 
System from Economic Development more than 26 years ago, while its 
purchasing and programming ability has been severely diminished by the 
tremendous tuition increases in the post-secondary training system. We 
must strive for a target budget allocation of between $7 billion to $9 
billion to compensate for this erosion of purchasing power to the 
system.
    In closing, I appreciate this opportunity afforded to me to be here 
today and look forward to working with you to increase the skills of 
our workforce in the present and future.

    Senator Murray. Thank you very much.
    Mr. Thurmond.

    STATEMENT OF MICHAEL L. THURMOND, COMMISSIONER, GEORGIA 
                DEPARTMENT OF LABOR, ATLANTA, GA

    Mr. Thurmond. Thank you, Madam Chair. Thank you for the 
opportunity to testify. I would also like to thank Senator 
Johnny Isakson, a longtime colleague, a former member of the 
Georgia House of Representatives, and a longtime friend and 
supporter of our workforce development efforts in the State of 
Georgia.
    I am convinced that the philosophy and the funding provided 
by WIA can be leveraged to provide critical employment and 
training opportunities to the millions of unemployed and under-
employed Americans today.
    Since the mid-1930s, jobless Georgians applied for 
unemployment benefits and searched for jobs in unemployment 
offices whose design and function reflected Depression era 
realities. Delivery of employment services to job seekers was 
fragmented and confusing because employment services were 
provided based on siloed Federal funding streams.
    The enactment of the Workforce Investment Act in 1998 
provided an unprecedented opportunity for State and local 
jurisdictions to develop a more coordinated and efficient 
workforce development system.
    The Georgia Department of Labor embraced the letter, the 
philosophy, and the spirit of this legislation, and with 
bipartisan support, we began to design and implement a fully 
integrated, comprehensive State workforce development system. 
Our primary objective was the coordination of five major 
employment and training and income-support programs: the 
Wagner-Peyser Act, ES, Unemployment Insurance, Vocational 
Rehabilitation, and subsequently, the Workforce Investment Act.
    The Workforce Investment Act encouraged service integration 
between several federally funded employment and training 
programs via a One-Stop Career Center network. Energized by the 
flexibility afforded by this act, the State of Georgia charted 
a new course focused on improving the quality of service to our 
primary customers, job seekers, employers, and economic 
developers. Georgia's new workforce development system was 
designed to serve a diverse and dynamic customer base, as 
evidenced by our adoption of a universal access policy. A 
strategic commitment was made to ensure that all persons, 
including those with disabilities, would have equal access to 
employment, education, and training resources.
    Significant investments were made to strengthen the 
technological and programmatic linkages between WIA, ES, UI, 
and VR programs. The foundation of our system is comprised of 
three components: a statewide network of One-Stop Career 
Centers and satellite sites; an interactive technological 
infrastructure; and professionally trained customer-focused 
staff. Although still a work in progress, Georgia's workforce 
development system is at the forefront of our State's efforts 
to help the more than 480,000 Georgians who are unemployed 
today get back to work.
    Georgia's WIA-inspired One-Stop network is a cornerstone of 
our system. Investments were made not just by the Labor 
Department, but by WIA partners as well to establish this 
important technological network. Our network consists of 46 
full-service designated One-Stops and scores of additional 
service access points. As a result, Georgia now has a statewide 
system of clicks and bricks, offices, career centers where 
unemployed or employed Georgians come to seek service, as well 
as Internet access.
    The transformation of our department unemployment offices 
would not have been possible without the support and 
unprecedented financial assistance provided by our State WIA 
board. More than $2.5 million was appropriated to help 
transform 32 of our 53 unemployment offices into designated 
One-Stops. The others now serve as affiliate satellite One-
Stops. Over $2 million was invested in One-Stop grants to 
technical colleges, libraries, homeless shelters, and 
transition centers to ensure democratic and easy access to all 
of our citizens.
    My key concern today is that we must finally fully fund 
employment services of the Wagner-Peyser Act. More than 80 
percent of the Georgians who access employment and training 
services through our career centers are served through the 
Wagner-Peyser program. In Georgia, we provide an administrative 
assessment that supplements Federal funding, but the Federal 
funding is much too small.
    I would also encourage us to expand our summer and youth 
employment programs where a key focus of those employment 
programs would be increasing graduation rates. Our Jobs for 
Georgia Graduates program had a 95 percent high school 
graduation rate this past year.
    And finally, this. Thank you for your help in refunding the 
summer youth program. In Georgia, 10,000 young people are 
working and drawing a paycheck today because of your vote and 
support.
    And thank you, because I myself--prior to WIA, there was 
something called JTTA, and I served in a summer youth program. 
I was one of those disadvantaged kids who drew my first 
paycheck through a summer youth program. And my daughter, who 
is now a sophomore at the University of Georgia--I still show 
her my first pay stub. There is something about a job. You get 
one job. You seek another one, and more importantly, you seek 
another one that pays a higher salary than the previous one 
that you had.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Thurmond follows:]
               Prepared Statement of Michael L. Thurmond
     Thank you Madam Chair, Senator Murray, Ranking Member Senator 
Isakson, and members of the Subcommittee on Employment and Workplace 
Safety, for the opportunity to present testimony on how the Workforce 
Investment Act (WIA) of 1998 served as a catalyst for the design and 
implementation of a comprehensive workforce development system in 
Georgia. More importantly, I am convinced that the philosophy and 
funding provided by WIA can be leveraged to provide critical employment 
and training services to millions of unemployed and under-employed 
Americans.
    Since the mid-1930s, jobless Georgians applied for unemployment 
benefits and searched for jobs in ``unemployment offices'' whose design 
and function reflected Depression Era economic realities. Delivery of 
employment services to jobseekers and employers was fragmented and 
confusing, because employment and training programs were ``siloed'' by 
Federal funding streams.
    The enactment of the Workforce Investment Act in 1998 provided an 
unprecedented opportunity for State and local jurisdictions to develop 
a more coordinated and efficient workforce development system. WIA 
provided for enhanced emphasis on customer choice, customer 
satisfaction, blended funding streams and integrated service delivery.
    The Georgia Department of Labor (GDOL) embraced the WIA philosophy 
and letter of the legislation, and began the design and implementation 
of a fully integrated, comprehensive, State workforce development 
system. Our primary objective was the coordination of four major 
employment, training and income support programs: Wagner-Peyser Act, 
Employment Services (ES), Unemployment Insurance (UI), Vocational 
Rehabilitation (VR) and subsequently, the Workforce Investment Act.
    The United States Employment Services program was established under 
the Wagner-Peyser Act in 1933 to help millions of jobless Americans 
find work during the Great Depression. Two years later, the 
Unemployment Insurance program was enacted to provide temporary income 
support for unemployed workers. The Vocational Rehabilitation program 
was originally intended to help disabled World War I veterans find 
work; however its mission was broadened in 1920 to include all persons 
with disabilities.
    The Workforce Investment Act of 1998 encouraged service integration 
between several federally funded employment and training programs, via 
a One-Stop Career Center network. Significantly, the American Recovery 
and Reinvestment Act of 2009 (ARRA) provides an unprecedented 
investment of Federal dollars in America's workforce development 
system.
    Energized by the increased flexibility afforded by WIA, the GDOL 
charted a new course focused on improving the quality of service to our 
primary customers--jobseekers, employers and economic developers. 
Georgia's new workforce development system was designed to serve a 
diverse and dynamic customer base as evidenced by the adoption of a 
``Universal Access'' policy. A strategic commitment was made to ensure 
that all persons, including those with disabilities, would have equal 
access to employment, education and training resources.
    Significant investments were made to strengthen the technological 
and programmatic linkages between the WIA, ES, UI and VR programs. The 
foundation of Georgia's workforce development system is comprised of 
three components: (1) a statewide network of One-Stop Career Centers 
and satellite sites; (2) an interactive technological infrastructure; 
and (3) professionally trained, customer-focused staff. Although still 
a work-in-progress, Georgia's workforce development system is at the 
forefront of our State's efforts to address the economic challenges 
associated with the current recession.
                         laying the foundation
One-Stop Career Center Network
    Georgia's WIA-inspired, one-stop network is the cornerstone of 
Georgia's workforce development system. Significant investments were 
made by GDOL and WIA partners in the establishment of a statewide 
network of One-Stop Career Centers. The network consists of 46 full-
service designated one-stops and scores of additional service access 
points. As a result, jobseekers, employers and economic developers have 
greater access to a variety of employment services and related 
information.
    Subsequent to the passage of WIA, a strategic decision was made to 
merge all existing GDOL offices into Georgia's one-stop system. The 
form and function of the department's 53 ``unemployment offices'' were 
redesigned and re-branded as GDOL Career Centers. Dull, depressing 
offices are being transformed into spacious, brightly colored, high 
tech, high touch One-Stop Career Centers.
    The transformation of the department's ``unemployment offices'' 
would not have been possible without the support and unprecedented 
financial assistance provided by Georgia's local WIA boards and staff. 
More than $2.5 million were appropriated by 11 WIA areas to help 
underwrite the cost of retrofitting GDOL-operated one-stops. Local WIA 
boards selected 32 of GDOL's 53 Career Centers as designated one-stops, 
while the remaining department offices serve as satellite one-stops. 
Over $2 million in WIA one-stop grants were also awarded to technical 
colleges, libraries, nonprofit organizations, homeless shelters, 
transition centers and mobile service units to finance the development 
of an electronic network of satellite one-stops throughout the state.
    The WIA philosophy of cooperation, service integration and blended 
funding streams also played a key role in Georgia's decision to utilize 
UI administrative assessment funds to offset longstanding Wagner-Peyser 
budget shorts. State law provides that 8 percent of UI employer taxes 
can be invested in helping UI claimants get back to work quickly. In 
fiscal year 2009, more than $25 million were appropriated to finance 
the hiring of career-center job developers, counselors, administrative 
personnel and other employment-related services.
    Multi-agency partnerships are playing a key role in providing 
support services and connecting customers with employment and training 
resources. The location of local agencies and non-profit service 
providers in GDOL Career Centers has increased access and improved 
service delivery to our customers. An abbreviated listing of our one-
stop partners includes: The Technical College System of Georgia, Local 
WIA partners, Experience Works, AARP, Economic Opportunity Authority, 
Job Corps, Meals on Wheels, Adult Literacy, Georgia National Guard, 
Disabled American Veterans Administration, Community Council on Aging, 
Fatherhood Initiative, Georgia Department of Family and Children 
Services, Homeless Advocacy Organizations, and Telemon Corporation.
Technology
    Prior to the passage of WIA, Georgia utilized a Management 
Information System (MIS), to capture related customer data and 
employment and training activities. The system was not Web-enabled, 
which allowed users access on a limited system network. Although 
federally compliant in all areas, the MIS system allowed only for data 
collection and reporting, that was restricted to the varying funding 
silos.
    The WIA mandated greater coordination and unified data collection 
by key workforce system partners. Accordingly, GDOL developed a more 
comprehensive data system known as the Georgia Workforce System (GWS). 
This web-enabled system encompasses data collection, storage and 
reporting capabilities for WIA, UI, and Wagner-Peyser services. Web 
access introduced enhanced remote participation in the system. 
Consistency in the method of collection, data type and reporting 
outcomes was significantly enhanced, along with shared use of 
information between funding silos and programs. State staff provided 
training to local and State workforce partners upon GWS deployment, 
with written guidance on new features and developments as needed.
    The Georgia Workforce System (GWS) was developed in a Web-enabled, 
browser-based environment with reporting capability for WIA, ES, UI and 
VR. Customers provide basic demographic information once and 
comprehensive records are built, maintained and accessed throughout the 
service continuum. Data is housed in a relational database with the 
capability of interfacing with external systems.
    System components include: a common intake system for key programs 
to facilitate the collection of customer information; assessing 
customer needs and tracking services and outcomes; system storage of 
basic demographic data, including work history, individual assessments, 
case management, employment plans and information, documenting the 
delivery of other services. An eligible provider list and consumer 
report card system required by WIA includes information about and 
access to service providers. Management and reporting modules enable 
local WIA agencies to meet Federal requirements for performance 
accountability as well as the production of quarterly and annual 
reports. An employer information system also enables GDOL staff and 
partners to document employer services, coordinate job development 
visits and provide relevant employer information.
    GDOL serves a growing number of customers through its Web site 
(www.dol
.state.ga.us) by offering over 800 electronic pages of employment and 
training information, including a variety of online services, forms, 
publications, and links to additional resources. GDOL also 
electronically advertises job fairs, employer seminars and other 
events. Additionally, the department provides easy access to a variety 
of labor market resources and information for businesses.
    A major effort was made to increase accessibility for Georgians 
with disabilities by continually improving and expanding our Web-based 
services. The Georgia Rehabilitation Online Works (GROW) system allows 
staff to provide enhanced case management services to customers with 
disabilities. This electronic system creates a record of seamless 
service delivery to a targeted population. In addition to case 
management, GROW documents assessments, disability determinations, 
referrals to other partner agencies, service outcomes and follow-up.
    The GWS is supported by trained professional staff that provide 
daily support and technical assistance on data management and reporting 
issues. The State also provides local systems with critical performance 
tools, including WebFOCUS software, through which standard and ad-hoc 
data queries help local systems track and manage customer activities 
and outcomes. Flexibility of the GWS is evidenced by the recent and 
expedient alterations necessitated by the American Recovery and 
Reinvestment Act of 2009. The GWS will serve as the primary means to 
document the services and positive impacts of Georgia's ARRA 
activities.
Human Capital
    The successful implementation of WIA is dependent on the 
development and enhancement of professional workforce development 
staff. Dedicated staff, empowered to build partnerships with other 
agencies and employers, are a key component of a successful workforce 
development system. Considerable education and training investments 
were made to encourage GDOL employees to embrace the holistic 
philosophy of integrated service delivery. To achieve this goal, 
extensive statewide and local training, including cross-training among 
agencies and partners, was developed and provided to all professional 
staff.
    Ongoing training is conducted to ensure that workforce staff is 
able to effectively navigate and help jobseekers, employers and 
economic developers utilize the system. Our comprehensive training 
program includes: new staff orientation, customer service training, 
college intern program, International Association of Workforce 
Professionals, Georgia Rehabilitation Association, Executive Commitment 
to Leadership program, education assistance program, Georgia Workforce 
Conference, Georgia Safety Conference, and the Georgia Employer 
Committee Conference. In-service training is provided to address 
diversity, use of workforce information and technology, problem 
solving, and marketing of department services.
    In 2007, the department launched a Learning Management System which 
houses the on-line GDOL Learning Center. The Learning Center provides 
24/7 universal access to ``knowledge repositories'' which enables 
employees to receive ``just-in-time'' training necessitated by changing 
marketplace conditions. Self-directed training empowers all employees 
with the ability to develop and manage personal learning plans designed 
to enhance competency in leadership development, customer service, 
technology skills and workforce information. This strategy has helped 
eliminate departmental ``training silos'' and created a unified 
``learning community'' for the department and partner agencies. The 
Learning Center is fully accessible for persons with disabilities who 
utilize assistive technology devices.
                         the service continuum
    Georgia's workforce development system provides jobseekers and 
employers with a continuum of services that can be customized to meet 
individual needs. The three phases of the continuum are: (1) Core 
Services, (2) Intensive Services, and (3) Training. Support and 
assistance are provided based on a triage approach that enables staff 
to direct customers to appropriate employment and training resources. 
Core services are available to customers through self-service and/or 
staff-assisted support.
Self-Directed Core Services
    Self-directed services include: online filing for UI, free Internet 
access, job listings, copiers, telephone, fax machines, resource 
personnel, language services, language line, forms and other 
publications, e-mail, resume software, on-line job applications, word 
processing, books and videos, clothes closet, kiddie corner, labor-
market information, career counseling, comprehensive assessments, 
testing, workshops on job interviewing, resume writing, job search, 
negotiation and conflict resolution, case management and specialized 
workshops for veterans, persons with disabilities and rehabilitated ex-
offenders.
Intensive Services
    Intensive services are highly structured and offered to customers 
who have significant barriers to employment. Services include 
comprehensive assessments, adult basic education, internships, 
intensive job search, supportive services, trade adjustment assistance, 
etc. These services are designed to address targeted populations with 
specific barriers to employment, such as rehabilitated ex-offenders, 
Temporary Assistance for Needy Families recipients, dislocated workers, 
youth, veterans, homeless individuals, vocational rehabilitation, non-
custodial parents and unemployment claimants.
Training Services
    Training programs help jobseekers who require skill development or 
enhancement services in order to qualify for new employment 
opportunities. Services may include occupational skills training, on-
the-job training, entrepreneurial training, job readiness training, 
customized training, adult education, etc.
Services for Employers
    Employer services include: designated employer interviewing space, 
recruitment, screening, interviewing, job order taking, referral of 
jobseekers, UI seminars, access to Internet, fax, employer committees, 
seminars on immigration law and workplace safety.
                                summary
    Georgia's strategic decision to design and implement a fully 
integrated, comprehensive workforce development system has been 
effective in helping unemployed Georgians return to work. The Georgia 
Department of Labor and our workforce partners were successful in 
helping 295,231 jobseekers return to work between July 1, 2007 and June 
30, 2008. Although our State, like much of the Nation has been hit hard 
by the current recession, 66 percent of those who registered with the 
department secured employment. Of those who secured employment, 80 
percent were still working 6 months later.
    The Georgia Department of Labor and our State workforce partners 
have received numerous awards and citations including: the American 
Institute Full Employment Award, the National Foundation for 
Unemployment Compensation & Workers Compensation's J. Elred Hill, Jr. 
Award, USDOL's Large States Awards for Performance Excellence in Tax 
Operations and Performance Excellence in Appeals Decisions, Letter of 
Commendation from Region 3 Employment And Training Division, 
Outstanding Performance Award from the Federal Bonding Program and 
national honors for helping non-custodial parents, TANF recipients and 
rehabilitated ex-offenders find employment.
    The Georgia philosophy of workforce development is simple: WIA, UI, 
ES, VR and other employment and training partners must work together to 
ensure that jobseekers, employers and economic developers receive the 
highest quality of service. More importantly, we are proud to be part 
of a national workforce development system that is focused on helping 
unemployed Americans get back to work.
                            recommendations
    The following WIA modernization recommendations are submitted for 
your consideration:

    1. A top priority for WIA reauthorization should be clearly 
defining the purpose and mission of the Wagner-Peyser ES program. The 
Employment Services program should be fully funded because it is the 
backbone of America's workforce development system. Incentive funding 
should be made available to States and local jurisdictions to encourage 
multi-agency service delivery and coordination.
    2. National Youth strategy should emphasize partnering with State 
and local dropout prevention programs, such as the highly successful 
Jobs for America's Graduates (JAG) Program. Georgia is a proud 
affiliate of the JAG program that emphasizes education, training and 
career preparation as a dual track for high school students. Notably, 
participants in Georgia's 2008 JGG senior class achieved a graduation 
rate of 95 percent, 20 percentage points higher than the State's 2008 
graduation rate!
    3. Invest unspent ARRA stimulus funds in the development of a 
national Transitional Jobs Program for WIA, ES, VR and UI customers 
that will stimulate private sector job creation and hiring. Georgia 
Works is a transitional jobs program that allows UI claimants to 
receive 8 weeks of on-the-job training while continuing to receive UI 
benefits. During its 6-year history, 60 percent of the trainees have 
been hired prior to the expiration of their training period.
    Thank you for your service to America, and for your time and 
attention.

    Senator Murray. Thank you and thank you for that 
endorsement. I worked very hard to get that into the economic 
recovery package. Rahm Emanuel still does not look at me 
without going, I know, summer jobs. So I appreciate that 
endorsement. Thank you.
    Mr. Thurmond. Thank you so much for what you did.
    Senator Murray. You bet.
    Mr. Bender.

STATEMENT OF RICK S. BENDER, PRESIDENT, WASHINGTON STATE LABOR 
                 COUNCIL, AFL-CIO, SEATTLE, WA

    Mr. Bender. Thank you, Madam Chair and members of the 
subcommittee, for the opportunity to testify on behalf of the 
AFL-CIO, including the more than 400,000 union members I 
represent, on how best to streamline the decisionmaking process 
involved with the Workforce Investment Act.
    Washington State is proud to be in the forefront of 
innovation and accountability for our Workforce Training and 
Education Coordinating Board, of which I am a labor board 
member. We have transformed our system to work for the economy 
and the labor force.
    Other States are in the process of copying our success, and 
we hope this committee will recognize the value of what we are 
doing and incorporate it for the Federal system and for the 
success of students, job seekers, workers, and employers 
nationwide.
    I am excited to tell you about Washington State and what we 
are doing, but first I want to talk about the core components 
we believe must be in place in order to make any workforce 
board function at its best, including: first, a publicly 
operated employment system; second, adequate funding for worker 
training which includes adults, youth and dislocated workers; 
and third, equal representation on State and local WIA boards 
between business, government, and labor.
    A publicly operated employment security program is the glue 
between education, industry, and worker retraining.
    Only government systems can achieve statewide and Federal 
policy integration, as well as equitable distribution of 
resources.
    The second pillar, funding for adult, youth, and dislocated 
worker training is imperative. Job market upheaval requires us 
to get more training services to more participants. We must 
cast a wider net to get all workers the help they need.
    Last, State and local WIA boards must have equal 
representation between business, government, and labor. The 
financial meltdown revealed a system that relied too heavily on 
only one of the three pillars of our society. Chaos ensued. 
Workforce investment cannot tilt the balance of power toward 
business, nor can it tilt toward government or labor. For 
everyone to be truly vested, it must be an equal partnership.
    In Washington State, we have that balance and it is working 
extremely well. Our State board has nine members: three from 
labor, three from business, and three from government. We 
believe this model is what makes us stand out across the Nation 
and has been the reason for our success.
    We developed a road map in Washington State to create a 
high-skilled, high-wage workforce by the year 2018, and I have 
a copy of that for the committee. (See www.hecb.wa.gov/
research/Issues/documents/documents/HighSkillsHighWages-WTB-
2008.pdf.)
    But before this, there was no systemwide accountability for 
workforce development in Washington State. Every program was 
separate. We could not collect consistent data from agency to 
agency. Some programs did not even look at what happened to 
their participants once they left. There were no guides for 
improvement. Now all this has been changed in Washington State.
    We have implemented our Performance Management for 
Continuous Improvement program, PMCI. This systemwide framework 
provides us increased accountability, improved strategic 
planning, more efficient use of resources, and a sense of 
shared responsibility among workforce development programs.
    These changes improve the credibility of our programs, 
enhance the support they receive, and increase our ability to 
service the customers.
    I will submit a more detailed account of the PMCI system in 
my written testimony, but the bottom line is that this system 
works in Washington State.
    The system helped us build programs that work for students, 
adults, and industry, and I would like to give you three 
examples.
    For students, navigation 101. It is a life skills planning 
program for students in grades 6 through 12. It aims to help 
students make clear, careful, and creative plans for life 
beyond high school while involving both teachers and parents.
    For adults, we implemented the I-BEST program. This program 
combines adult basic education, reading, writing, and 
arithmetic, with job skills training.
    And for industry, we have created skill panels to identify 
and close worker skill gaps in industry sectors. It allows 
partners to anticipate and respond effectively to industry's 
changing workforce needs.
    These programs are just a sample of the achievements we 
have made through accountability and by listening to each 
other's needs. We have a strong public overseer in the 
Employment Securities Department, and we have equal 
representation between business, government, and labor.
    We have learned to work within our means through 
accountability, but I have to stress the importance of Federal 
funding in this endeavor. We suffered many setbacks during the 
last Administration, but now because the job market is changing 
so rapidly, funding is more crucial then ever. We must invest 
in our workforce to keep America safe, secure, and productive.
    Thank you.
    [The prepared statement of Mr. Bender follows:]
                  Prepared Statement of Rick S. Bender
    My name is Rick Bender and I am President of the Washington State 
Labor Council, AFL-CIO. Thank you, Ms. Chairwoman, and members of the 
subcommittee, for the opportunity to testify on behalf of the AFL-CIO 
including the more than 400,000 union members I represent on how best 
to streamline the decisionmaking process involved with the Workforce 
Investment Act.
    Washington State is proud to be in the forefront of innovation and 
accountability for our Workforce Training and Education Coordinating 
Board, of which I am a labor board member. We have transformed our 
system to work for the economy and the labor force.
    Other States are in the process of copying our success and we hope 
this committee will recognize the value of what we are doing and 
incorporate it for the Federal system and the success of students, 
jobseekers, workers and employers nationwide.
    I am excited to tell you about what Washington is doing, but first 
I want to talk about the core components we believe must be in place in 
order to make any workforce board function at its best. Including:

    <bullet> First, a publicly operated employment system.
    <bullet> Second, adequate funding for worker training which 
includes adults, youth and dislocated workers.
    <bullet> And third, equal representation on State and local WIA 
boards between business, government and labor.

    A publicly operated employment security program is the glue between 
education, industry and worker re-training.
    Only government systems can achieve statewide and Federal policy 
integration--as well as equitable distribution of resources.
    The second pillar, funding for adult, youth and dislocated worker 
training is imperative.
    Job market upheaval requires us to get more training services to 
more participants. We must cast a wider net to get all workers the help 
they need.
    Last, State and local WIA boards must have equal representation 
between business, government and labor. The financial meltdown revealed 
a system that relied too heavily on only one of the three pillars of 
our society. Chaos ensued. Workforce Investment cannot tilt the balance 
of power toward business--nor can it tilt toward government or labor. 
For everyone to be truly vested, it must be an equal partnership.
    In Washington State, we have balance and it is working extremely 
well. Our State board has nine members--three from labor, three from 
business and three from government. We believe this model is what makes 
us stand out across the Nation and has been the reason for our success.
    We developed a roadmap in Washington to create a high-skilled, 
high-wage workforce by 2018. And we created the accountability to get 
there.
    Before this, there was no systemwide accountability for workforce 
development. Every program was separate--we couldn't collect consistent 
data from agency to agency. Some programs didn't even look at what 
happened to their participants once they left. There were no guides for 
improvements. Now all this has changed.
    We have implemented our ``Performance Management for Continuous 
Improvement'' program (PMCI). This systemwide framework provides us:

    <bullet>  increased accountability,
    <bullet>  improved strategic planning,
    <bullet>  more efficient use of resources, and
    <bullet>  a sense of shared responsibility among workforce 
development programs.

    These changes improve the credibility of our programs, enhance the 
support they receive and increase our ability to serve customers.
    I will submit a more detailed account of the PMCI system in my 
written testimony, but the bottom line is--this works.
    This system helped us build programs that work for Students, Adults 
and Industry.
    Examples include:

    <bullet> For Students: Navigation 101.--A life skills and planning 
program for students in grades 6 through 12, It aims to help students 
make clear, careful, and creative plans for life beyond high school 
while involving teachers and parents too.
    <bullet> For Adults: We've implemented the I-Best program.--This 
program combines Adult Basic Education (reading, writing and 
arithmetic) with job skills training.
    <bullet> For Industry: We have created skill panels to identify and 
close worker skill gaps in industry sectors. It allows partners to 
anticipate and respond effectively to industry's changing workforce 
needs.
    These programs are just a sample of the achievements we've made 
through accountability and by listening to each others' needs. We have 
a strong public overseer in the Employment Securities Department and we 
have equal representation between government, labor, and business.
    We have learned to work within our means through accountability--
but I have to stress the importance of Federal funding in this 
endeavor. We suffered many set backs during the Bush administration--
but now, because the job market is changing so rapidly--funding is more 
crucial than ever. We must invest in our workforce to keep America 
safe, secure and productive.

    Senator Murray. Thank you very much.
    Mr. Kiernan.

 STATEMENT OF WILLIAM E. KIERNAN, Ph.D., DIRECTOR AND RESEARCH 
    PROFESSOR, INSTITUTE FOR COMMUNITY INCLUSION, BOSTON, MA

    Mr. Kiernan. Thank you, Senator Murray and Senator Isakson.
    I would also like to thank Senator Murray for her 
recognition of our own Senator Kennedy and his commitment to 
the workforce field and certainly employment for all as this 
committee has reinforced that commitment.
    I was also struck by Assistant Secretary Oates' statement 
of the fact that the Secretary's mission is a good job for all, 
which we certainly agree with.
    I direct the Institute for Community Inclusion, which is at 
the University of Massachusetts at Boston. We are a university-
affiliated center on disabilities, which is one of 67 centers 
in a national network of the Association of University Centers 
on Disabilities. We have a strong interest in the areas of One-
Stop and vocational rehabilitation, and I have brought with me 
a person who assisted in the development of the materials, 
David Hof, who is a technical assistance specialist who has 
worked in One-Stop systems.
    What I will try and summarize today is some of the areas 
that I feel are important for you to consider, but also in the 
detailed report that is submitted is a much more extensive 
outline of some of the recommendations.
    Let me just touch briefly on the background for the 
population that I will be talking about, and those are 
individuals with disabilities.
    Thirteen to fourteen percent of adults with disabilities 
are unemployed. That is 5 percentage points higher than the 
average population without disabilities. But more troubling 
than that is between 26 to 30 percent of adults with 
disabilities are considered as a part of the workforce. That 
means that basically three to four individuals out of five 
persons with disabilities are not considered part of the 
workforce. That does not necessarily bode well for the 
Secretary's statement about ``all.'' We have a ways to go in 
order to meet that.
    Additionally, of the individuals with disabilities who are 
working, about one-half are working at or below the poverty 
level. So we must seek to get better jobs, good jobs, as the 
Secretary has outlined for us.
    I would like to offer a few suggestions about the One-
Stops. The One-Stop, really as more of a system than a center, 
is a consortium of 17 mandated partners that are there to 
develop programs that would assist in some way in supporting 
all job seekers.
    Today what I would like to summarize very briefly are seven 
areas that we think are working, two areas that might be for 
consideration of changes or elimination, and four for 
innovation.
    In the seven areas, certainly one of the strengths of the 
workforce system is the universal aspects of the workforce 
system. We have seen changes and considerable changes in issues 
of physical access, as well as more recently program access of 
persons with disabilities in the One-Stop system. We have made 
some growth in those areas, some considerable growth. As you 
have heard, we still have some room to improve and expand on 
the full access of persons with disabilities.
    The ongoing contributions of the employment and the 
training system are clear. Since its beginning, the supports 
through the small grants that, in fact, were mentioned earlier, 
but also in the past, they have had a strong commitment to the 
disability program navigators. We would like to re-inforce the 
idea of continuing the support of that effort that allows 
individuals who would work through the One-Stop systems to 
guide persons with disabilities and job seekers to more 
effectively reach employment outcomes.
    Also, the contributions that are made through the Office of 
Disability Employment Policy and the demonstration of 
customized employment as an effective approach toward assisting 
persons with disabilities in reaching employment, but more 
particularly in developing and understanding that there has to 
be a relationship between the employer and the employee and a 
negotiation to lead to good job outcomes for individuals with 
disabilities. More particularly in the area of customized 
employment of the Office of Disability Employment Policy, we 
would like to see an emphasis on looking at some other 
nonmandated partners such as Medicaid, CMS, TANF, and SSA in 
the partnership discussion.
    The measurement effects were talked about very briefly in 
the past of looking at measures that, in fact, would document 
outcomes effectively and not penalize or put at a disadvantage 
individuals with disabilities in the One-Stop system, as 
currently appears to happen.
    The elimination of the sequencing of services Assistant 
Secretary Oates had mentioned. Going from core to intensive to 
training is the sequence that we ought to put to rest and get 
on with the business of direct access to services.
    The clear practices of the voc rehab system--over the last 
several years, we have seen some very significant relationships 
expanded between the One-Stops and the public vocational 
rehabilitation system at a State level in States such as, to my 
right, Washington, Alaska, Wisconsin, Connecticut, Michigan, 
and Minnesota, and there are more States that, in fact, have 
improved their relationships in the public voc rehab system. 
More particularly, not at the State level, but at the local 
level, there are some examples where the rehab system and the 
One-Stop systems are working quite well together. We need more 
of that expansion.
    A couple of the areas that we think are for elimination. 
One is that we think the requirement of the infrastructure 
contributions to each of the partners has become a major 
impediment to the negotiation of partnerships. We would 
recommend that, in fact, the infrastructure be supported 
entirely and that the partnerships focus on the relationships 
of what professionals, expertise, and resources can be brought 
to the table by the 17 mandated and other partners in the 
system.
    Let me just touch briefly on a few of the areas that I 
think are important to consider. One is that with the passage 
of WIA, it will also bring the vocational rehabilitation system 
and its emphasis on transition. We heard the Deputy Secretary 
in Education talking about transition as important. Transition 
involves educational systems. It involves a number of partners 
that, in fact, are not necessarily mandated. So we would 
strongly encourage in the partnership agreements that we look 
at both mandated and nonmandated partners in the development of 
effective transition programs and the youth programs within 
Labor.
    The last two elements, I will suggest very briefly. One is 
that the One-Stops be considered as employment networks. In 
looking at the division in Massachusetts alone, in looking at 
the data for the 193,000 persons who went through the system 
last year, 7,347 were individuals who had SSI or SSDI 
eligibility. They are individuals who could have a ticket. We 
could use the ticket to benefit and generate additional 
revenues for the One-Stop, if One-Stops were employment 
networks.
    The collaboration with other entities, including the DD 
system, the developmental disabilities system, and the mental 
health system in the One-Stops is essential if, in fact, we are 
going to have a comprehensive system to serve individuals with 
disabilities leading to employment with many of these systems. 
Now we are seeing that employment is a central piece of their 
mission going forward.
    And last, building the capacity of the staff who work in 
the One-Stop systems to effectively serve and support 
individuals with disabilities can be done through both online 
training, staff development, and orientation of new staff.
    Thank you very much.
    [The prepared statement of Mr. Kiernan follows:]
            Prepared Statement of William E. Kiernan, Ph.D.
    I am William E. Kiernan, Ph.D., Director of the Institute for 
Community Inclusion, a University Center for Excellence in Disabilities 
located jointly at the University of Massachusetts Boston and 
Children's Hospital Boston. We are 1 of 67 such centers that make up 
the nationwide network of University Centers for Excellence in 
Developmental Disabilities (UCEDD) that are national leaders in 
research, interdisciplinary training, technical assistance, and service 
and are supported by the Association of University Centers on 
Disabilities. UCEDDs are the national leaders in a constellation of 
activities designed to improve employment options and outcomes for 
people with developmental and other disabilities. Our center has worked 
extensively in supporting the employment of persons with disabilities 
and has been involved with supporting the One-Stop Career Centers and 
the public Vocational Rehabilitation agencies at the State level in 
expanding employment options for persons with disabilities. I am 
pleased and honored to have been asked to comment on the 
reauthorization of the Workforce Investment Act and correspondingly the 
Rehabilitation Act.
    I have organized my verbal as well as the initial portion of this 
written testimony around the two questions that were sent to me by the 
committee. Additionally, I am submitting written testimony including 
some more specific suggestions as to areas where changes could be made 
to strengthen the act as well as areas where modifications might be 
made to allow the act to realize its full and intended congressional 
intent, that is, providing universally designed, no-wrong door strategy 
for all job seekers in the United States.
    I would like to begin my written presentation with a brief overview 
of employment status of persons with disabilities nationally and the 
potential relationship that persons with disabilities have or could 
have with the workforce development efforts of this legislation.
    Current Status of Employment of Persons with Disabilities: Over the 
past decade it has become more apparent that there will be a shortage 
of workers to meet employer demands. Even given the current economic 
downturn, with the declining birth rate as well as the aging of the 
current workforce, most industries are realizing that their growth will 
more likely be limited in the long term by the declining labor supply 
and not the economy in general. Despite this declining workforce, there 
are still populations where the labor force participation rate is quite 
low as in the case of persons with disabilities where 7 out of 10 
persons with disabilities are not in the labor market. Coupling the 
apparent declining labor supply with the low-labor force participation 
rate for persons with disabilities (nationally about 36 percent of 
working age adults having any disability condition and 27 percent for 
those having a mental disability as compared to 70 percent labor force 
participation for all working age adults as reported by the American 
Community Survey, 2006), there are some clear inconsistencies in both 
expectation and perception of this current and potential labor 
resource.
    The U.S. Bureau of Labor Statistics reported that the official 
unemployment rate for people with disabilities, meaning those who have 
lost their jobs and those whom are actively seeking employment, for the 
first quarter of 2009 was between 13 and 14 percent, 5 to 6 percentage 
points higher than the non-disabled population. Additionally, as was 
also reported in the American Community Survey, the BLS reported that 
for the same time period only 23 percent of all adults with 
disabilities participated in the labor force as compared with 71 
percent of the non-disabled population. Correspondingly, for those 
individuals with disabilities who are employed their earnings are 
considerably less than the earnings for persons without disabilities 
(50 to 70 percent less earnings per week for persons with disabilities 
as compared to those without disabilities as reported by the American 
Community Survey, 2006). Finally, as reported by the Harris poll, of 
those individuals surveyed the vast majority who were not working would 
be interested in working if the opportunity were to become available 
(approximately 7 out of 10 asked).
    A future challenge for employers is how to utilize the full labor 
force, supporting the older worker who may be acquiring disabilities as 
they age, engaging the retired worker, and recruiting from the emerging 
workforce of individuals with disabilities and recent immigrants to 
advance the economic engine of American businesses in the coming years.
    Interesting enough the approaches to supporting the current older 
worker as well as the re-engagement of the retired older worker are 
more similar than dissimilar to those utilized in accessing the 
untapped labor pool of workers with disabilities. Workplace 
modifications and accommodations that are universally applicable to the 
diverse workforce of today, older workers, workers with disabilities 
and immigrant workers, offer promise for employers to have a qualified 
workforce in the coming years.
    The concept of the One-Stop, that is no wrong door to employment 
for all job seekers, is mandated in the Workforce Investment Act. The 
intent of the One-Stop was and remains a system that is seamless and 
able to support job seekers with a variety of interests, preferences 
and needs. Additionally, the One-Stops can and often play a role with 
employers as a source of qualified job applicants. The early roll out 
of the One-Stops due to initial funding strategies, limited the ability 
of the system to be truly comprehensive. The lack of clarity regarding 
the role of the collaborators, the emphasis on high volume service and 
the mandate to serve all job seekers has resulted in a system that has 
considerable potential yet to be realized.
    The following section offers recommendations relating to WIA in the 
context of the questions posed by the committee following up with more 
detailed discussion of elements of WIA that work, those that may need 
to be revised, those that are not working and, finally, some 
suggestions of innovative practices and recommendations that would 
modernize WIA.
                  response to the committee questions
    Recommendations to the committee:

    <bullet> Universal aspects of the One-Stop must be maintained and 
re-inforced from physical to program access.
    <bullet> Ongoing contributions of the Employment and Training 
Administration to Supporting the Employment of Persons with 
Disabilities must be a clear focus of ETA in all programs.
    <bullet> Ongoing contributions of the Office of Disability 
Employment Policy (ODEP) must focus on the identification and removal 
of barriers for customers with disabilities seeking services through 
the One-Stops.
    <bullet> Measurement of effectiveness and impact must not create a 
disincentive for One-Stops to serve customers with disabilities.
    <bullet> Elimination of the concept of sequential services, that 
is, movement from core to intensive to training, and having direct 
access should be adopted.
    <bullet> Clear practices and resource sharing between the One-Stops 
and the public Vocational Rehabilitation system leading to increased 
employment outcomes for customers with disabilities must be the central 
focus of Memoranda of Agreement with WIA.
    <bullet> Linkage with other mandated and non-mandated partners must 
be encouraged leading to increased employment options for persons with 
disabilities.
    <bullet> Required infrastructure contributions for partners should 
be eliminated.
    <bullet> Integration of the employment exchange function with the 
One-Stops in all locations must be accomplished.
    <bullet> Comprehensive transition program development leading to 
employment outcomes for students with disabilities must be the focus of 
the WIA youth services and VR services.
    <bullet> One-Stops should be strongly encouraged to become 
Employment Networks.
    <bullet> Collaborations with other entities in assuring access to 
One-Stop Services and employment outcomes should be the goal of WIA 
with results of policies, programs and outcomes reported in the annual 
plan and the annual report of LWIBs and the SWIBs.
    <bullet> Capacity training and staff development addressing 
employment of the hard-to-employ, including persons with disabilities, 
must be a focus of ETA in the development of the One-Stop system's 
ability to serve customers with disabilities.
A. What works should be preserved and/or refined in the current 
        workforce system and what should be eliminated?
    The following section outlines some of the areas that have been 
reported or been documented as working as well as those areas that, 
with some modifications, could address the universal aspects of the WIA 
legislation.
              1. What should be preserved and/or refined?
    <bullet> Universal aspects of the One-Stop must be maintained and 
re-inforced from physical to program access. Over the past several 
years many of the One-Stops have addressed the physical access of the 
centers through careful location of the centers in accessible buildings 
and locations, having office space that meets the ADA requirements and 
equipment and materials that facilitate access by all customers. 
Additionally, the enhanced role of the greeter, the front desk, at most 
One-Stops is now not only a position that supports new or former 
customers obtaining directions and information but also provides 
assistance especially in the accessing of information and materials in 
the resource areas.
    There continues to be room for increased accessibility in the 
programs and activities of the One-Stop for persons with disabilities, 
non or limited English speaking customers and older customers who may 
not be technologically literate. The need to assure that the principles 
of Universal Design for Learning and the use of teaching strategies and 
materials for adult learners is essential if all customers are to be 
served through the One-Stops. Progress has been made in these areas as 
seen in examples in States such as Washington, Alaska, Massachusetts 
and Wisconsin. All One-Stops should make sure that they meet not only 
the physical accessible requirements but the access to programs and 
activities as noted in the ADA and in section 188. Assistance from DOL, 
through training and technical assistance, to One-Stops would serve to 
increase the accessibility in the One-Stops for all customers, 
including those having a disability and others who would be considered 
harder to serve.
    The One-Stops, as opposed to the earlier Employment Service, have a 
strong focus on customer service that should be continued. However, it 
has been observed that staff can be unsure of the legal parameters 
regarding disability inquiries. It is suggested that DOL develop 
clearer guidelines and assistance to One-Stop staff on what they can 
ask in the way of offering supports and assistance as well as 
disclosure. A clearer identification of how a customer can utilize all 
of the resources of the One-Stop and what assistance would be most 
beneficial can continue to increase the customer focus of all One-
Stops.
    <bullet> Ongoing contributions of the Employment and Training 
Administration to Supporting the Employment of Persons with 
Disabilities must be a clear focus of ETA in all programs. ETA has 
played a central role in increasing the capacity of the One-Stops to 
serve customers with disabilities. Projects such as the Work Incentive 
Grants and the Disability Program Navigator (DPN) grants have been 
effective at increasing the capacity of One-Stops to serve customers 
with disabilities. The role of the DPN should be maintained in ETA and 
expanded to all of the States. Clarification and consistency in the DPN 
role is needed, and the functions of the DPN addressing systemic change 
as well as facilitation of access to available services by customers 
with disabilities and other hard-to-serve customers in contrast to the 
provision of direct services to One-Stop customers. The continuation 
and expansion of the DPN is essential in supporting job seekers with 
disabilities.
    Additionally, ETA should look to assisting One-Stops in developing 
more creative Memoranda of Agreement with mandated entities such as the 
public Vocational Rehabilitation agencies at the State and local levels 
as well as the non-mandated partners such as the State agencies serving 
individuals with intellectual disabilities, persons with mental illness 
and those who are on welfare. In the coming year an added focus on 
schools and youth in transition should clearly be an area of emphasis 
for ETA and the One-Stops along with their mandated and non-mandated 
partners.
    <bullet> Ongoing contributions of the Office of Disability 
Employment Policy (ODEP) must focus on the identification and removal 
of barriers for customers with disabilities seeking services through 
the One-Stops: ODEP in its short tenure at the Department of Labor has 
played a considerable role in increasing the understanding of how 
persons with disabilities can be served in the community through the 
adoption of the principles and practices of customized employment and 
youth services. The demonstration of the effectiveness of customizing 
the employer and customer relationship in the workplace has been 
accomplished. The integration of these strategies into the One-Stops 
will mean a collaborative working relationship between ODEP and ETA in 
the coming years.
    ODEP, with its focus on policy, can and should play a considerable 
role in both the development of effectiveness measures for One-Stops 
nationally as well as the identification of policies and practices that 
have been effective in linking the mandated and non-mandated partners 
together to address the universal design aspects of the One-Stops. 
Increasing the capacity of the system through identification of skills, 
competencies and certifications of personnel in the One-Stop would 
again integrate the policy mandates of ODEP with the activities and 
practices of ETA.
    ODEP can and has played a role in examining Federal policies and 
practices that have facilitated as well as inhibited the employment of 
persons with disabilities. This remains an important policy area in 
which ODEP can continue to influence other Federal agencies and their 
practices such that there is a more cohesive view of both employment, 
as the goal for persons with disabilities across all Federal agencies, 
as well as to identify ways in which conflicting policies and practices 
can be brought into line with the expectations of employment first as 
the goal for persons with disabilities.
    <bullet> Measurement of effectiveness and impact must not create a 
disincentive for One-Stops to serve customers with disabilities: While 
this has been an area of continuous discussion over several years, 
there is little progress in the area of identifying clear performance 
measures for the One-Stop system. Some of this is reflective of the 
nature of the One-Stop in that it is a system and not an individual 
program, and thus for the One-Stop there must be collaborations across 
multiple agencies addressing the needs of the customers who are seeking 
employment. Many of these partner agencies have outcome measures and 
most have unique interpretations of what the actual measure means, as 
in the case of ``what is employment'' and ``how long should individuals 
be followed.'' Care must be exercised so that any measurement of 
outcomes does not create a disincentive for the One-Stops to serve 
specific sub-populations.
    As it currently stands, if the One-Stop does not meet its 
performance measures while using WIA funds, there are clear sanctions. 
The existing structure can and often has been reported to be a reason 
for the low rate of service for persons with disabilities and other 
hard-to-serve customer groups. There is a need to develop measures of 
effectiveness that reflect the customer diversity while embracing the 
mandate of the One-Stop to serve all customers. In some instances the 
customer mix will vary depending upon the demographics of the area 
served by the One-Stop. Any measurement system must be sufficiently 
flexible to accommodate the diversity of the populations served by the 
One-Stops as well as be able to provide consistent measures of outcomes 
such as employment placements, earnings and job retention among other 
variables. The identification of effective outcome measures for WIA is 
clearly an area of importance and should be a priority for both ETA and 
ODEP with the development of such measures including both mandated and 
non-mandated partner input and consideration.
    While not a performance measure, the adoption of common intake and 
application materials across the One-Stop and its partners would serve 
to streamline the application effort for the customer as well as reduce 
the costs to the agencies if common data and variables are used for 
multiple applications for service. The same would be true for outcome 
measures. With some greater consistency in the definition of the 
outcomes measures, cross agency reviews may be able to be accomplished 
with the outcomes providing more meaningful and useful monitoring as 
well as strategic planning. Finally, the development of measures and 
processes that do not create disincentives for the One-Stops to serve 
the harder-to-serve customers is essential if the mandate of WIA to be 
universal, seamless and accessible to all is to be realized.
    <bullet> Elimination of the concept of sequential services from 
core to intensive to training and have direct access should be adopted: 
Typically services are available to the customer in a sequential 
fashion with core services being the first to be offered. The customer 
may move from core to intensive and then training as needs become more 
clearly identified. Moving through this sequence can serve to add time 
to the process that is unnecessary and inefficient. One-Stops staff 
should be able to access training for individuals who would clearly 
benefit from training and also those who would benefit from more 
intensive services rather than having to go through a sequence of 
services. The increased flexibility will allow the One-Stop to more 
effectively address the needs of persons with disabilities as well as 
other hard-to-serve customers and also more clearly focus resources on 
the services that will have the greatest impact on reaching the goal of 
employment for the customer.
    Additionally, with the adoption of a direct access system for 
services, One-Stops can also be more targeted in the development of 
their partnerships with the public Vocational Rehabilitation system and 
other mandated and non-mandated partners. In these instances 
collaboratively supporting training leading to employment at the time 
of application may be the most efficient use of shared resources for a 
customer. Flexibility in the use of One-Stop resources can give the 
One-Stop ability to link with other partners in funding and or 
supporting services for the customer.
    <bullet> Clear practices and resource sharing between the One-Stops 
and the public Vocational Rehabilitation system leading to increased 
employment outcomes for customers with disabilities must be the focus 
of the Memoranda of Agreement with WIA. While included in WIA, the 
relationship of the public Vocational Rehabilitation system is varied 
across States and within States. In some States the linkage of the One-
Stop and the VR system has been considerable as witnessed by the 
efforts in southwest Washington, Alaska, Wisconsin, Michigan, 
Connecticut and Minnesota. In these States there is a clear working 
relationship between the two systems. In other States, while there may 
not be as clear a relationship at the State level, there are 
relationships at the local level with local office of the VR system 
where staff of VR are located within the One-Stop on a part-time or 
full-time basis. Among other States, where the VR agency is not a guest 
or a casual resource at the One-Stops, but has a meaningful 
relationship, there have been stronger working relationships between 
these two partners. It is clear that there are examples of partnerships 
that have demonstrated that these systems can coordinate resources and 
direct their focus to increase the employment of customers with 
disabilities.
    <bullet> Linkage with other mandated and non-mandated partners must 
be encouraged leading to increased employment options for persons with 
disabilities. All too often the focus of the partnership has been on 
what resources each of the partners can provide to the infrastructure 
of the One-Stop. These discussions have sidetracked discussions of the 
elements of any agreement to fiscal as opposed to program and resource 
sharing. It is felt that if the infrastructure expenses of the One-Stop 
are provided then the nature of the partnerships with both the mandated 
and non-mandated partners can be upon sharing of personnel, expertise 
and fiscal resources directed at assisting customers in accessing 
employment.
                     2. What should be eliminated?
    <bullet> Required core contributions for partners should be 
eliminated: As was noted previously, the focus of the partnership 
discussions has been upon what resources could be provided for 
infrastructure support of the One-Stop. This focus has lead to 
considerable debate among the mandated partners and related resistance 
on working collaboratively to address a universal and seamless 
employment and training system for all job seekers. It is strongly 
recommended that adequate financial resources be made available to 
cover the basic operating expenses of the One-Stop and that the 
elements of the Memoranda of Agreement be directed at defining what 
each of the entities will bring in the areas of personnel, expertise, 
fiscal and program resources.
    <bullet> Integration of the employment exchange function with the 
One-Stops in all locations must be accomplished: As was noted in the 
GAO report (One-Stop System Infrastructure Continues to Evolve, but 
Labor Should Take Action to Require that All Employment Service Offices 
Are Part of the System: GAO September 2007), it is essential that the 
One-Stop and the Labor Service Offices be integrated both for 
effectiveness in addressing customer needs as well as efficiency in 
reducing costs. In those instances where the Labor Exchange is 
separate, the Wagner-Peyser resources are typically no longer available 
to the One-Stop and thus the WIA resources are needed to support the 
Administration and core services of the One-Stop, and are not available 
for intensive and training services.
B. What innovative policy recommendations could be suggested to 
        modernize WIA?
    <bullet> Comprehensive transition program development leading to 
employment outcomes for students with disabilities must be the focus of 
the WIA youth services and VR services: With the passage of WIA, 
transition from school to employment and adult life will become a core 
area of responsibility for the public Vocational Rehabilitation system. 
The additional stimulus monies available to several State agencies 
(Education, Labor and the public Vocational Rehabilitation Agency) are 
focused, in part, upon the youth population and assuring that these 
youth enter and remain in the workforce. These highly focused resources 
are of short duration (about 24 months) but are of sufficient magnitude 
that they can significantly impact how transition from school to work 
and adult life is addressed in selected communities. Though the 
stimulus money is of limited duration, the issue of transition is not 
and the additional resources through the Workforce Investment Act, the 
Rehabilitation Act, the Edward M. Kennedy Serve America Act (expanding 
volunteer services and service leading to employment) and the soon to 
be published Higher Education Act regulations (creating opportunities 
for students with intellectual disabilities to complete their 
entitlement to education in a post-secondary setting) can become part 
of an expanded strategy for establishing a comprehensive transition 
service at the State level.
    There is clear evidence to show that students with disabilities who 
have an employment experience in school are more likely to be employed 
in their adult years. Additionally, with the focus on youth in WIA and 
the addition of transition from school to employment and adult life, 
now part of the Rehabilitation Act, there is a significant opportunity 
to revise the way services and supports are provided to youth with 
disabilities as they exit school. The integration of service leading to 
employment (the Edward M. Kennedy National Service Act), the options 
for completing education entitlement services for some youth with 
disabilities in a community college, college or university setting, the 
use of training resource through community colleges can all serve as a 
platform to revise the transition process so that students with 
disabilities upon exiting school are directed toward employment and not 
non-work options in their adult years. One of the relative strengths of 
WIA has been the percentage of young people with disabilities utilizing 
the WIA-funded youth services and better integration of such services 
with transition activities would be of major benefit.
    Partnership agreements including schools, the public Vocational 
Rehabilitation agency, One-Stops, Community Colleges, Universities and 
community rehabilitation providers can lead to a more robust transition 
planning process and the development of programs and services that link 
post-secondary settings with community colleges and volunteer services 
that may lead to employment for youth with disabilities.
    <bullet> One-Stops are strongly encouraged to become Employment 
Networks: The passage of the Ticket to Work and Work Incentives Act in 
1999, resulted in the creation of the Ticket to Work Act. The Ticket 
provides resources to Employment Networks (ENs) to assist persons with 
disabilities in accessing and maintaining employment. Over a 5-year 
period the Employment Network can share in the SSA revenues saved 
through individuals with disabilities entering and remaining in 
employment.
    In the past One-Stops have shown limited interest in becoming an 
Employment Network for the Ticket Program. In the past year significant 
changes have been made in the program in terms of financial incentives, 
and simplifying the administrative processes, including an expedited 
process for One-Stops to become an EN, greatly reducing the complexity 
of this process. The ICI in a review of the potential of the Ticket to 
generate revenue for the One-Stops in the Commonwealth of Massachusetts 
found that for customers who were receiving SSI or SSDI benefits from 
May 2007 to May 2008, of the 193,868 customers of the Massachusetts 
One-Stop system, 7,347 (3.8 percent) were on SSI/SSDI. Iowa did a 
similar analysis and found that of the 200,602 One-Stop customers in 
2006, about 3,400 (1.4 percent) were Ticket holders. While it's a 
smaller percentage than MA, the number is still significant. These two 
examples illustrate that there is real untapped potential for an 
increase in One-Stop involvement in Ticket, and in turn building the 
capacity of the workforce development system to meet the needs of 
individuals with disabilities. It is suggested that through regulatory 
and policy directives, efforts be made for an enhanced role of One-
Stops in the Ticket program.
    <bullet> Collaborations with other entities in assuring access to 
One-Stop Services and employment outcomes should be the goal of the WIA 
with results of policies, programs and outcomes reported in the annual 
plan and the annual report of the LWIB and the SWIB: The One-Stop could 
partner with community rehabilitation providers (CRPs) that have strong 
individual job placement programs. These CRPs would come to the One-
Stop Career Centers and meet with individuals identified by the One-
Stop as potentially benefiting from more intensive employment and 
training services. The CRP would be responsible for engaging 
individuals in direct job placement with the goal of entry into the 
workforce and then sustained employment.
    Should the One-Stop choose to contract such a service through the 
CRP system, a direct benefit to the One-Stops would be the freeing up 
of staff to support more customers who can utilize the traditional 
career center types of services. If the One-Stop were to choose to 
offer the services through their system then the additional resources 
necessary would be used to support the hiring and establishment of such 
a service through the One-Stop. Regardless of the selection of the 
model, contract or expansion of services, the One-Stop would engage the 
local public Vocational Rehabilitation system as a partner in this 
effort. The target population to be served while having limitations 
that could be considered a disability may meet the eligibility 
requirements as a person with a disability but not be eligible for 
vocational rehabilitation services since the VR system will most likely 
be in an Order of Selection. The expertise of the VR system however can 
assist in the identification of supports, technology and accommodations 
that may be beneficial for the job seeker.
    Other partnerships with State agencies such as the Department of 
Developmental or Intellectual Disabilities or the Department of Mental 
Health would bring in the resources and the customer base served by 
these agencies. While non-mandated entities, they could link with the 
One-Stops and the CRPs (entities that they currently contract with) to 
increase the options for employment of persons who are served by these 
agencies. Through the State Employment Leadership Network (SELN), a 
joint effort of the ICI and the National Association of State Director 
of Developmental Disabilities Services (NASDDDS), eight States have 
adopted or are considering the adoption of an Employment First 
strategy. This strategy calls for the allocation of agency monies to 
address employment outcomes first prior to any other service. The focus 
on employment is consistent with the overall direction of the Center 
for Medicare and Medicaid Services (CMS), in that, through the Medicaid 
Infrastructure Grants CMS is supporting States to move more toward 
employment as the outcome for persons with disabilities who are served 
by these State agencies. Linking the One-Stops, VR and the State 
agencies serving persons with Intellectual Disabilities also brings in 
the resource of CMS since, on average, one half of the budgets for 
these State agencies are reimbursements received from CMS for services 
provided.
    <bullet> Capacity training and staff development addressing 
employment of the hard-to-employ including persons with disabilities 
must be a focus of ETA in the development of the One-Stop system's 
ability to serve customers with disabilities: If the One-Stops are to 
be able to continue to expand their capacity to serve customers with 
disabilities, then additional staff competencies will need to be 
developed addressing disability awareness, screening and assessment, 
consumer direction, job development, job accommodations, on-site 
supports and marketing to employers. The development of these 
competencies can be integrated into the One-Stop staff development 
efforts and be available on line. The training of employment training 
specialists or job coaches has typically been on a more informal basis. 
More recently there has been an increase in the creation of a range of 
skills that need to be mastered for staff to be able to assume the 
position of an employment training specialist or a job coach. These 
training activities are leading to the development of a national 
training effort directed at increasing the skills of current staff who 
are working in the employment and training field as well as the 
creation of a career track for individuals who would be interested in a 
career in this area. The competencies that have been identified as 
essential for staff who are supporting and training individuals with 
disabilities are similar to those that are used to increase staff 
skills of those supporting the harder to employ as well as the older 
worker. Such a training effort is consistent with the capacity 
development efforts in the broader discipline of workforce 
professionals and WIA.
    DOL can play a leadership role in supporting a national staff 
capacity development effort that would increase staff skills and 
increase the effectiveness of One-Stop services and other employment 
and training services nationally. UCEDDs are exceptionally well-
qualified to provide training to current and future professionals 
working with individuals with disabilities.
    Finally, we have included as an Attachment A,\1\--Detailed Comments 
and Recommendations for WIA--a more detailed presentation of some of 
the recommendations for change in the WIA legislation. These are 
offered in support of the above comments and are hoped to be viewed as 
complimentary to this written statement.
---------------------------------------------------------------------------
    \1\ Prepared by: William E. Kiernan, Ph.D., Director and Research 
Professor, Institute for Community Inclusion (UCED), University of 
Massachusetts Boston, 100 Morrissey Blvd, Boston, MA 02115-3393; Tel: 
617-287-4311; E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f2859b9e9e9b939fdc999b97809c939cb2879f90dc979687">[email&#160;protected]</a>; Web: www.community
inclusion.org; and David Hoff, Senior Technical Assistance Specialist, 
Institute for Community Inclusion, University of Massachusetts Boston, 
100 Morrissey Blvd, Boston, MA 02115-3393.
---------------------------------------------------------------------------
                                 ______
                                 
      Attachment A: Detailed Comments and Recommendations for WIA
                      wia reauthorization comments
    The following section presents: (1) an overview of WIA, (2) 
background and context, (3) issues that need to be addressed in the 
reauthorization, and (4) WIA reauthorization recommendations.
                      1. introduction and overview
    The passage of the Workforce Investment Act (WIA) in 1998 resulted 
in a revolutionary concept--the idea of universal access to employment 
assistance for all job seekers needing help. Language within WIA, and 
subsequent regulations (both the general WIA regulations, and the 
specific regulations for non-discrimination in section 188) sent a 
clear message--that universal accessibility in the ``generic'' 
workforce system includes serving people with disabilities. In many 
ways, this concept of universal access in WIA, and emphasis on serving 
people with disabilities, was evidence and another indicator of an 
ongoing evolution of full integration of people with disabilities into 
mainstream society, side-by-side with all other citizens.
    Since the passage of WIA, and the simultaneous development of the 
One-Stop delivery system, extensive resources have been spent on 
developing the capacity of the One-Stop system and workforce 
development system as a whole, to meet the needs of individuals with 
disabilities. This has included extensive funding from two DOL 
Departments: the Employment and Training Administration (ETA), and 
Office of Disability Employment Policy (ODEP). Along with the Work 
Incentive Grants from ETA and Customized Employment Grants from ODEP, 
since 2003, through a cooperative effort between ETA and the Social 
Security Administration, Disability Program Navigators have been 
working in One-Stop Career Centers to guide people with disabilities in 
the use of workforce development services. There are currently over 425 
Navigators spread across 42 States. The amount spent on capacity-
building grants from ETA and ODEP well exceeds $195 million total from 
2000 to 2007, with ETA alone spending more than $115 million through 
their Work Incentive Grants and Disability Navigator programs. In 
addition to these Federal efforts, State and local funds have also been 
used for various capacity-building initiatives. The end result has been 
significant increases in the capacity of One-Stop and workforce 
development systems to serve people with disabilities.
    At the same time, it appears these efforts have not necessarily 
been consistent, and local workforce development systems and One-Stop 
Career Centers vary greatly in their receptivity and ability to serve 
people with disabilities. Additionally, while some data are available 
which provide indicators regarding the performance of the workforce 
development system in serving people with disabilities, the lack of 
strong performance measurement systems for One-Stops has created 
challenges in determining the progress that has been made.
      2. the workforce development system: background and context
    In providing comments on WIA reauthorization, it is critical to 
have at least some context for the role of the One-Stop system, which 
is the primary means for delivery of workforce development services. It 
is important to bear in mind two basic concepts. First, One-Stop Career 
Centers are not service delivery agencies in the traditional sense. The 
intent of the WIA legislation, and at least somewhat in actual 
practice, is that One-Stops are a consortium and collaborative of 
multiple publicly funded employment and training programs, that come 
together to form the One-Stop. There currently exists 17 federally 
funded employment and training programs that are mandated as One-Stop 
partners in the WIA legislation, one of them being the public 
Vocational Rehabilitation system. Despite misperceptions that WIA 
funding and One-Stop funding are the same thing, as will be discussed 
in more detail later, only 3 of these 17 partners are funded via 
Workforce Investment Act Funds (Adult, Dislocated Worker, and Youth 
Services). The second important factor to consider is the high customer 
volume that many One-Stops work with. For example, the two One-Stop 
Career Centers in the Metro North area of Massachusetts (just outside 
of Boston), serve over 20,000 unique customers per year with 
approximately 60 staff. In essence, the One-Stop system is a high 
volume, low-level customer contact system, which relies to a great 
extent on self-direction. Only a small percentage of customers 
(typically less than 10 percent) receive any services beyond the basic 
``core'' services that are available to any individual.
    One-Stops have been at times criticized for their inability to 
respond to individuals needing a high level of 1:1 assistance. Such 
criticism may be at times valid (particularly in cases where services 
have been refused or accommodations have not been provided). However, 
such criticism is also at times misplaced, as One-Stops were never 
intended to provide the type of intensive, comprehensive services that 
can be typically found by a community rehabilitation provider, and 
similar entities, including the level of intensive job development 
available at CRPs. At the same time, to address the diversity of needs 
and respond to the mandate to be universally accessible to all, the 
stronger One-Stop Centers have recognized the need to:

    (1) have high quality information and referral systems to handle 
the high customer volume they experience,
    (2) quickly ascertain a customer's needs,
    (3) determine what services within the One-Stop can be used to 
respond to those needs, and
    (4) identify and engage partners (both formal and informal) to 
respond to those needs that are beyond the core capacity of the One-
Stop.

    One of the ``best practices'' that has been recognized among One-
Stops, is the ability to develop a strong network of community partners 
(often on an informal basis) that can be utilized to respond to 
customer needs. In the case of individuals with disabilities, this 
includes community rehabilitation providers, public disability groups, 
independent living centers, advocacy groups, etc., going well beyond 
the mandated partnership with public Vocational Rehabilitation. Some 
One-Stops have also partnered with their local Work Incentive Planning 
and Assistance programs (funded by SSA), and a few have become 
Employment Networks under the Ticket to Work, although participation to 
date by One-Stops in the Ticket program has been limited, despite 
significant outreach efforts by SSA.
                   3. issues needing to be addressed
    Performance Measurement and Issues: The inability to properly 
measure the performance of the One-Stop system is an ongoing issue. At 
this point, the only mechanism for measurement of One-Stop performance 
is through individual partner and funding stream performance measures 
that allows only a partial (although still somewhat informative) look 
at the system. A subtext of this lack of a comprehensive performance 
measurement system, is the lack of a measurement system for One-Stop 
system performance in serving various groups and sub-populations 
including people with disabilities. As a result, it is impossible to 
truly ascertain the performance and progress of the One-Stop system as 
a whole in meeting the needs of people with disabilities.
    Wagner-Peyser Data: The performance data that is available, while 
limited, indicates both successes and challenges regarding serving 
people with disabilities. The Wagner-Peyser data are probably the best 
indicator available of overall One-Stop performance. These funds are 
used for basic employment/labor exchange services, and track the 
largest number of individuals using the generic workforce development 
system--and per WIA regulations, are to be delivered within the One-
Stop system.
    Analysis by the Institute for Community Inclusion (ICI), indicates 
that the percentage of individuals identifying they have a disability 
has shown a steady increase over time, from 2.3 percent in 2002 to 3.1 
percent in 2005 figure. The more recently available data show a slight 
decline: in 2007, 2.8 percent of individuals using Wagner-Peyser 
funding were identified as having a disability. As noted in a recent 
publication by the Institute for Community Inclusion (ICI) (http://
www.community
inclusion.org/article.php?article_id=233&type=project&id=16),

          ``In examining and interpreting these data, it is important 
        to note that these data may not fully reflect the use of these 
        services by people with disabilities, as it does not include 
        individuals with non-apparent disabilities who have declined to 
        identify that they have a disability.''

    There are a number of other issues with these data. It first off, 
only indicates percentage of use of the system by people with 
disabilities, with no outcome data (although outcome data is made 
available for Wagner-Peyser participants as a whole). Second, the data 
indicate massive variations in the percentage of people with 
disabilities using services from State-to-State: from less than 1 
percent to over 15 percent. The underlying reasons for this variation 
are not clear, but it is concerning and bears further investigation.
    WIA Data: The other piece of significant data that is available is 
the Workforce Investment Act fund data. These funds are generally used 
for training, as well as more intensive services in the workforce 
development system. In some cases, WIA funds are also used for core 
services. The WIA performance data do provide highly detailed 
information regarding performance and outcomes for people with 
disabilities. However, only a small percentage of individuals served in 
the workforce development system are served via WIA funds 
(approximately a million people annually vs. over 13 million via 
Wagner-Peyser funding). Therefore WIA performance is not equivalent to 
One-Stop performance, although it has been observed that many 
policymakers internal and external to the workforce development system, 
advocates, and academics often verbally and in writing incorrectly make 
this assumption. To re-inforce this point, in 2007, only 58,000 
individuals identified as having a disability were served via WIA 
funds, while 499,000 individuals were served via Wagner-Peyser funds.
    There are three WIA funding streams: Adult, Dislocated Worker, and 
Youth. Analysis of these data by the Institute for Community Inclusion 
revealed the following: from 2001 to 2007, the percentage of 
individuals with disabilities served via WIA Adults funds declined from 
9 percent of the total served to 4.2 percent. For WIA Dislocated Worker 
funds, the results have varied over this same period, from a low of 3.3 
percent in 2005 to a high of 4.6 percent in 2006. In conjunction with 
declines in percentage of individuals served, the outcomes for 
individuals with disabilities trailed the overall average performance. 
(It is important to note that there are significant penalties in terms 
of funding losses for not meeting required performance outcomes using 
WIA funds.) For Youth funds however, the results are more encouraging. 
For WIA Youth with disabilities (ages 14 to 21), the percentage of 
individuals served actually increased from about 14 percent to 16 
percent from 2001-2004 (although this has since declined to 14.5 
percent in 2007). In terms of performance, Older Youth (ages 19-21) 
with disabilities slightly lagged the average performance, and for 
Younger Youth (ages 14-18), performance was either equivalent or 
exceeded the average performance. (Note: Youth with disabilities are 
highly eligible for WIA youth services.) These results appear to 
indicate that when performance for people with disabilities lags the 
general population, their ability to access services decreases, and 
when performance for people with disabilities is similar to or exceeds 
the general population, their ability to access services increases.
                 4. wia reauthorization recommendations
    Given this context, the following are specific recommendations 
regarding reauthorization of WIA:

Performance Tracking and Measurement
    <bullet> Development of One-Stop Performance Measurement System: A 
key piece of WIA reauthorization needs to be mandating development of 
performance measurement for the One-Stop system as a whole, which 
includes measurement of performance in serving people with 
disabilities, among other groups.
    <bullet> Clarity of Disability Definition and Tracking of SSI/SSDI 
Enrollment Status: Part of the reform of performance measures needs to 
include much greater clarity regarding definitions and mechanisms for 
measurement, as it appears that the mechanisms for measuring disability 
are at best inconsistent making it difficult to have full confidence in 
the accuracy of the data. Mandating the collection of SSI/SSDI 
enrollment status of individuals being served would assist in this 
process, and allow for a much stronger sense of how the system is 
performing for individuals with more significant disabilities, and also 
allow for greater determination of the potential of the workforce 
development system in terms of participation in the Ticket to Work.
    <bullet> Creation of Benchmarks and Targets for Specific 
Populations: In conjunction with reform of performance measures, it is 
also recommended that statutory language be included in the 
reauthorization, which mandates creation of annual benchmarks and 
targets for serving specific populations, including people with 
disabilities.
    <bullet> Revamping WIA Performance Requirements: Revamping of the 
performance requirements for WIA funds is clearly needed. Too often, 
concerns over the inability to meet performance standards, is used as 
an excuse for not serving people with disabilities. The WIA performance 
measures must be modified to account for a wider range of job seeker 
needs. Language must also be incorporated into reauthorization that 
clearly re-inforces that discrimination against individuals based on 
performance measure concerns is not acceptable.
Non-Discrimination and Universal Access
    <bullet> Strengthen Non-Discrimination Language and Monitoring of 
Performance for Specific Populations: WIA currently contains 
significant language regarding the mandate to serve people with 
disabilities that is strongly re-inforced within the section 188 
regulations. It is recommended that this language not only be 
maintained, but also strengthened to make this mandate clearer. In 
conjunction with this, language should be incorporated within WIA, that 
more clearly requires monitoring of the performance of meeting the 
needs of various populations and sub-groups (including those with 
disabilities) and that the demographics of the customers served by the 
workforce development system should be reflective of the diversity of 
the region being served. This can be re-inforced with creation of 
targets and benchmarks contained within the recommendation above 
regarding performance measures.
    <bullet> Maintain Universal Access Requirements: One of the key 
strengths of WIA, is the concept of universal access to core services, 
which allows any individual to access services, without having to meet 
eligibility criteria. This should be absolutely maintained in any 
reauthorization.
Training Services
    <bullet> Require Use of Universal Design and Learning Principles in 
Training: Access to skill development training programs for people with 
disabilities has often been limited, particularly for individuals with 
more significant disabilities. At the same time, the ability of people 
with disabilities to access employment that provides real economic 
independence is highly dependent on increasing their skill levels. The 
use of universal design and learning strategies in creation and 
delivery of curriculum, have proven to be an effective strategy in 
increasing the ability of people with disabilities and other groups to 
access and fully benefit from classroom instruction and training. It is 
therefore recommended, that as an outgrowth of the universal access 
requirements of WIA, that language be included in the reauthorization 
that requires that training programs be delivered, utilizing universal 
design and learning principles.
    <bullet> Strengthen Use of Training Beyond Traditional Classroom 
Settings: The current WIA regulations allow for a wide variety of uses 
of training funds including but not limited to: occupational skills 
training; on-the job training; adult education and literacy; customized 
training for an employer who commits to hiring. However, there is a 
sense that most training funds are still used for traditional in-person 
didactic classroom training, which is not an effective learning 
strategy for many individuals, including some individuals with 
disabilities. Therefore, in order to ensure that funds that are being 
utilized to support the full range of today's learning technology, and 
meet the full range of learner needs, it is recommended that language 
in the reauthorization more clearly and specifically encourage use of 
training funds beyond in-person traditional classroom training.
    <bullet> Explicitly Require Training Programs to Meet Needs of 
People with Disabilities: Anecdotal evidence indicates that many 
training programs available via the workforce development system have 
limited willingness and ability to accommodate for the needs of 
individuals with disabilities, despite legal requirements under the 
ADA, Rehab Act, and section 188 of WIA to do so. It is recommended that 
language be included in WIA reauthorization, that explicitly states and 
reiterates that training programs make efforts to proactively consider 
and accommodate the needs of individuals with disabilities, and that 
re-inforces the right of people with disabilities to participate in 
training programs, and receive reasonable accommodations and 
modifications as necessary. Language should also be included that 
encourages the use of public VR and other disability partners to assist 
in supporting individuals in accessing and fully benefiting from 
workforce development training programs, in order that individuals 
successfully complete such programs, while simultaneously ensuring the 
ability of the workforce development system to meet the training 
program performance requirements.
One-Stop Partnerships and Role of Disability Partners
    <bullet> Strengthen One-Stop Partnership Requirements: The concept 
of multiple partners coming together in a streamlined ``user-friendly'' 
system as envisioned under WIA makes sense. However, while WIA mandates 
a multitude of partners within the One-Stop system, the reality has 
been that such partnerships have too often been cursory at best. One of 
the more obvious examples have been cases of One-Stop Career Centers 
funded by WIA funds, operating separately from One-Stop Career Centers 
or State Employment Service offices funded by Wagner-Peyser funds, 
which appears to be inconsistent with the intent of WIA. Another 
example, where opportunities presented by WIA have not been fully taken 
advantage of, is when the partnership with public VR has been 
itinerant, consisting of a local VR counselor spending a day per week 
(or even less) at a One-Stop with limited interaction with other staff, 
which is not the integrated and collaborative partnership envisioned 
under WIA. At the same time, qualitative research clearly indicates 
that when there have been strong partnerships in place, including those 
with public VR, the result has been mutual benefit for all concerned. 
Therefore, the partnership mandates within WIA for the One-Stop system 
needs to be strengthened, with much clearer parameters regarding the 
requirements of partnership, and penalties and sanctions for non-
compliance.
    <bullet> Maintain Public VR as a Mandated Partner: It is highly 
recommended that the public Vocational Rehabilitation (VR) system 
remain as a mandated partner within the One-Stop system. The leveraging 
of resources and mutual benefits that have been observed on an 
anecdotal basis and through qualitative research (see reference in 
footnote 2 on case studies of MN, KY and ME), have clearly indicated 
the benefits of this partnership when properly structured and with the 
commitment of all involved.\2\
---------------------------------------------------------------------------
    \2\ http://www.communityinclusion.org/
article.php?article_id=4&type=topic&id=9; http://
www.communityinclusion.org/article.php?article_id=3&type=topic&id=9; 
http://www.commun
ityinclusion.org/article.php?article_id=5&type=topic&id=99.
---------------------------------------------------------------------------
    <bullet> Remove Partner Infrastructure Contribution Requirement: 
Extensive and excessive energy has been spent over the last decade on 
the WIA requirement that all partners must contribute to the core 
services and infrastructure of the One-Stop system, and this has often 
been a barrier and distraction to productive partnerships. To address 
this issue, as recommended by a multitude of commentators, it is 
suggested that a separate line item be created for core One-Stop 
infrastructure, and that this mandate for partnership contributions to 
infrastructure be removed and alternative mechanisms for partnership 
development be allowed.
    <bullet> Encourage Participation by Other Disability Partners 
Beyond VR: Public VR is the only disability specific system that is a 
mandated One-Stop partner, and as a result is the only disability 
specific system that has a mandate to serve on the local workforce 
investment boards that oversee the workforce development system and 
One-Stop Career Centers. Given that VR only represents a percentage of 
individuals with disabilities, and many people with disabilities 
receive employment assistance outside of the VR systems, it is 
recommended that language be inserted into WIA which either mandates or 
encourages other disability systems be included as members of workforce 
boards and/or partner in other ways with the workforce development 
system. These would include public intellectual/developmental 
disability systems, public mental health system and State and local 
school districts. Similarly, language should be included that mandates 
or encourages partnership with the Veteran's Administration, which has 
a major constituency of veteran's with disabilities, that could benefit 
from stronger linkages with workforce development.
Social Security Employment Supports
    <bullet> Strengthen Role with Ticket to Work and Other Social 
Security Employment Support Programs: It is recommended that language 
be included in WIA that strongly encourages or mandates that One-Stop 
Career Centers be Employment Networks under the SSA Ticket to Work 
program, which could be a catalyst for increasing services to people 
with disabilities. Similar to this, should be language that encourages 
linkages with Work Incentive Planning and Assistance (WIPA) Programs, 
and other Social Security employment support programs. As noted above, 
mandating tracking of the SSI/SSDI status of workforce development 
system customers, would assist in such efforts.
Disability Program Navigators
    <bullet> Make Disability Program Navigators Permanent: The 
Disability Program Navigator (DPN) system has been a real asset to 
people with disabilities in accessing the One-Stop system. In order to 
strengthen the DPN system, it is recommended that the WIA 
reauthorization include a statutory requirement to maintain the DPN 
system, with expansion to all 50 States.

    Senator Murray. Thank you.
    Ms. Sarris.

 STATEMENT OF MARY W. SARRIS, EXECUTIVE DIRECTOR, NORTH SHORE 
             WORKFORCE INVESTMENT BOARD, SALEM, MA

    Ms. Sarris. Hello, Senator Murray and Senator Isakson. 
Thank you so much for having me today.
    And again, I also want to reiterate we miss Senator 
Kennedy. We thank him so much for all of his work and know he 
is listening to what we are saying and moving forward to make 
WIA the best possible program it can possibly be.
    Again, I am Mary Sarris, and I am with the North Shore 
Workforce Investment Board (NSWIB). We are located about 12 
miles north of Boston. We serve 19 cities and towns along the 
coast of Massachusetts. Our board is 35 members, a very active 
partnership between business, organized labor, the community 
college, the State college, several community-based 
organizations, and of course, our mandated partners. We are a 
very active and involved board and that has allowed us to 
become one of three high-performing WIBs in the State of 
Massachusetts, and we think has allowed us to be creative, 
forward-thinking, and solution-oriented to the problems that we 
face on the north shore.
    My remarks are basically based on five principles that we 
think are critical for WIA reauthorization.
    First, is that those decisions that are made closest to the 
customer are the best decisions. The opportunity for local 
organizations and regional organizations to serve customers 
must continue to be stressed under WIA reauthorization.
    Second, we believe that WIBs, particularly, for example, 
the North Shore WIB, represents that ideal partnership since we 
have all members of the community on the WIB and they are all 
very active and participatory in the decisions. They are 
empowered to make the decisions that make our system work, and 
they do take that power and go with it.
    Third, we also believe, of course, that WIA must remain an 
education and training-focused piece of legislation. As 
mentioned before, the infrastructure of the One-Stop system 
should be supported under other means, and we should use as 
much of our money as possible to educate and train the 
workforce.
    Fourth, youth services, and I will talk a little bit more 
in detail about this. But youth services must be restructured 
to better serve our emerging workforce. This group of 
individuals, probably a critical aspect of our workforce, is 
under a great deal of stress, growing every day, and we must be 
able to be creative and innovative as far as serving their 
needs and helping them make informed career decisions and 
moving into the next phase of their adult life.
    Finally, of course, the system must be very accountable. We 
believe on the North Shore that there are no secrets, and 
everything that we do, all of the funds that we spend, all the 
programs that we operate are on our Web site. And we look 
forward to our stakeholders participating in helping us make 
decisions to make those programs run well.
    We see two major strengths with WIA right now.
    First, is the Workforce Investment Act has allowed us to 
develop expertise in four nonprofit organizations and probably 
more than that as well. For WIA vendors that have come to know 
and understand what the workforce is and know and understand 
how to communicate that information to the young people, they 
have learned what our critical industries are. They have 
learned what it means to get ready for work, to stay in school, 
and we are pleased that our capacity has been increased and 
enhanced under WIA through these organizations.
    In addition, we have been fortunate that our One-Stop 
system has been able to respond to youth. Through the WIA 
legislation, we receive about $1 million every year for our WIA 
youth programs. In addition, the State of Massachusetts has 
been able to provide us with about $500,000 in resources that 
allow us to serve as many youth as possible, even those who are 
above the WIA eligibility guidelines. Through that, we have 
been able to establish a youth One-Stop Career Center within 
one of our One-Stops. That center is critical and has done 
great work in helping young people.
    Of course, the area of challenges. We do believe--it has 
been said already--the youth eligibility must be changed. It is 
way too complicated, particularly for the type of young people 
that we serve. We estimate that about 50 percent of the young 
people who come to us do not complete the eligibility process 
because it is just too onerous. These are young people who 
really need our services, but have a hard time completing all 
the documentation. We would like new legislation to support the 
opportunity for WIBs to establish their own guidelines, and we 
ask you to trust us that we will most definitely serve those 
most in need.
    We also believe in the presence of a strong summer jobs 
program. The stimulus money has provided us with that 
opportunity this year, and we guarantee you it is money that is 
being put to good use.
    As far as modernization of WIA, Secretary Oates and 
Secretary Kanter discussed this this morning. We need the 
ability to work more closely with our local school districts, 
particularly to help kids make informed career decisions about 
STEM careers. And we ask that the new WIA provide incentives 
for WIBs and local school districts to work together in that 
vein.
    The rest of my details are in my testimony, and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Sarris follows:]
                  Prepared Statement of Mary W. Sarris
                              introduction
    Mr. Chairman and members of the Health, Education, Labor, and 
Pensions Committee, thank you for the opportunity to participate in 
these very important committee hearings on the reauthorization of the 
Workforce Investment Act of 1998. As a Massachusetts Workforce 
Investment Board (MWIB), we are truly fortunate to have Senator Edward 
M. Kennedy as a leader in workforce development and committed to 
building and supporting a quality workforce system. On the North Shore 
of Massachusetts, we are also fortunate to have Congressman John 
Tierney as a leading member of the House Committee on Education and 
Labor, and another leader and supporter of our work. Finally, we have 
Governor Deval Patrick and his Secretary of Labor and Workforce 
Development, Suzanne Bump, working hard to support Federal efforts with 
State funding as well as helping us at the local level build valuable 
partnerships that really make WIA work for our economy.
    My testimony is based on five basic premises, which we believe are 
critical to our continued success both in the current challenging 
economic climate and as we build the 21st century workforce in 
Massachusetts and the Nation.
    First, those decisions that are made closest to the customer are 
the best decisions. When a job seeker, young person or company comes to 
the workforce system with an issue or challenge that is unique to that 
customer, those providing this service know the community and the 
conditions in which these challenges exist and are best situated to 
develop the most appropriate response and outcome. WIA reauthorization 
must continue to support a locally driven workforce system that 
strengthens effective partnerships among business, labor, educators and 
community and faith-based organizations to deliver effective workforce 
services.
    Second, private sector-led workforce boards that create the 
strategic community-based partnerships are the best vehicles for 
ensuring these quality workforce services for job seekers--both youth 
and adults--and companies. This is very hard and challenging work under 
the best of economies and local partnerships and collaborations, such 
as that envisioned in WIA through a WIB-led system of strong One-Stop 
Career Centers is the only way that we can build and sustain a quality 
workforce system. We have seen this work on the North Shore of 
Massachusetts and in other regions of the Commonwealth where the chief-
elected officials empower the WIB to develop and implement a strategic 
vision for the region. We hope that future legislation will strengthen 
our ability to make regional decisions with sufficient resources to 
make a significant impact on the economy of our region while at the 
same time streamlining the administration of the regional workforce 
system.
    Third, WIA must, in the final analysis, be an education and 
training system. Over the past decade, a significant amount of WIA 
resources have gone to support important infrastructure requirements of 
One-Stop Career Centers. While One-Stops are our primary labor exchange 
vehicle for workers and companies, siphoning off training funds to 
support infrastructure has decreased our ability to train workers for 
careers in emerging industry sectors. We need both a strong One-Stop 
system and a vibrant education and training capacity. Wagner-Peyser 
funds are most appropriate for the labor exchange functions of our 
local system. The continued delivery of employment services by State 
merit-based staff in partnership with the local WIA provider will 
ensure the greatest flexibility and service options for our customers. 
Also, as provided for in the American Recovery and Reinvestment Act, we 
need greater flexibility to use training dollars to support worker 
skill upgrades through our system of community colleges and vocational 
technical schools. Training for both unemployed and incumbent workers 
must be part of a renewed commitment to responding to the dual 
challenges of the skill shortage and labor surplus problems we are 
facing in the current economy.
    Fourth, we need a new approach to serving the needs of young people 
16-24 years of age. Both nationally and in Massachusetts, the job 
market for teens (16-19) and many young adults (20-24-year-olds) has 
collapsed in recent years. Nationally, teens did not gain any net new 
jobs during the national labor market recovery and expansion from 2003-
2007, and Massachusetts' teens experienced a very similar fate. In the 
first 3 months of this year (2009), fewer than 30 of every 100 teens in 
the Nation and State were employed. This is a record lows for both 
areas. At the national level, the U.S. Congress and the Obama 
administration included $1.2 billion in WIA youth monies under the 
American Recovery and Reinvestment Act of 2009 to create both summer 
and year-round jobs for economically disadvantaged 14-24-year-olds. A 
federally funded summer jobs program for teens has not been in 
existence since 2000. At the State level, the Patrick administration 
has committed $30 million in Federal and State monies, including WIA 
youth months, YouthWorks and Shannon Community Safety Initiatives 
monies to help put 10,000 of the State's 14-24-year-olds to work this 
summer. We need nothing less than a Teen Employment Marshall Plan to 
respond to the crisis of young people.
    And, finally, of course, we should be held to strict accountability 
and transparency standards that ensure a wise and fruitful investment 
of public dollars. On the North Shore we have a belief that there are 
no secrets to what we do--all information on the programs we offer and 
the outcomes we achieve are available on our Web site and in constant 
meetings with our stakeholders and customers. This philosophy must be 
prevalent across the Nation so that we can build support and 
involvement with all our stakeholders and the general public.
           the north shore workforce investment board (nswib)
    The NSWIB serves a community of 19 cities and towns located 12 
miles north of Boston with a population of close to 400,000 
individuals, labor force of over 200,000 and approximately 18,000 
businesses. Our unemployment rate is at 8 percent matching the State of 
Massachusetts as a whole. As can be expected we are experiencing a 
swift downturn economically in conjunction with the State of 
Massachusetts and the rest of the country. Last year our unemployment 
rate was 4.7 percent with Mass at 4.8 percent.
    The WIB consists of 35 members, with private sector representation 
from our critical industries including durable goods manufacturing, 
health care, construction and banking, along with our emerging 
industries of biotechnology and the Creative Economy. Public partners 
include the local community and State college, our largest K-12 school 
system, the carpenters union and the North Shore labor council, two 
community-based organizations, one economic development agency, and of 
course the WIA mandated partners. We are a true ``WIA WIB'' in that we 
were established concurrent with the implementation of WIA in 
Massachusetts and have existed only under this legislation.
    The city of Salem is our lead city, and provides strong partnership 
services including acting as the WIB's fiscal agent and appointing 
authority to the board. Our Mayor, Kimberley Driscoll, is an active 
participant in workforce development and regularly engages her fellow 
mayors in this process.
    The WIB, in partnership with Salem, oversees and charters on a bi-
annual basis, a One-Stop system that includes three One-Stop Career 
Centers located throughout our region. In addition, we have a firm 
belief in the use of data to drive improvement, so have an active and 
we hope responsive labor-market data division that provides information 
to the WIB and to other partners as they move their work forward. 
Finally, we believe in a sectoral approach to workforce development, 
and have several active sector industry partnerships in play reflecting 
our critical industries as mentioned above.
    Our Strategic Plan has five primary goals, including:

    1. Building the capacity of the North Shore Workforce System to 
meet labor market needs;
    2. Fully engaging the business sector to close the skills gap that 
exists between available workers and employers;
    3. Enhancing our Youth Pipeline by increasing and aligning 
education, training and employment programs;
    4. Increasing, strengthening and strategically aligning 
relationships with Federal, State, and local partners/stakeholders; and
    5. Managing and enhancing available resources to support and grow 
operations.

    Recently the NSWIB received High Performing WIB status through a 
rigorous review process designed by the State of Massachusetts. We 
believe this status reflects the strength of our local board and our 
ability, as a business-led local entity, to understand what is 
happening in our region and to respond appropriately and successfully 
to our labor market and economic circumstances. As stated above, we 
believe that strong WIBs are possible, a preferred method of service 
delivery, and result in quality services to companies and individuals, 
and we ask for continued support for this model in the next phase of 
WIA--we believe in the business adage that the best decisions are 
reached closest to the customer, and hope that this philosophy 
continues in WIA's next life.
                       nswib youth serving system
    The Workforce Investment Act provides us with the greatest share of 
youth money on the North Shore, totally $962,420 in fiscal year 2009. 
As stated above, we are fortunate to have several other youth funding 
streams through the Commonwealth of Massachusetts totaling $542,163. In 
addition, for the past 4 years we have raised funds privately--
approximately $80,000 per year--to support a very small summer jobs 
program which we call F1rstJobs.
    These non-Federal funds help support WIA work but also provide us 
with the ability to work with teens and other young people who are in 
need but do not meet the WIA eligibility guidelines. For example, State 
funds include projects such as Pathways to Success by 21, which is a 
Massachusetts initiative through which the WIB convenes all youth 
serving agencies in our region and works with them to provide seamless 
employment and wrap around services to at-risk youth. Through P-21 we 
have added freshmen college-level courses to our WIA Out of School 
Youth programs, providing WIA youth with the opportunity to leave WIA 
not only with a GED but with college credits to make their transition 
to college all that much more successful. These sorts of programs are 
critical to building the youth workforce system that helps all youth, 
including WIA youth, to make the leap into the primary labor market.
    Even in the best economy our young people were struggling to 
transition into the primary labor market. For the past several years, 
in fact since the 1980's, youth employment has been declining for 
several reasons, including elimination of many entry-level jobs, 
competition with returning retirees, and a perceived or real lack of 
employment preparedness in the youth pipeline. In 2008, the teen 
employment rate across the country was at 30 percent, the lowest rate 
in post-World War II history. For 20-24-year-olds, employment rates in 
2008 were nearly 5 percent below those in 2000. In January 2009 young 
males were employed at nearly 10 percent lower than in early 2001. This 
crisis is even more compelling for low-income youth, who, without 
networks and other supports, find it even more difficult to move 
successfully into work. We know through research that in-school work 
experience leads to higher graduation rates, particularly among black 
and Hispanic males and leads to higher employment rates and earnings as 
young adults. In addition, labor markets with high teen-employment 
rates for males reduces their involvement with the criminal justice 
system, and for females results in lower teen pregnancy rates.
    In addition, as our local school districts work to increase 
graduation requirements so youth are better prepared to enter the high-
skilled work force--a good thing!--we are finding a cohort of youth who 
are, under these policies, struggling to graduate--in a way a group of 
youth who are caught in the middle of positive policy changes that have 
a negative impact on their future due to their current educational 
status. As the work world becomes more complex, virtually all young 
people (not to mention our adults), are finding it harder to move into 
and through this work world and toward careers and economic self 
sufficiency. WIA is a large part of the solution to this dilemma, and 
has made a huge difference in our region for those most at-risk. 
However, the opportunity to modernize WIA to reflect our current 
economy and educational and social needs represents a chance to make 
WIA even better.
                             wia successes
    WIA funds have been used by four youth serving organizations in our 
region to develop the capacity to deliver high quality workforce-
related services to at-risk youth. While these organizations had all 
been well-respected in relation to their youth services, their 
connection to workforce development and their ability to help at-risk 
teens make informed education and career choices has been enormously 
enhanced by participating in WIA youth programs. They have learned how 
to engage youth in dual goals, including high school equivalency AND 
job AND college. As stated above, they have creatively brought in 
community college courses as part of their curriculum, and will be 
adding computer literacy training as a service for all their students. 
WIA has spearheaded this change--and we believe has added a critical 
level of quality and sophistication of services in our region.
    We have been able to enhance our Career Center's ability to work 
with youth. Early on as a WIB our Career Center staff began coming to 
the WIB pleading for training and enhanced services for teen and older 
youth job development needs. These young customers were coming into the 
Centers that did not have programs and services appropriate for their 
circumstances. Through a strategic planning effort in cooperation with 
our Career Centers, the WIB established as a priority the development 
and support of a Youth Career Center (YCC), located in a separate 
office within one of our One-Stop's location. This Youth Career Center, 
funded through WIA and other youth funds through the State of 
Massachusetts and private contributions, has allowed us to 
appropriately focus workforce services for this population, including 
job readiness workshops, assistance in applying for jobs, and referral 
to WIA or other youth programs. The YCC is not seen as separate from 
our One-Stops, but an integral part of the One-Stop system, so young 
people as they mature easily move between the two, and come to know and 
understand these services as available to them at any time in their 
work life. In addition, our One-Stop Career Center's Business Services 
Unit has developed an expertise in developing jobs for teens as well as 
adults, particularly during the summer season where teen jobs are in 
such demand.
                          improvements to wia
    WIA should be modified to change youth eligibility and to change 
the way we determine eligibility.  Current eligibility rules require 
stringent documentation, including income tests, academic skills 
assessments, previous criminal records, foster care information, and 
other documents that are by definition difficult to obtain and 
reflective of failure by those we are seeking to obtain them from. 
These very steps are demoralizing to the youth we are trying to 
enroll--how can we imagine an at-risk youth trying to make positive 
changes by enrolling in a quality WIA youth program only to be told 
that he or she has to prove their failures in order to begin the 
process. These youth are easily turned off by such bureaucracy--in 
fact, we estimate that probably only 50 percent of those who begin this 
process actually complete it, representing a core of young people 
denied service by the system designed to provide these services.
    In addition, these rules exclude a large population of needy youth 
whose families are struggling at just over poverty level, such as 
families who are eligible for free/reduced lunch or other Federal 
income-tested programs. These teens are left out of critical growth 
experiences in the work world that could prevent them from falling into 
great poverty or other at-risk situations.
    We do not ask that we lose our focus on serving the most at-risk. 
Instead we ask that local WIBs be given the authority, as they are 
under the WIA Adult programs, to develop a process that works for the 
population we are trying to serve. There are many ways to show need 
that are not inflammatory or degrading or difficult and bureaucratic to 
obtain. Income proxies from other Federal, State, or local programs 
should be allowed. Partnerships and enhanced communication and mutual 
responsibility with other youth serving agencies or organizations 
should be encouraged so that referrals are made seamlessly and 
acceptable documentation received this way. Automatic eligibility, 
regardless of income, should be granted for certain risk factors such 
as youthful offender status, high school drop-out, teen parent, etc. We 
ask you to trust the local level to understand who needs to be served 
and how best to document this--we know that this will have an 
enormously positive benefit to the youth we are working to serve.
    WIA should allow local regions to determine other aspects of 
service, such as the in school/out of school balance. Through long 
conversations and debates, our Youth Council and WIB determined several 
years ago to focus our limited WIA youth funding on our out-of-school 
population. While not totally eliminating in-school services (we are 
currently at a 37 percent/63 percent in-school/out-of-school ratio) we 
recognized a tremendous void in services for the out-of-school 
population in our region and have thus targeted our resources 
accordingly. The result are three well-run and responsive programs for 
out-of-school youth that did not exist in the past, along with two very 
strong in-school programs working closely with the local school 
districts in keeping at-risk teens in school. Other regions may see 
this issue differently, and reverse this structure. In any case, as 
mentioned above, we ask that decisions such as these remain with the 
local regions, ensuring that local needs are met.
    The value of a summer employment program for at-risk youth cannot 
be underestimated. While we believe in the full WIA youth program model 
for at-risk youth, we also know that large numbers of teens--in fact 
the majority of teens at all income levels--cannot find work during the 
summer. Summer employment is key to teens' full workforce development 
and yet is basically unavailable even in good economic times. We know 
this by the number of youth who come to our Career Centers looking for 
work--and by the economic challenges that companies face when hiring 
youth. We know, for example, that the retail trade, often where a teen 
finds the first job, has, in many cases, made strategic decisions to 
increase minimum age for employment sometimes to 18 and often to 21. In 
addition, they are tapping an age cohort only recently available to 
retail, i.e., retirees, to fill the need for temporary and/or part-time 
employment. Recent data collected by the Center for Labor market 
information at Northeastern University shows that summer employment 
nationally and across Massachusetts continues to decline every year, 
with of course a major decline expected this summer. We are fortunate 
this year that the American Recovery and Reinvestment Act allow us to 
provide this service to at-risk youth this summer (albeit with the 
eligibility challenges as mentioned above). This should become a 
standard part of WIA, with priority service to low-income youth and 
with the ability of local WIBs to establish other priorities and 
documentation requirements. A permanent summer jobs program will be a 
very strong and fruitful investment in the lives of these youth AND in 
the strength of the youth pipeline.
           innovative policy recommendations to modernize wia
    In summary, the above issues would result in THREE policy changes 
in a new WIA. These include:

    1. The opportunity for local WIBs to establish eligibility policies 
and procedures around youth service, while retaining the requirement to 
give priority to low income, severely at-risk youth.
    2. Providing local authority to establish other program priorities, 
including the in-school/out-of-school program mix.
    3. Allowing a permanent, stand-alone summer jobs program for all 
youth, with a focus on serving youth who are at or near poverty or 
exhibit other at-risk characteristics.

    In addition, other policy suggestions to modernize WIA would 
include:

    <bullet> Require secondary and post-secondary institutions to work 
closely with the workforce system to better prepare all youth to 
consider careers within local and national critical and emerging 
industries, most of which have a STEM focus. The workforce system is 
often relegated to the fringes of our traditional educational system, 
based on the overall American belief that individuals study first, and 
then go to work. While we are making progress, we have a long way to go 
to ensure that students at all levels see the connection between what 
they are learning in school and how it plays out in our high-skilled 
work environment. For example, WIA should support the placement of 
teachers in summer externships where they practice their area of 
expertise in a work environment and then translate this experience into 
curriculum and related activities that make STEM real to young 
learners. The new WIA should provide incentives and supports to WIBs 
that work closely with their local school systems to develop and 
implement programs such as this and related curriculum that helps all 
youth become excited and committed to careers in STEM fields.
    <bullet> In addition, the new WIA should have incentives/options to 
allow local WIBs and the educational system to develop appropriate 
transition programs for youth. We know that in too many cases youth are 
graduating from high school not prepared to college-level programming, 
whether of a certificate or associate/bachelor degree nature. WIBs, 
with their diverse membership of business, labor, education, and 
community organizations, are the perfect place for conversations around 
this challenge to take place--for both the adult and the youth 
customer. A modernized WIA would reward those regions that take on this 
dilemma and develop solutions that result in a greater transition to 
higher education and into high-skilled jobs.
    <bullet> The new WIA should support and expand the ability of One-
Stop Career Centers to provide universal services to all youth within 
the community.  Currently, due to funding limitations and rules, most 
One-Stops find it difficult and/or unallowable to provide these 
services. As mentioned above, WIA youth funds are limited to serving 
only the most at-risk, and a Youth Career Center should be open to ALL 
youth, just as adult One-Stops are open to all adults. We on the North 
Shore have been able to establish a Youth Career Center only because of 
additional State support for youth. We urge that the new WIA treat 
youth as the old WIA treats adults, i.e., individuals who need job-
related services without regard to income or other factors.
    <bullet> The new WIA should adjust performance standards for all 
youth, regardless of age, to encourage continued education as well as 
job placement upon high school graduation or GED receipt. We need to 
focus on helping young people choose a career path that will provide 
them with the opportunity to be economically self-sufficient as adults. 
These paths in general require additional post-secondary education as 
well as work experience. Young people should be encouraged to consider 
multiple pathways to reaching their goals, and the new WIA should be 
designed to encourage these outcomes.
                               conclusion
    When Congress enacted the Workforce Investment Act of 1998 we were 
in a period of strong economic growth and global transition. WIA as 
designed at the time was right for transforming the job training system 
into the 21st century.
    Global transition accomplished, we now face the most significant 
economic challenges since the Great Depression. According to the Bureau 
of Labor Statistics more than 15 million people are officially out of 
work and our unemployment rate is approaching 10 percent. We have to 
rethink how we respond to the current labor surplus while at the same 
time prepare workers for those industry sectors that remain critical 
and/or are emerging, such as green job, high-skilled manufacturing, and 
health care.
    This will require keeping what worked and taking bold steps to make 
the changes that are needed now. We believe Congress should:

    1. Continue support for local decisionmaking through WIBs as 
partnership among business, labor, education, and community/faith-based 
workforce leaders;
    2. Provide dedicated funding for the One-Stop Career Center 
infrastructure in an effort to maximize training resources under WIB;
    3. Create a Teen Employment Marshall Plan to respond to the youth 
employment crisis, including simpler and more locally driven 
eligibility and other programmatic policies, a permanent summer and/or 
year round jobs program, great connections to STEM careers, support for 
youth services in our One-Stop system, transition support for youth to 
the next steps, and more appropriate performance outcomes; and
    4. Insure accountability while at the same time provide maximum 
local flexibility in program implementation.

    We are at a crossroad and we need to take the best path to 
education, train, and put America's youth--and adults--back to work.
    Thank you.
                                 ______
                                 
           Attachment.--Profiles of Youth being served by WIA
    Below are five vignettes of youth served through the North Shore 
Workforce Investment Board's WIA Youth programs. These programs are 
offered by four community-based organizations chosen through a 
competitive bid process on a bi-annual basis. They include:

    <bullet> Action, Inc. in Gloucester--Compass Program.
    <bullet> Catholic Charities in Lynn and Salem--Youthworks.
    <bullet> My Turn in Lynn--WIA Out-of-School Youth Program.
    <bullet> Girls Inc. in Lynn--Careerpath.

    We attach these stories to provide a more compelling picture of the 
employment and educational challenges of WIA youth and the creativity 
and dedication of our partners as they help these young people overcome 
these challenges.
                                 ashley
    Ashley entered the Compass program in the fall of 2007 to complete 
requirements for her high school diploma. She was an out-of-school, 
older youth who only needed a few additional requirements for 
graduation. Through our program we set her up with a Credit Recovery 
academic plan which included participating in the Composition I course 
offered at Compass through North Shore Community College. We began the 
enrollment process with the Workforce Investment Board to qualify her 
for our programs after her 3-week trial period. This was a complicated 
task because of the extensive paperwork required for eligibility. With 
out-of-school youth school many times documents are no longer valid 
because they are out-dated for WIA eligibility requirements and, many 
of our students--including Ashley--do not have their social security 
cards in their possession. It is difficult for our students who do not 
have transportation and other forms of identification to get a 
duplicate card. Ashley's mother is hearing impaired and their only form 
of income is her disability check, but getting this documentation is a 
long process. Eventually Ashley was approved through WIA in April. 
Ashley continued with the program throughout the process and received 
her Gloucester High School diploma in June 2008, 3 years after her 
anticipated graduation date. She was placed in work experience at 
Addison Gilbert Hospital where she got experience and earned her first 
ever pay check. Ashley has just completed her first year at North Shore 
Community College in the medical administrative assistant program, 
making the dean's list. She is looking forward to returning to school 
in the fall and getting her associates degree.
                                 chris
    Chris was a bit of a ``sad sack'' when he first arrived at the 
Catholic Charities GED Program in May 2008. His scores showed that he 
would need to make a long term commitment in order to successfully pass 
his GED. He participated in the summer employment program by working in 
the maintenance department at the Catholic Charities Day Care Center. 
The director of the day care often commented on how he managed to paint 
himself more than the walls. Slowly, we watched Chris grow. He became a 
strong and dedicated student in the fall. He worked hard in class and 
was never shy about asking questions. All the staff at the Center got 
to know him and would often ask how he was doing. One year after Chris 
began the program, he took his GED test in May 2009. Although, he did 
not pass the math section, he did successfully pass the other four 
tests. He wanted to take the retest in math right away and came to the 
program every day during the following month. On June 18, 2009, Chris 
graduated with the rest of the class, having successfully passed all 
five sections of the GED. Now he is planning to attend Marion Court 
College in September and in order to feel more acclimated to the 
campus, he is spending this summer's employment opportunity on the 
campus working in the grounds keeping department.
                                 iesha
    Iesha was 16 when she entered the program, pregnant but very 
determined to find a way to put her life back together. She was 
considered a ward of the State and was living with an aunt here in 
Lynn. She was enrolled in the program in February 2008 and progressed 
rapidly toward her GED. While she was in the program, she participated 
in the Navigating the Future College Writing class as well as the 
Transitions to College Course, earning her four college credits. Within 
2 months, she took her GED test and passed. She then participated in 
the summer youth employment component and was placed at the CAEP 
(College Application Education Program) as a youth mentor. Barely over 
17, she gave birth to her son in July. Her plans were to move forward 
and she wanted to attend college class over the summer, but reality 
taught her that she needed to pace herself and she postponed starting 
until September. A referral was made for her to connect up with the 
Healthy Families Program to help her with parenting skills and how to 
time manage. She enrolled at North Shore Community College in January 
2009 and has been attending full-time. During the last conversation 
with Iesha, she expressed that she is doing very well and that she is 
exactly where she had hoped she would be in her life.
                               laporscha
    Laporscha first entered the program back in February 2008 looking 
to get her GED and find a job, eventually entering the field of 
criminal justice. Her attendance in the program was remarkable from the 
beginning. While attending classes, Laporscha showed a strong interest 
in almost everything we had to offer. Her adventure started when she 
took part in a focus group sponsored by the Commonwealth Corp on a new 
initiative called ``Think Again.'' The program was designed to help 
young people make choices while they were in middle school. She was 
hooked and wanted to know and do more. We offered to have her enroll in 
the Northeast Youth Leadership Program and in July 2008 she spent 3 
days and 2 nights at Merrimack College in Andover attending a training 
to become a youth leader. While still attending the GED classes, she 
also participated in the Navigating the Future/North Shore Community 
College, Transition to College course. Using the skills she had 
acquired in the training, Laporscha started a work experience placement 
as the coordinator for the Think Again Project. The design was to have 
her work with and in the local middle schools to help reach young 
people thinking about quitting school. She also did a summer youth 
employment placement at the Catholic Charities North Day Care Center. 
She worked for 7 weeks in the day care helping with feeding, daily 
games and activities and assisting the teaching staff. She got a job at 
the local Taco Bell and was happy to be bringing in a pay check. All 
the while, she was dealing with serious social issues at home that 
frequently left her homeless, penniless and with no one to turn to. 
Amazingly, Laporscha continued to take advantage of everything the 
program could offer to her. By the winter, she made a difficult 
decision to go to California to live and work with her grandmother and 
her aunt. She left in January 2009 in hopes of finding a new life and a 
new direction. With the beginning of spring, Laporscha returned to 
Lynn. She called and asked if she could return to the program. Here she 
has a sense of direction and meaning and she would like to continue 
toward the dreams and goals she first established a year ago. Very few 
students take advantage of as many opportunities as Laporscha did, and 
hopefully, she will continue to reach out to all we have to offer.
                                 gisell
    Gisell came to Girls Inc. from the Dominican Republic during the 
summer. If she had stayed in the Dominican Republic, she would have 
been entering her senior year of high school. Her first language was 
Spanish, so she needed to work on her English. In Lynn she started 
school as a junior. The Career Path Program funded by the Workforce 
Investment Board changed everything for her. She says, ``I didn't know 
the way to get into college, especially here in the United States. They 
showed me everything. Every question I had, they answered.'' Gisell 
used every resource available. She found the workshops on interviewing 
for a job and financial literacy especially valuable--she says these 
are good skills for life. She found the weekly Mentor Program that is 
part of Career Path was just what she needed to take the many steps she 
had to take to reach her academic and life goals. She was matched with 
a volunteer mentor from Lynn who supported and encouraged her, and she 
found she could make use of the differences in their life experiences. 
Gisell was accepted at the college of her dreams! However, she ran into 
a major bump in the road. While the college offered her some financial 
assistance, she came to realize that she did not want to put her family 
into debt. Gisell is very strong-minded, so she was not excited about 
making a back-up plan. But she says that the Career Path Coordinator 
and Academic Advisor for the Career Path Program helped her to see that 
going to another college was not the end of the world and that she 
could still reach her long-term goals. They helped her adapt 
successfully to her real life circumstances. Gisell is currently doing 
well at North Shore Community College and is a member of the Honor 
Society. She is struggling with one class. She used connections she 
made while in the Career Path Program to continue working with TRIO and 
join a study group to help her with the challenging class. Gisell did a 
summer internship in Lynn at the community dental center. From this 
experience she gained the confidence that she could ``do anything.'' 
Later she worked weekends at Brooksby Village leading activities for 
elders, and they loved her! She also took advantage of a volunteer who 
came to Girls Inc. to do a physics project in which she made a wooden 
triangle fly using electricity. She also attended an architecture class 
taught by a Girls Inc. Board member. Gisell says, ``I never would have 
made it to where I am now without Girls Inc. and the Career Path 
Program.''

    Senator Murray. Well, thank you very much.
    Ms. Cooper.

 STATEMENT OF KATHY COOPER, POLICY ASSOCIATE, OFFICE OF ADULT 
 LITERACY, WASHINGTON STATE BOARD FOR COMMUNITY AND TECHNICAL 
                     COLLEGES, OLYMPIA, WA

    Ms. Cooper. Thank you, Chair Murray, Senator Isakson. It is 
a pleasure to be here today to bring some perspective from 
adult basic education providers in Washington State. I think 
you will hear them echo the themes that you have already 
discussed this morning.
    I would tell you that I bring their great sense of urgency 
to this conversation. Adults with skills gaps in basic 
education and English as a second language in my State come 
from the fastest growing population groups, are under-prepared 
for the jobs they have today, and lack the skills for the 
programs that could prepare them for the job that will need 
them tomorrow. They will make up a significant part of our 
future workforce for the next two generations, are one of our 
State's richest potential assets, and within the parameters and 
supports of the current law, we are able to serve less than 10 
percent of the need.
    In response to those needs, I am here today to ask you to 
focus your modernization in four areas.
    The first is to identify the purpose of title II as student 
success in post-secondary education and progress along career 
pathways. Eighty-six percent of the adults who come to our 
program come with the goal of gaining skills to get and keep a 
better job. Our research has identified the point at which 
these students will have just enough skills and knowledge to 
get a family-wage job. We call that the ``tipping point.'' It 
is 1 year of college credit and a vocational credential or 
certificate. That is the goal for our adult literacy programs, 
the minimal goal for every student they serve. It is a goal 
worth having for title II, and it is a goal the President has 
declared for the country's education system.
    The second change that we seek is language that identifies 
and supports the expansion of integrated education. As you have 
heard this morning, our State's flagship innovation is 
integrated basic education and skills training, or I-BEST. I-
BEST puts an adult basic education and professional-technical 
instructor in the same classroom at the same time, offering 
instruction that integrates job training and adult basic 
education. All I-BEST programs lead to vocational certificates 
recognized by local employers in demand fields that pay family 
wages. Those certificates carry exactly the same credit and are 
the same certificates that other college students earn.
    I-BEST also provides a full range of student support, but 
the most important thing about I-BEST is that it works better 
than anything else we have ever done. The latest study 
documents that I-BEST students earn an average of 52 college 
credits. That is more than the 45 required for the tipping 
point, and they demonstrate greater gains than adult basic 
education students in traditional classrooms. However, we 
cannot continue this level of innovation in the margins. The 
new WIA can make room, however, for this success in Washington 
and other States.
    A third critical area is to ensure that those who need most 
education and training will be able to get it by aligning 
titles I and II and naming community colleges as partners. Even 
in Washington where we have good will and we have good 
intentions, we are able to overcome the structural barriers to 
jointly serve in any great number those who are most under-
prepared. The new law can align program definitions, allowable 
activities, outcome measures, and performance targets that will 
drive us to invest in the workers who are currently getting the 
least and who need the most and who stand to most contribute to 
a vibrant economy.
    In my home State, we also know that the community and 
technical college system is at the center of moving under-
prepared adults into the skilled workforce. We are heartened to 
hear President Obama's support for our system and his inclusion 
of adult basic education and integration in his thinking.
    The success of the new act will be greatest if each State's 
college system is named as a system partner. That new 
relationship will result in a more comprehensive education and 
training system that can more fully develop the workforce.
    Finally, we ask you not to starve the solution. In 
Washington, we know what we need to do and we know how to do 
it. Meanwhile, Federal resources decrease every year. So we 
would ask you to authorize an additional $17 million in 
appropriations this year to hold harmless 36 States penalized 
when the Department of Education changed their data source. 
Washington State alone stands to lose more than a quarter of a 
million dollars.
    We would ask you to increase next year's appropriation to 
$750 million, an investment that would simply allow States to 
serve as much as 40 percent of the adults already on waiting 
lists.
    And finally, we would ask that you target an additional $75 
million to help States develop the kind of innovative programs 
like 
I-BEST that move low-skilled adults further and faster on 
career pathways to success.
    We are proud of our good work, proud of the accomplishment 
of our adult learners, and really applaud your efforts to 
create new parameters and support new opportunities. Thank you.
    [The prepared statement of Ms. Cooper follows:]
                   Prepared Statement of Kathy Cooper
    Chair Murray and members of the committee, I am honored to provide 
perspective about WIA reauthorization from Washington State's adult 
basic education providers. It is a special privilege to have this role 
before a committee chaired by Senator Murray--a champion of so many 
efforts to support low-income families and economic growth.
    You could not have picked a more critical time to modernize the 
framework provided by the Workforce Investment Act. Your work will 
shape our ability to meet the needs of the emerging workforce and fuel 
a revitalized economy.
    Despite diligent efforts and significant State level investments, 
we are not able to meet the accelerating needs of adult students and 
our State's economy within the parameters of the current law. The 
populations that adult basic education/English as a second language 
programs target are Washington State's fastest growing groups. Almost 
all of our students work--often at more than one job. They earn low-
incomes, are under-prepared for today's jobs, and lack the skills to 
succeed in traditional education and training programs. This population 
will provide the growth in our State's workforce for at least the next 
two generations. We are able to enroll less than 10 percent of these 
hard-working adults, recognized by President Obama as making up most of 
our Nation's talent pipeline.
    At the same time, skill levels required from workers continue to 
accelerate exponentially. When we talk with employers in Washington 
State, they no longer discuss the workforce needed to support a 
recovering economy. Instead, they talk about the workforce needed to 
fuel a new economy--one in which workers must demonstrate even higher 
skills and be much more agile and ready to change.
    In response to those urgent needs, I am here today to ask you to 
focus on four areas as you reauthorize the Workforce Investment Act 
(WIA).
    Redefine the purpose of title II as student success in post-
secondary education and progress along career pathways. Eighty-six (86) 
percent of the students who enroll in adult basic education in 
Washington State come to learn the skills they need to get and keep a 
good job. Joint research carried out by the Washington State Board for 
Community and Technical Colleges and the Community College Research 
Center at Columbia University found that far too few of them ever 
complete enough education to make a significant difference in economic 
self-sufficiency or to meet employer needs. The research also 
identified the point at which students have just enough skills and 
knowledge to get family-wage jobs and take the first steps along career 
pathways. We call that the Tipping Point--1 year of college credit and 
a vocational credential or certificate. It's the goal that our adult 
literacy programs have over time for every student they serve and it's 
a goal President Obama identified for our national education system.
    Drive the creation and expansion of integrated education and dual 
enrollment programs that move adult literacy students further and 
faster along education and career pathways. In Washington State, the 
flagship among these kinds of innovative practices is Integrated Basic 
Education and Skills Training or I-BEST.
    I-BEST puts an adult basic education and a professional-technical 
instructor in the same classroom at the same time. This team offers 
instructions that integrates job training and adult basic education for 
highly motivated students, whether or not they have a GED or high 
school diploma. Their success demonstrates the importance of 
concurrent, rather than sequential, learning to accelerate progress for 
adults. In fact, all I-BEST programs lead to vocational certificates 
recognized by local employers in demand fields that pay family wages. 
They are the same certificates earned by other college students and 
carry the same college credit. That instruction not only prepares 
students for first steps on their education and career pathways, it 
also gives them the skills and knowledge they need to succeed at the 
next steps. In Washington State, we look beyond mythical career ladders 
that have rungs spread too far apart for the reach of most adult basic 
education students. Instead, we think about skills as a chain with 
links that interlock.
    Beyond integrating basic skills and professional-technical 
education, I-BEST students also receive a full range of student 
support, including advising, counseling, case management and financial 
aid. Blending enhanced student services with innovative instruction is 
critical to I-BEST success.
    The most important thing about the 138 I-BEST programs offered 
through Washington's 34 community and technical colleges is that they 
work for students and for employers. The Community College Research 
Center released a study in May documenting that I-BEST students earn an 
average of 52 credits, which is more than the 45 credits needed to 
reach the Tipping Point. At the same time, I-BEST students demonstrate 
greater gains in their adult basic education/English language skills 
than students enrolled in traditional adult basic education classes.
    That's only the data part of the story. The rest of the I-BEST 
story lives in the success of students and the employers who hire them. 
They are students like Harry, who was injured and had to leave the job 
he'd held for three decades. He was apprehensive about enrolling in the 
manufacturing processes I-BEST program at Lower Columbia College, not 
sure he could master the required skills after 47 years away from a 
classroom. Eight out of ten students who begin college without a 
diploma don't make it. Instead, Harry has a 3.6 GPA, will complete his 
certificate in December, and already has an internship job waiting.
    The I-BEST story is about Dien, who came to North Seattle Community 
College in the fall of 2007 as a recent immigrant from Vietnam. In only 
2 years, he enrolled in adult literacy and I-BEST accounting classes, 
finished an initial accounting certificate, got a job, completed his AA 
degree, and will continue work this fall towards a bachelor's degree in 
accounting at Central Washington University.
    The success of I-BEST is echoed by Kekebush and her five children. 
A refugee from war-torn Eritrea, she developed English skills and 
completed her Licensed Practical Nurse certificate in the winter of 
2008--part of Renton Technical College's second, 2-year I-BEST cohort. 
Like her I-BEST peers, her grade point average was higher than 
traditional students in the same classes. She is scheduled to graduate 
from the Registered Nurse program at the end of this summer.
    Ensure that those most in need of services will get them by 
aligning activities, outcomes and partnerships in titles I and II. The 
needs of under-
prepared workers and employers cannot be addressed using the current 
capacity of either the workforce development or adult basic education 
system alone. Gaps in service and unsatisfactory results will not be 
resolved at the level of coordination possible within the confines of 
the current act. Despite the goodwill of local workforce investment 
boards and adult basic education providers in Washington State, we have 
not been able to overcome structural barriers.
    Current program definitions, allowable activities, outcome 
measures, and aggressive targets in title I don't match those in title 
II. The mismatch leaves providers from both systems in the same 
quandary. They choose between addressing the needs of clients and 
communities or hitting performance targets through activities that 
serve clients who need the least support. Alignment of the two titles 
will allow qualified providers from both systems to leverage each 
other's strengths and resources, count shared success, and invest in 
workers who will benefit the most.
    In addition, community and technical college systems are going to 
play a more central role in moving low-skilled adults along education 
and career pathways. In Washington, we are learning that the quality of 
the relationship between the college and workforce development systems 
predict success in both title I and title II. Reauthorization provides 
an opportunity to change the parameters of this relationship from a 
series of individual contracts between boards and college venders into 
a systemic relationship between partners capable of delivering coherent 
and comprehensive services.
    Don't starve the solution. Faced with increases in both under-
skilled population groups and the skill/knowledge levels required to 
recreate a vital economy, we are starving the solution to both 
dilemmas. Adult literacy funding continues to decrease across the 
country.
    Three actions will reverse this trend and allow us to better meet 
the demands of workers and the economy. No. 1, authorize an additional 
$17 million in the current appropriations bills to hold harmless all 36 
States penalized when the Department of Education changed the data 
source they use for distribution formulas. In Washington State, we 
stand to lose more than a quarter of a million dollars. No. 2, increase 
next year's appropriation to $750 million, allowing States to serve 40 
percent of those already on waiting lists across the Nation. No. 3, 
target an additional $75 million for seeding and scaling up approaches 
that integrate basic skills and post-secondary education and training 
or which dually enroll students in adult basic education and post-
secondary education and training.
    We are proud of the innovative efforts of adult basic education 
providers in Washington State and celebrate the success of our adult 
learners. As you reauthorize WIA title II, you have the opportunity to 
create new parameters and support new opportunities that will make it 
possible for us to expand our successful efforts and be joined in 
innovation by colleagues across the Nation.
    I am happy to take your questions.

    Senator Murray. Thank you very much.
    Mr. Wing.

 STATEMENT OF STEPHEN WING, DIRECTOR OF WORKFORCE INITIATIVES, 
                  CVS CAREMARK, TWINSBURG, OH

    Mr. Wing. Good morning, Madam Chairwoman and Senator 
Isakson. I am Stephen Wing, Director of Workforce Initiatives 
for CVS Caremark. Thank you for inviting me to speak to you 
today about CVS Caremark's experiences in the workforce 
investment system.
    Today, CVS Caremark is the only fully integrated pharmacy 
health care company in the United States. It has approximately 
215,000 employees across 45 States who demonstrate a shared 
passion for customer service and a commitment to creating a 
better future of health care in America.
    At CVS Caremark, we understand how much a company's culture 
impacts its people and ultimately its performance. That is why 
we have established a unifying vision that defines our company 
and serves as a guide of how we conduct our business every day. 
These principles inspire us to go above and beyond our 
customers, our clients, and our colleagues.
    An integral part of our mission is investment in our 
workforce and the communities we serve. The primary focus of 
our workforce initiatives is to train, hire, develop, and 
retain, and support the lifelong learning of diverse qualified 
associates, while adding value to CVS Caremark by establishing 
partnerships with local, State, and Federal agencies, 
educational institutions, nonprofits, and faith-based 
organizations under the umbrella of the workforce investment 
system.
    In November 1996, we started our first Welfare to Work 
program in Akron, OH, in partnership with the Summit County 
Welfare Office and the Summit County Employment Service, along 
with Family Solutions, a local nonprofit that assisted us in 
recruiting four candidates. Since that time, we have hired over 
65,000 former welfare recipients, and as of today, 40,000 of 
those are still actively employed in career path positions at 
CVS Caremark. At that level of retention, 60 percent, 
represents a stark contrast to entry-level service jobs in 
retail where turnover can easily exceed 200 percent a year.
    It is worth noting too that the retention rate for former 
welfare recipients is also much higher than the retention level 
for other entry-level CVS Caremark colleagues hired from other 
sources.
    In addition, over half of those former welfare recipients 
we have hired have been promoted at least twice. We are excited 
to find that people are not just joining us for a job but for a 
career.
    One of those employees is Debra Autry. Debra is a lead 
technician at our East Main Street store in Akron, OH. She was 
in our first Welfare to Work program. She started out as a 
part-time crew member and worked at two stores so that she 
could get full-time status. Debra showed her supervisors very 
quickly that she was excellent at customer service and is 
dedicated to the stores and, in her 13-year career, has been 
promoted four times, completed the entire pharmacy tech program 
and received the national certification. We are very proud of 
Debra. I remember her telling us about other training programs 
that she had participated in while on welfare where she 
completed the course and got a certification with no job. With 
our training at CVS Caremark, we guarantee a job for all who 
pass their training.
    Some of the benefits of the partnerships that we have been 
able to develop with these organizations--such as in the 
workforce system, but the nonprofits and the faith-based 
organizations--some of the benefits to CVS Caremark of these 
various partnerships include the following: access to quality 
job seekers, savings from more effective use of company and 
adult education resources, improved work qualities, increased 
employee retention, improved customer service, increased 
employment promotion rates, support for the well-being and 
economic development of the community, and the assistance with 
workers' training and educational needs.
    In addition to the benefits to CVS Caremark, the benefits 
for those involved include: access to good jobs, financial and 
other support, and greater awareness and access to community 
resources.
    In terms of the reauthorization, we believe that ensuring 
that existing youth dollars are directed to promote innovation 
in education and training for disconnected youth is critical. 
Funding for these kinds of programs should be based at least in 
part on the success of those models. We also believe that these 
kinds of programs should include an articulation of key 
elements linked to outcomes to be eligible for the Federal 
funding.
    And in conclusion, we believe in the workforce investment 
system and have seen that it has been very positive and 
productive for CVS Caremark. We would want to share that with 
other companies and make sure that we get more buy-in from 
companies.
    I also would recommend that you connect with Corporate 
Voices for Working Families and the Institute for Competitive 
Workforce at the U.S. Chamber who have great thoughts on the 
Workforce Investment reauthorization. I serve on both boards 
and I know that they have done a lot of work on this, and I 
would recommend that you check with them.
    Thank you, Madam Chairwoman and Senator Isakson. We 
appreciate this opportunity to tell you about CVS Caremark's 
experience within the workforce system and look forward to your 
questions.
    [The prepared statement of Mr. Wing follows:]
                   Prepared Statement of Stephen Wing
    Good morning Senator Murray and members of the subcommittee. I am 
Steve Wing, Director of Workforce Initiatives for CVS Caremark. Thank 
you for inviting me to speak to you today about CVS Caremark's 
experience in the Workforce Investment system.
    First, let me tell you about our company, and our history of 
business innovation and leadership. Our corporate history begins with 
the opening of our first retail store in 1963. At that time, we were 
seen as an innovator in selling health and beauty products at a good 
price and in convenient locations. Since that time, we have grown to 
nearly 7,000 retail store locations in 45 States and the District of 
Columbia. Our groundbreaking efforts have continued in our pharmacy 
benefit management and retail health clinic and specialty pharmacy 
businesses.
    Today, CVS Caremark, as the only fully integrated pharmacy health 
care company in the United States, has approximately 215,000 employees 
who demonstrate a shared passion for customer service and a commitment 
to creating a better future for health care in America. At CVS 
Caremark, we understand how much a company's culture impacts its people 
and ultimately its performance. That's why, we have established a 
Vision, Mission and set of Values that defines our company and serves 
to guide our business every day--in the thousands of communities we 
serve. These principles inspire us to go above and beyond for our 
customers, our clients and our colleagues.
    An integral part of our mission is our investment in our workforce 
and the communities we serve. The primary focus of our workforce 
initiatives is to hire, train, develop, retain, and support the life-
long learning of diverse qualified associates, while adding value to 
CVS Caremark by establishing partnerships with local, State, and 
Federal agencies, educational institutions, nonprofits and faith-based 
organizations under the umbrella of the workforce investment system.
    In November 1996, we started our first Welfare to Work training 
program in Akron, OH in partnership with the Summit County Welfare 
Office, the Summit County Employment Service and Family Solutions, a 
local nonprofit that assisted us in recruiting four candidates. Since 
that time we have hired over 65,000 people who had been on public 
assistance and as of today over 40,000 of them are still actively 
employed in career path positions at CVS Caremark. This level of 
retention, 60 percent, represents a stark contrast to other entry-level 
service jobs in retail where turnover can easily exceed 200 percent a 
year. It is worth noting that the retention rate for former welfare 
recipients is also much higher than retention levels for entry-level 
CVS Caremark colleagues hired from other sources. In addition, over 
half the former welfare recipients we have hired have been promoted at 
least twice. We're excited to find that people aren't just joining us 
for a job but a career.
    One of these employees is Debra Autry. Debra is a lead technician 
at our East Main Street store in Akron, OH. She was in our first 
Welfare to Work training program. She started out as a part-time crew 
member and worked at two stores so she could get full time status. 
Debra showed her supervisors very quickly that she was excellent at 
customer service and dedicated to the success of the store. In her 13-
year career Debra has been promoted four times, completed the entire 
pharmacy technician program and received the National Pharmacy 
Technician Certification (CPhT). We are very proud of Debra. We knew 
she would do well from the beginning of her training because of her 
motivation to complete the course and her dedication by being in class 
on time everyday. I remember her telling us about other training 
programs that she had participated in while on welfare where she 
completed the course and got a certificate with no job at the end. With 
our training at CVS Caremark we guaranteed a job for all who passed 
their training.
    Debra's employment with CVS Caremark has not only been life 
changing for her but also for her family. Debra's daughter came to work 
for CVS and became a shift supervisor and while working has been going 
to school to become a registered nurse. She will soon graduate and may 
someday be a nurse practitioner for our MinuteClinic. When I heard of 
this young woman following in her mother's footsteps, I realized that 
our program focus is bigger than just hiring someone. It is about 
helping people have the confidence and skills to work. For the company, 
it means building a competent, motivated pool of employees.
    Because of what we learned and our success during these early days, 
our workforce initiatives program has grown and thrived. As such, CVS 
Caremark constantly seeks new and innovative ways to improve the 
recruitment and retention of its workforce. One approach has been to 
liaison our workforce investment programs to a network of local, State, 
and national partnerships--with K-12 education, adult education 
providers, faith-based and community organizations, and workforce 
development agencies to help the company find and train new employees. 
We have used the workforce investment system to coordinate the process.
    Our Workforce Initiatives team oversees these partnerships and 
other programs designed to strengthen CVS Caremark's workforce. In 
addition to customized training programs for new and incumbent staff, 
the department runs internship programs for high school students and 
incentive programs for mature workers.
                        overview of partnerships
    Our department devotes significant time and resources to finding 
qualified workers, training them for entry-level positions and helping 
employees advance their careers at CVS Caremark. It does this in 
partnership with faith-based organizations, workforce development 
agencies and private intermediaries all coordinated through the 
workforce investment system.
One-Stop Centers
    In partnership with local One-Stop Centers, CVS has developed a 
training program for new entry-level employees and first-level managers 
that simulates on-the-job roles and responsibilities in a replica of a 
CVS store. At the seven CVS Learning Centers in six cities, employees 
are trained on curriculum developed by the National Retail Federation 
(NRF) with an emphasis on customer service and skills that prepare them 
for a career path ranging from entry-level to pharmacy assistance and 
technician positions. Incumbent workers receive training to help them 
move up the career ladder. A recent study found that the learning 
centers have a positive impact on employee retention, advancement, 
completion of certifications, and sales.
    For example, CVS/pharmacy partnered with the District of Columbia 
Department of Employment Services to open the South Capitol Learning 
Center in Washington, DC in 2001. The Learning Center features a One-
Stop job center for unemployed DC residents and a training center for 
CVS employees. CVS offers the ultimate recruitment incentive to local 
job seekers that visit the Learning Center--a guaranteed job if they 
qualify for public assistance funds and complete one of the on-site 
training programs.
    The training prepares entry-level employees for their first jobs at 
CVS stores and helps current employees improve their skills and obtain 
higher-paying jobs within the company. At the training center, 
employees learn to use a cash register, develop photographs, shelve 
merchandise, and assist in the pharmacy at the center's freestanding 
mock store. Program costs are shared by CVS Caremark and the District 
of Columbia through public Welfare to Work funds and workforce 
investment dollars.
    This partnership benefits CVS, the One-Stop Center, unemployed 
adults, and the District of Columbia. Since 2000, CVS/pharmacy has 
hired 10,000 trainees from the South Capitol Learning Center, enabling 
the company to expand its reach in DC. The One-Stop helps with CVS's 
recruitment by referring qualified low-income job seekers to the 
company's on-site learning center and in turn fulfills its mission of 
helping unemployed residents secure employment. While in training, 
which includes the pre-employment programs, DC residents receive hourly 
wages and part-time benefits from CVS Caremark.
    According to the Department of Employment Services (DOES),

          ``Rebuilding the job center was a centerpiece of the 
        District's effort to revitalize the area that surrounds it. 
        Once a rough area, it now features new businesses, renovated 
        buildings, a new elementary school and several new housing 
        complexes.''
Partnerships With Faith-based Organizations
    Through a successful partnership with the Mt. Lebanon Baptist 
Church in Washington, DC, we discovered that faith-based organizations 
could play a major role in recruiting qualified entry-level employees. 
Together we developed a partnership that would ultimately benefit Mt. 
Lebanon, CVS Caremark, and DC residents.
    CVS and Mount Lebanon worked together to sponsor a church-based job 
fair, during which CVS interviewed 90 adults and hired 40. The job fair 
allowed CVS to expand its reach in the DC metro area and hire employees 
from the church to staff its new stores. Based on the success of 
subsequent recruitment fairs, CVS Caremark has since refined the 
church-based job fair model and is replicating it in partnership with 
churches in other cities across the country.
    In addition to the workforce benefits, CVS employees have the 
option of becoming homeowners. CVS Caremark has developed a home 
ownership program for employees, called CVS Prescriptions to 
Homeownership that provides low-interest loans for inner city 
residents. After 2 years, all employees can participate in the 
homeownership program. Managers and pharmacists are eligible upon their 
start dates.
    Mt. Lebanon Baptist Church and the Washington Interfaith Network 
both serve as examples of CVS's success in partnering with faith-based 
organizations to gain access to a network of potential employees. The 
faith-based partnership has also expanded within DC, through the help 
of the Washington Interfaith Network (WIN). Through WIN, CVS gains a 
vehicle for advertising job openings in the DC area and sponsoring job 
fairs at over 60 churches in the area.
    Additionally, CVS Caremark recently created a mini-learning center 
at Mt. Lebanon--the first faith-based One-Stop Center in the country--
to train qualified low-income residents for entry-level employment at 
CVS.
Partnerships With Intermediary Organizations
    CVS Caremark has also strengthened its workforce by retaining the 
services of WorkSource Partners, Inc. (WSP), an intermediary 
organization dedicated to helping companies address workforce 
challenges in the Boston region. WSP provides guidance to clients on 
both the hiring and placement of new employees and training and 
development of incumbent staff, with a particular focus on ``help[ing] 
companies cultivate the enormous potential of our community.''
    WorkSource Partners approached CVS after learning about the 
company's learning center model with the suggestion that CVS promote 
its own employees into store managers. In order to do so, however, CVS 
needed to provide entry-level workers with remedial skills training 
because they did not have the educational skills to complete the tasks. 
WorkSource Partners turned to its partners, including the National 
Retail Federation and the Ben Franklin Jr. College to design a basic 
skills training program. The NRF provided content expertise in the 
development of customer service training. Ben Franklin offered guidance 
in curriculum development and instruction.
    As the intermediary, WorkSource Partners brokers the relationships 
between CVS, CVS employees, and the curriculum and instruction team. 
Its roles include: marketing the program to CVS employees, offering 
career coaching to CVS employees, working with store managers to 
identify training candidates, developing training curriculum, and 
overseeing the partnerships. Funds for this program were received from 
the workforce investment system.
    As the training program developed in partnership with WorkSource 
Partners shows, CVS did not need to look outside its own workforce to 
fill managerial positions. Instead, it provided targeted training to 
entry-level employees--customized for various job-tracks--and 
encouraged employees to advance their careers within the company.
    Other examples of successful models developed in coordination with 
the Workforce Investment system are:

    <bullet> Our involvement in a number of initiatives in Cleveland, 
Kansas City, Los Angeles, Minneapolis, Pittsburgh, New York City, San 
Antonio, and Indianapolis designed to provide on-ramps to both post-
secondary education and career paths for low-income/low-skilled young 
adults. We are excited about our work to develop an employer-driven 
alternative pathway for disconnected youth. We think it makes good 
business sense, and we believe we will also be helping young people 
develop key workforce skills that will help them advance with us, or 
move on to other careers.
    <bullet> In our work with Corporate Voices for Working Families, we 
participated along with a number of other employers to identify the 
barriers to employment for disconnected young adults, leading to the 
creation of a model alternative pathway for disconnected youth that 
meets the needs of both employers and young adults. Our experience at 
CVS Caremark confirms the alternative pathway model, with the most 
effective approach for low-income/low-skilled young adults being one 
that is holistic, providing integrated skill training (academic, 
professional/life skills, and technical job skill), social support 
services, mentoring, a work-based learning experience, and post-
secondary academic credits.
    <bullet> Our Pathways to Pharmacy Program (see 
www.cvscaremark.com). We are piloting a new program in our Boston and 
Detroit markets. The pilot is focused on high school dropouts and 
people who have obtained a GED. Working with several partners, we 
provide 6 weeks of intensive training in a classroom setting. The 
training was designed so that it incorporates critical workplace skills 
as well as CVS-specific training. In addition, the young people have a 
mentor and social supports to help ensure their success. Following the 
classroom training period, the young people apprentice in a CVS store, 
where they have the chance to practice what they have learned. At the 
same time, the managers have the chance to see what kind of employee 
the young person will be before making a hiring decision. In the second 
phase of the pilot, once the young person is an employee, we have 
designed a set of tools that they can use to continue their skill 
development (on-line training and on-the-job training) so that in 
conjunction with their manager they can continue on a career path. The 
mentor continues to check in with them and help them trouble shoot any 
challenges that may arise. We developed this pilot with support from 
the Kellogg Foundation's New Options Initiative. Our plan is to work 
out the kinks in the first two markets, and roll it out regionally and 
ultimately nationally.
    <bullet> Our work with the ``Year Up'' program in Providence, RI. 
Year Up is a 1-year intensive training program that serves low-income 
urban young adults. They provide 6 months of integrated skill training 
along with mentoring and social support. They also partner with a local 
community college so that the young people earn college credits through 
the program. In the second 6 months, they partner with employers who 
provide apprenticeships for the students (see www.yearup.org/locations/
providence.htm). We have had tremendous success in our partnership with 
Year Up. We have hired many of the apprentices into jobs in our IT 
department, and they are some of our best employees. Our CEO has been 
so impressed by the quality of the Year Up apprentices that he has 
directed us to find ways to expand the partnership so that Year Up can 
provide us with a talent pipeline into jobs beyond the IT department.
                        benefits of partnerships
    Some benefits to CVS Caremark of its various partnerships with 
faith-based, One-Stop, and intermediary organizations in coordination 
with the workforce investment system include:

    <bullet>  Access to qualified job seekers.
    <bullet>  Savings from more effective use of company and adult 
education resources.
    <bullet>  Improved work quality.
    <bullet>  Increased employee retention.
    <bullet>  Improved customer service.
    <bullet>  Increased employee promotion rate.
    <bullet>  Support for the well-being and economic development of 
the community.
    <bullet>  Assistance with worker training and education needs.

    In addition to the benefits to CVS Caremark, the benefits for those 
involved include access to good jobs, financial and other support and 
greater awareness and access to community services.
    In terms of reauthorization of the WIA, we believe that ensuring 
that existing youth training dollars are directed to promote 
innovations in education and training for disconnected youth is 
critical. Funding for these kinds of programs should be based at least 
in part, on the success of those models. We also believe that these 
kinds of programs should include an articulation of key elements 
(integrated skill training, social supports, mentoring, post-secondary 
credits, and employer-provided apprenticeship/internship, etc.) linked 
to measurable outcomes to be eligible for Federal funding. The current 
system drives support to local youth programs based largely on 
relationships and local inputs, rather than outcomes.
    We encourage our emerging leaders to become active members of 
workforce investment boards. In many of our major markets we have our 
local operation executives participate on local boards. This has been a 
``win-win'' for both CVS Caremark and the local WIB. Our managers 
become more educated on the community and the WIB gets the expertise of 
a business executive. I myself am a member of the Cleveland Workforce 
Investment Board.
    In conclusion, we believe in the Workforce Investment System and 
have seen that it has been very positive and productive for CVS 
Caremark, our workforce partners, and our employees. We would advise 
other companies considering such programs to contemplate working with 
various types of organizations that can address workforce challenges, 
including faith-based organizations, public agencies, and private 
intermediaries. We would also recommend the development of replicable 
training models that can be implemented in a variety of locations and 
for a variety of career tracks. Lastly, prospective employers might 
consider partnering with adult education providers to develop career 
pathways for entry-level employees and provide the necessary training 
to advance them along the path.
    Thank you Madam Chairwoman and members of the subcommittee. We 
appreciate this opportunity to tell you about CVS Caremark's experience 
within the Workforce Investment System and look forward to working with 
the subcommittee as you consider reauthorization of this important act.

    Senator Murray. Thank you very much to all of our witnesses 
today. This hearing has provided invaluable insight as we move 
forward on reauthorizing WIA. Excellent suggestions from each 
and every one of you.
    I have a few questions that I am just going to offer up for 
anybody who would like to jump in and respond.
    For the last 11 years, WIA often has not had the level of 
evaluation and reporting that it should. We have heard about 
this from several of you. We all want to see stronger 
evaluation and greater accountability. I think we all 
understand that, we need to improve our collection efforts.
    We also want to be sure that we encourage innovation and 
risk-taking because nobody knows best. We have heard from the 
local stories how important it is to put this encouragement to 
good use.
    Does anybody have any recommendations on how we strike a 
balance between accountability and innovation and still 
encourage States--or strike a balance between the 
accountability and reporting and still encourage innovation and 
creativity at the local level?
    Mr. McQueen. I would just say, Madam Chairman, that the 15 
percent fund, which was the Governor's fund, has been very 
important to the ability to innovate, and we have always then 
been able to spin that off into a performance-driven program. 
So it really is being able to experiment with the program that 
is not as regulated, first tweak it and then spin it over into 
a program that is. In every program that we mentioned, the 
Governor's 15 percent fund or the discretionary money was 
critical. But we did not need it to continue with. We worked it 
out and then we were able to spin it off into the system.
    Ms. Cooper. I would also suggest, Senator Murray, that an 
alignment of some of those accountability measures between 
title I and title II would help. We are not only reporting on 
the same things, we are reporting on them defined differently, 
adults, youth, poverty, and the program year, how long it is, 
what the performance outcomes are. And I think that duplication 
and the fact that you cannot align those duplicated data make 
it harder to really measure success.
    Mr. Wing. Senator, I think for accountability, one of the 
things that we would suggest is the board membership on the 
workforce investment boards. We have a number of our 
executives, regional managers, district managers, that are on 
boards.
    But I think that the innovation--I think to really look at 
that and to try to really look at getting great members, I 
think you need to look at how you can be risk-taking and still 
be accountable. But I think you will find that there are people 
in the communities that want to serve and business people that 
want to serve. I think you need to look at that so that is what 
you create there so that people will want to serve on those 
boards.
    Senator Murray. Ms. Sarris.
    Ms. Sarris. I think that the innovation comes through those 
very strong partnerships, and there are resources out there. If 
you have strong relationships with the local school districts, 
the people who work in the other programs at the local level, 
it is amazing how much innovation you really can do within the 
letter of the law to make things happen.
    Also, the ARRA grant, in allowing us to do group training--
we have used that money to innovate new training programs from 
there, with the hope that the successful ones will be moved 
onto our approved vendor list and then become part of ongoing 
services, I think similar to what Clyde mentioned at the end of 
the table. If you try it out with this group training money, 
you could run it a couple of cycles, and then it becomes part 
of our ongoing system, it gets reported that way. That small 
part of ARRA has been, I think, very critical to us and 
probably is something we should think about continuing.
    Senator Murray. Mr. Kiernan.
    Mr. Kiernan. I think the question about performance and 
performance measures is complicated because there are 17 
mandated partners, each having their own data collection 
efforts. One of the things that we want to be careful about is 
that some individuals who come in and benefit from the use of 
the One-Stop system may take more time, and in fact, the 
outcome of their earnings may be somewhat less. And so caution 
has to be really raised toward the idea of not just cavalierly 
measuring the numbers of persons who go through and the 
earnings contributed, so that the measures have to really 
reflect somewhat the demographics and the population that is 
served and also, to some extent, spending some time looking at 
what are the data sets that are already being collected by the 
public voc rehab system and several other entities to measure 
outcomes.
    The piece of it or the innovation, I think, comes really 
from being creative about the partnerships and the memorandum 
of understanding and how that is defined within the One-Stops 
for mandated as well as the nonmandated partners as education 
and the developmental disability system and the mental health 
system.
    Mr. Bender. Senator, I might just comment I do not think 
you can have both. I think we showed that with our new 
performance system, you can have both accountability but still 
allow innovation at the local level. So I think it is important 
though, however, that there has to be some type of basic 
standard and services that are being met by everybody in the 
workforce training system.
    Mr. Thurmond. Senator, in Georgia, one of the things we 
were able to do--we look at WIA as the program, but it is more 
philosophy, and it is the philosophy of cooperation and service 
integration. And based on that, we developed a coordinated, 
unified data collection system among the four major programs 
which is UI, ES, VR, and WIA. And our Georgia workforce system 
encompasses the data collection, the storage, reporting 
capabilities for all of those programs.
    Well, how did that help innovation? One of the things we 
had to understand is that among those four programs, you have 
to have a common language. We realized that assessment means 
four different things for four different programs. And so you 
have to have a common language and then an overarching common 
goal, which is to help Americans get back to work. Some will 
require training, education. Others can do it more directly, 
but understanding that the most important thing about this 
legislation that Senator Kennedy and others worked on 
originally was the fact that we were supposed to move toward 
collaboration and integration. And ``collaboration'' is a big 
word. It does not mean nothing until money changes hands out on 
the front line.
    [Laughter.]
    Senator Murray. With that, Senator Isakson.
    Senator Isakson. Following up on that outstanding insight--
--
    [Laughter.]
    Senator Isakson [continuing]. Mr. Thurmond, I think about 
90 percent of your budget is Federal funds. Is that not 
correct?
    Mr. Thurmond. That is correct.
    Senator Isakson. And we have talked a lot about flexibility 
in Federal funds.
    In your prepared remarks, you talk about the provision that 
you all created in Georgia where you have up to an 8 percent 
flexibility unemployment insurance tax to use toward programs 
to get people back to work rather than just an unemployment 
benefit. That is a flexibility of State funds. Is that unique 
to Georgia or is that pretty much pervasive around the country?
    Mr. Thurmond. A handful of States actually use an 
administrative assessment. Actually we were in the General 
Assembly when we passed that in the late 1980s, and because of 
the flat line in the funding for employment services, many 
States do not have front line staff. They cannot afford it. 
That is often missed when we look at getting people back to 
work. Many States just cannot do it.
    So what we were able to do in Georgia is take that .08 
percent of the employer taxes and then invest that in re-
employment services primarily to pay for career counselors, job 
fairs, and other resources on the front line.
    Without that, States just do not have the resources because 
they cannot hire the staff, and that is why many of them went 
to telephonic claims filing and electronic claims filing 
because we do not have the staff. And I submit to you, in order 
for us to really address the 14 million or so Americans out of 
work, we are going to have to get some front line resources to 
hire some professional staff back out there or partner with 
States, similar to what we did in Georgia.
    Senator Isakson. That funds most of your employees in your 
career centers, does it not?
    Mr. Thurmond. A major portion of it, yes, sir.
    Senator Isakson. Thank you very much, Commissioner.
    Ms. Cooper, I need a little information. You referred to 
DOE changing a data source and it costing you a quarter of a 
million dollars. Is that right?
    Ms. Cooper. Yes.
    Senator Isakson. What data source were you referring to?
    Mr. Thurmond. They used to distribute money to States based 
on the census, and now they are going to use the ACS, the 
American Community Survey. And as a result of that, 36 States 
are going to experience a disruption in funding.
    Senator Isakson. I am sorry. What is the American Community 
Survey?
    Ms. Cooper. It is the new--every year they figure out sort 
of what the census is like, but they do it using a different 
set of data. They are able to get more recent data that way, 
but it is a different instrument.
    Senator Isakson. Thank you for educating me on that. I want 
to followup on that later on.
    Ms. Cooper. Thank you.
    Senator Isakson. Thank you, ma'am.
    Mr. Kiernan, I appreciate your commitment to those with 
disabilities. You made a reference to three to four out of five 
people with disabilities are not included in unemployment 
statistics. Is that right?
    Mr. Kiernan. That is correct.
    Senator Isakson. How would it be publicly available to me 
to know what percentage of people with disabilities are 
unemployed?
    Mr. Kiernan. That same survey we just talked about. The 
American Community Survey would give you information with 
regard to the numbers of persons who are employed and invested 
in the labor force market. Usually for all disabilities, it is 
about 36 percent of the population, which means there are 3 out 
of 10 or roughly 4 out of 10. For persons with mental 
disabilities, which includes intellectual disabilities and 
mental health, it is about 25 percent.
    Senator Isakson. Was your comment there a suggestion to 
merge those statistics with the overall unemployment rate to 
have a better reflection of total unemployment?
    Mr. Kiernan. The Bureau of Labor Statistics just recently 
published some of the unemployment stats for persons with 
disabilities as a new initiative. I think that you have to 
couple that with the labor force participation rate to get a 
true picture of what the labor source looks like for persons 
with disabilities.
    Senator Isakson. Yes. Ms. Oates is not here, but when we 
did No Child Left Behind, we disaggregated every group in 
public education, including those with disabilities. And that 
was the right thing to do, but there was an unintended 
consequence, we also locked them in as one group in 
assessments, which has been a huge problem. There are unique 
characteristics of people with disabilities that should be 
focused on separately than getting merged into the overall 
statistics and somewhat lost, if you will.
    So I appreciate your bringing that up because it does beg 
the question how we might better have available and illuminate 
the people with disabilities as a disaggregated group in an 
unemployment survey so as to better focus on the unique needs 
for them to become employed. I do not know if that is a good 
observation or not, but I think that is a better way to do it 
than losing them in that overall merger.
    Thank you very much to all of you for your commitment to 
the workers of America.
    Senator Murray. I do have some additional questions for all 
of our panelists. We will submit them to you and ask for your 
written responses.
    Again, this has been excellent for us as we move forward on 
our committee's work.
    Senator Isakson.
    Senator Isakson. Out of deference to Senator Enzi, can we 
leave the record open for submission of his questions?
    Senator Murray. Yes. I will leave the record open, for any 
members who want to submit a statement to the record, for an 
additional 7 days.
    Again, let me thank all of our witnesses for traveling here 
to be with us and participating in this important hearing. We 
look forward to your responses to additional questions. Thank 
you very much.
    With that, this hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Kennedy

    An educated workforce is our country's most valuable 
resource. America's long-term economic vitality depends on the 
creation and maintenance of an effective, accessible, and 
accountable system of job training and career development that 
is open to all. Disadvantaged adults and out-of-school youth in 
particular need the opportunity to develop the job skills that 
will enable them to become productive members of the community. 
Dislocated workers displaced by the current recession and 
continuing rapid technological change deserve the chance to 
pursue new careers. Now, more than ever, people of all ages 
need opportunities to obtain degrees, credentials and industry-
recognized certificates to engage in family-sustaining 
employment. The way in which we respond to challenges in 
employment and education today will determine how prosperous a 
nation we are in the years ahead.
    That's why I commend the Subcommittee on Employment and 
Workplace Safety for holding today's hearing on modernizing the 
Workforce Investment Act to help workers and employers deal 
with the changing demands of a global market. The importance of 
well-developed employment skills has never been greater, and it 
continues to grow. Even in today's troubled economy, 
opportunities still exist for many who enter the workforce with 
good academic training and well-developed career skills. But 
for those who lack career skills and basic proficiency in 
language, math and science, today's economy can be an 
intimidating environment for employment.
    It's been too long since we've looked at the Workforce 
Investment Act. When it first passed in 1998 its goal was to 
respond to the challenges of the changing workplace by enabling 
men and women to acquire the skills necessary to enter the job 
market and upgrade their skills throughout their careers, and 
that goal has not changed. But as today's witnesses will 
describe, the challenges facing today's workers and our job-
training system have changed, and we must ensure that our 
efforts in Congress keep up with the times. We've tried before 
to improve this bill, and I'm optimistic that this time, we 
will succeed.
    In fact, we're already engaged in a bipartisan effort to 
improve the act. For nearly a year, we've worked together, 
listening to the voices of those in the field and seeking 
consensus on an approach that will provide more efficient 
training and support services to vulnerable populations, 
including out-of-school youth, and encourage greater program 
cooperation by business, labor, and education, and by State and 
local governments and communities. An important goal aspect of 
our goal has been to ensure that the Departments of Education 
and Labor coordinate their efforts, so that they can provide 
their expertise and combine their resources to achieve the 
greatest impact.
    This hearing brings together an impressive array of leaders 
on these issues, and I thank each of them. Each has made 
important contributions to employment opportunities in this 
country, and their voices are the kinds of voices we have been 
seeking in our listening sessions in recent months.
    Mary Sarris has seen the Workforce Investment Act's 
effectiveness up close, serving on the North Shore Workforce 
Investment Board. I hope that in our committee's bill, we can 
reflect her commitment for serving youth more effectively. 
Supporting One-Stops as they help youth seek summer employment, 
and encouraging them to pursue future educational 
opportunities, is vital for improving the services we offer.
    In addition, I commend William Kiernan for directing our 
attention to the needs of adults with disabilities. I, too, 
remember the enthusiasm for the One-Stop Centers when they were 
created. I hope, along with Mr. Kiernan, that we can ensure 
that these centers serve older and disabled adults well in the 
States, and that we can do more to help young adults with 
disabilities make the transition to a fruitful work life.
    Finally, I particularly commend Undersecretary of Education 
Martha Kanter and Assistant Secretary of Labor for Education 
and Training Jane Oates. Martha Kanter has devoted her career 
to meeting the diverse needs of community college students, and 
before coming to the Department, she led one of the most 
innovative community college systems in the Nation. Jane Oates 
is a long-time friend, having served on my staff for many 
years, and is as capable a thinker as anyone I know on these 
issues. From 2006 until this year, she was New Jersey's 
commissioner for higher education, and she was instrumental in 
creating a statewide credit-transfer agreement and a supporter 
of extending in-state tuition benefits to all of New Jersey's 
students.
    This hearing, and the other work we've been doing on these 
issues, is part of our major effort to streamline these 
programs and invest in our fellow citizens, young and old, in 
an effective way. We've conducted a constructive review of all 
of the various job training programs to determine what kind of 
vocational training we need to meet the challenges we face 
today, how best to support adult education programs, and how 
best to respond to the changes in our workforce as a result of 
new technology and increased needs for retraining.
    These are complex issues, but the bill we will introduce 
will retain individual choice and quality labor-market 
information as its cornerstones, and will also incorporate many 
good ideas like those we'll hear today.
    Our witnesses are helping to shape a new Workforce 
Investment Act that will expand the possibilities offered in 
today's system, making it possible for millions more Americans 
to obtain the skills they need to compete in the global 
economy. And by doing so, we will also enable them to realize 
their own individual American dreams. As you can tell, I look 
forward to this hearing very much. I wish I could be there in 
person.
        Response to Questions of Senator Murray, Senator Enzi, 
                    and Senator Coburn by Jane Oates
                      questions of senator murray
    Question 1. Dislocated workers can access various levels of 
services based on the reason for their dislocation. What are your 
thoughts on how we can better align those services in a way that raises 
the bar for all programs?
    Answer 1. Currently the public workforce system makes a distinction 
between individuals dislocated due to the impact of Federal policy and 
foreign trade and those who have become dislocated for other reasons. 
The Department has made efforts to better align the programs serving 
dislocated workers and provide these individuals with the resources, 
services, and training needed to rejoin the workforce. For example, the 
Department supports dual-enrollment projects that combine Trade 
Adjustment Assistance and Workforce Investment Act (WIA) Dislocated 
Worker and National Emergency Grant services to provide a wider array 
of ``wrap-around'' services to trade-eligible workers.
    We at the Department of Labor (DOL) look forward to further 
discussions with the Senator and other members of the committee to 
identify ways in which WIA reauthorization can be used to better align 
the Federal workforce programs so that they address the needs of 
dislocated workers as efficiently and seamlessly as possible.

    Question 2. How does the Department define ``post-secondary 
education'' or a ``post-secondary education credential?''
    Answer 2. The Department has not formally defined the terms ``post-
secondary education'' or ``post-secondary education credential.'' 
However, Title I of WIA does provide a definition for ``post-secondary 
educational institution.'' WIA defines this term to mean ``an 
institution of higher education,'' as defined by Section 102 of the 
Higher Education Act of 1965 at 20 U.S.C. 1002. The definition at 20 
U.S.C. 1002 is provided for the purpose of student assistance programs, 
and includes public or nonprofit accredited institutions that award 
bachelor's degrees or provide not less than a 2-year program that is 
acceptable for full credit towards such a degree; any school that 
provides not less than a 1-year program of training to prepare students 
for gainful employment in a recognized occupation; proprietary 
institutions; and post-secondary vocational institutions.
    The Department has interpreted the term ``post-secondary 
education'' to include education that takes place at a post-secondary 
educational institution. This interpretation includes post-secondary 
workforce training that takes place after the completion of the 12th 
grade or the award of a GED or other high school equivalent. 
Credentials awarded through post-secondary training such as registered 
apprenticeships and training leading to industry-recognized 
credentials, which may involve both classroom and on-the-job training 
or work experience components, also make up the universe of ``post-
secondary education'' for DOL programmatic purposes.

    Question 3. What are the Department's principles for WIA 
reauthorization?
    Answer 3. Both the changing skill demands of the 21st century labor 
market and the recent downturn in the economy have posed challenges for 
our Nation's public workforce system. In order to increase the skills 
and competitiveness of the American workforce, the public workforce 
system must become more innovative, adaptive, and responsive to the 
needs of workers, businesses, and communities.
    A decade after the passage of WIA, reauthorization and reform of 
WIA provides an opportunity to introduce innovations, build on 
strengths of the workforce system, and address areas of the system that 
should be bolstered. WIA reform is an important vehicle for ensuring 
that the workforce system helps every American worker find a good job, 
including segments of the population with specific, and sometimes 
multiple, barriers to employment that the workforce system can help 
them overcome.
    The Department believes that WIA reauthorization should create a 
modernized workforce system that provides seamless career advancement 
services for low-skilled adults, at-risk youth, and dislocated workers 
and others needing employment, training, and retraining services. The 
Department has already started discussing WIA reform with the 
Department of Education. Additionally, while the Administration has not 
yet put forward formal principles, the Department has held many 
listening sessions with stakeholders concerning WIA reauthorization. 
Here are some of the ideas we have provided to help frame those 
discussions.
Public Workforce System
    <bullet> A dual customer approach is essential because the needs of 
workers and employers are both important in developing thriving 
communities where all citizens succeed and businesses prosper.
    <bullet> The public workforce system is responsive to labor-market 
demand in industry sectors important to the regional economy.
    <bullet> State and local workforce investment boards are strategic, 
effective, and efficient in governing and overseeing the workforce 
system.
    <bullet> The performance accountability framework for the public 
workforce system encompasses measures of both interim and long-term 
employment outcomes that account for all customers served and encourage 
the system to serve those most in need, and produces meaningful and 
readily available performance information for program administrators, 
policymakers, and customers.
    <bullet> Customers have the information they need to find jobs that 
suit their skills and choose training programs.
    <bullet> The system encourages innovation, emphasizes proven 
approaches, and builds knowledge of what works.
    <bullet> The system is fully accessible and available to all 
people, including persons with disabilities and those with limited 
English proficiency.
Dislocated Workers
    <bullet> All workforce programs for dislocated workers, including 
those with disabilities, are integrated and accessible through the One-
Stop system.
    <bullet> One-Stop Career Centers provide each worker with a quick 
and effective assessment of skills and the best plan of services given 
their interests and skill levels.
    <bullet> All programs for dislocated workers are available to these 
workers through both direct in-person services and virtual reemployment 
services, including easy-to-use assessments and information on skills 
transferable to new jobs in demand, opportunities provided by career 
pathway models, and high-quality career counseling supported by real-
time workforce information.
Low-Skilled Adults
    <bullet> The public workforce and adult education systems are 
available to adults needing education and training information or 
assistance in a manner that supports the achievement of each 
individual's educational and career goals.
    <bullet> A customer's eligibility determination is performed once 
rather than separately for each program.
    <bullet> Assessments of customers' educational and training needs 
are aligned so they can be relied on by other workforce programs, 
community colleges, and education institutions; except to the extent 
that a separate assessment process is required for determining 
eligibility under the Vocational Rehabilitation State Grants program.
    <bullet> Basic skills programs successfully prepare students to 
enroll in education courses, advance to credit bearing classes at 2-
year or 4-year colleges, or enter or reenter the workforce.
    <bullet> Career counseling services reflect best practices in 
assisting low-skilled adults and instruction reflects approaches that 
have proven successful.
At-Risk Youth
    <bullet> Both compensated work activity, or related strategies such 
as internships, and education are emphasized. The former can be an 
effective method of engaging youth in the short-term, providing an 
initial introduction to employment; while education, especially when 
integrated with compensated work activity for at-risk and low-income 
youth, can contribute to the success of youth in the labor market.
    <bullet> Emphasis is provided to programs that are ``proven'' 
(through rigorous evaluation) or ``promising'' (on the basis of a 
record with positive outcomes and operation to scale).
    <bullet> Because at-risk youth need local providers that connect 
them to resources that address their wide variety of needs, the 
workforce system partners with school districts, high schools, 
community colleges, local employers, criminal justice systems, and 
various social service providers to provide these diverse services.
    <bullet> Performance measures for accountability recognize gains 
over time and do not create incentives to select participants on the 
basis of anticipated performance success over need.
    <bullet> The workforce system targets in-school and out-of-school 
at-risk youth, including those with disabilities. These groups include: 
(1) young people in high school who are ``off-track'' and at high risk 
of dropping out; (2) youth who have already dropped out; and (3) high 
school graduates who do not have college and career ready skills and 
who have failed to obtain regular jobs. However, these categories are 
fluid, as individuals move in and out of school. Youth who live in 
neighborhoods and areas of concentrated poverty should receive 
particular attention, as should youth from low-income families, 
wherever they live.
    <bullet> A youth's eligibility determination is performed once 
rather than separately for each program when permitted by Federal law.
    <bullet> Data related to State certification tests and other 
performance measures is shared across departments and programs.

    Question 4. What are the Department's current plans for addressing 
the lack of systemic evaluation of programs under WIA?
    Answer 4. An important part of reauthorization of WIA will be the 
identification of strategies that maximize resources, streamline access 
to services, and avoid the unnecessary duplication of programs. To 
support these efforts, the Department has reaffirmed its commitment to 
evaluating its programs and using the findings of these evaluations to 
guide the continuous improvement of programs and service delivery. Our 
commitment is evidenced by our recent Recovery and Reemployment 
Research Conference, which featured findings from many Department-
funded research and evaluation projects and through which we engaged a 
broad spectrum of communities, including workforce investment, 
research, education, oversight agencies, non-profit organizations, and 
public policy makers. The conference proceeding will help inform ETA's 
Five-Year Research, Demonstration and Evaluation Strategic Plan for 
2009-2014.
    In 2008, the Employment and Training Administration commissioned 
the Net Impact Evaluation of the WIA Adult, Dislocated Worker, and 
Youth Programs--a random assignment evaluation of major programs under 
Title I of WIA. The evaluation, which is still in the design stage, 
will measure the post-program involvement impacts on employment and 
earnings of participants receiving services funded through WIA, as 
compared to those receiving services funded through other sources or 
those who received no services. The complete evaluation is being 
conducted over the course of 7 years. This approach will allow a 
sufficient follow-up period to reliably measure post-program impacts, 
as well as allow time to accommodate the modernization expected to be 
achieved through reauthorization.
    Additionally, in December 2008, the Workforce Investment Act Non-
Experimental Net Impact evaluation conducted by IMPAQ International, 
LLC, was completed. The study reports results of a non-experimental net 
impact evaluation of the Adult and Dislocated Worker programs under 
WIA. Statistical methods were used to compare WIA program participants 
with groups of individuals who were similar across a range of 
demographic characteristics, social welfare benefit receipt, and labor-
market experiences but who either did not receive WIA services or did 
not receive WIA training. The overall goal of the evaluation was to 
provide information on the long-run impact of the WIA program at both 
the local and national level.
    The study observed important similarities in the patterns of 
estimated impacts. The results for all participants in the WIA Adult 
program (regardless of services received) show that participating in 
the program is associated with an increase in quarterly earnings of 
several hundred dollars. Also, over time WIA Dislocated Worker 
participants' earnings overtake those of a comparison group composed of 
workers with similar characteristics and work histories. The Department 
posted the report on ETA's Research Database available at http://
wdr.doleta.gov/research/.

    Question 5. How does the Department envision the President's new 
community college initiative interacting with WIA programs and other 
efforts the Department has undertaken to support the role of community 
colleges in workforce development, including education and training?
    Answer 5. As noted by the President, community colleges are the 
largest part of our higher education system and are growing rapidly. 
Community colleges feature affordable tuition, convenient locations, 
flexible schedules, and programs and curriculums targeted to 
individuals of various skill and education levels, and have proven 
their ability to work with businesses, industry, and government to 
create tailored training programs to meet the needs of both workers and 
the economy. Additionally, many community colleges have experience 
providing Rapid Response services to dislocated workers. Because of 
their unique features, community colleges play a key role in a variety 
of ways in both the public workforce system and regional economies. 
Numerous community college representatives sit on workforce boards, 
operate One-Stop Career Centers on their campuses, and offer programs 
for low-skill adults to improve their basic skills while acquiring 
technical training. Community colleges also are important to registered 
apprenticeship programs, providing the conceptual or academic part of 
training to apprentices. The role of community colleges was further 
strengthened by flexibility built into the American Recovery and 
Reinvestment Act of 2009 (Recovery Act) which facilitated local 
workforce boards' ability to contract with institutions of higher 
education, including community colleges, as well as other eligible 
training providers.
    We at the Department are excited about the opportunities that will 
be created by the President's community college initiative. The 
initiative, designed to meet the President's goal of an additional 5 
million community college graduates by 2020, would invest $12 billion 
in community colleges over the next decade to provide opportunities for 
lifelong learning that will raise the level of education and skills of 
America's workforce. This will help to rebuild the Nation's economic 
competitiveness and ability to fill the jobs of the future. The 
proposal would provide several strategies to strengthen community 
colleges nationwide. Through the Community College Challenge Fund 
specifically, the Departments of Labor and Education will work in 
partnership to jointly administer grants to enable community colleges 
to innovate and expand proven reforms. To further increase WIA program 
interaction with community colleges, the Department envisions stronger 
connectivity and collaboration between the One-Stop delivery system and 
community colleges, particularly in the areas of eligibility 
determination, referral, assessment, and service planning based on 
customers' interests and skill levels. Additionally, the One-Stop 
system will link customers to the education and training opportunities 
that will be created by the community college initiative.
    The initiative will build on the Department of Labor's current 
initiatives engaging community colleges as workforce system partners. 
Beginning in fiscal year 2005, the Department used Community Based Job 
Training Grants (CBJTG) to support community colleges by helping fund 
capacity-building, curriculum development, and training in high-growth, 
high-demand industries. In his fiscal year 2010 budget, President Obama 
introduced the Career Pathways Innovation Fund as an evolution of the 
CBJTG. This initiative continues the support to community colleges 
provided by CBJTG but focuses on career pathways, sequences of 
coursework, education, and credentials leading to a better job in a 
particular field. The Department will continue to work closely with the 
Department of Education and draw on its experience, particularly with 
career pathways, college-and career-ready standards, credit 
transferability, longitudinal data system operation, student support 
services to implement this initiative.

    Question 6. How does the Department plan to use lessons learned 
from the ARRA WIA funding to shape its reauthorization principles? What 
efforts are the Department making to track and measure the impact of 
this funding?
    Answer 6. As part of the implementation of the Recovery Act, the 
Department embarked on a review of State and Local Workforce Investment 
Boards to determine their readiness to implement the Recovery Act along 
with their regular formula responsibilities under WIA and other 
workforce programs. The readiness consultations, held with 209 local 
areas and States across the country during April-May, 2009, provided 
ETA with some broad insights regarding the general health of the public 
workforce system and reflected the proactive positioning of the system 
in the context of WIA reauthorization. Eighty-four percent of State 
Workforce Investment Boards reported that they were ready to refine and 
develop a vision to use Recovery Act funds to drive change throughout 
their workforce systems to meet future workforce and economic 
challenges. Ninety-four percent of States signaled readiness in the 
area of partnerships and a shared vision with education, labor, civic 
and philanthropic institutions to drive regional development 
strategies. Ninety-one percent of States have developed policies to 
target services to the hardest-to-serve populations. (The full report 
can be accessed at http://www.doleta.gov/pdf/National--Readiness--
Report.pdf.)
    We are also reaching out to learn about needs for improvement from 
the Government Accountability Office and Office of the Inspector 
General teams who have been in the field looking at implementation of 
the Recovery Act.
    Based on discussions with State and local workforce agencies, ETA 
is playing a critical role in providing Recovery Act-related technical 
assistance for system integration, reemployment, and other reform 
principles likely to be mainstays of a reauthorized workforce 
investment system.
    Consistent with the principles of transparency and accountability, 
ETA recognized the need to collect participant and performance 
information more frequently to inform policymakers and the public about 
the progress of the Recovery Act's implementation and about the labor-
market outcomes achieved for job seekers through the coupling of 
Recovery Act and regular formula funds. Beginning May 1, 2009, States 
have been reporting monthly on the number of participants served under 
WIA Adult, Dislocated Worker, and Youth programs, and the Wagner-Peyser 
Employment Service program and ETA has been making reported information 
publicly available on www.recovery.gov. Additionally, to obtain more 
robust, real-time information on individual characteristics and 
services and to determine the effect of the Recovery Act resources, 
States are required to submit WIA individual records on all 
participants on a quarterly basis beginning May 15, 2010, a change in 
reporting requirements from annual submissions.
    ETA has moved swiftly to ensure that evaluation of the 
effectiveness of the Recovery Act programs is captured, measured, and 
assessed and that knowledge is developed to inform implementation 
efforts. One planned evaluation will examine the summer youth 
employment opportunities provided through the WIA Youth Recovery Act 
funding. This implementation study is based on a selected sample of 20 
local workforce investment areas.
    Other planned evaluations include a review of State workforce 
development and unemployment insurance policy responses to the current 
economic recession and the Recovery Act. This project will examine the 
types of policy actions States take in their workforce development and 
unemployment insurance systems to meet the challenges of the recession. 
Plans also include initiating an intensive process study and impact 
analysis of grants awarded to prepare workers for careers in healthcare 
and other high-growth and emerging industries as well as an evaluation 
of the Recovery Act Green Jobs grants.

    Question 7. How can adult education services under title II be 
better aligned with title I programs to help low-skilled adults persist 
on a career pathway toward a family-sustaining career?
    Answer 7. Current information and experience suggest that 
integrating basic skills training with occupational training can be a 
better strategy for serving low-income adults in search of a job.
    The current statute divides occupational training and adult basic 
education into separate funding streams (title I and title II, 
respectively). However, integration of activities is allowed and 
encouraged to support these efforts, the Department will identify and 
encourage effective and innovative adult learning practices for low-
skilled adults that leverage title I and title II resources. This 
increased collaboration and the development of new adult learning 
practices will improve the system's capacity to create flexible 
delivery models focused on moving low-skilled adults along multiple 
learning pathways to post-secondary credentials.
    In order to encourage State and local areas to effectively 
coordinate title I and title II services, we must support coordination 
at the Federal level. Examples of how we can enhance collaboration 
include:

    1. Encouraging States to align title I and title II resources to 
support dual service programs;
    2. Revising performance measures to encourage coordination between 
programs, especially for those States that have common contracts in 
dual service programs. Title I and title II programs are subject to 
different outcome measures and reporting requirements, making it 
difficult for low-skilled adults to receive both types of services 
through one program. As part of reauthorization, Congress may want to 
consider aligning progress and outcome measures for title I and title 
II programs.
    3. Encouraging interagency coordination at the Federal and State 
levels that creates a greater role for adult education providers in the 
administration of local workforce investment areas; and
    4. Rewarding States that achieve strong outcomes through enhanced 
collaboration among State agencies administering title I and title II 
programs.

    Question 8. What recommendations do you have for strengthening the 
public private partnerships to support the goals of WIA?
    Answer 8. It is now commonly understood that the effective planning 
and implementation of workforce development strategies and solutions 
requires strategic partnerships that include both public and private 
partners. Important partners include the workforce system, economic 
developers, business and industry, organized labor, education at all 
levels, community-based organizations, and others. One of the most 
often-cited challenges to successful collaboration in the context of 
strategic partnerships is the need for funding to support the ``coming 
together'' of partners. In particular, time and resources are needed to 
plan and manage partnership meetings, develop and monitor collaborative 
work plans, and evaluate and assess the outcomes of partnerships. In 
many cases, individual partners may not have the resources needed for 
these purposes.
    As we approach reauthorization of WIA, one possible approach to 
strengthening public/private partnerships is exploring incentives for 
strategic partnerships by using relatively small amounts of resources 
targeted to promote collaboration among public/private partners. These 
resources could support a local Workforce Investment Board's efforts to 
host strategic planning sessions with partners who are not Board 
members, in order to target skills training that is transferable across 
industry sectors. The resources also could be used by local Boards to 
bring together partners that represent a given sector of the local 
economy to design or validate a training curriculum for occupation-
specific training. Such an approach may also include leveraging 
resources already available through formula programs or other public-
sector or private-sector resources. We at the Department look forward 
to an opportunity to further discuss this and other possible approaches 
with the Senator and other members of the committee.

    Question 9. How can the Department help to improve the 
accessibility, both physically and programmatically, of One-Stop 
Centers and training programs? What changes should Congress make to the 
law to ensure accessibility?
    Answer 9. The WIA nondiscrimination regulations require State and 
local agencies administering WIA financial assistance to designate 
Equal Opportunity (EO) Officers. These agencies and their EO Officers 
have an independent obligation to monitor compliance with 
nondiscrimination laws by covered entities within their jurisdictions, 
and to ensure that any violations--including violations of the 
comprehensive access requirements--are remedied. At the departmental 
level, ETA and the Civil Rights Center (CRC) share the responsibility 
of monitoring the workforce system's compliance with the legal 
requirements related to comprehensive access by people with 
disabilities.
    With the proposed end of the Work Incentive Grant pilot program in 
fiscal year 2010, ETA will increase collaboration with CRC and the ODEP 
to expand the capacity of the workforce system to provide comprehensive 
access and to replicate and integrate the promising practices 
identified through the Disability Program Navigator Initiative, which 
sought to improve services at One-Stop Centers for job seekers with 
disabilities. At the same time, CRC and ETA will continue to identify 
where One-Stops and other entities within the service delivery system 
do not provide comprehensive access, and will partner with ODEP to 
provide guidance on how to ensure comprehensive and universally 
accessible environments.
    In addition to these efforts, the Department will explore or expand 
the following approaches to improve the capacity of the workforce 
system to serve individuals with multiple barriers to employment, 
including young people and adults with disabilities: training front-
line staff on how to deliver services at One-Stops that are welcoming, 
accessible, and customer-friendly, as well as legally compliant; 
building on/establishing disability advisory committees that include 
representatives from the disability community and vocational 
rehabilitation, as well as EO officers, to regularly assess and monitor 
comprehensive access of One-Stop Career Centers; and continuing to 
conduct legally-required outreach to job seekers with disabilities and 
the local agencies/organizations serving them.
    The Department remains committed to continuously improving the 
accessibility of the One-Stop System and looks forward to working with 
Congress during WIA reauthorization to identify strategies and 
legislative changes that will improve services to persons with 
disabilities.

    Question 10. What administrative and policy changes would you 
recommend for creating a more coherent, seamless workforce system that 
encompasses the provisions under Title I, II, III, IV, and V of WIA and 
serves both job seekers and workers, and employers?
    Answer 10. As described more fully in my response to question 3, 
the Department of Labor believes that WIA reauthorization should create 
a modernized workforce system that provides seamless career advancement 
services for low-skilled adults, at-risk youth, dislocated workers, and 
others needing employment, training, and retraining services. The 
Department has already been discussing WIA reform with the Department 
of Education and has held many listening sessions with stakeholders 
concerning WIA reauthorization.
    In order to support a modernized workforce system, the Department 
will pursue a number of approaches. One possible approach would be to 
align and simplify the eligibility determination processes for the 
various programs to ensure that individuals can readily access the 
services for which they are eligible and do not have to repeatedly 
provide the same information to determine if they are eligible for 
different Federal programs.
    The Department also recommends aligning performance accountability 
measures for programs, and ensuring that these measures are based on 
both interim and long-term outcomes and do not discourage services to 
those most in need. The Department also sees value in making this 
information more readily available [Note: New DOL edit] and the process 
more transparent. This information could help customers and others know 
how the system is performing and help them make informed choices about 
what training will best prepare them for employment.
    In addition, basic skills training should be linked to occupational 
skills training for those low-skilled adults that have employment 
related needs and who can benefit from such programs, with multiple 
opportunities for a worker to access further basic and occupational 
skills training as he or she progresses along a career pathway.

    Question 11. What recommendations do you have for helping 
communities, including industry and education partners, become more 
engaged in and find value in their local workforce systems?
    Answer 11. Strategic public and private partnerships are required 
for the effective planning and implementation of workforce development 
strategies and solutions. The workforce investment system must be seen 
as valuable and employ effective strategies for engaging key partners, 
including economic developers, business and industry, organized labor, 
education at all levels, community-based organizations, and others.
    WIA provided a framework for collaboration through the State and 
local board structures. Due to a variety of factors, many boards 
struggle to manage two very different statutory roles: (1) to be 
strategic and (2) to manage programs. In addition, even as large as the 
boards are per the current statute, they cannot bring all the key 
partners to the table. Therefore, there is a need for other mechanisms 
and resources to help make the connections.
    Many Local Workforce Boards and One-Stops across the Nation use 
business representatives, generally, in two primary roles: (1) to bring 
the business customer to the One-Stop to identify and meet their hiring 
needs and (2) to engage more broadly with business and industry and 
other strategic partners in the context of industry sector strategies. 
Similarly, State and local workforce partners are also actively 
engaging their education partners.
    Thus, as we approach reauthorization of WIA, the Department 
suggests exploring approaches such as statutory incentives or mandates, 
for engaging key strategic partners and community leaders as both 
customers of the system and strategic partners in workforce 
development.

    Question 12. How can the Department support an increased awareness 
for all potential customers of programs and services available under 
WIA?
    Answer 12. DOL can support outreach activities on behalf of the 
workforce system in a variety of ways. As a Federal agency, DOL has a 
broad reach across organizations representing a variety of 
constituents, including diverse workers' interest groups, labor 
organizations, industry representatives, Federal agencies, foundations 
and elected officials. From a national stage, DOL can help these 
different organizations navigate the public workforce system, and 
better understand how their own constituents can benefit by working 
with the system.
    Some of the key things that DOL can do to support these efforts 
include:

    <bullet> Partner with intermediaries to design and distribute 
outreach materials describing the workforce system in a consistent and 
recognizable way.
    <bullet> Work collaboratively with Federal partners and national 
organizations to co-sponsor learning events for their constituents and 
members about the workforce investment system and its assets.
    <bullet> In the context of industry sector strategies, engage 
strategic partners in promoting the workforce system and the resources 
that can be leveraged as part of a broader strategy.
    <bullet> Make performance information more available, transparent, 
and usable for program stakeholders and customers.
    <bullet> Work to increase availability of the workforce system to 
various populations through such activities as extended hours for One-
Stop Career Centers, presence of multi-lingual staff, and information 
on services provided by programs that are not One-Stop partners.
    <bullet> Continue to work with entities at all levels of the 
workforce system to educate them about both their legal obligation to 
conduct, and effective strategies for conducting, outreach efforts to 
ensure the inclusion of members of both sexes, various racial and 
ethnic groups, individuals with disabilities, and individuals in 
differing age groups.
                       questions of senator enzi
    Question 1. How will you work together (with the Department of 
Education) to make sure youth served in the WIA programs are connected 
or reconnected to the larger education system? And, conversely how does 
the Department of Education plan to coordinate with WIA programs under 
the Department of Labor?
    Answer 1. ETA has provided guidance to the WIA Title I Youth 
Formula Program that encourages serving hardest-to-serve youth, 
including a specific focus on high school dropouts and out-of-school 
youth. Strategies for serving disconnected youth must include a strong 
academic focus with an opportunity to obtain a high school diploma or 
equivalent, transition into post-secondary education, and begin a 
career. This requires clear ``on ramps'' or reconnection points that 
link to both the traditional education system and multiple education 
pathways. ETA will work with the Department of Education on this 
priority in the following ways:

    <bullet> Support joint development of community-wide strategies or 
blueprints for re-engaging high school dropouts in conjunction with 
reform efforts already underway to improve high schools;
    <bullet> Develop a strategy that disseminates to the education and 
workforce systems successful ``on ramp'' strategies for reconnecting 
out-of-school youth, and provide guidance to both systems on how to 
implement such strategies;
    <bullet> Explore new approaches for consideration as part of 
reauthorization of WIA and related education legislation, such as the 
Elementary and Secondary Education Act of 1965, for ways to leverage 
and encourage stronger connections between education and workforce 
systems around reconnecting out-of-school youth; and
    <bullet> Increase out-of school youth enrollments in community 
college programs by identifying and promoting best practices and 
programs with success in this area.

    Question 2. How can we better coordinate the One-Stop system and 
the job training provisions of title I with the other WIA titles, Adult 
Basic Education and the Vocational Rehabilitation?
    Answer 2. Enabling greater coordination among agencies 
administering WIA Title I funding is a priority for the Department. DOL 
will work with the Department of Education and the programmatic systems 
implementing these programs in the following ways:

    1. The Department will work with Education to identify and/or 
develop innovative and effective adult learning practices for low-
skilled adults. Such practices should leverage WIA Title I and Title II 
resources with a goal of creating flexible delivery models that move 
low-skilled adults along multiple pathways leading to post-secondary 
credentials. A 2-year non-experimental evaluation of the I-BEST program 
in Washington by the Community College Research Center at Columbia 
University found that students enrolled in programs that integrate 
adult education and occupational training were more likely to obtain 
certificates than students enrolled in basic education programs 
(Jenkins, Dais, Matthew Zeidenber & Gregory S. Kienzl. Educational 
Outcomes of I-BEST, Washington State Community and Technical College 
System's Integrated Basic Education and Skills Training Program: 
Findings from a Multivariate Analysis. May 2009. CCRC Working Paper No. 
16: New York). Additionally, initial results from a multi-year, random 
assignment study of sectoral training strategies that contextualize 
basic education into skills training programs, conducted by Public/
Private Ventures, demonstrate positive impacts on employment outcomes 
for program participants (Maguire, Sheila, Joshua Freely, Carol Clymer 
and Maureen Conway. Job Training that Works: Findings from the Sectoral 
Impact Study. May 2009. Public/Private Ventures. New York).
    2. WIA Title I youth programs can be better coordinated with Adult 
Education's WIA Title II programs around serving older, out-of-school 
youth in need of basic skills. There is some overlap between the 
eligibility for WIA Titles I and II. WIA Title I serves youth ages 14-
24 and WIA Title II serves individuals age 16 and older who are not in 
school and are past the age of compulsory school attendance in their 
State. Programs under both WIA Titles I and II emphasize increasing 
basic skill levels, and use the literacy/numeracy gains common 
performance measure. The Departments of Labor and Education will work 
together to ensure that more WIA Title I youth who are basic-skills 
deficient receive basic-skills remediation.
    3. There are a number of opportunities to strengthen connections 
among the WIA delivery systems, including WIA Title I programs and 
Vocational Rehabilitation, for young people and adults with 
disabilities, while maintaining confidentiality of medical and 
disability-related information. The Department of Labor intends to 
build on the lessons learned from the Disability Navigator program, 
which ETA plans to share with the workforce system through the 
Workforce3One Web site, to enhance these connections at the One-Stop 
service delivery level. The Department of Labor will work with the 
Department of Education to:

    <bullet> Provide guidance to States and local areas to promote 
appropriate co-enrollment in workforce development and vocational 
rehabilitation programs, joint staff training, permissible data 
sharing, cross-agency referrals, joint staff meetings, and shared 
resources, with the ultimate goals of reducing the high unemployment 
and underemployment of people with disabilities;
    <bullet> Identify and disseminate service delivery models that 
effectively connect and integrate Vocational Rehabilitation services in 
One-Stop Career Centers; and
    <bullet> Explore new legislative approaches for connecting and 
coordinating services for consideration as part of reauthorization of 
the Workforce Investment Act.

    Question 3. and 6. What are the roles of the One-Stop Centers in 
providing job training and continuing education opportunities for 
people with disabilities, particularly youth with disabilities 
transitioning from high-school to post-secondary programs? What are the 
One-Stops doing to address accessibility issues and specifically for 
the One-Stops how are they implementing the 188 Disability Checklist?
    Answer 3. and 6. One-Stop Career Centers are required to make 
available job training and education opportunities to all customers, 
including job seekers with disabilities, in accordance with the non-
discrimination requirements of section 188 of the Workforce Investment 
Act (WIA) and its implementing regulations at 29 CFR part 37, as well 
as with section 504 of the Rehabilitation Act of 1973 (which applies to 
all federally assisted-activities). These opportunities must be 
provided to customers with disabilities in the most integrated setting 
appropriate to the needs of those customers. Comprehensive services 
that use an Integrated Resource Team approach to meet the needs of 
individuals with disabilities can further these opportunities through 
leveraging and coordinating diverse resources that address multiple 
barriers to employment such as transportation, housing, or supported 
employment needs. Youth with disabilities who are served through the 
WIA Youth formula program are counseled and provided guidance by either 
the local WIA Youth service provider or the One-Stop Career Center on 
continuing education and training services. The need for such services 
should be documented and included, to the extent possible under current 
confidentiality requirements, as part of an individual service strategy 
that addresses the youth's educational and occupational skills needs.
    The WIA nondiscrimination regulations at 29 CFR part 37 require 
State Governors to submit documents known as Methods of Administration 
(MOA) to the Department of Labor's Civil Rights Center (CRC) for 
review. The MOA must describe the actions a State will take to ensure 
that its WIA Title I-financially assisted programs, activities, and 
recipients are complying, and will continue to comply, with WIA Section 
188 and its implementing regulations--including the requirements 
related to disability. CRC reviews each MOA and, to the extent the 
document indicates a deficiency in the State's Equal Opportunity (EO)-
related policies, practices, and procedures, works with the State to 
help bring it into compliance.
    In addition, all applications for Federal financial assistance 
under WIA Title I, including WIA State Plans, must assure that the 
recipient will comply with a list of specified nondiscrimination 
statutes and their implementing regulations, including Section 188 of 
WIA, Section 504 of the Rehabilitation Act, and other statutes 
applicable to recipients of Federal financial assistance. This 
assurance is incorporated by operation of law in all documents or other 
arrangements (written or unwritten) that make WIA Title I financial 
assistance available.
    The WIA nondiscrimination regulations require State and local-level 
agencies administering WIA financial assistance to designate EO 
Officers. These agencies and their EO Officers have an independent 
obligation to monitor compliance with nondiscrimination laws by covered 
entities within their jurisdictions, and to ensure that any 
violations--including violations of the comprehensive access 
requirements--are remedied.
    While a helpful tool, the WIA Section 188 Disability Checklist was 
issued in 2003, well before the Americans with Disabilities Act 
Amendments Act of 2008 (ADAAA) made significant changes to the text and 
interpretation of Federal disability nondiscrimination laws, including 
those applicable to the One-Stop system. The Department of Labor 
intends to revise and reissue the Checklist after the Equal Employment 
Opportunity Commission, the Department of Justice, and the Department's 
Civil Rights Center publish final rules implementing the regulatory 
changes necessitated by the ADAAA. With the proposed end of the 
Disability Program Navigator (DPN) pilot program in fiscal year 2010, 
ETA will increase collaboration with CRC and the Department's Office of 
Disability Employment Policy (ODEP) to expand the capacity of the 
workforce system to ensure that the One-Stop delivery system provides 
comprehensive accessibility, and to replicate and integrate the 
promising practices identified through the DPN Initiative. At the same 
time, CRC and ETA will continue to identify where One-Stops and other 
entities within the service delivery system do not provide 
comprehensive access, and will partner with ODEP to provide guidance on 
how to ensure comprehensively and universally accessible environments.

    Question 4. What types of incentives are needed so that more Adult 
Basic Education and Perkins Career and Technical students successfully 
transition to post-secondary education, occupational and technical 
training (including through the One-Stop delivery system), and the 
workforce?
    Answer 4. We believe that the prospect of higher-paying jobs and 
careers provides a strong incentive for students to transition into 
post-secondary education programs and attain post-secondary 
credentials. As the Department of Labor has implemented workforce 
strategies in collaboration with education, business and industry, 
organized labor, and other partners, it has been our experience that 
``bridge'' programs that support an education pathway have greater 
success by making the move to post-secondary education seamless. For 
example, a study by MDRC on Career Academies points to a variety of 
positive outcomes from the programs, including higher wages and greater 
autonomy among participants (http://www.mdrc.org/publications/482/
overview.html).
    In addition, learning environments that integrate academic and 
occupational skills can lead to an increased number of students 
continuing on education pathways into post-secondary education. The 
One-Stop system also plays a key role by providing individuals access 
to the resources necessary to make informed career choices and 
information about the linkages between further education, training, and 
good jobs.
    The Department of Labor will work with the Department of Education 
to identify incentive mechanisms to promote greater use of WIA Title I, 
Adult Basic Education, and Perkins Act funding at the State and local 
levels to improve successful student transitions to post-secondary 
education.

    Question 5a. What do we need to do so that the workforce 
development system is viewed as an economic development strategy?
    Answer 5a. A modernized workforce investment system should position 
education and training as critical drivers of a knowledge-based 
economy, and function as an essential element of a broad-based economic 
development strategy. The Department believes a reinvigorated workforce 
investment system will be aligned with the Secretary's goal of a good 
job for everyone. To meet this goal, the workforce system must embody a 
dual customer approach that ensures that all individuals have pathways 
to good jobs, and growing businesses have full access to skilled 
workers, including untapped and diverse labor pools. In order to 
promote these ideas, it is important that the Department of Labor work 
closely with the Department of Commerce to align our efforts in 
economic development and workforce development. We need to encourage 
economic development funding that incorporates workforce strategies as 
a key component of a comprehensive economic development strategy. 
Similarly, we need to help State and local workforce system partners be 
positioned to play this role in economic development by carrying out 
activities such as working to ensure workforce training programs are 
providing participants with the skills needed by the local economy. It 
will be important to acknowledge this role in the context of WIA 
reauthorization and to provide guidance in support of that role.

    Question 5b. What types of incentives are needed so that State and 
local workforce investment boards align workforce development services 
with regional or sectoral strategies to enhance system coordination?
    Answer 5b. A number of States and their local Workforce Investment 
Boards and One-Stop Career Centers have successfully implemented a 
variety of sector approaches that have examined labor market trends, 
developed an understanding of specific industry sector workforce needs, 
and promoted training that responds to those immediate employer needs 
within the identified sectors. Leadership at the State and local levels 
is required to emphasize this approach, as well as funding to support 
it. It has also required recognition that workers are better served by 
service providers that know what skills a given sector needs and 
strategies that ensure that workers can attain those skills and related 
credentials.
    The Department of Labor's recent American Recovery and Reinvestment 
Act Solicitation for Grant Applications for State Energy Sector 
Partnership and Training Grants incorporated sector strategies into 
competitive funding opportunities as an incentive for State and local 
workforce investment boards to align workforce development services 
with regional or sector strategies. Funding incentives are an effective 
way for the Department to bring attention to a new approach, but 
supporting replication of these approaches though policy guidance and 
technical assistance (without dedicated funding) are other options.
    We believe a modernized workforce investment system should require 
that training programs be designed and implemented through a range of 
Federal, State, local, and private-sector institutions working 
collaboratively to encourage the integration of education, training, 
and supportive services. This strategic planning process needs to 
include key decisionmakers from a range of appropriate institutions to 
ensure that workforce development strategies are reflective of State 
and local policies and priorities. In addition to planning 
requirements, the Department could award incentive resources to States 
that take this approach. As we consider reauthorization of the 
Workforce Investment Act, we recommend exploring incentives for 
strategic partnerships, using relatively small amounts of funding and 
other resources targeted to promote collaboration among public/private 
partnerships, with a goal of helping partners leverage resources 
already available through formula-funded programs.

    Question 5c. What can be done to strengthen partnerships with 
employers, especially small businesses, to allow them to make 
meaningful contributions to the workforce development system?
    Answer 5c. Engaging small businesses with the workforce investment 
system is an ongoing challenge due to the limited time and resources 
small business owners have to commit to activities other than their own 
business. Therefore, successful engagement of small businesses requires 
carefully crafted strategies that accommodate their needs.
    The workforce system must be seen as an important resource to small 
businesses by connecting them to relevant information and services. 
Presenting One-Stop Career Centers as a key human resource development 
asset for small businesses is a first and key step. Industry sector 
strategies provide a context for small business engagement as has been 
demonstrated by Manufacturing Extension Partnerships across the 
country. Another strategy that has been successful over time is for the 
Local Workforce Investment Board or One-Stop to provide networking 
opportunities for small businesses combined with informational 
presentations on key issues, not all of which need to relate to 
workforce development, but that successfully engage the small business 
owners. Using Chambers of Commerce as an intermediary to engage small 
business has also been a successful model. Another successful strategy 
has been to encourage integration of Small Business Development Centers 
into One-Stop Career Centers to support small business growth.
    Having engaged the small business owner as a customer, small 
businesses can contribute to the workforce system in a variety of 
meaningful ways, including: (1) providing internships, externships, and 
hands-on training and, where possible, offering stipends to 
participants; (2) connecting small businesses to existing community 
college programs designed for entrepreneurs by serving as mentors/
coaches or serving as instructors; (3) having Small Business 
Development Centers serve as One-Stop satellites during off-hours of 
the One-Stop; and (4) taking advantage of on-the-job-training.
    Opportunities to provide further incentives for small business 
engagement include:

    <bullet> Exploring both administrative and legislative changes that 
encourage coordination and information sharing between One-Stop Career 
Centers and Small Business Development Centers (SBDCs). This could 
include the exchange of data to track participants who are referred to 
SBDCs for entrepreneurship training and policies that require 
participation of SBDCs on Workforce Investment Boards (WIBs) or other 
governing structures.
    <bullet> In WIA reauthorization, considering incentives for 
cluster-based activities, whereby a collection of WIBs is rewarded for 
recruiting, training, and placing workers into jobs across a set of 
industry competitors. By providing financial incentive, WIBs could 
engage these ``pools'' of employers in addressing their needs, which 
may be particularly attractive to small businesses that do not have the 
resources to act independently to access the workforce system. At the 
same time, this would encourage partnership among WIBs that may 
consider themselves in competition with one another for the 
partnerships with employers.

    Question 7. Furthermore, how is the One-Stop system addressing the 
concern that One-Stop Centers automatically refer people with 
disabilities to the Vocational Rehabilitation system?
    Answer 7. This is an important issue, and we are currently 
considering the full range of options for addressing it. In part, this 
issue is being addressed by promoting greater coordination, to the 
extent possible under current confidentiality requirements, at the 
local level between the Vocational Rehabilitation (VR) and workforce 
systems. For example, training One-Stop Career Center staff in the 
eligibility requirements of VR services, which in recent years has been 
provided through the assistance of Disability Program Navigators 
(DPNs), has led to improving the capacity of the staff to determine 
which job seekers with disabilities are eligible for and would most 
benefit from VR services. Further, integrated resource team approaches, 
which have been emphasized in training and technical assistance 
efforts, promote the leveraging of expertise and resources of the 
respective systems to benefit job seekers with disabilities.
    Over the last 2 years, an increasing number of One-Stops and Local 
Workforce Investment Boards have become Employment Networks under the 
Social Security Administration's Ticket-to-Work Program, so they are 
serving customers who are Social Security disability beneficiaries, 
rather than referring them to VR. Moreover, because most State VR 
agencies are on an ``order of selection,'' under which people with the 
most significant disabilities are served first, the VR system often 
refers persons with disabilities who are on its waiting lists to the 
other programs within local One-Stop systems. More effort is needed to 
further educate entities at all levels of the system about their legal 
obligations regarding customers with disabilities, eligibility 
requirements for the various programs targeted towards customers with 
disabilities, and effective service strategies in fully integrated 
settings.
    At the Federal level, ETA is increasing collaboration with the 
Department's Civil Rights Center and Office of Disability Employment 
Policy. The goals of this increased collaboration include the provision 
of the education discussed above, and the integration of the promising 
practices identified through the DPN Initiative into the public 
workforce system. The latter integration will ensure that the lessons 
and practices learned through the DPN pilot program are continued after 
it ends.
                      questions of senator coburn
    Question 1. In both written and verbal testimony, you expressed a 
desire to work cooperatively with other agencies like the Department of 
Health and Human Services in addition to the Departments of Labor and 
Education in attempting to improve job-training programs. Beyond these 
three agencies, what other agencies conduct job-training or job-
training related programs that should be included in multi-agency 
collaborative efforts?
    Answer 1. In addition to the Departments of Health and Human 
Services and Education, several other Federal departments and agencies 
provide a variety of resources that can support worker reemployment. 
State agencies operate employment and training programs under the 
Department of Agriculture's Supplemental Nutrition Assistance Program 
(SNAP). The Department of Energy received training funds as part of 
their Recovery and Reinvestment Act of 2009 (Recovery Act) investments. 
The Department of Defense provides resources for military spouses and 
supports the National Guard's Youth ChalleNGe program, and the 
Department of Veterans Affairs provides resources for veterans. This 
list is not comprehensive, but includes some of the key agencies with 
training resources. The Department believes strongly that increased 
cooperation and collaboration among these departments and agencies, 
combined with the leveraging and aligning of resources, will result in 
higher quality and more comprehensive job training programs.
    In addition to programs administered by the Departments of Labor, 
Education, and Health and Human Services, the One-Stop delivery system 
under the Workforce Investment Act (WIA) includes additional partner 
programs' employment and training activities carried out by the 
Department of Housing and Urban Development, work programs authorized 
by the Food Stamp Act (administered by Agriculture), and programs 
authorized under the National and Community Service Act. The One-Stop 
system is based on partnerships that leverage resources to support 
comprehensive centers where individuals can find access to, and 
information about, the wide array of job training and education 
opportunities that exist.

    Question 2. In Ms. Oates' verbal testimony regarding performance 
measures, she mentioned potential waste that occurs as job training 
providers have to submit different performance measure reporting 
requirements and related paperwork that differs from agency to agency. 
Please provide specific examples of how performance measures and 
reporting requirements are duplicative and provide recommendations to 
eliminate this duplication for Congress to consider as we reauthorize 
WIA. Please also provide information regarding which performance 
measures have shown to be useful in evaluating program success.
    Answer 2. The definitions of the performance measures for the WIA 
Title I programs and the Wagner-Peyser Employment Service differ from 
the statutorily-defined measures of the Trade Adjustment Act (TAA) 
program, and the WIA Title II program measures, while similar to the 
WIA Title I Adult and Youth measures, have different definitions as 
well. As a result, service providers must collect different information 
for different measures according to funding stream, and program 
specific goals and purpose, often for the same individual customer 
being served. The Department believes it would be useful to explore how 
WIA can support the development of performance measures that will 
reflect the success of both job training and education initiatives by 
collecting and reporting interim and long-term outcome data from all 
participants served and that specifically encourage the system to serve 
those most in need. Additionally, the Department believes that the 
ultimate purpose of performance data is to help establish goals and 
assess whether the workforce system assists its customers, including 
individuals from traditionally underserved populations, in finding a 
good job.
    ETA believes a streamlined performance reporting approach has the 
potential benefits of reducing the administrative burden and enhancing 
collaboration among service providers, if the recordkeeping and 
reporting requirements are similar among funding streams. Previously, 
the Department of Labor worked with other Federal agencies to develop a 
set of performance measures that included entered employment, 
employment retention, and earnings for all adult job training programs 
and a set of youth and lifelong learning measures for youth and adult 
basic education programs. The Department of Labor implemented this set 
of performance measures for its workforce development programs; 
however, we understand that statutory constraints and requirements 
prevented other Federal agencies from full implementation. ETA 
continues to consider streamlined reporting and other proposed 
initiatives in collaboration with its partners and stakeholders as it 
refines its approach to program performance reporting for the workforce 
system and its customers.
    The core set of current performance measures for adults and 
dislocated workers in WIA Title I and other workforce programs--entered 
employment, employment retention, and earnings--provide a good basis 
for evaluating the success of these programs. However, there is a lag 
in outcome data due to the time period to assess outcomes. For example, 
employment retention is measured at 6 months and 9 months after program 
completion for WIA Adult and Dislocated Workers programs and the 
Wagner-Peyser Employment Service. However, under TAA it is measured 12 
months after program completion. While outcome data is essential to 
gauging program effectiveness, the collection of further information on 
interim progress that could be gathered without a significant lag could 
also be beneficial for program management. Such information could 
include training received and credentials attained.
    In addition to the core set of outcome measures for title I adult 
participants, measures of credentials attained and customer 
satisfaction with the services received would be valuable measurement 
tools. The credential measure can provide insight into training 
milestones and the degree to which participants secure portable 
credentials (certificate and/or degree) vital to continuing on a career 
pathway. The customer satisfaction measure would be useful to assess 
the value of the program and to aid in improvement of strategies and 
services.
    For the WIA youth program, as part of the set of performance 
measures referenced previously, States report outcomes for all youth 
using the following measures: placement in employment or education, 
attainment of a degree or certificate, and literacy and numeracy gains. 
An employment/education retention measure for youth is critical as 
another measure of effectiveness of the service strategy.

    Question 3. During the President's transition he promised to 
conduct ``an immediate and periodic public inventory of administrative 
offices and functions and require agency leaders to work together to 
root out redundancy.'' Please identify what redundancies you have 
discovered in existing job-training programs including any you have 
uncovered in your current collaborative efforts with other agencies.
    Answer 3. An important part of WIA reauthorization will be the 
identification of strategies that maximize resources, streamline access 
to services, and avoid the unnecessary duplication of programs. To 
support these efforts, a strong emphasis on informed decisionmaking is 
required. Thus, the Department is strengthening its efforts to conduct 
rigorous evaluations of its programs to gather data, inform systematic 
and policy decisions, and guide the continuous improvement of programs 
and service delivery. The continuous improvement of DOL's programs will 
help American workers improve their skills, advance their education, 
and secure a good job.
    We are also working with the Department of Education and other 
Federal agencies to review the current mix of job training investments 
to determine if redundancies or inefficiencies exist and develop 
strategies to address them.

    Question 4. As the unemployment rate continues to climb, making 
efficiency in job-training programs a critical necessity, which job-
training or job-training related programs, do you think can be 
eliminated because they are ineffective, duplicative, unnecessary, or 
have outlived their purpose?
    Answer 4. The current design of the workforce system was put in 
place in 1998, at a time of full employment (the national unemployment 
rate for the year ranged from 4.4 to 4.6 percent that year). Though 
designed at a time when economic conditions were better than they are 
now, the public workforce system has stepped up to the plate, 
performing admirably in responding to the challenges it has faced in 
the current recession. In this time of high unemployment, it is 
important that the workforce system look carefully at the labor market 
and target investments to skills areas that will help workers to attain 
good jobs as the economy recovers.
    The spirit of WIA embodies streamlining programming and access to 
services. We agree that we must consider how the workforce system can 
be improved through WIA reauthorization to modernize the system to meet 
the needs of today's economy, while continuing to serve those who are 
most in need of help securing and retaining good jobs. The Department 
has engaged in activities specifically related to modernizing WIA, such 
as meeting with stakeholder organizations to gather suggestions about 
reforming and improving the workforce system, and looks forward to 
further opportunities to share information and work with the Senator 
and other members of the committee during WIA reauthorization. 
Together, we need to examine ways to improve the delivery of services 
through the workforce system, identify and eliminate unnecessary 
duplication (such as complex eligibility determination processes across 
multiple programs), and maximize the effectiveness of our limited 
resources in serving the American workforce.

    Question 5. How do your agencies detect fraud in job-training or 
job-training related programs?
    Answer 5. ETA monitors grantees through six regional offices, each 
managed by a Senior Executive Service (SES) Regional Administrator. On-
site monitoring of all grantees is done to the extent that travel 
resources allow, and each State grantee receives a comprehensive review 
of fiscal and programmatic activity once every 3 years. In addition, 
ETA conducts quarterly desk reviews of all active grants using a system 
called the Grants Electronic Management System, or GEMS. These desk 
reviews consist of standard questions and analysis and are recorded in 
the GEMS system along with documentation of grantee-submitted fiscal 
reports, performance data, and Federal Project Officer notations. On 
the basis of these quarterly reviews, ETA assigns a risk rating to the 
grantee (red, yellow, or green). ETA monitors ``at risk'' grants on a 
more frequent basis, using standard operating procedures and a 
comprehensive Core Monitoring Guide and its supplements. A grantee is 
categorized as ``at risk'' based on criteria designed to evaluate the 
degree to which Federal staff should provide oversight and technical 
assistance to ensure compliance with financial reporting requirements. 
Such criteria include the grantee's ability to timely and accurately 
submit financial reports, the amount of grant funds awarded, and 
whether or not the grantee is a first time ETA grant recipient. During 
the course of monitoring, if any suspicion of fraud or abuse is 
detected, it is immediately reported to the Region Administrator who 
determines if there was intent to misapply funds that would warrant an 
Office of the Inspector General (OIG) Incident Report.
    ETA is also focusing on strengthening its working relationship with 
OIG. Through this strengthened relationship, ETA hopes to research new 
approaches that will allow us to proactively identify and correct 
problems before they become significant.
      Response to Questions of Senator Murray, Senator Enzi, and 
                    Senator Coburn by Martha Kanter
                      questions of senator murray
    Question 1. How does the Department define ``post-secondary 
education'' or a ``post-secondary education credential''?
    Answer 1. The generally accepted understanding of the term ``post-
secondary education'' is education and training beyond high school. 
This could include education from a number of sources, such as at 2- 
and 4-year colleges and universities, post-secondary trade and 
technical schools (along with community-based training), post-high 
school adult education, and registered apprenticeship programs.
    Although there is no statutory or regulatory definition of ``post-
secondary education credential,'' again generally, the term is 
understood to include both formal degrees and certificates awarded by 
traditional institutions of higher education as well as industry-
recognized credentials and certificates based on non-credit training 
that takes place either within or outside of a traditional educational 
setting.
    ED and the Department of Labor (DOL) have begun discussions about 
what standards should be used to define industry-recognized 
credentials. This joint effort will help inform our decisionmaking when 
WIA reauthorization is considered. Also, we want to include industry 
stakeholders in the process of helping us define these standards, so 
that credentials provide interim performance measures and are portable 
and ``stackable'' and are both recognized and used by employers.
    We think that the adoption of standards will help workers who seek 
credentials, particularly low-skilled workers, obtain employment and 
advance in their education and careers. States are not currently 
required, under Title II of WIA, to report information on certificates 
beyond the secondary level. Expanding and enhancing data collection on 
certificates would be useful if there were established common Federal 
definitions of certificates and industry-grouped post-secondary 
credentials.

    Question 2. What are the Department's principles for WIA 
reauthorization?
    Answer 2. While formal principles have not yet been established, we 
believe that WIA reauthorization should aim to ensure that adults 
seeking training will find, gain physical and programmatic access to, 
and, if eligible, obtain the federally supported services they need, 
regardless of their system point of entry. To this end, we must improve 
the alignment and integration of adult education and employment and 
training services in order to fully meet the needs of the target 
populations: the unemployed, the underemployed, and those who need 
basic educational training in order to advance in their education and 
career goals--including individuals with disabilities.
    The Department will continue to have conversations with DOL to 
ensure that this overarching principle, anchored in the needs of the 
client, guides our work.
    WIA reauthorization should ensure that all individuals are served, 
including low-skilled adults and individuals with disabilities, and 
that clients can gain access to programs and systems in a variety of 
ways. Multiple points of entry are needed to ensure that clients can 
gain access to services in a manner that best meets their needs. The 
One-Stop Centers are one vital point where customers can obtain the 
services they need and connect with Federal education and training 
programs. Other system-entry points, particularly community colleges 
and community-based organizations, must also help workers gain 
education and workforce skills, find and sustain employment, and 
advance in their careers. Performance and accountability measures must 
be aligned and must recognize gains over time if the systems are to 
align and customers' needs are to be fully met.

    Question 3. How does the Department envision the President's new 
community college initiative interacting with WIA programs and other 
efforts the Department or the Department of Labor has undertaken to 
support the role of community colleges in workforce development, 
including education and training? What is the Department's view on the 
role of community colleges in workforce development, including 
education and training?
    Answer 3. Community colleges are central to the workforce system 
and to strengthening the economy because they provide skilled workers 
who are necessary to meet our Nation's economic and social challenges. 
There are nearly 12 million students enrolled in community colleges 
across the country. These students are choosing among for-credit and 
noncredit classes, developmental courses, career-prep courses, adult 
education, core career and technical education, general education 
courses, and apprenticeships, in obtaining the instruction and skills 
they need to further their education and achieve their career goals. 
Community colleges lead the way in preparing graduates in fast-growing 
fields such as healthcare. The flexible nature of community colleges 
allows them to work with employers and the private sector to address 
regional workforce shortages and create tailored training, 
partnerships, and apprenticeship programs for specific occupations. 
These institutions offer a low-cost and flexible way for students to 
achieve their educational and employment goals.
    The President's community college initiative, the American 
Graduation Initiative (AGI), was announced in July and is included, in 
large part, in H.R. 3221, the Student Aid and Fiscal Responsibility Act 
of 2009, as passed by the House. H.R. 3221 would require that the AGI 
be jointly administered by the Department and DOL and is geared 
specifically toward strengthening the community college system so that 
it can provide education and training critical to advancing America's 
workforce. We see this effort as aligning with WIA and will work to 
integrate the two authorities on enactment.
    Designed to help meet the President's goal of an additional 5 
million community college graduates by 2020, AGI, as incorporated in 
House-passed H.R. 3221, would provide competitive grants to fund 
innovative programs and programs of proven effectiveness that improve 
post-secondary completion rates and train workers for skilled 
occupations. The two Departments would give priority to applications 
focused on serving low-income adults and nontraditional students. Funds 
could be used to enhance linkages with various local, State, and 
Federal programs, including those funded under WIA, and to focus on 
integrated education and training programs and sector-specific 
strategies in high-growth and high-need areas. The targeted population 
and activities in the AGI grant programs would be in alignment with the 
Administration's principles for WIA reauthorization. If the AGI is 
enacted, the Department and DOL will seek to ensure that the grants are 
implemented in a manner that enables students to achieve maximum 
educational and employment gains.

    Question 4. How can adult education services under title II be 
better aligned with title I programs to help low-skilled adults persist 
on a career pathway toward a family-sustaining career?
    Answer 4. In addition to the principles discussed above in response 
to question 2, we are discussing with DOL several key strategies for 
improving the alignment and integration of services provided to low-
skilled individuals under Title I and Title II of WIA, including: (1) 
creating incentives to dually enroll clients in education and training 
programs that include shared accountability and reporting on employment 
and education outcomes; (2) encouraging models of service delivery that 
integrate education and training, specifically by targeting resources 
so as to connect adult education to post-secondary career pathways in 
industry-specific, high-growth areas-and in areas where replacements of 
large portions of the sector's workforce are needed; and (3) expanding 
the availability of basic skills services to One-Stop clients through 
title II providers. This integration and alignment could extend to the 
title I youth program for both in-school and out-of-school youth and 
include the provision of more comprehensive services to out-of-school 
youth enrolled in title II through partnerships with the title I youth 
program.
    During reauthorization, we also want to look at ways to improve the 
alignment of education and workforce services under title II, such as 
by requiring States to implement content standards that are aligned 
with college-and-career-readiness competencies and to provide for the 
development of assessments to measure student achievement against these 
standards. We will also look at ways to use innovative literacy 
programs, through work-focused education, as a mechanism to assist the 
neediest families in moving to economic self-sufficiency.

    Question 5. What recommendations do you have for strengthening 
public and private partnerships to support the goals of WIA?
    Answer 5. Effective public-private partnerships are essential to 
maximizing workforce development, job placement, and educational 
achievement. The cornerstone of these partnerships is alignment and 
integration of standards and expectations of the private sector with 
training and educational delivery systems through ED and DOL.
    The best-performing public-private partnerships result in 
identified sector-specific curricula, standards, and assessments that 
are well-informed by industry expectations for workforce performance. 
To this end, the Department, in collaboration with DOL, is leading an 
effort to define career pathways in 16 general industry sectors, 
including healthcare, construction technology, information technology, 
and manufacturing. These pathways define the learning expectations of 
the industry partners. The learning expectations can be captured in 
``stackable'' industry-recognized credentials that reflect increasing 
levels of skills. These credentials are valuable for employers looking 
to hire workers with a set level of expertise and for workers looking 
to improve their earning potential.
    Additionally, the creation of broad State and local partnerships 
that include not only business and industry partners, but also local 
governments, education institutions, agencies, and organizations, 
corporations, foundations, and workforce investment boards and 
mandatory One-Stop partners under WIA, may help ensure that workers, 
learners, and businesses benefit. Clear expectations and accountability 
for partnerships will strengthen coordination among these agents, 
particularly between the private and public sectors.
    State and local Workforce Investment Boards (WIBs) are important to 
fostering the types of partnerships necessary to maximize workforce 
development, job placement, and educational achievement. Therefore, 
WIBs must be strategic, effective, and representative; State and 
regional communication and coordination systems will ensure that 
workforce training is aligned with State and regional employer needs.
    Federal partnerships are also critical to the success of these 
efforts. To increase students' job placement and career advancement 
success, ED can expand and deepen career pathway efforts by improving 
coordination with DOL to encourage State and local partnerships 
throughout entities such as educational institutions and training 
programs.
    In order to facilitate the employment of individuals with 
disabilities who are eligible for Vocational Rehabilitation (VR) 
services, the Department has supported a number of activities to 
increase business and industry's awareness of the services provided 
through the VR State Grants. We've supported and participated in 
conferences and job fairs offered by business organizations, conducted 
forums in four high-growth industries--financial services, hospitality/
retail, technology, and health care--and published the employer 
resource Disability 101. Also, the Council for State Administrators of 
VR has begun work on the ``Net,'' an online tool to connect VR agency 
job developers and employers nationally.
    In reauthorizing the Rehabilitation Act, we want to look at ways to 
further strengthen collaboration between VR agencies and employers at 
the national and State levels.

    Question 6. How can the Department help to improve the 
accessibility, both physically and programmatically, of One-Stop 
Centers and training programs? What changes should Congress make to the 
law to ensure accessibility?
    Answer 6. One-Stop accessibility is required under Section 188 of 
WIA and Section 504 of the Rehabilitation Act; however, there are 
anecdotal reports that problems still exist with accessibility of 
physical structures, technology, and service delivery. We will work 
with DOL to identify if there are approaches that can better ensure 
access by individuals with disabilities--both physically (i.e., 
facilities are readily accessible and useable) and programmatically 
(i.e., the full array of WIA services is available).

    Question 7. What administrative and policy changes would you 
recommend for creating a more coherent, seamless workforce system that 
encompasses the provisions under Title I, II, III, IV, and V of WIA and 
serves both job seekers and workers, and employers?
    Answer 7. Improving the alignment and integration of adult 
education and employment and training services in order to meet the 
needs of clients is one of the Department's overarching priorities for 
WIA reauthorization. Several strategies we are considering were 
discussed above in response to questions 2 and 4. Additionally, 
reauthorization will allow us to examine ways to further strengthen the 
accountability provisions, such as establishing local and regional 
performance targets; connecting funding to performance; and expanding 
the use of longitudinal data systems to track education and employment 
outcomes.
    Further, we want to look at ways to establish core standards for 
adult education instructors and faculty and strengthen the teacher-
quality and professional-development provisions in State plans; 
increase the use of technology for classroom instruction and distance 
learning; and employ innovative ``platforms'' and evidence-based 
learning strategies to enhance the provision of services.
    Several ways to improve coordination of programs under title I with 
the VR program under the Rehabilitation Act include:

    (1) Using a common intake or application process to ascertain basic 
information about the individual (though eligibility for specialized VR 
services would continue to be made by a qualified VR counselor who 
meets the personnel standards).
    (2) Co-location of programs funded through WIA within One-Stop 
Centers. Anecdotal evidence, gained in monitoring, suggests that in 
States where VR program staff are co-located in the One-Stop with title 
I staff, (e.g., in Georgia, Minnesota, Wyoming, and Washington), 
information sharing and referral can be facilitated.
    (3) Training of One-Stop Center staff to work with individuals with 
disabilities, including developing a better understanding of the 
eligibility requirements of relevant programs, would make the staff 
more aware of how to better meet the needs of those individuals and 
would increase the likelihood that direct services would be provided 
and appropriate referrals would be made to the VR program and other 
programs.
    (4) Ensuring that One-Stops are fully accessible and available to 
individuals with disabilities, in order to promote coordination among 
partner programs as well.

    Question 8. How can the Department support an increased awareness 
for all potential customers of programs and services available under 
WIA?
    Answer 8. Federal agencies, including ED and DOL, should continue 
to work together to ensure that clients are informed of and receiving 
services for which they are eligible. Co-location of services within a 
One-Stop, enrollment through a common intake process, and the option 
for co-enrollment in multiple programs by individuals who come to a 
One-Stop could be powerful tools in meeting the needs of those who are 
already being served, but who have not sufficiently realized the 
potential of the broader workforce system. For example, co-location of 
the VR agency staff within the One-Stop Center, where feasible, could 
assist in exposing disabled persons to all the available partner 
program services, including VR services.
    Public-awareness efforts aimed at promoting the services offered by 
the workforce, adult education, and community college systems need to 
be targeted to the various customers they serve. Strategies to re-
engage youth and adults in educational and career pathways should make 
use of technological innovations, including social networking and use 
of web portals, to disseminate information more widely. Our efforts 
should include: (1) working with high schools to build awareness of 
services available to youth; (2) expanding services to incumbent 
workers within targeted businesses, especially small- to mid-size 
companies that have the need to upgrade the skills of their workers; 
(3) using community-based and non-profit organizations to reach new 
immigrants, including those with professional skills; (4) expanding use 
of technology to reach different client populations, including youth 
who have dropped out of school, as well as linking to VR with DOL's Web 
sites and online information-sharing to offer as much information as 
possible to VR consumers and employers; and (5) highlighting referral 
directories and toll-free hotlines that States would support by keeping 
current information about publicly-funded local providers; and (6) 
providing guidance to States on how to inform students receiving IDEA 
services of the available One-Stop services as part of a required 
transition plan.

    Question 9. How will the Department institute a partnership with 
the Department of Labor on WIA and other workforce development 
education and training initiatives?
    Answer 9. The reauthorization of WIA affords a great opportunity 
for the two Departments to work hand-in-hand to assist in the provision 
of world-class education and career development opportunities, and 
successful job placement, to the full spectrum of Americans--from those 
who need basic literacy training to highly-skilled displaced workers 
who need to change careers. We have begun to have conversations with 
DOL about how to better align our programs and leverage our resources 
so as to ensure the best possible outcomes for our clients. The recent 
work between DOL and ED to help those who are unemployed enroll in and 
pay for post-secondary education, and the work we're committing to do 
together under the President's American Graduation Initiative, 
demonstrates both the desire and ability of our agencies to work 
together in the best interest of clients.
                       questions of senator enzi
    Question 1. How will you work together (with the Department of 
Labor) to make sure youth served in the WIA programs are connected or 
reconnected to the larger education system? And, conversely how does 
the Department of Education plan to coordinate with WIA programs under 
the Department of Labor?
    Answer 1. The Department has a strong commitment to collaborating 
with DOL to help better connect or re-connect students with the larger 
educational and employment systems. The workforce system should target 
both in-school and out-of-school at-risk youth, including those with 
disabilities. These groups include: (1) young people in high school who 
are ``off-track'' and at risk of dropping out--especially those with 
poor literacy skills and mental-health/substance-abuse problems; (2) 
those who have already dropped out; and (3) high school graduates with 
poor skills who are not enrolled in post-secondary education and 
failing to obtain regular jobs. These categories are fluid as 
individuals move in and out of school and college and as they may enter 
or re-enter one or more of these categories. ED also recognizes that 
employment can be a vital component of any high-engagement educational 
strategy for at-risk youth. Reauthorization provides an opportunity to 
strengthen the connection between DOL's programs and academic skills 
development. For example, employment opportunities funded under WIA 
Youth could strengthen linkages to an academic component to help ensure 
that students are attaining college- and work-ready skills while 
participating in meaningful employment.
    The agencies could also better align performance measures and 
eligibility criteria so as to reduce barriers to participation in WIA 
programs for at-risk youth, by instituting performance measures that 
recognize gains over time and avoid the selection of participants on 
the basis of performance rather than need. Sharing and matching data 
related to performance measures across programs and departments will 
enhance the agencies' ability to measure the success of educational and 
employment strategies. Youth eligibility could be established once, 
rather than for each separate program. Certain programs could consider 
automatic eligibility for at-risk groups such as juvenile offenders, 
homeless individuals, dropouts, and foster youth. Particular attention 
could be paid to youth who live in areas of concentrated poverty, both 
rural and urban.
    The VR program reconnects individuals whose disabilities pose a 
substantial impediment to employment to the larger education and 
training system by providing educational services to those individuals 
as part of their Individualized Plan for Employment (IPE). It is a 
frequent user of existing training programs in carrying out an 
individual's IPE. For example, 22 percent of individuals of transition 
age (14-24 at application) whose service records were closed in fiscal 
year 2008 after receiving services from the VR State program were 
assisted in the provision of college or university training; 14 percent 
received occupational or vocational training; 14 percent received other 
miscellaneous training; and about 3 percent received basic academic 
remedial skills or literacy instruction independent of the training 
period under the above categories.
    State VR agencies also help facilitate the transition of youth with 
disabilities from high school to post-secondary education and 
employment through the provision of transition services both under VR 
and IDEA. In addition, they also provide consultative and technical 
assistance services to assist educational agencies in planning for the 
transition of students with disabilities from school to post-school 
activities, including employment. When VR staff visit a school to 
consult, they provide information about VR services, employment trends, 
and career options with school staff, students with disabilities, and 
their families. These consultations would be a good time to provide 
information about services available through the One-Stops.
    The Rehabilitation Act also requires State VR agencies to have an 
interagency agreement in place with each public institution of higher 
education (IHE) in the State, including community colleges. These 
agreements detail the financial responsibilities of the IHEs and the 
State VR agency in the provision of educational support for individuals 
with disabilities who are VR participants. These agreements help to 
ensure that services to VR participants are coordinated and that the 
needs of those individuals are fully addressed as the student 
matriculates. The Office of Special Education and Rehabilitative 
Services, the Office of Post-Secondary Education, and the Office of 
Vocational and Adult Education (OVAE) are working to develop model 
agreements and to ensure that States and IHEs meet their obligations. 
Where practical, greater alignment between the programs that serve 
young people with disabilities under IDEA, the Higher Education Act 
(HEA), WIA, and the Rehabilitation Act is useful and would streamline 
practices and eliminate barriers to participation.

    Question 2. How can we better coordinate the One-Stop system and 
the job training provisions of title I with the other WIA titles, Adult 
Basic Education and the Vocational Rehabilitation?
    Answer 2. Multiple points of entry into the One-Stop system (both 
locally and through technology) should be available to ensure that 
clients can find, gain physical and programmatic access to, and, if 
eligible, obtain services in the manner that best meets their needs. 
For example, all workforce programs (including those for dislocated and 
laid off workers) should be available, coordinated, and accessible 
within State and local One-Stop Centers and in partnership with 
community colleges and community-based organizations, in order to 
provide each individual quick and effective triage, assessment of 
skills, and the best plan of services given the customer's interests 
and skills. In addition to the principles discussed in response to 
Senator Murray's second question, we're looking at the specific 
strategies mentioned in the answers to most of these questions.
    Co-location can be an effective strategy to facilitate greater 
integration of adult education and employment-related services, but the 
current financial burden on One-Stop partners often acts as a barrier 
to such integration. Adult education providers spend very little of 
their local budgets on administrative staff (10 percent) or on rent (3 
percent). These providers, working with limited resources, work 
diligently to secure in-kind support for physical facilities so that 
more monies are available to provide instruction for clients. The 
decision to co-locate in a One-Stop often means deciding to sacrifice 
instructional time for clients, since One-Stops often require partners 
to pay for space.

    Question 3. What are the roles of the One-Stop Centers in providing 
job training and continuing education opportunities for people with 
disabilities, particularly youth with disabilities transitioning from 
high-school to post-secondary programs? What are the One-Stops doing to 
address accessibility issues and specifically for the One-Stops how are 
they implementing the 188 Disability Checklist?
    One-Stops should provide people with disabilities physical and 
programmatic access to--and, if eligible, the ability to obtain--the 
same programs and services that are as available to anyone else. The VR 
State Grants program is available to provide additional specialized 
services that are not provided by the other One-Stop partners, but are 
necessary for individuals whose disabilities pose a substantial 
impediment to employment to successfully prepare for and gain 
employment.
    Implementing a revised WIA Section 188 Disability Checklist and 
ensuring effective enforcement of the underlying regulatory 
requirements would help individuals with disabilities (including those 
transitioning from school to work) participate fully in all One-Stop 
programs, by helping ensure consistency of treatment from place to 
place. We are told that youth with disabilities who access One-Stop 
services often do so through VR, likely because VR is required to be 
involved when transition from secondary school is discussed with 
students with disabilities receiving IDEA services. Transition services 
for all students might be improved by requiring other agencies, 
including the One-Stop partners, to be involved with transition 
planning for youth with disabilities at the secondary school level.
    Minnesota is one example of a One-Stop system with youth programs 
designed for individuals with disabilities. RSA and IDEA monitoring 
staff observed in a site visit that the State's One-Stop system offered 
individuals with disabilities career guidance, individualized 
assistance in assessing skills and abilities, and first-hand support in 
how to conduct a job search.

    Question 4. What types of incentives are needed so that more Adult 
Basic Education and Perkins Career and Technical students successfully 
transition to post-secondary education, occupational and technical 
training (including through the One-Stop delivery system), and the 
workforce?
    Answer 4. Shared accountability systems that reward education and 
employment outcomes for clients who are dually enrolled in title I and 
other WIA programs, and establishing common measures across systems 
that include long-term goals for low-skilled adults, regardless of 
their point of entry, could be created. Enhancing support services 
provided to adult basic education participants, such as academic and 
career counseling and mentoring, would help provide adults with the 
knowledge, skills, and support needed to successfully transition to 
post-secondary education. Providing services outside the traditional 8 
to 4 workday would also assist adult basic education students.
    Creating the opportunity for students to earn college credit while 
in high school is an incentive for transition to post-secondary 
education for students enrolled in career and technical education 
programs. Integral to transition is the availability of academic and 
career counseling to students and expanding the availability of career 
pathways between secondary and post-secondary education. 
Reauthorization could also encourage the development of new models of 
service delivery that integrate education and training, specifically by 
targeting resources to bridge adult education to post-secondary career 
pathways in industry-specific, high-growth and high-need areas. 
Creating a ``pipeline'' for low-skilled adults into established post-
secondary career pathway programs will provide an incentive to align 
adult education and post-secondary education requirements and prepare 
adults to be college-and career-ready.
    Reauthorization of title II should address improving the alignment 
of education and workforce services to achieve a contextual approach to 
work-based learning. Requiring States to implement content standards 
that are aligned with college- and appropriate career- readiness 
competencies and the development of assessments to appropriately 
measure how clients meet these standards will encourage this alignment. 
The current effort to establish core standards for workforce- and 
college-readiness can also be extended to the adult population and 
serve as the framework for contextualized work-relevant curriculum and 
instruction.

    Question 5. What new programs or strategies will be initiated to 
provide individuals, seeking jobs, training, or retraining, with the 
necessary background and skills for lifelong learning?
    Answer 5. Although the Administration has not yet reached decisions 
on what, if any, new programs to recommend as part of the 
reauthorization of WIA Titles II and IV, we are exploring certain 
issues. The ability to re-engage out-of-school youth and adults in 
educational programs leading to college- and career-readiness is 
critical to meeting the President's goal of having the highest 
proportion of college graduates by 2020.
    In addition to working on the WIA reauthorization, we are eagerly 
awaiting the enactment of the American Graduation Initiative. We 
believe the AGI, if enacted, would provide us with mechanisms for 
identifying new and replicating currently successful strategies for 
helping youth and adults, at various points in their education and 
careers, succeed and advance. Under the AGI, as set out in the House-
passed bill, the Department and DOL would make competitive grants to 
increase program and college completion in community colleges, with an 
emphasis on preparing students for employment in high-demand industries 
and closing the enrollment and achievement gaps for underrepresented 
students. The AGI would also encourage States to enact reforms that 
make community colleges more responsive to student and workforce needs 
and to ensure that they measure and make public, education and 
employment outcomes. In addition, ED would expect to see a number of 
innovative practices created under the AGI, including an increased 
number of institutions that use contextualized and integrated programs 
that combine education, training, and ``wrap-around'' support services 
tied to occupational or career pathways in critical, growing, and 
emerging industries. We would also expect to see the creation of more 
dual-enrollment options in order to help older youth and adults 
transition successfully into the workforce, post-secondary education 
and training systems. WIA could further bolster these efforts and 
provide incentives for States to establish career pathway models 
connected to post-secondary education.
    Another component of the AGI that we believe would help individuals 
at different points in their educational and employment histories is 
Open Online Education, the Online Skills Training Laboratory, which 
would make high-quality higher education and training widely and openly 
available. Online courses provide flexibility, which is important to 
students and workers who may juggle multiple commitments, including 
family and work, or those who live in rural areas without convenient 
access to traditional systems of higher or adult education. Software 
can tailor instruction to student learning styles and paces and 
generate immediate feedback on student learning outcomes and course 
effectiveness. We believe that this initiative would be instrumental in 
helping students gain the knowledge, skills, and credentials they need 
to advance their education and careers.

    Question 6. What are the roles of community colleges in providing 
job training and continuing education opportunities for people with 
disabilities, particularly youth with disabilities transitioning from 
high school to post-secondary programs?
    Answer 6. State VR agencies frequently refer (and pay for) VR 
participants to attend community colleges for job training and 
continuing education to help to prepare them to achieve their 
particular employment goal. (See response to Enzi Question 1.) In 
addition, the State VR agency is required under the Rehabilitation Act 
to have an interagency agreement in place with each public IHE, 
including community colleges, located in the State. These agreements 
detail the financial responsibilities of the IHE and the State VR 
agency for providing services to VR participants, and help to ensure 
that services are coordinated and that the needs of these individuals 
are fully addressed as the student matriculates.
    Community colleges are also sources of basic education, either 
provided as a free-standing service or as a support, for individuals 
who are pursuing academic or vocational programs at the college level, 
and, so, are major resources for individuals with disabilities who need 
remediation or academic accommodation to complete formal training 
programs. As discussed earlier, the AGI would be focused specifically 
on strengthening the community college system to improve education and 
training, and we see this effort as aligning with WIA and will work to 
integrate these two programs.

    Question 7. How will the Department of Education partner with the 
Department of Labor to address the educational needs of disadvantaged, 
disconnected youth who may be in or out of school?
    Answer 7. The WIA Title II program serves almost 1 million youth 
who have dropped out of school each year. We will work with DOL to 
expand educational services to more out-of school youth and the current 
partnership with the title I youth program, such as our partnership 
with DOL's Youth Vision, to offer more comprehensive services and 
employment support than it is currently able to provide. Additionally, 
ED is committed to working with DOL on the specific strategies 
discussed earlier.
    With regard to youth with disabilities, ED and DOL will work 
together to ensure that policies are consistent across programs. One-
Stops and employment programs that serve individuals with a 
developmental or mental health disability could become more actively 
involved in IDEA transition planning, including the development of 
IEPs, for students who are also eligible for services under programs 
administered by DOL and HHS.

    Question 8. From the perspective of the Department of Education 
what can be done, internally, to link K-12 school systems with the 
workforce system? Externally, how can school systems be incentivized to 
partner with the One-Stop system so that more students know about these 
important resources?
    Answer 8. The Department is committed to improving coordination 
between the K-12 school system and the higher education and workforce 
systems in order to ensure that students are leaving school with the 
skills needed to succeed in college and the workplace. Within the 
Department, a key strategy, incorporated in our appropriations, the 
Recovery Act, and the AGI, is supporting the development of statewide 
longitudinal data systems that will provide data that can be used to 
evaluate how well students are prepared for higher education, lifelong 
learning, and the workforce. These systems will bring educators closer 
to being able to evaluate which programs and pathways effectively 
prepare students for employment and provide feedback that enables 
educators to improve teaching and learning.
    The Department requested and received fiscal year 2009 
appropriation language that allows us to provide funds under the 
Statewide Data Systems grant program for data systems that include 
post-secondary and workforce information; and, under the Recovery Act, 
the Department received $250 million to help States build systems that 
can include post-secondary and workforce information. The competition 
for Recovery Act money is under way.
                      questions of senator coburn
    Question 1. In both written and verbal testimony, you expressed a 
desire to work cooperatively with other agencies like the Department of 
Health and Human Services in addition to the Departments of Labor and 
Education in attempting to improve job-training programs. Beyond these 
three agencies, what other agencies conduct job-training or job-
training related programs that should be included in multi-agency 
collaborative efforts?
    Answer 1. In addition to these agencies, the Department has engaged 
in conversations with the Departments of Justice (DOJ) and Homeland 
Security (DHS) to support both the continuation and the initiation of 
multi-agency collaborations. DHS's Office of U.S. Citizenship and 
Immigration Services' Office of Citizenship (USCIS) continues, for the 
third year, to provide funds to the Office of Vocational and Adult 
Education (OVAE) through an interagency agreement. We are using the DHS 
funds to support the development and dissemination of teacher-training 
materials for the English Language and Civics program. OVAE 
collaborates with DOJ on issues related to incarcerated individuals and 
OVAE currently participates in the National Offender Workforce 
Development Partnership along with other agencies, including DOJ. 
Further, the Department, DOL, and the Department of Energy have entered 
into a memorandum of understanding to collaborate on linking our 
workforce to job, training, and education opportunities under the 
Recovery Act and annual appropriations.
    We will also consult on job training with the Social Security 
Administration (SSA) and the Department of Veterans Affairs (VA). SSA 
administers disability programs and the Ticket to Work program and the 
VA funds educational benefits programs and offers vocational 
rehabilitation programs through the Vocational Rehabilitation and 
Employment Service and through rehabilitation programs operated in 
conjunction with the VA hospital system.

    Question 2. During the President's transition he promised to 
conduct ``an immediate and periodic public inventory of administrative 
offices and functions and require agency leaders to work together to 
root out redundancy.'' Please identify what redundancies you have 
discovered in existing job-training programs including any you have 
uncovered in your current collaborative efforts with other agencies.
    Answer 2. The Department is reviewing all currently funded programs 
to determine which ones should be continued and which should be 
eliminated in fiscal year 2011. The Secretary has pledged to conduct a 
line-by-line review to identify programs that duplicate other Federal 
efforts, that have proven to be ineffective, or that are too narrow or 
small to have a national impact. We are completing that review and have 
incorporated the results into our fiscal year 2011 budget submission to 
the Office of Management and Budget (OMB).

    Question 3. As the unemployment rate continues to climb, making 
efficiency in job-training programs a critical necessity, which job-
training or job-training related programs, do you think can be 
eliminated because they are ineffective, duplicative, unnecessary, or 
have outlived their purpose?
    Answer 3. The President's fiscal year 2010 budget request includes 
the elimination of programs that have proven to be ineffective, 
unnecessary, or redundant, or that have outlived their purpose. The 
President's fiscal year 2011 budget will reflect a thorough review of 
currently funded programs as well as the President's goal of either 
fixing or eliminating programs that meet the criteria described above. 
In addition, the Department has begun to identify areas of weakness as 
well as areas of opportunity in anticipation of the reauthorization of 
WIA.

    Question 4. How do your agencies detect fraud in job-training or 
job-training related programs?
    Answer 4. Our program offices monitor the States with regard to 
their compliance with programmatic and fiscal requirements in the 
statutes, regulations, and OMB circulars. In the course of this 
monitoring, if fraud is suspected, the facts are summarized and 
provided to the Department's Office of Inspector General. Offices also 
receive information from State audits conducted as part of the State 
single-audit requirement.
       Response to Questions of Senator Murray and Senator Enzi 
                            by Clyde McQueen
                      questions of senator murray
    Question 1. More often than not, people think of workforce 
development as separate from education programs and economic 
development efforts. I believe we have to think comprehensively about 
how these efforts are connected at the regional, State and Federal 
levels. In your experience, how can we encourage these connections in 
WIA reauthorization?
    Answer 1. We encourage connectivity between workforce, education, 
and economic development by insuring that there is legislative 
direction in each of the programs funded to coordinate programs, 
policies, and projects. Merely placing this in WIA reauthorization 
language does not necessarily encourage the other agencies (Education 
and Economic Development) to push for program integration. In lieu of 
this legislative compulsion for all three areas, these areas can 
provide incentives to cooperate through the Governor's 15 percent 
funds, a local innovation account, the sole purpose of which would be 
to encourage program coordination or regulatory relief through reduced 
program regulation when these three programs interact around a common 
project. We have had excellent experience with economic development and 
education coordination and integration with these types of funding and 
regulatory exemptions.

    Question 2. What recommendations do you have for branding the 
system and increasing awareness among all job seekers, employers and 
our communities at-large?
    Answer 2. The system should have a national tag line that all 
Department of Labor (DOL) career centers and contractors are required 
to have displays on their career centers, stationary, and 
advertisements. We should have national ``smart'' 1-800 numbers that, 
when called, would automatically route the job seeker to the career 
center in their area. There should be a ``National Workforce Week'' 
where, every year, the focus is on developing talent for the future 
with events staged at the DOL-funded career centers and the development 
of partnerships with community colleges and 4-year institutions of 
higher learning.

    Question 3. What are the essential partnerships that you believe 
local boards must have in their communities to make their work 
comprehensive and maximize their effectiveness?
    Answer 3. Essential partnerships must include education at the high 
schools, community colleges, proprietary schools and 4-year 
institutions. Additionally, partnerships should be developed in the 
areas of economic development, organized labor, business associations, 
Temporary Assistance to Needy Families (TANF) Programs, Growth Programs 
and/or high paying industries, such as healthcare, manufacturing, 
industry associations, etc.

    Question 4. What are the major barriers you have experienced to 
aligning WIA services and building these partnerships? How can 
policymakers encourage public and private partnerships and strategic 
sector or regional approaches for all local boards in reauthorization?
    Answer 4. The major barriers I have experienced in aligning these 
services is not as dramatic as it was earlier in my tenure with my 
organization. I have found that my tenure has extended my involvement 
with economic development, education and sector organizations and has 
enabled me to create the type of relationships necessary to execute 
these programs. When I did not have this interaction with these 
organizations, my job was more difficult. When I was newly appointed, 
with no tenure in the organization, it took a while for people in these 
systems to feel comfortable with me and my organization. A structural 
barrier was that, often, the metrics that governed WIA were not always 
compatible (as my partner agencies saw it) with their programmatic 
goals and objectives. Public and private partnerships can be encouraged 
through incentives such as local demonstration money; regulatory relief 
from regulations as an incentive to work with certain industry sectors 
or partnership areas, establishing national memorandums for 
coordination and integration at the national, regional, State, and 
local areas, where appropriate. There should be metrics assigned to 
such formal agreements and national regional report cards issued on 
their results.

    Question 5. In your opinion, what are the appropriate roles for the 
State and local boards in WIA? How should those roles be balanced in a 
way that promotes respect and collaboration?
    Answer 5. The primary objective of State boards is to align State 
programs and policies that create a State level plan for workforce 
development and coordinate the execution of its plan. State boards 
create the policy and coordination framework that sets the operating 
parameters that are passed on the local workforce regions for 
execution. These broad goals, policy framework and funding establish 
the framework against which local and regional workforce programs are 
executed. The local boards are charged with developing local and 
regional strategies and tactics to execute the States' plan depending 
on the unique socioeconomics of each region/locale.
    The State board should set metrics of its own regarding how to 
align, plan, and execute State level strategies and tactics. Results 
should be posted quarterly in the same fashion that the WIB posts its 
quarterly results. I think a point of conflict has been that the State 
WIB has seen its role as solely oversight of local programs with 
minimal attention to what it can do to create more comprehensive 
workforce development policy and tactics at the State level.

    Question 6. Why do you believe that work experiences for young 
people are so valuable?
    Answer 6. Work experiences are valuable in helping young people to 
develop a work ethic, determine and develop future career choices, 
teach financial literacy and develop employer relationships. The 
private sector alone does not have the capacity to generate the type of 
``try-out'' employment opportunities necessary to develop the work and 
skill assets of ``at-risk'' youth.

    Question 7. How have you successfully engaged employers in hiring 
young people, particularly those that are most at-risk? And, have they 
found the experience valuable?
    Answer 7. Yes we have successfully engaged employers in hiring at-
risk youth through a combination of publicly subsidized and private 
sector employment. Employers have found this to be successful because, 
in many instances, they have retained the youth in employment positions 
or provided excellent recommendations for them.
                       questions of senator enzi
    Question 1. What principles do you recommend for inclusion in a WIA 
reauthorization that would encourage communities to design One-Stop 
Career Centers that effectively serve workers of all ages and all 
abilities?
    Answer 1. Language should indicate that all Career Centers should 
be ADA accessible and accessible by public transit only if there is a 
transit system in the area. Each Career Center should have a designated 
youth area or designated external youth office where youth between the 
ages of 16-24 can be immediately engaged for program services.

    Question 2. What do you recommend to other States and communities 
interested in developing a similar program to Kansas City for youth?
    Answer 2. In developing programs similar to youth programs in 
Kansas City, it is important that there be recognition of youth talent 
as a key ingredient to economic development that permeates city and 
regional economic development policy. The development of young people 
must be viewed as a key economic development strategy to sustain and 
expand communities, as opposed to merely a ``social enterprise.''
       Response to Questions of Senator Murray and Senator Enzi 
                         by Michael L. Thurmond
                      questions of senator murray
    Question 1. More often than not, people think of workforce 
development as separate from education programs and economic 
development efforts. I believe we have to think comprehensively about 
how these efforts are connected at the regional, State, and Federal 
levels. In your experience, how can we encourage these connections in 
WIA reauthorization?
    Answer 1. As stated during my testimony at the Senate's Employment 
and Workplace Safety Subcommittee, I believe, the Workforce Investment 
Act (WIA) of 1998 provided an unprecedented opportunity for State and 
local jurisdictions to develop a more coordinated and efficient system. 
To advance and expand upon the success of the WIA and to better link 
education and economic development to the system, the following 
suggestions are offered for your consideration:

    <bullet> We must clearly define this intent in WIA reauthorization 
legislation and reinforce this expectation in the way the systems 
allocate funds and measure outcomes;
    <bullet> System partners at all levels must fully understand the 
role and relationship between education and workforce development on 
the Nation's economic development capacity;
    <bullet> Develop common statutory language, goals and performance 
outcomes which complements, connects and coordinates the role and 
function of education, economic development and workforce development;
    <bullet> Provide incentives to States that align the desired 
connections through performance;
    <bullet> Allow flexibility for the broad use of customized 
training, incumbent worker training and on-the-job training;
    <bullet> Encourage the use of information systems with shared 
portals across programmatic areas to enhance communication between 
education, economic development, and workforce development. This would 
enhance sharing of customer information and outcomes, facilitate better 
marketing of initiatives, and promotion of employment incentives (e.g. 
tax and credits).
    <bullet> WIA Reauthorization should include language which 
describes a seamless transition of the systems E3 strategy (Economic 
Development, Education and Employment) with clearly defined roles and 
responsibilities.

    Question 2. Overall I think we need to do a better job of getting 
the word out about the services available under WIA and at local One-
Stop Centers for workers, employers, educators and the community. What 
recommendations do you have for branding the system and increasing 
awareness among all job seekers, employers and our communities at 
large?
    Answer 2. Today's economic crisis requires our Nation to re-think 
and retool our efforts in connecting economic development, education 
and employment through strategic alignment. National/State/Local 
awareness of effective federally funded programs will play a pivotal 
role in how we rebound from this crisis.
    Any marketing campaign should adopt global business language which 
describes the system's purpose, goals and benefits to all stakeholders. 
A clear description of how the system is designed to create a skilled 
and qualified workforce to meet the existing and emerging workforce 
needs is essential.
    Branding would enhance the system's universal identity. Wikipedia 
defines ``brand'' as the following:

        A brand is a name or trademark connected with a product or 
        producer. Brands have become increasingly important components 
        of culture and the economy, now being described as ``cultural 
        accessories and personal philosophies''.

    I emphasize the ``increasingly important components of culture and 
the economy'' within this definition and would recommend from a Federal 
level that the WIA umbrella system adopt a modern brand name with a 
business economic driven ``credo'' tag line. A suggestion would be to 
use the WIA acronym as a trademark such as ``Workforce In Action''--
Your System, Your Future. Employers tend to support and utilize a 
Federal program where they can financially articulate the services to 
their bottom line savings. The ``Your System, Your Future'' tag line 
addresses today and tomorrow's workforce needs through Education and 
Economic Development of high demand jobs.
    Effective branding would require that system stakeholders clearly 
understand their role, responsibilities and investment in achieving the 
system's bottom line--an emphasis on job creation and growth while 
building a skilled and trained workforce.
    Importantly, the branding process should be developed with a 
universal trademark that promotes ownership of the WIA system as a 
unified, inclusive workforce system within education, the business 
community, the job seeker and the community-at-large.
    Finally, the Georgia Department of Labor's (GDOL) branding campaign 
history and success may be used as a model for the system. GDOL 
established a strong brand identity through the use of a logo (A Job 
for Every Georgian and a Georgian for Every Job), tagline (Building a 
World-class Workforce) and GDOL footprint and signage which is highly 
visible and known through the State. More importantly, GDOL is known 
for its effective and responsive service to all customers and for its 
emphasis in achieving results.

    Question 3a. Your statement describes how the State of Georgia used 
the enactment of WIA as a way to make significant changes to the 
planning and delivery of workforce services. State and regional 
partnerships among agencies and private and public organizations seem 
to be a critical contributor to State and regional innovations in 
policy and services. How do the multi-agency partners in Georgia work 
together to jointly plan, support, and evaluate services and how well 
does that process work? How do the partners collaborate within the One-
Stop delivery system? How do the partner agencies and organizations 
create linkages with economic development to support State and regional 
growth plans?
    Answer 3a. The State of Georgia used the enactment of WIA to make 
significant changes to the planning and delivery of workforce services 
by encouraging customer choice, increasing customer satisfaction and by 
integrating services and leveraging various funding streams.

    Question 3b. How do the multi-agency partners in Georgia work 
together to jointly plan, support, and evaluate services and how well 
does that process work?
    Answer 3b. In Georgia, partners work in a collaborative and 
effective manner through a variety of avenues to plan, support and 
evaluate services. This includes State level meetings involving 
partners from various agencies including education, economic 
development and workforce development. Other efforts include State 
board workforce meetings, monthly WIA Director's meetings and regular 
One-Stop partner meetings at the local level to discuss: workforce 
strategies, referral systems, community resources, ways to leverage 
available funding, and opportunities to secure new funding.
    In Georgia, 32 of GDOL's 53 career centers are designated One-
Stops, while the remaining offices serve as satellite locations. This 
unique arrangement allows for enhanced planning, sharing of resources 
and coordination among State and local partners.

    Question 3c. How do the partners collaborate within the One-Stop 
delivery system?
    Answer 3c. In addition to the regular One-Stop partners meetings, 
local partners work closely together to develop Memorandums of 
Understanding (MOU's) and Resource Sharing Agreements (RSA's) that 
document a level of commitment to partner collaboration within the One-
Stop delivery system. These agreements outline service strategies for 
co-located staff, referral procedures, shared resources, quality 
standards, performance data tracking and outcome requirements.

    Question 3d. How do the partner agencies and organizations create 
linkages with economic development to support State and regional growth 
plans?
    Answer 3d. Partner agencies and organizations create linkages with 
economic development to support the State/regional growth plans through 
the Board's strategic planning efforts, coordination with local and 
State economic development partners, and by coordination with State and 
local governments. In Georgia, 16 local workforce areas are 
administered directly by local governments or regional development 
commissions which create an intrinsic partnership between workforce and 
economic development efforts and support for local and regional growth.
    During the initial implementation of WIA in Georgia, local 
workforce areas were given funding to develop regionally-based 
strategies related to economic and workforce development. Communities 
in Georgia continue to respond effectively to the message of 
partnership as a means of achieving goals. With the support of State 
leaders, local and regional partners come together on Workforce 
Investment Boards, task forces and regional planning boards to develop 
creative and attainable solutions to challenges such as educational 
attainment, teen pregnancy, provision of transportation and other 
employment barriers.
                       questions of senator enzi
    Question 1. A number of people with disabilities have claimed that 
around the country One-Stops are neither physically or programmatically 
accessible. What has Georgia done to improve the programmatic and 
physical accessibility of One-Stops for individuals with disabilities? 
Based on your experience, what would you recommend to other States to 
improve the programmatic and physical accessibility for individuals 
with disabilities?
    Answer 1. As a result of a legislative action, Vocational 
Rehabilitation became apart of the Georgia Department of Labor in July 
2001. This move ended the segregation of services for people with 
disabilities and put in motion an opportunity for a fully integrated 
employment service system for all Georgians. Budgetary and cultural 
changes were first addressed. A culture of inclusion was communicated, 
adopted and enforced from the top and throughout the organization. 
Importantly, we focused on the ability people have as opposed to the 
physical, mental and/or emotional ``disability'' of an individual. In 
doing so, we established a service delivery system which allowed all 
citizens to fully participate in the workforce services offered.
    The Georgia Department of Labor/Vocational Rehabilitation (GDOL/VR) 
staff members with Americans with Disabilities Act (ADA) and Assistive 
Technology (AT) expertise provided training and technical assistance to 
GDOL Career Centers and One-Stops to enhance customer services and 
exceed ADA requirements. We feel other States could benefit from taking 
actions similar as to the items below that GDOL/VR implemented at 
Career Centers and One-Stops to improve the programmatic and physical 
accessibility for individuals with disabilities:

    <bullet> Install appropriate automatic doors and frequently test 
them to ensure they continue to be in good working condition.
    <bullet> Provide a front reception or help desk that is a lower 
height for better direct interaction with people who use a wheelchair.
    <bullet> Provide more accessible parking spaces.
    <bullet> Train all Career Center and One-Stop staff members to 
offer excellent customer service for all customers including those who 
have disabilities.
    <bullet> Provide special training on the AT on the accessible 
computer(s) and work stations to Career Center staff assigned to 
Resource Centers to enable them to assist customers better and ensure 
the training is updated as appropriate.
    <bullet> Install accessible work stations with customer-controlled 
adjustable heights that are designed to meet the needs of individuals 
with a variety of disabilities including visual impairments, extremity 
impairments, learning or reading impairments, dexterity impairments, 
etc. Examples of the work station accessibility features that GDOL 
implemented include:
      <bullet> JAWS--for users who are blind,
      <bullet> MaGIC--for users who have low vision,
      <bullet> WYNN--for users with a learning disability,
      <bullet> OpenBook--for users with vision loss,
      <bullet> Microsoft Accessibility Features--including features 
such as Sticky Keys and Filter Keys for users with dexterity issues,
      <bullet> 21" Monitors,
      <bullet> Brailed and Large Print Materials--Many of the print 
documents at the Career Centers have been converted into grade 2 
Braille and 22 point large print. These are regularly updated and 
replaced.
      <bullet> Anti-glare Computer Monitor Filter,
      <bullet> Scanner to scan a document and read it aloud to user 
with vision loss,
      <bullet> CCTV for users with low vision to read printed 
documents,
      <bullet> Trackball or accessible mouse,
      <bullet> TTY,
      <bullet> Headsets for privacy in using AT software--with 
disposable covers for sanitization,
      <bullet> Ubi Duo at the Help Desk to facilitate communication 
with customers who are deaf, and
      <bullet> FM Listening Devices, Talking Calculators, Franklin 
Talking Dictionaries.

    We also suggest States incorporate an annual review process similar 
to Georgia's to ensure and maintain programmatic and physical 
accessibility. Continuous training is necessary for staff to provide 
service and coordinate effectively with other internal and external 
partners.
    For the past year, GDOL advanced its inclusion strategy with an 
initiative called ``OASIS.'' OASIS allows for the integration of 
customers into the Wagner-Peyser funded activities with an emphasis on 
the work first philosophy.

    Question 2. How is Georgia working with small businesses and other 
businesses that might not have been active participants in the 
workforce system in the past, to get them to use it and see it as a 
valuable source of qualified workers?
    Answer 2. Georgia Department of Labor (GDOL) Commissioner Michael 
L. Thurmond created Georgia Work$ (GW$), an innovative training 
initiative designed to stimulate job growth and hiring as the primary 
strategy for engaging small businesses and other businesses who have 
not been active participants in the past.
    Georgia Work$ (GW$), a proven Georgia Department of Labor 
initiative reduces employer costs associated with recruiting, training 
and hiring new employees.
    During the past 6 years, GW$ has helped Georgia employers train 
and/or hire over 3,000 qualified employees. Participating employers 
have reduced their hiring costs by more than 19.4 million dollars.
    All Georgia employers willing to provide job specific training to 
unemployment insurance (UI) claimants are eligible to participate. GW$ 
provides a number of competitive advantages, including:
    <bullet> Pre-screened qualified applicants
    <bullet> Up to 6 weeks of pre-employment training
    <bullet> Trainee stipends are fully covered by GDOL
    <bullet> Hiring of trainees at discretion of employers
    <bullet> Workers' compensation coverage provided by GDOL

Benefits to the GDOL and State

      1. Protects solvency of UI Trust Fund
      2. Stimulates job growth
      3. Provides career center staff with a new tool to help job 
seekers and employers

Other GDOL business engagement strategies include:

      <bullet> Marketing and education through the local WIB's 
comprising 51 percent business membership;
      <bullet> Partnering with Chamber of Commerce and Business leaders 
on economic development;
      <bullet> Use of on-the job (OJT) as a method of job placement and 
support to small businesses;
      <bullet> Georgia Department of Labor hosts an annual workforce 
conference to engage large and small businesses to learn about all of 
the workforce development services;
      <bullet> The Rapid Response unit is used to address small 
business lay off's and opportunities for job seeker transitioning 
services;
      <bullet> Georgia has retained employer committees, with a 
membership of over 1,600 employers, as advisors to the career centers 
located throughout the State. Participating business members assist the 
department in reaching out to businesses in the community; and
      <bullet> Employer Marketing Representatives work with employers 
throughout their service area, often in conjunction with Vocational 
Rehabilitation Employment Specialists. This ensures that individuals 
served by Vocational Rehabilitation have the full range of employment 
opportunities available in the community.

    Question 3. It has been argued that the One-Stops and State 
Vocational Rehabilitation programs are built on different principles. 
These differences are highlighted in outcomes measures. Realizing that 
it can possibly cost more and take longer for some people with 
disabilities to reach their employment goals how should the WIA 
performance measures be adjusted to take this into account?
    Answer 3. The differences are based in Federal legislation and 
regulations. The VR program reporting measures are detailed in the 
Rehabilitation Act, Section 106, Standards and Indicators. Standard 1, 
Indicator 1.1 requires an equal to or greater number of successful 
closures from the prior year for compliance with the indicator. The 
requirements for determining a successful closure are found in the Code 
of Federal Regulations (CFR) Section 361.56, requirements for closing 
the record of services of an individual who has achieved an employment 
outcome. The major requirement that a VR client must be employed for a 
minimum of 90 days before a case record may be closed as successful is 
significantly different from the WIA requirements. WIA measures the job 
retention in the first, second and third quarters after a client 
entered employment.
    Since the VR and WIA measurements are prescribed by law, only 
changes in those laws could adjust them. Other VR requirements that do 
not correlate to a WIA outcome are these requirements of VR Performance 
Indicators:

    <bullet> 1.2--Ratio of successful employment outcomes to non-
successful outcomes,
    <bullet> 1.3--Earnings equivalent to at least the minimum wage,
    <bullet> 1.4--Percentage of individuals served who with significant 
disabilities,
    <bullet> 1.5--Ratio of wage compared to State average,
    <bullet> 1.6--Percentage of individuals who report self supporting 
before and after VR services and successful employment, and
    <bullet> Standard 2--Ratio of minority compared to non-minority 
individuals receiving services from the VR program.
    A recommendation for WIA performance measures is to allow more 
flexibility to adjust performance measures, if necessary, to allow for 
full service inclusion. Specifically, reauthorization should encourage 
renegotiation of measures with more emphasis on serving all ``hard-to-
serve'' populations.
       Response to Questions of Senator Murray and Senator Enzi 
                      by William E. Kiernan, Ph.D.
    I am William E. Kiernan, Ph.D., Director of the Institute for 
Community Inclusion, a University Center for Excellence in Disabilities 
located jointly at the University of Massachusetts Boston and 
Children's Hospital Boston. We are one of 67 such Centers that make up 
the nationwide network of University Centers for Excellence in 
Developmental Disabilities (UCEDD) that are national leaders in 
research, interdisciplinary training, technical assistance, and service 
and are supported by the Association of University Centers on 
Disabilities. UCEDDs are the national leaders in a constellation of 
activities designed to improve employment options and outcomes for 
people with developmental and other disabilities. Our Center has worked 
extensively in supporting the employment of persons with disabilities 
and has been involved with supporting the One Stop Career Centers and 
the public Vocational Rehabilitation agencies at the State level in 
expanding employment options for persons with disabilities. I am 
pleased and honored to have been asked to comment to the written 
questions for the record from Senators Murray and Enzi on the 
reauthorization of the Workforce Investment Act and correspondingly the 
Rehabilitation Act.
    I have organized my written responses around the 10 questions (four 
from Senator Murray and six from Senator Enzi) that were sent to me by 
Senator Murray on behalf of the Subcommittee on Employment and 
Workplace Safety of the Senate HELP Committee. Additionally, I am 
submitting supporting appendices relating to these questions that will 
integrate the common areas that were emphasized in my oral and written 
testimony of July 16, 2009 and my written responses to these 10 
questions submitted on September 18, 2009.
                      questions of senator murray
    Question 1. What policy changes need to occur to make One-Stops 
fully accessible--both physically and programmatically--for individuals 
with disabilities?
    Answer 1. In responding to this initial question on accessibility, 
I would like to again remind the subcommittee of our feeling that there 
is a substantive difference between the One-Stop system and the One-
Stop Career Centers and that, in order to realize the full intent of 
Congress that there be a universally designed and seamless gateway for 
all job seekers, one needs to look at both the individual elements of 
the system (the 17 partners including the One-Stop Career Centers) as 
well as how the collective partners perform with regard to access, 
utilization and impact for all job seekers, including job seekers 
having a disability. More details on the perspectives of the One-Stop 
system and the One-Stop Career Centers are included in my testimony 
submitted on July 16, 2009.
    That said, the following response reflects a focus primarily on the 
One-Stop Career Centers and ways in which there can be a clearer sense 
of how accessible and effective they are in serving customers with 
disabilities. It is also my feeling, and those of my colleagues who 
have assisted in framing these responses, that many of the issues that 
are raised in this and the other questions can be addressed though: (1) 
clearer interpretation of the current law, (2) more effective 
documentation of the nature of the population served and the outcomes 
of the service provided and (3) more accountability exercised by DOL in 
the functioning of the LWIBs at a local level and the SWIBS at the 
State level.
    The current legislation and regulations already are sufficient to 
address concerns about access to the One-Stop Career Centers by 
customers with disabilities. Again as noted in the original testimony 
we feel that there has been considerable progress made on both the 
physical and program access in the One-Stops though the actual data in 
these areas is limited and tends to be more anecdotal in nature. Given 
that, much of my response will address the need for data collection at 
the One-Stop levels and the requirements for reporting to DOL and the 
making of these results available to other interested parties.
    From a legislative and policy perspective, there is a need to get a 
better handle on how much of an issue accessibility really is (and 
creating an ability to measure progress in these areas moving forward), 
before promulgating new regulations and or offering new directives. 
What would help is better data regarding the use of the system by 
people with disabilities, and better use of the existing data. A few 
thoughts on this include:

    <bullet> changing the data collection requirements of all customers 
including the collection of information on the receipt of SSA benefits 
(SSI, SSDI and the combined SSI/SSDI) by customers. These data will 
offer some measure of the presence of a disability for the customer and 
also offer data for administrative purposes to the One-Stops regarding 
the number of customers who may have a Ticket to Work option available. 
In those instances SSA revenues would be available should the customer 
enter and remain in employment at the required level according to the 
Ticket regulations. Such an effort may change some of the role of the 
One-Stop Career Center, that is, moving from solely a high volume low 
touch service to a high or moderate touch and lower volume service. It 
may also impact the nature of the partners' roles in the One-Stop 
system creating new ways in which the One-Stop Career Centers may 
interact with other partners (those other 16 that are mandated as well 
as those that are non-mandated including State Mental Health and 
Developmental Disabilities agencies as well as community rehabilitation 
provider agencies) and realize greater service and better outcomes for 
customers with disabilities.
    <bullet> implementing a new integrated data collection system 
(currently in process by DOL), WISPR, which essentially will serve as a 
One-Stop performance measurement system. It would seem opportune for 
there to be a directive from Congress that requires that WISPR include 
a mechanism for measurement of the system's performance in terms of 
serving people with disabilities, as a direct sub-set of how 
performance is measured for the overall population (including 
percentage of people served, mix of services provided, outcomes 
realized, etc). The GAO has on several occasions called for better 
measures of performance, ones that reflect the demographics of both the 
labor market as well as the population of potential job seekers in the 
geographic area served by the One-Stop. The integration of this effort 
into the developing WISPR system and a clear start date (for full 
implementation or implementation on a pilot basis) would be a 
reasonable step in gathering data to answer the questions on 
accessibility, utilization and impact for persons with disabilities 
seeking services through the One-Stop system as well as the One-Stop 
Centers.
    <bullet> have Congress direct DOL to develop a scientifically valid 
sampling procedure for collecting data on the access, utilization and 
impact of the One-Stop system as well as the One-Stop Career Centers 
and to integrate these data collection efforts with those that exist 
for the public Vocational Rehabilitation system (RSA 911). Such an 
effort would give Congress and DOL a view of the impact of the One-Stop 
system on customers with disabilities seeking and obtaining employment 
through this system. Additionally, this information should be made 
available to customers as well as become part of the public reporting 
system of DOL on One-Stop and or WIA performance.

    In addition to the development of better and more effective data 
collection for purposes of offering services to customers in a more 
timely fashion, provision of materials for planning at the local level, 
documentation of service utilization and measurement of impact at the 
local, State and national levels, the development of reporting and 
monitoring by DOL and the use of these processes to enhance compliance, 
identify areas for increased capacity development efforts and areas for 
expansion of services and expertise based upon local needs would be 
most appropriate.
    To that end the following suggestions are put forth to the 
subcommittee:

    <bullet> adopt a streamlined checklist to be completed on at least 
a bi-annual basis or some scheduled basis (this is not specifically 
required in Section 188). The completion of such a check list will 
serve to raise the issue of access as well as report on actual services 
(the outcome of increased access should be reflected in an increase in 
the utilization of One-Stop services and supports by persons with 
disabilities) and give a baseline of data on utilization as well as 
outcomes.
    <bullet> Congress to direct DOL to prepare an annual report on the 
performance of the One-Stop system in terms of people with 
disabilities, using secondary analysis of existing data (WIA, Wagner-
Peyser etc.) as well as some qualitative research/data. Other data 
sources such as RSA 911, ACS, SSA data, State DD and State MH data and 
other sources (see http://www.statedata.info/about/data--sources.php 
for list of relevant data sources in employment and disabilities) could 
be accessed to support the current WIA and Wagner-Peyser data. This, of 
course, is assuming the no common data elements are identified as noted 
in a prior recommendation.
    <bullet> given the wide variation reported in percentage of people 
with disabilities using the system from state-to-state (via the Wagner-
Peyser data), Congress may want to consider requiring DOL to either 
penalize those States that are in the bottom quartile, or require those 
States to develop some type of corrective action plan addressing ways 
to increases access, utilization and outcomes for customers with 
disabilities. If this effort is to be effective, DOL will need to be 
able to offer training and technical assistance to such States in both 
the framing of a corrective action plan and its implementation.
    <bullet> Congress could consider enhancing enforcement by the DOL 
Civil Rights Center including an annual report to DOL (to be included 
as part of the above noted report to Congress) regarding its efforts to 
ensure non-discrimination against people with disabilities, including a 
summary of complains received and responses made. Such a report may 
include the required Section 188 Methods of Administration that are to 
be issued by each State's governor with these elements made public 
along with the data reported on access and outcomes for customers with 
disabilities and an analysis of all stats done by the DOL Civil Rights 
Center on issues of compliance.

    In facilitating increased access there must be a change in the way 
that DOL interprets the allocation of resources for services to 
customers including customers with disabilities. The continuation of 
the use of funds being `siloed' and not able to be blended across 
groups presents a considerable challenge to managers of the One-Stop 
Career Centers and in many ways may serve to limit access to services 
by many customer population groups. In an effort to create more 
flexibility, DOL should, as was noted in my prior response to the 
subcommittee, move away from the sequential perspectives of the 
services offered, that is having customers move from core to intensive 
to training. The capacity to rapidly assess needs of individual 
customers and the ability to directly access the level of services 
needed will serve to streamline the overall structure for customers 
seeking service. The adoptions of flexibility in the allocation of 
funds by specific groups as well as the ability to go directly to one 
level of service rather than to move through the sequence of services 
(core, intensive and training) will offer increased capacity of the 
One-Stops to be more responsive to customers with disabilities and for 
that matter all customers.
    When discussing data and its utilization, it is important to 
separate out the data collection efforts that are directed as assuring 
that the most appropriate services are identified for a customer and 
those that are collected for documentation of effort as well as 
administrative and planning purposes. While some variables such as 
presence of a disability, sources of financial support and other 
service systems accessed will facilitate the accountability, planning 
and administration of the program, data on nature of the limitations, 
extent of the needs and barriers to employment may be more valuable in 
planning for and obtaining services and supports. These latter elements 
are useful in the establishment of a plan but will often not be 
relevant, effective or even legal to be shared with others including 
employers or useful, to any great extent, in planning and 
administration.
    There should be guidance from DOL on clarifying the distinction 
between disability information available and useful to the customer 
service part of workforce development services (intake, case 
management, support services etc.) which workforce staff should be 
encouraged to be ``proactive'' in seeking out for support reasons and 
the more privileged information that should be less accessible to 
employer marketing staff and certainly generally not accessible to 
employers themselves. By the universal access nature of WIA, data in no 
instance should be utilized to rule a customer out of the service 
streams but rather to get them more effectively and efficiently into 
the most appropriate service stream.
    Given the increasing concerns about the payment of sub-minimum wage 
and the significant presence of persons with intellectual and 
significant disabilities in sheltered employment settings, it may be 
possible for DOL to further options for persons with disabilities in 
sheltered workshops to be served by the One-Stop Career Center as well 
as other WIA partners under the dislocated worker provisions. Such an 
approach should be considered if, in fact, the funding sources of WIA 
remain separated and not able to be blended. Should DOL enforce the 
Dislocated Worker provisions as noted below, more individuals with 
disabilities who are marginally employed in sheltered employment 
settings could be eligible for supports and services under the 
dislocated worker provisions. The Dislocated Worker definition already 
has a capacity to serve workers with disabilities but those sections 
(underlined below) are not often used and DOL may want to consider 
reinforcing the sections of the existing definition as a way of 
offering additional options for individuals with disabilities.
    Dislocated worker.--The term ``dislocated worker'' means an 
individual who--(A)(i) has been terminated or laid off, or who has 
received a notice of termination or layoff, from employment: (ii)(I) is 
eligible for or has exhausted entitlement to unemployment compensation; 
or (II) has been employed for a duration sufficient to demonstrate, to 
an appropriate entity at a One-Stop Center referred to in section 
134(c), attachment to the workforce, but is not eligible for 
unemployment compensation due to insufficient earnings or having 
performed services for an employer that were not covered under a State 
unemployment compensation law; and (iii) is unlikely to return to or 
benefit from returning to a previous industry or occupation; (B)(i) has 
been terminated or laid off, or has received a notice of termination or 
layoff, from employment as a result of any permanent closure of, or any 
substantial layoff at, a plant, facility, or enterprise; (ii) is 
employed at a facility at which the employer has made a general 
announcement that such facility will close within 180 days; or (iii) 
for purposes of eligibility to receive services other than training 
services described in section 134 (d)(4), intensive services described 
in section 134 (d)(3), or supportive services, is employed at a 
facility at which the employer has made an general announcement that 
such facility will close; (C) was self-employed (including employment 
as a farmer, a rancher, or a fisherman) but is unemployed as a result 
of general economic conditions in the community in which the individual 
resides or because of natural disasters; or (D) is a displaced 
homemaker. (10) Displaced homemaker.--The term ``displaced homemaker'' 
means an individual who has been providing unpaid services to family 
members in the home and who--(A) has been dependent on the income of 
another family member but is no longer supported by that income; and 
(B) is unemployed or underemployed and is experiencing difficulty in 
obtaining or upgrading employment.

    Question 2. We have heard that an important consideration is staff 
development--ensuring that job seekers and workers with disabilities 
are treated with respect, provided information to explore career 
opportunities, and access to appropriate services when they enter a 
One-Stop facility. How should WIA support such professional development 
through legislation?
    Answer 2. There is a growing recognition of the need for a highly 
trained workforce that is knowledgeable about employment and training 
as well as job support strategies. There are some competencies that 
have been identified by workforce training and disability training 
entities that address skill areas in job development, marketing, job 
placement and other employment supports for customers seeking 
assistance in obtaining and maintaining employment. Trainings are 
typically offered in person, on site or through the use of a distance 
education platform and often are done on an ``ad hoc'' basis. The 
requirements of skill level and competency mastery are seldom part of 
the requirement for those working in the employment and training 
system. For personnel employed in the public Vocational Rehabilitation 
system there is a requirement that all staff are master's prepared and 
that there is a national certification that carries with it an 
obligation for in-service training over a 5 year period in order to 
maintain this national certification. Much of the training offered 
relates more to counseling and individual service and less to job 
development and placement skill levels.
    There is some precedence regarding the need for training of staff 
in the One-Stops as stated through the Section 188 regulations. 
Currently the regulations require that the Governor's Methods of 
Administration ``include a system of policy communication and training 
to ensure that personnel are aware of and can effectively carry out 
these responsibilities.'' It may be worthwhile for Congress to 
stipulate that these requirements be more prescriptive, including 
specific competencies and knowledge areas related to people with 
disabilities.
    At the local level some LWIBs require programs that want to be 
considered One-Stops and eligible for WIA supports must have a defined 
percentage of staff completing their training in the employment and 
training fields. This effort is entirely local and has not yet been 
adopted on a statewide or national level. Training at the in-service 
level could easily incorporate strategies to support customers with 
disabilities. Some training areas might include basic knowledge in non-
discrimination policies and practices, reasonable accommodation, 
general disability etiquette, job training and supports for all job 
seekers and universal design strategies to support all job seekers.
    It would be appropriate for DOL to consider designing and or 
adapting training materials that could be made available for LWIBs and 
One-Stops to increase the capability of the Centers and the staff in 
the system to better understand issues of disability, supports for 
customers with disabilities and knowledge about accommodation and non-
discrimination in the workplace. While it may not be the prerogative of 
the DOL to prescribe a specific training curricula, the recognition of 
the mastery of identified competencies in employment and training, the 
documenting of such mastery and the use of in-service training (face to 
face, on-line and self instructional) could go a long way in increasing 
the capacity of personnel in the One-Stop system and the One-Stop 
Centers to support customers with disabilities.

    Question 3. How should the legislation address what some argue are 
disincentives to serve individuals with disabilities under WIA?
    Answer 3. Reflecting legislative and Congressional intent, there is 
no disincentive for One-Stops to serve people with disabilities, as it 
is a universally accessible system in terms of core services. The issue 
may be the misunderstanding by front line staff and local officials in 
terms of what is and is not subject to performance requirements. By 
strengthening the language in WIA regarding the universal access 
requirements to labor exchange services some of the perceived 
disincentives could be dealt with.
    The basic issue with services funded by WIA Adult and Dislocated 
Worker funds (which is only a sub-set of services provided via the One-
Stop system as discussed in my original testimony) is indeed the high 
performance requirements and sanctions that result. The data analysis 
completed by the ICI indicates that individuals with disabilities do 
lag the general population in terms of their performance under WIA, and 
over time we have seen a drop off in participation rates (please see 
prior testimony submitted on July 16, 2009 at the WIA hearing on this 
issue). GAO has recommended systematic adjustment of expected 
performance levels to account for different populations and local 
economic conditions when negotiating performance. Given this GAO 
response, Congress may at least urge some demonstration projects that 
deal with ways to address the apparent disincentives in the current DOL 
performance measures that create a disincentive for One-Stop Centers to 
serve customers who may be more difficult to serve or may not reach the 
exit criteria of employment.
    Additionally, what is probably more important is for DOL and States 
to stress that the performance standards are (1) meant as the 
responsibility of the staff and not to be transferred to the customer 
and (2) that the standards apply to the system and not to all 
individual programs in the system but rather to the aggregate of the 
programs in a State. In some instances the standards are viewed as the 
requirement or goal for each individual program and thus create a 
disincentive for programs serving customers with disabilities who may 
take longer to serve and not realize full time employment at the end of 
the effort. Considering the performance standards as an aggregate 
measure and not applied rigidly to each individual program may be one 
strategy that WIA and the State SWIBs can employ to support those 
programs that are interested in serving a greater portion of more hard 
to serve customers.
    We would also suggest that the subcommittee may want to consider 
some language that reinforces that specific criteria must be used to 
determine eligibility that are not arbitrary in nature, and that 
concerns over meeting performance criteria by an individual or group of 
customers cannot be used as a reason to deny eligibility. To that end 
we would offer the following suggestions. Under the language specifying 
criteria for intensive and training services we would suggest that the 
following may be added:

        Clear, consistent, objective criteria that are in full 
        compliance with all aspects of the Workforce Investment Act 
        (including Sec. 188. Nondiscrimation.) and approved and fully 
        documented by the State and local workforce investment area are 
        to be used in determining eligibility for intensive/training 
        services. Subjective criteria are to be avoided, including 
        assumptions regarding an applicant's ability to meet 
        performance measurement requirements, which may not be used as 
        criteria for denial of services.

    Additionally, we offer the following suggestions in language 
changes under Chapter 6--General Provisions, to address performance 
issues and concerns:

SEC. 136. PERFORMANCE ACCOUNTABILITY SYSTEM

(e) Evaluation of State Programs.--
    (1) In general.--Using funds made available under this subtitle, 
the State, in coordination with local boards in the State, shall 
conduct ongoing evaluation studies of workforce investment activities 
carried out in the State under this subtitle in order to promote, 
establish, implement, and utilize methods for continuously improving 
the activities in order to achieve high-level performance within, and 
high-level outcomes from, the statewide workforce investment system. To 
the maximum extent practicable, the State shall coordinate the 
evaluations with the evaluations provided for by the Secretary under 
section 172.
    (2) Design.--The evaluation studies conducted under this subsection 
shall be designed in conjunction with the State board and local boards 
and shall include analysis of customer feedback and outcome and process 
measures in the statewide workforce investment system. The studies may 
include use of control groups.
    (3) Results.--The State shall periodically prepare and submit to 
the State board, and local boards in the State, reports containing the 
results of evaluation studies conducted under this subsection, to 
promote the efficiency and effectiveness of the statewide workforce 
investment system in improving employability for jobseekers and 
competitiveness for employers.

    Insert the following additional language:

        Among the information to be included in this report is 
        information that specifically addresses the efficiency and 
        effectiveness of the statewide workforce investment system in 
        improving the employability of the groups specified in Sec. 
        136(d)(2)(F), recipients of public assistance, out-of-school 
        youth, veterans, individuals with disabilities, displaced 
        homemakers, and older individuals.

        (i) Other Measures and Terminology.

    Insert the following additional language:

        (4) Development of weighted performance measures for difficult 
        to serve--To ensure that performance measurement accounts for 
        the needs of individuals with more significant barriers to 
        employment, the Secretary, after collaboration with 
        representatives of appropriate Federal agencies, and 
        representatives of States and political subdivisions, business 
        and industry, employees, eligible providers of employment and 
        training activities, educators, and participants, with 
        expertise regarding workforce investment policies and workforce 
        investment activities, shall issue regulations and guidance for 
        the development of performance measure mechanisms for State and 
        local areas that account for investments in individuals 
        requiring more effort due to more significant barriers to 
        employment including but not limited to education and literacy, 
        lack of basic skills, disability, homelessness, and individuals 
        who are ex-offenders. These modifications in performance 
        criteria will be designed to evaluate performance based upon a 
        number of factors to differentiate degrees of difficulty and 
        effort required while encouraging and supporting the workforce 
        development system to focus efforts on the harder to serve.

    Question 4. What policy changes are necessary to ensure a stronger 
connection between the Vocational Rehabilitation program and other 
programs under WIA? How can those programs be better aligned or 
integrated to serve the needs of individuals with disabilities?
    Answer 4. The overall interaction between public Vocational 
Rehabilitation and the One-Stop Career Centers has been evolving over 
the past 10 years. The relationship between the two entities in some 
instances is one of collaboration and cooperation and in other 
instances one of avoidance and non-interaction. In many instances, the 
relationship of VR to the One-Stop Career Centers, has been growing 
with qualitative data showing the in some settings the VR staff are 
central to the operations of the One-Stop and in others the VR staff 
have been effective at engaging One-Stop personnel in providing the 
core services to VR clients including but not limited to resume 
building training, job interviewing skills, interviewing strategies and 
marketing skills to meet those needs in the local community, with VR 
staff resources then utilized for more focused and intensive disability 
specific services.
    In establishing the relationship between VR and the One-Stops often 
the driver of the relationship is the framing of the MOU with that 
document defining the nature of the interaction. By defining the nature 
of the relationship based upon the personnel, expertise and fiscal 
interactions between the VR and One-Stops, the emphasis is on how these 
two elements of the One-Stop system can focus upon the needs of the 
customers who have disabilities. If DOL is more able to clarify the 
extent of the elements to be included in an MOU, assist in supporting 
creative options through the use of the MOU and offer greater guidance 
on the aspects that should be covered by the MOU ultimately the 
relationship between VR and the One-Stops can be further expanded. Too 
often the initial discussions on framing the MOU deal with how fiscal 
resources can be accessed to share the infrastructure support needs of 
the One-Stop. As was noted in my prior testimony, we would strongly 
support that core infrastructure funding for the One-Stops be provided 
through DOL and that the elements of the MOU focus on the personnel, 
expertise and shared funding that could be used to assist customers 
with disabilities served by the One-Stop system.
    What would be very useful is to be able to document where the 
interactions have been most productive, what the elements to those 
relationship are, how each entity interacts around an individual 
customer and what strategies they have been able to use to assure the 
there is coordination and collaboration across the many employment and 
training resources. Ultimately what would be effective would be the 
ability of DOL to identify the core elements of a MOU that lead to 
better coordination and corresponding better outcomes for job seekers 
having a disability.
    There are some areas where the VR and One-Stop programs could 
logically interact. The newly expanded focus of VR on transition and 
the ongoing interest of DOL in youth offers a common area of interest. 
The ability for VR and One-Stops to collaborate around the theme of 
transition from school to work could be a mandated element in the 
development of statewide MOUs. While it is not clear how many youth who 
are served through DOL programs have a disability, by the nature of the 
eligibility for such service many youth with disabilities would be 
eligible for DOL youth services. Modification of the youth services to 
consider not just summer but year round programs that are jointly 
supported by DOL, VR and local educational entities could significantly 
impact the transition process for many youth with disabilities. The 
capacity to develop a shared initiative or for DOL to develop a 
national initiative in collaboration with the Department of Education's 
Rehabilitation Services Administration could serve as a strong 
incentive for One-Stops and the local VR offices to collaborate. The 
recent emphasis on post-secondary opportunities for youth with 
intellectual disabilities and the extensive use of community college 
settings by DOL is again an area for potential collaboration and could 
also be an area addressed through the State MOU process.
                       questions of senator enzi
    Question 1. What happens to individuals eligible for VR services 
but who are subject to an ``order of selection policy'' or waiting 
list? Typically, people on a State waiting list receive information and 
referral services from the VR agency, but what does or should the One-
Stops (including adult education, dislocated workers, and community 
colleges) also provide?
    Answer 1. The number of VR agencies with waiting lists is 
relatively small with the number of individuals on the list also small. 
Given this, it would seem that there would be limited impact should 
there be a substantial focus on dealing with those individuals affected 
by the OOS and relegated to waiting lists in VR. That said, the One-
Stops have been able to offer a range of core services to customers who 
have a disability some of which are known to VR and some may not be. 
The information and referral supports are available from both VR and 
the One-Stops for job seekers. As in the discussion of the role of the 
MOU, it is highly likely that through the use of the MOU the core 
services and related supports and information could be made available 
to customers with disabilities who do not meet the VR Order of 
Selection. Correspondingly VR can serve as a technical resource to the 
One-Stop in areas such as types of accommodations, utilization of 
assistive technologies, strategies for provision of supports in job 
placement and consultation on related topics. These same customers who 
may not meet the OOS would be able to benefit from the core services of 
the One-Stop as well as the information and referral from the public VR 
agency.
    As was stated in our response to a prior question, the overall 
interaction between public VR and the One-Stop Career Centers has been 
evolving. The relationship between the two entities in some instances 
is one of collaboration and cooperation and in other instances one of 
avoidance and non-interaction. Over the past 10 years the relationship 
of VR to the One-Stop Career Centers has been growing with qualitative 
data showing that in some settings the VR staff are central to the 
operations of the One-Stop and in others the VR staff have been 
effective at engaging One-Stop personnel in providing the core services 
including but not limited to resume building training, job interviewing 
skills, interviewing strategies and marketing skills to meet those 
needs in the local community, with VR staff resources then utilized for 
more focused and intensive disability specific services.

    Question 2. Frequently, there is a concern that people with 
disabilities seeking services through a One-Stop are immediately 
referred to the Vocational Rehabilitation agency. How do we better 
equip our One-Stops to address the needs of this population so that 
they can receive educational and job training skills needed to be 
competitive in the marketplace?
    Answer 2. While there is no substantial data on whether there are 
immediate referrals of persons with disabilities to the VR system when 
they are seeking services at the One-Stops, there are anecdotal 
accounts of such happening. Such an automatic referral is not 
consistent with the universal access concepts of WIA and is often not 
in the best interest of the individual. Should the One-Stop system and 
the One-Stop Career Centers be able to directly access the most needed 
service (core, intensive or training) then with the adoption of an 
initial screening of all job seekers it would be relatively easy for 
the One-Stop to direct the customer to the most appropriate services. 
Much of this can be clarified through elements of the MOU. It should 
also be noted that the VR contribution to the One-Stop is one of 
personnel and expertise not necessarily to the customer but to the One-
Stop staff. VR knowledge of disability and disability conditions, 
accommodation strategies and local disability specific resources can be 
an additional resource to the One-Stop staff. Again such arrangements 
should be included as part of the MOU that is developed between the 
One-Stop and VR as well as the other mandated and non-mandated partners 
of the One-Stop system. As was noted in prior responses to some of the 
earlier questions, as DOL requires greater reporting from the SWIBs and 
LWIBS (through the SWIBs) about the activities of the One-Stop system, 
questions about and data showing the pathway of customers with and 
without disabilities through the One-Stop system would certainly be 
useful to DOL in both measuring efficiency as well as documenting 
trends in service.
    The analysis of the MOUs, if they are required to identify and 
detail strategies for serving customers with disabilities, will also 
offer DOL some indications of how it is anticipated that the system 
will serve customers with disabilities. Data on where individuals may 
be referred (this could be quantitative or qualitative data depending 
upon the requirements established by DOL for reporting activities of 
the One-Stop system at the State and local levels) would provide DOL 
with a better sense of how often, if at all, customers with 
disabilities are automatically referred to VR.
    Additionally, we have adapted a decision making guide assembled by 
Mr. Joe Marrone of the ICI as a way for VR and One-Stop Centers to 
decide when a referral to VR is appropriate or not for an individual 
State. While we are not indicating that this is the strategy to be 
adopted, it is a reflection of the types of procedures that could be 
included as part of an MOU or even just a memo of agreement and 
practice clarification from one agency to another as to how to most 
effectively utilize the resources of the One-Stop system.
    Finally in some cases, referral to VR is what people may need and 
thus a direct referral may be appropriate. In general, we would feel 
that an automatic referral may not be warranted without at least some 
utilization of a triaging process by the One-Stop identifying what 
those customers they feel may benefit from VR services and supports 
would in fact need. Given this, the subcommittee might want to 
strengthen language in WIA, indicating that automatic referral to VR is 
not acceptable, and that as people are referred to VR or other 
partners, there is an expectation that they may still utilize other 
elements of the workforce development system. While not stipulating VR 
directly but rather including a procedure to be followed with all 
customers to the One-Stop Career Centers prior to a referral to any 
other mandated or non-mandated partners there needs to be clear 
evidence that both the referral is correct and that the partner has the 
capacity to meet the perceived needs of the customer.
    Beyond the issue of VR relationships, key to addressing the 
education and training needs of individuals with disabilities, is 
ensuring that the training providers funded by WIA and accessed by the 
workforce development system, offer services in ways that are fully 
responsive to the needs of individuals with disabilities. To address 
this issue, it is suggested that under the WIA legislative language 
address selection of training providers, the following changes be made:
          chapter 3--workforce investment activities providers

SEC. 122. IDENTIFICATION OF ELIGIBLE PROVIDERS OF TRAINING SERVICES.

(c) Subsequent Eligibility Determination.--
    (4) Considerations.--In developing such procedure, the Governor 
shall ensure that the procedure requires the local boards to take into 
consideration, in making the determinations of subsequent eligibility--
      (A) the specific economic, geographic, and demographic factors in 
the local areas in which providers seeking eligibility are located; and
      (B) the characteristics of the populations served by providers 
seeking eligibility, including the demonstrated difficulties in serving 
such populations, where applicable.

    Insert the following additional language:

        (C) the ability of training providers to respond to the diverse 
        needs of populations served, including but not limited to 
        individuals with disabilities, older workers, and individuals 
        from racial and ethnically diverse backgrounds.
        (D) the ability of training providers to apply the principles 
        of Universal Design for Learning to accommodate learner 
        differences and meet the diversity of individual training 
        needs.

    Question 3. Youth transition is also an area of significant 
concern. How can the One-Stop system help assist with the transition of 
youth with disabilities from high-school to post-secondary life?
    Answer 3. The research on the development of careers and 
occupations for youth, including the DOL longitudinal study of youth 
shows that the period from 16 to the mid 20's is a time of exploration 
and learning of job skills including the so called soft skills to 
employment. The One-Stop system with its partners, including public VR, 
needs to offer opportunities for various types of employment, support 
for training and education with the emphasis on connection to the 
growth and better wage occupations. The One-Stop system needs to stay 
connected with youth and young adults longer than just entry into a job 
with more focus on entry into industries and occupational areas. The 
reinforcement of lifelong learning is also key to future success. This 
effort could be easily linked to the youth employment activities of DOL 
and also serve as a way of bringing together schools with high growth 
job needs in the local communities. The skills and competencies 
required for some of these high growth jobs could assist schools in 
shaping their curricula to meet the skill demands in some of the labor 
marker sectors.
    Additionally, the One-Stops may want, along with VR, to develop 
MOUs with local educational associations such that the resources of the 
One-Stop and VR can be more effectively integrated into the transition 
planning processes that schools must engage in for students with 
disabilities. There is clear evidence that for those students who are 
engaged in employment (off campus employment more than in school 
employment experiences) are more likely as adults to be in the real 
work setting. Given this well documented phenomena, the role of the 
One-Stop and VR in the transition planning and the development of work 
experiences for students with disabilities can be considerable.
    While the majority of students with disabilities exit school at 
around 18 years of age, some remain in school until their 22nd 
birthday. The restructuring of the final years of entitlement to 
education needs to be a priority for local schools, VR and the One-
Stops. The potential for the development of shared demonstration 
projects that facilitate the movement of students with disabilities 
from school to post-secondary and employment settings would be an 
effective collaboration that could be initiated at the Federal level 
through a joint program of the Departments of Labor and Education.
    With VR having responsibility for facilitating the transition from 
school to work, the increased emphasis from the Corporation for 
National and Community Service (CNCS) to have volunteer experiences be 
a gateway into employment (part of the Edward M. Kennedy Serve America 
Act) and the initiative in higher education for students with 
intellectual disabilities (a recent initiative included with the 
passage of the Higher Education Act), there are now additional 
resources that could be brought into the transition planning and 
implementation process. The One-Stops can serve as a realistic resource 
for job preparation and resume building while the VR system can work 
with the schools to provide the necessary consultation and technical 
assistance for students to enter employment while in their high school 
years. These jobs should remain with the student upon graduation with 
the ongoing support services (if needed) provided by VR and or the 
Developmental Disabilities or Mental Health systems. The success of the 
transition process for students with disabilities will be the capacity 
of the various One-Stop partners and non-mandated partners to share 
resources and expertise with the focus on employment as the ultimate 
outcome either upon exit from high school or post-secondary school 
programs.
    One-Stops can help with transition primarily by doing a better job 
of partnering with schools. We would thus suggest that the subcommittee 
may want to consider adding in language to the legislation that would 
encourage a more aggressive relationship with schools and a more active 
role in the transition process for youth with disabilities. Most of the 
activity relating to youth is undertaken outside the One-Stop system, 
and more with youth services (which often are primarily delivered 
separately from One-Stops). Some possible language that the 
subcommittee could consider is presented below.
                      chapter 4--youth activities

SEC. 129. USE OF FUNDS FOR YOUTH ACTIVITIES.

(c) Local Elements and Requirements.--(3) Additional requirements.--

    Insert the following additional language:

        (D) Linkage with IDEA authorized transition services.--When 
        serving youth with disabilities receiving services authorized 
        under the Individual with Disabilities Education Act (IDEA), 
        providers of youth services shall coordinate activities with 
        the local educational authority, and work collaboratively to 
        incorporate the WIA youth services into the Individual 
        Education Plan (IEP) and the transition services incorporated 
        within the IEP, and act as a participating agency in the 
        transition process.
        (E) Criteria in determining eligibility.--Clear, consistent, 
        objective criteria that are in full compliance with all aspects 
        of the Workforce Investment Act (including Sec. 188. 
        Nondiscrimation.) and approved and fully documented by the 
        State and local workforce investment area are to be used in 
        determining eligibility for youth services. Subjective criteria 
        are to be avoided, including assumptions regarding an 
        applicant's ability to meet performance measurement 
        requirements, which may not be used as a criteria for denial of 
        services.

    Question 4. It has been argued that the One-Stops and State 
Vocational Rehabilitation programs are built on different principles. 
These differences are highlighted in outcomes measures. Realizing that 
it can possibly cost more and take longer for some people with 
disabilities to reach their employment goals how should the WIA 
performance measures be adjusted to take this into account, if at all?
    Answer 4. The challenge in development of common performance 
measures is that they do not by their nature take into consideration 
the local demographics nor the diverse nature of the local population 
being served by WIA. The suggestion that was made in my original 
testimony asks that DOL convene a group of experts that will come up 
with a series of common measures (regression formulae, individual data 
elements across partners, new data elements unique to WIA activity--
number placed, earnings, benefits, impact on reduction in public 
expenditures etc.) for reporting outcomes and also how those measures 
could be integrated into existing data collection efforts across the 
WIA partners including those noted in the RSA 911 data collection 
activities. I have included in Appendix B the position that was 
presented in the full report on July 16, 2009.
    What is probably equally important is for DOL and States to stress 
that the performance standards are measures of staff function and not 
of how customers perform and also that these standards are not used to 
eliminate the establishment and or support for programs that choose to 
address the needs of harder to serve customers and correspondingly 
viewed as not carrying their weight with regard to meeting the DOL 
performance standards. In this latter situation it is possible that the 
performance standards could be considered as looking at the aggregate 
for a State and that within individual programs in the State there can 
be considerable variability reflecting differences in both the 
demographics of the local economy and the population served.
    Also as was noted in our response to question 3 from Senator 
Murray, the basic issue with services funded via WIA Adult and 
Dislocated Worker funds (which is only a sub-set of services provided 
via the One-Stop system as discussed in my original testimony) is 
indeed the high performance requirements and sanctions that result. The 
data analysis completed by the ICI indicates that individuals with 
disabilities do lag the general population in terms of their 
performance under WIA, and over time we have seen a drop off in 
participation rates. GAO has recommended systematic adjustment of 
performance levels to account for different populations and local 
economic conditions when negotiating performance. Given this GAO 
response, Congress may at least urge some demonstration projects that 
deal with ways to address the apparent disincentives in the current DOL 
performance measures that create a disincentive for One-Stop Centers to 
serve customers who may be more difficult to serve or may not reach the 
exit criteria of employment.

    Question 5. What can be done within schools to enhance transition 
services so that students receive real job training instead of 
contracting with sheltered employment providers that eventually hire 
the students they support?
    Answer 5. The concern about the transition process leading to 
placement into sheltered settings is a clear concern. Ongoing data 
collection conducted by the ICI has shown that there continues to be on 
an annual basis a greater number of individuals with disabilities 
entering sheltered employment than integrated employment over the past 
decade. In fact, there has not been a single year in the past two 
decades of data collection regarding those individuals served by State 
Developmental Disability agencies that more individuals have entered 
integrated employment than sheltered employment. It is clear and has 
been commented on in our response to prior questions, that there is a 
need for clarity that the desired outcome of the transition process be 
employment in typical work settings. This does not mean that students 
with disabilities are to move for high school to employment but that 
student goals in the long term whether exiting high school or an 
institution of higher education must be entry and advancement in an 
integrated employment setting.
    The changes in legislative language addressing the issues noted in 
this question may be more appropriately addressed in the IDEA 
reauthorization. The clear message should be that the transition 
outcomes should address post-secondary options and subsequently 
employment or direct assistance in entering employment for student with 
disabilities who are exiting school and entering adult life, and that 
utilizing sheltered work or similar services during the transition 
process or as an outcome of the process is not an acceptable outcome.
    Some of the strategies noted in our response to question 3 would 
also apply to our response to this question. The transition process is 
one that will require active student involvement, a clear focus on 
employment as the ultimate outcomes and the development of curricula 
and school based experiences that prepare the student to be ready to 
engage in employment and or post-secondary outcomes upon graduation 
(see our responses to question 3 for more detail on the transition 
planning and implementation process).

    Question 6. Consumers are interested in the possibility of 
exploring a self-directed form of vocational rehabilitation services, 
similar to self-directed service in the Medicaid Home and Community 
Based Waiver program. What are your thoughts and how would you 
establish such a program?
    Answer 6. Historically the VR legislation and regulations provide a 
wide array of options for the design and structuring of VR services 
through the IPE process including the option for a consumer to develop 
and implement their own plan (IPE). The only agency requirements are 
that a VR counselor review and mutually agree with the IPE. The 
consumer has broad discretion on how, and through what programs their 
services will be provided. The real challenge is how effectively the 
existing options are practiced. Funding some research into the 
practices and their impact would create interest in the development of 
approaches embracing self directed services.
    A significant issue in this area of self-directed services is the 
individual States comfort with providing financial options under self 
directed services. It is not generally under the control of an agency 
such as VR but rather with financial and administrative agencies and 
thus a single agency is often limited in what it can implement. Thus, 
at times the limitations in having a self directed service may be a 
reflection of the overall State financial management practices rather 
than the interest and capacity of the public VR system.

    [Preparation of Responses: The lead author, William E. Kiernan, 
would like to acknowledge the very considerable support, guidance and 
review of the above responses to each of the questions submitted to 
Senators Murray and Enzi by John Halliday, David Hoff and Joseph 
Marrone. The recommendations as well as observations made are 
reflective of the combined input from the senior author as well as 
these ICI senior staff members. Specific questions or areas for 
clarification should be sent to: William E. Kiernan, Ph.D., Director 
and Research Professor, Institute for Community Inclusion, University 
of Massachusetts Boston, 100 Morrissey Blvd., Boston, MA 02115-3393; e-
mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f186989d9d98909cdf9a9894839f909fb1849c93df949584">[email&#160;protected]</a>; phone:617-287-4311; web: 
www.communityinclusion.org.]
                               appendix a
Subject: Guidance Regarding Referral of a Customer with a Disability 
        for VR Services

Date: 10/1/04

    A. Purpose. To provide guidance to local One-Stop Career Centers 
and to the VR agency on how to determine whether it is appropriate for 
One-Stop Career Center System to refer a customer with a disability to 
the local VR office for assistance.

    B. References. The Workforce Investment Act of 1998; 29 CFR Part 
37; Title II of the Americans with Disabilities Act, DOL Training and 
Employment Guidance Letter No. 9-02 and (name of State here) DOL Policy 
Directive No. 1-04 and Institute for Community Inclusion Policy Brief, 
Volt. 3, No. 2: Provisions in the Final Regulations Governing the State 
VR Program Describing the Interplay with WIA and TWWIIA (February, 
2001).

    C. Background. The Workforce Investment Act (WIA) includes 
nondiscrimination and equal opportunity regulations for the provision 
of services to all customers. Included in those regulations is specific 
language regarding the service to individuals with disabilities 
specifically:

      <bullet> Individuals with disabilities have a right to use the 
services of the One-Stop system.
      <bullet> One-Stop Career Centers must be readily accessible to 
individuals with disabilities.
      <bullet> Individuals with disabilities are entitled to reasonable 
accommodations and modifications when using One-Stop services.
      <bullet> Individuals with disabilities should not be 
automatically referred to agencies providing services for people with 
disabilities.
      <bullet> Referral to other programs such as vocational 
rehabilitation should be based upon individual need and agreement by 
customers.

    Collaboration between the VR agency and the WIA administering 
agency is intended to produce better information, more comprehensive 
services, easier access to services, and improved long-term employment 
outcomes. Thus, effective participation of the State VR program is 
critical to enhancing opportunities for individuals with disabilities 
in the State VR program itself as well as other components of the 
workforce investment system in each State and local area. [65 FR 10621, 
10624 (February 28, 2000)]
    All partner programs (not just the Designated State Unit 
implementing the State VR program) have a legal responsibility under 
Title I of WIA, the ADA, and Section 504 of the Rehabilitation Act to 
serve persons with disabilities. Some individuals with disabilities may 
receive the full scope of needed services through the One-Stop system 
without accessing the State VR program at all; while others may be 
referred to the designated State unit for a program of VR services or 
receive a combination of services from the State VR program and other 
One-Stop system partners. [66 FR 4425 (January 17, 2001)] Nothing in 
Title I or Title IV of WIA or the implementing regulations is meant to 
be construed to require designated State units to pay the costs of 
providing individuals with disabilities access to the One-Stop system. 
In fact, that responsibility falls to the One-Stop system in accordance 
with the ADA and Section 504. [66 FR 4425 (January 17, 2001)] In 
addition, some individuals who are eligible for VR services may choose 
not to participate in the VR program and, therefore, also may be served 
exclusively by other partner programs of the One-Stop system. [66 FR 
4425 (January 17, 2001)]
    Therefore this policy guidance is issued under the premise that the 
One-Stop system will endeavor to serve customers with disabilities 
through the full panoply of services the One-Stop system offers and 
that the customer with a disability is (potentially) eligible for, 
whether or not, they may also be (potentially) eligible for other 
employment related disability specific services. It is expected that, 
while the final decisions regarding which agency services the customer 
would choose to access would reside in the customer, as agency policy 
the DOL would expect referrals to be made to the State VR agency 
primarily as a complement to One-Stop services and NOT as a replacement 
for such services. Also, since the VR agency is a partner in each One-
Stop, it is strongly encouraged, that in addition to this policy 
directive, each Center develop a local referral protocol under the 
statewide parameters outlined below. Several Centers have developed 
Employment Planning teams involving VR, WIA staff, and other disability 
specific partners and this may be a viable model to continue to expand 
in various parts of the State to assist in rendering assistance to 
customers with disabilities more effectively, especially in regard to 
the collaborative activities envisioned specifically in the areas under 
Sections D.4, D.5, D.6, and D.8 below.
    As noted in the Policy Directive No. 1-04, previously issued by the 
State Department of Labor, One-Stop staff may not make unnecessary 
inquiries into the existence of a disability but they may ask whether 
an individual has a disability, as long as there is a specific reason 
for making such an inquiry and these inquiries are made for all 
customers of the system. The One-Stop system may ask whether an 
individual has a disability for the following reasons: ``. . . to 
determine if the individual is eligible for special services or funding 
as a result of the disability . . .''. If using the previous guidance, 
Policy Directive No. 1-04, the customer is believed to be a person with 
a disability, then the following decision tree process should be used 
to determine the feasibility and appropriateness of a referral to the 
State VR agency. The information should be used consistently while, at 
the same time, recognizing that every situation that staff confront 
involves a multitude of factors that must be considered. But applying 
the decision making guidelines described below should help in assisting 
customers with disabilities more effectively and expeditiously.

    D. Guidance:

    Below is the decision tree protocol for considering whether a 
workforce customer should be referred for VR services. Nothing in the 
guidelines below is meant to contravene the Policy Directive No. 1-04 
referenced above, which remains fully in effect and is expected to be 
adhered to in all respects. This guidance serves as a complement and 
supplement to that directive, not as a replacement in any form.

    Questions to consider in deciding whether a workforce customer 
should be referred to the local office of the State VR Agency for 
assistance.

    These questions below are developed in a decision tree format and 
should be applied in the order described.

    (1) Do you know that a customer has a disability? Y/N
      <bullet> If Y, did [s]he self disclose? Y/N
      <bullet> If Y, on a form? Or to you directly? Or to others who 
informed you?
      <bullet> If N, what other factors lead you to believe this? How 
does this knowledge get incorporated into your decision given the 
requirement that it is up to the customer to voluntarily self disclose 
disability status and not have that label assigned to him/ her by 
external parties?

    (Note: It would be useful and all One-Stops are encouraged to 
incorporate as part of their general customer orientation several 
pieces of disability service oriented information, both in written 
material and oral presentations at general orientation sessions. This 
should include information about why One-Stops encourage customers to 
self identify should they need disability specific assistance, what 
disability specific partners and resources might be available to help, 
and how customers might self identify and with which staff should they 
be encouraged to connect. Where possible it is highly desired that VR 
staff participate at some level in presenting a brief description of VR 
services to all customers attending orientation sessions.)

    (2) Does the customer have a disability that needs some special 
accommodations if [s]he is to successfully use workforce services? Y/N

      <bullet> If Y, what leads you to believe this? (Should reference 
local resources and info re accommodations here)

    (Note: If staff believe an accommodation is necessary and staff 
broach the topic, then such staff should explain what leads them to 
arrive at this judgment and how such an accommodation might benefit the 
customer to derive the full benefit of workforce development services.)

      <bullet> If N, no other action regarding referral to VR is needed 
at this time, unless the customer specifically requests such service.
    (3) Does the customer believe [s]he needs and desires this 
accommodation? Y/N

      <bullet> If Y, what leads you to believe this?
      <bullet> If N, no other action regarding referral to VR is needed 
at this time, unless the customer specifically requests such service.

    (Note: If the customer believes an accommodation is necessary then 
staff should ask the customer what sort of accommodation might be 
needed and how such an accommodation might benefit the customer to 
derive the full benefit of workforce development services.)

    (4) Does the One-Stop Center have the ability to provide this 
accommodation service on its own without the assistance of VR? Y/N

    <bullet> If Y, what leads you to believe this?
    <bullet> If N, what leads you to believe this?

    (Note: Each One-Stop Center should have in place an MOA regarding 
the process in place for assessing and providing needed accommodations. 
The One-Stop staff should reference this policy at this juncture. 
However, it is also useful for the workforce staff to identify local 
resources or experts who may assist the Center staff in examining other 
creative problem solving options that have not previously been 
acknowledged.)

    (5) Does the customer have some more extensive individual support 
needs related to his/her disability that should be attended to in order 
for the person to successfully attain and retain employment? Y/N

      <bullet> If Y, what information, in addition to the customer's 
own statements, leads you to believe this? Have you discussed this 
opinion with the customer directly?
      <bullet> If N, why not and what leads you to believe this? Do you 
need some assistance from someone else to discuss this with the 
customer directly? It is expected that there be both formal (through 
Memoranda of Understanding) as well as informal working relations 
established with VR and other disability partners in the One-Stop so 
that this consultation can be accessed readily and effectively.

    (Note: Workforce staff should be clear when identifying the 
perceived need for extensive individual support that this judgment is 
rendered with the expectation that such support should be expected to 
assist the customer in achieving a successful employment outcome and is 
not being used to ``screen the person out'' of services.)

    (6) Does the customer wish to be referred to disability specialty 
services that VR provides? Y/N

      <bullet> If Y, what leads you to believe this? Staff should 
provide every opportunity to the customer to continue to use all 
appropriate workforce services, especially core and assisted self 
service, even while discussing with the customer the possible need of 
disability specialty services.
      <bullet> If N, what leads you to believe this? If N, no other 
action regarding referral to VR should be undertaken, unless the 
workforce staff believe that this additional service is essential and 
without it, the customer can not get any further benefit from the other 
workforce services available. In that case, it is then incumbent upon 
the staff member to explain the rationale for this decision cogently in 
a manner that elicits a positive response and agreement to this 
referral from the customer, not merely acquiescence.

    (Note: Workforce staff should be clear when identifying the 
perceived need for disability specialty services that VR provides that 
this judgment is rendered with the expectation that such service is 
expected to assist the customer in achieving a successful employment 
outcome and is not being used to ``screen the person out'' of workforce 
services.)

    (7) Do you think the person should still consider VR even if [s]he 
is not interested? Y/N

      <bullet> If Y, why do you believe this? Do you need some 
assistance from someone else to discuss this with the customer 
directly? As with question 5 above, workforce staff should have a 
collaborative relationship established with disability partners in the 
One-Stop or the community at large so that this consultation can be 
accessed readily and effectively.
      <bullet> If N, then it is expected that the One-Stop Center will 
then seek to provide the service that staff felt the person needed, 
which they thought VR should provide. If this service provision is 
ascertained to be impractical or impossible without VR assistance, then 
it is the responsibility of the workforce staff or supervisors to 
clearly explain their rationale and gain the customer's understanding 
(and ideally) agreement. This decision should only be rendered after 
full discussion with administrative staff at the One-Stop Center and 
with the local VR partner personnel.

    (8) Will you make the referral directly to VR if the customer 
agrees that [she] is interested in VR services? Y/N

      <bullet> If Y, does your One-Stop Center have a regular process 
in place to do this? As noted above in question 5 above, each One-Stop 
Center is expected to have in place both formal (through Memoranda of 
Understanding) as well as informal working relations established with 
VR so that this referral can be accomplished effectively and 
seamlessly.
      <bullet> If N, why not? Is this because the customer prefers to 
do it him[her]self? If so, then workforce personnel should offer advice 
to the customer on the most efficacious way to accomplish this self 
referral and proactively offer to assist if the customer changes his/ 
her mind. Furthermore, workforce personnel are expected to ensure that 
the customer understands the situation fully, including the ability to 
continuing receiving all appropriate workforce services (the preferred 
mode) or the process in place to reaccess workforce services without 
prejudice at a future time.

    (Note: It is not acceptable to suggest the customer self refer to 
VR either because of workforce staff's other work requirements or 
because staff are not knowledgeable how to arrange such a transition. 
In either case, workforce staff are expected to do timely follow up to 
make sure the person is connected appropriately and that the customer 
is engaged in services that meet the needs assessed.)

    (9) If the customer with the disability will be getting assistance 
from VR, will the One-Stop Center workforce staff still continue to 
serve him/her with other (non VR funded) services? Y/N


      <bullet> If Y, how will this be communicated to and coordinated 
with VR staff? Procedures for providing joint services should be fully 
explicated in the Memoranda of Understanding between local One-Stop 
Centers and the State VR local service offices.
      <bullet> If N, why will the One-Stop Center not continue to 
assist the person? Is it because the One-Stop Center does not have any 
services the person needs? If so, how did you decide this? Core 
services or assisted self service should be feasible alternatives in 
almost every instance. It is expected that this assessment is done in 
partnership with the affected customer and explained clearly and in 
writing if the person requests it. If the customer still seeks One-Stop 
Center services, then there needs to be an administrative policy in 
place in writing regarding the process for why further services would 
not be offered--a situation that should occur infrequently if ever.
    Is it because VR is better equipped to deliver all the services 
needed? If so, how did you decide this? It is expected that that this 
assessment is done in partnership with the affected customer and 
explained clearly and in writing if the person requests it. If the 
customer still seeks One-Stop Center services, then there needs to be 
an administrative policy in place in writing regarding the process for 
why further services would not be offered--a situation that should 
occur infrequently if ever.

    (Note: As noted in question 8 above as well as in Section C of this 
document, the preferred mode for the system (and consistent with the 
spirit and the letter of the ADA and WIA legislation) is for the 
customer to be able to continue to receive all appropriate workforce 
services concurrent with participating in VR services wherever 
possible.)

    [Draft prepared by: Joe Marrone, Senior Program Manager, Public 
Policy National Center for Workforce and Disability, Institute for 
Community Inclusion, UMASS BOSTON, West Coast Office: 4517 NE 39th 
Ave., Portland, OR 97211-8124; tel: 503-331-0687 (home office) or 503-
331-0486 (home); fax: 503-961-7714; e-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="105a5d262129242750515f5c3e535f5d">[email&#160;protected]</a>; web: 
www.onestops.info.]
                               appendix b
    response to performance measures as presented in july 16, 2009 
                 testimony of william e. kiernan, ph.d.
    Measurement of effectiveness and impact must not create a 
disincentive for One-Stops to serve customers with disabilities: While 
this has been an area of continuous discussion over several years, 
there is little progress in the area of identifying clear performance 
measures for the One-Stop system. Some of this is reflective of the 
nature of the One-Stop in that it is a system and not an individual 
program, and thus for the One-Stop there must be collaborations across 
multiple agencies addressing the needs of the customers who are seeking 
employment. Many of these partner agencies have outcome measures and 
most have unique interpretations of what the actual measure means, as 
in the case of ``what is employment'' and ``how long should individuals 
be followed''. Care must be exercised so that any measurement of 
outcomes does not create a disincentive for the One-Stops to serve 
specific sub-populations.
    As it currently stands, if the One-Stop does not meet its 
performance measures while using WIA funds, there are clear sanctions. 
The existing structure can and often has been reported to be a reason 
for the low rate of service for persons with disabilities and other 
hard to serve customer groups. There is a need to develop measures of 
effectiveness that reflect the customer diversity while embracing the 
mandate of the One-Stop to serve all customers. In some instances the 
customer mix will vary depending upon the demographics of the area 
served by the One-Stop. Any measurement system must be sufficiently 
flexible to accommodate the diversity of the populations served by the 
One-Stops as well as be able to provide consistent measures of outcomes 
such as employment placements, earnings and job retention among other 
variables. The identification of effective outcome measures for WIA is 
clearly an area of importance and should be a priority for both ETA and 
ODEP with the development of such measures including both mandated and 
non-mandated partner input and consideration.
    While not a performance measure, the adoption of common intake and 
application materials across the One-Stop and its partners would serve 
to streamline the application effort for the customer as well as reduce 
the costs to the agencies if common data and variables are used for 
multiple applications for service. The same would be true for outcome 
measures. With some greater consistency in the definition of the 
outcomes measures, cross agency reviews may be able to be accomplished 
with the outcomes providing more meaningful and useful monitoring as 
well as strategic planning. Finally, the development of measures and 
processes that do not create disincentives for the One-Stops to serve 
the harder to serve customers is essential if the mandate of WIA to be 
universal, seamless and accessible to all is to be realized.
    Performance Measurement and Issues: The inability to properly 
measure the performance of the One-Stop system is an ongoing issue. At 
this point, the only mechanism for measurement of One-Stop performance 
is through individual partner and funding stream performance measures 
that allows only a partial (although still somewhat informative) look 
at the system. A subtext of this lack of a comprehensive performance 
measurement system, is the lack of a measurement system for One-Stop 
system performance in serving various groups and sub-populations 
including people with disabilities. As a result, it is impossible to 
truly ascertain the performance and progress of the One-Stop system as 
a whole in meeting the needs of people with disabilities.
    Wagner-Peyser Data: The performance data that is available, while 
limited, indicates both successes and challenges regarding serving 
people with disabilities. The Wagner-Peyser data are probably the best 
indicator available of overall One-Stop performance. These funds are 
used for basic employment/labor exchange services, and track the 
largest number of individuals using the generic workforce development 
system--and per WIA regulations, are to be delivered within the One-
Stop system.
    Analysis by the Institute for Community Inclusion (ICI), indicates 
that the percentage of individuals identifying they have a disability 
has shown a steady increase over time, from 2.3 percent in 2002 to 3.1 
percent in 2005 figure. The more recently available data show a slight 
decline: in 2007, 2.8 percent of individuals using Wagner-Peyser 
funding were identified as having a disability. As noted in a recent 
publication by the Institute for Community Inclusion (ICI) (http://
www.communityinclusion.org/
article.php?article_id=233&type=project&id=16), ``In examining and 
interpreting these data, it is important to note that these data may 
not fully reflect the use of these services by people with 
disabilities, as it does not include individuals with non-apparent 
disabilities who have declined to identify that they have a 
disability.'' There are a number of other issues with these data. It 
first off, only indicates percentage of use of the system by people 
with disabilities, with no outcome data (although outcome data is made 
available for Wagner-Peyser participants as a whole). Secondly, the 
data indicate massive variations in the percentage of people with 
disabilities using services from state-to-state: from less than 1 
percent to over 15 percent. The underlying reasons for this variation 
are not clear, but it is concerning and bears further investigation.
    WIA Data: The other piece of significant data that is available is 
the Workforce Investment Act fund data. These funds are generally used 
for training, as well as more intensive services in the workforce 
development system. In some cases, WIA funds are also used for core 
services. The WIA performance data do provide highly detailed 
information regarding performance and outcomes for people with 
disabilities. However, only a small percentage of individuals served in 
the workforce development system are served via WIA funds 
(approximately a million people annually vs. over 13 million via 
Wagner-Peyser funding). Therefore WIA performance is not equivalent to 
One-Stop performance, although it has been observed that many 
policymakers internal and external to the workforce development system, 
advocates, and academics often verbally and in writing incorrectly make 
this assumption. To reinforce this point, in 2007, only 58,000 
individuals identified as having a disability were served via WIA 
funds, while 499,000 individuals were served via Wagner-Peyser funds.
    There are three WIA funding streams: Adult, Dislocated Worker, and 
Youth. Analysis of these data by the Institute for Community Inclusion 
revealed the following: from 2001 to 2007, the percentage of 
individuals with disabilities served via WIA Adults funds declined from 
9 percent of the total served to 4.2 percent. For WIA Dislocated Worker 
funds, the results have varied over this same period, from a low of 3.3 
percent in 2005 to a high of 4.6 percent in 2006. In conjunction with 
declines in percentage of individuals served, the outcomes for 
individuals with disabilities trailed the overall average performance. 
(It is important to note that there are significant penalties in terms 
of funding losses for not meeting required performance outcomes using 
WIA funds.) For Youth funds however, the results are more encouraging. 
For WIA Youth with disabilities (ages 14 to 21), the percentage of 
individuals served actually increased from about 14 percent to 16 
percent from 2001-2004 (although this has since declined to 14.5 
percent in 2007). In terms of performance, Older Youth (ages 19-21) 
with disabilities slightly lagged the average performance, and for 
Younger Youth (ages 14-18), performance was either equivalent or 
exceeded the average performance. (Note: Youth with disabilities are 
highly eligible for WIA youth services.) These results appear to 
indicate that when performance for people with disabilities lags the 
general population, their ability to access services decreases, and 
when performance for people with disabilities is similar to or exceeds 
the general population, their ability to access services increases.

4. WIA Reauthorization Recommendations

    Given this context, the following are specific recommendations 
regarding reauthorization of WIA:

Performance Tracking and Measurement

    <bullet> Development of One-Stop Performance Measurement System: A 
key piece of WIA reauthorization needs to be mandating development of 
performance measurement for the One-Stop system as a whole, which 
includes measurement of performance in serving people with 
disabilities, among other groups.
    <bullet> Clarity of Disability Definition and Tracking of SSI/SSDI 
Enrollment Status: Part of the reform of performance measures needs to 
include much greater clarity regarding definitions and mechanisms for 
measurement, as it appears that the mechanisms for measuring disability 
are at best inconsistent making it difficult to have full confidence in 
the accuracy of the data. Mandating the collection of SSI/SSDI 
enrollment status of individuals being served would assist in this 
process, and allow for a much stronger sense of how the system is 
performing for individuals with more significant disabilities, and also 
allow for greater determination of the potential of the workforce 
development system in terms of participation in the Ticket to Work.
    <bullet> Creation of Benchmarks and Targets for Specific 
Populations: In conjunction with reform of performance measures, it is 
also recommended that statutory language be included in the 
reauthorization, which mandates creation of annual benchmarks and 
targets for serving specific populations, including people with 
disabilities.
    <bullet> Revamping WIA Performance Requirements: Revamping of the 
performance requirements for WIA funds is clearly needed. Too often, 
concerns over the inability to meet performance standards, is used as 
an excuse for not serving people with disabilities. The WIA performance 
measures must be modified to account for a wider range of job seeker 
needs. Language must also be incorporated into reauthorization that 
clearly reinforces that discrimination against individuals based on 
performance measure concerns is not acceptable.
       Response to Questions of Senator Murray and Senator Enzi 
                           by Mary W. Sarris
                      questions of senator murray
    Question 1. In your testimony, you discuss strong, collaborative 
partnerships as a key to developing and sustaining creative services to 
help at-risk teenagers and young adults disconnected from school and 
work transition into the labor market. What have been the most 
beneficial relationships with key stakeholders in the industry and 
education community for your Workforce Board in helping young people 
prepare for a full range of post-secondary education and training 
options and careers?
    Answer 1. Sector-led partnerships that incorporate multiple 
stakeholders with post-secondary and adult basic education are one way 
to prepare young people for careers as well as give them an 
introduction to continuing their education. One example of this would 
be a program we developed several years ago called TURBO which worked 
in the construction trades industry and had adult basic education 
providers as well as our local community college participating and 
assisting youth in gaining basic skills and work readiness elements to 
be hired and then begun a career ladder within the industry. Private 
industry within the construction trades were involved in the 
development of the curriculum to ensure the basic elements needed to be 
successful.
    In addition, through funding from the State of Massachusetts, we 
have developed a partnership of over 20 youth serving organizations 
called Pathways to Success by 21 (P-21). Through P-21 we have 
established solid relationships between and among agencies which work 
on various elements of youth distress so that true coordination of 
services can be provided. For example, through P-21 we surveyed teens 
using an Asset model to better understand teen perception of their 
strengths and challenges they face, most importantly unstructured time 
after school and lack of quality work experience opportunities. This 
information helps us develop community-wide solutions including 
stepping up efforts for part-time job development. In addition, P-21 
partners serving out-of-school youth have come together to offer 
college credit courses in GED programs, leading to a surge of interest 
in GED attainment and college enrollment. Finally, we have offered 
quality training to youth serving staff in P-21 agencies to improve 
their overall ability to reach and serve youth.
    Another partnership on behalf of youth involves a teacher 
externship program, which includes local STEM companies, local public 
school systems and their teachers, and Salem State College, the largest 
providers of bachelor and master degree education programs. Teacher 
externs work for 5 to 8 weeks during the summer in real STEM activities 
where they practice their science and math competencies in a high 
skills environment. Wrapping around this experience is a graduate level 
education course led by Salem State where they work as a cohort to 
design curriculum that brings what they learned right into the 
classroom, thus enhancing the learning experience for their students 
and motivating them to choose STEM careers. While a very new program, 
we believe teacher externships are a wise investment of corporate and 
public funds, leading to returns in higher high school graduation rates 
and an increase in STEM career choices.

    Question 2. How are these partnerships important to the 
sustainability of North Shore's efforts to provide learning and work 
opportunities to young people, particularly those who are struggling to 
graduate from high school or have dropped out?
    Answer 2. The issues facing youth cannot possibly be overcome 
without many stakeholders working together on behalf of these youth. At 
the same time, developing relationships in a neutral environment and 
growing these relationships into true collaboratives on behalf of youth 
is not a natural role for any agency in particular. The Workforce 
Investment Board, however, is established to provide this neutral 
environment through which services for youth can be vetted, developed, 
enhanced, and improved. The WIB provides economic and labor market 
information backing up the need for these relationships and provides 
the impetus for organizations to come together and change in positive 
directions.
    The partnerships which focus in on careers and educational pathways 
that youth can embrace while they are finishing their GED is one 
example. As stated above, here in the North Shore, WIA youth 
participants can take college credit courses while simultaneously 
working on their GED. This ensures that once they have received their 
GED they are not only familiar with the post-secondary education system 
but they have already gained ``credit'' and confidence. P-21, led by 
the WIB, provided the environment where this innovation came to light 
and was made a reality. The same can be said for sector partnerships 
such as TURBO and our Teacher Externship project. Permanent positive 
impact on youth development can only happen when all agree to work 
together toward a common goal, with the WIB operating in a convening 
and brokering function.

    Question 3. From the North Shore Board's experience, what policy 
improvements can you suggest to encourage the sort of partnerships that 
help young people successfully transition from school to successful 
careers?
    Answer 3. We urge you to help develop incentives that encourage 
local school districts to work with the workforce development system 
toward this transition goal. While our relationships with local school 
districts are in some cases strong and in other cases developing, there 
is no doubt that schools easily become isolated in their quest to help 
students pass standardized tests, while addressing the myriad of social 
issues in a less organized fashion. We would urge that Education 
policy, along with Workforce policy, provide direction and resources 
that support programs such as sector partnerships for youth, P-21, and 
teacher externships. For example, States should be encouraged to 
include teacher externships as either a required or highly encouraged 
route for teacher re-certification. This would elevate the concept of 
business involvement in classroom planning to a higher level. In 
addition, students who become involved, through career exploration, 
internships, or joint projects with companies in sector partnerships 
should be able to receive school credit once such involvement is 
reviewed and approved by qualified teaching staff. These types of 
policies result in stronger relationships between schools and their 
communities and more successful outcomes for all students, including 
those at risk of leaving school or those in alternative education 
programs.
                       questions of senator enzi
    Question 1. Some States and localities have boards that excel in 
their leadership and performance outcomes. What could be done to 
disseminate these best practices to other State and local workforce 
boards?
    Answer 1. We have participated in the National Business Learning 
Partnership (a DOL-sponsored program) which matches up Leaner and 
Mentor WIB's from around the country to learn and share. We have 
participated three times in this program (once as a learner site 
working with a local WIB in Sunnyvale CA, then as a mentor site with a 
Council of Governments in Clovis, NM, and most recently again as a 
mentor site with Department of Workforce Development in Iowa) and have 
learned a tremendous amount form these peer-to-peer experiences. A 
continuation and expansion of this program would without a doubt 
provide the appropriate forum for best practice dissemination. The cost 
of this program revolves primarily around travel between the sites. 
Costs such as this could be shared by the U.S. Department of Labor, the 
States, and various WIBS participating.

    Question 2. An unintended consequence of the enactment of WIA in 
1998 has been the creation of local workforce boards with 40 or more 
members. The North Shore Workforce Investment Board has an effective 
Board. What are the defining characteristics of this board? What 
incentives are used to attract the right employer representatives to 
serve on the boards, who then take on a meaningful role?
    Answer 2. The North Shore WIB consists of 35 members. In regard to 
mandated partners, we have several members who represent more than one 
partner, for example, one board member represents Wagner-Peyser, 
Unemployment Assurance, Rapid Response, and Migrant/Seasonal Farm 
workers. This type of state-level organization greatly helps keep WIBs 
to a more reasonable membership level.
    From a higher perspective, however, the North Shore WIB and our 
lead-elected official, Mayor Kimberley Driscoll of the city of Salem, 
believe that the WIB provides a vital, strategic function in the 
support and development of our workforce as an economic development 
activity. The North Shore economy is one that demands and rewards high 
skills. This translates into the need for an organization that can 
bring this information to the general public, develop resources, 
including WIA and non-WIA, and help invest these resources wisely in 
educational and community organizations. This is how we see the WIB on 
the North Shore.
    The Mayor and Board Chair work continuously to ensure that all 
board appointments are appropriate to our Strategic Plan. This includes 
ensuring that private sector leaders--representing at least 51 percent 
of board membership--come from our critical and emerging industries and 
have concerns and interests in developing our workforce. They work 
closely with local Chambers of Commerce and other business 
organizations to find those business leaders who exhibit this level of 
interest. Community and public appointments are approached with the 
same level of scrutiny.
    These companies and community leaders believe that they have 
authority AND responsibility to develop and carry out a strategic plan 
that meets the needs of the North Shore. They view funding sources, 
both WIA and non-WIA, as tools to carry out this plan. The WIB has a 
committee structure that allows board members to participate in 
whatever specific interest they may have, such as youth pipeline, 
skills gap, or partnership development. By combining a concentration on 
a specific area with an opportunity to truly participate in decisions 
at the full WIB level, board members believe their expertise is of 
value and actually makes a difference in their community.
    In short, the defining characteristics of the North Shore WIB is a 
Mayor who takes the appointing authority seriously, a board chair who 
provides the Mayor with the information needed to make strong 
appointments, a strategic focus on the workforce needs of the region, 
and a structure that mandates participation but also provides full 
authority to make decisions over how WIA and non-WIA funds are invested 
in our local economy. With this type of philosophy, local business and 
community leaders are naturally motivated to participate and find 
incentive in the successful implementation of services to job seekers 
and companies in our region.

    Question 3. How can we create incentives so that State and local 
workforce investment boards are actively involved in strategic planning 
rather than limited to program operations?
    Answer 3. The State of Massachusetts has established a High 
Performing Board application process which places emphasis on the 
boards ``being'' and ``thinking'' strategically. Through the HPWIB 
process, Massachusetts, along with various regional and local 
stakeholders, has defined what a successful workforce board looks like. 
Part of the application process in Massachusetts is that in order to be 
``high performing'' the board needs to have a strategic plan in place 
and the ability to track progress on the goals, indicators and 
benchmarks in the plan. This is the only way that boards can be assured 
that they are truly having an impact on their region, making it a 
better place to live, work, and in which to do business.
    The successful attainment of HPWIB status provides in and of itself 
an incentive to reach this goal. By being identified as high 
performing, WIBs become more credible in their communities and across 
the State, are sought out for other leadership roles such as 
presentations, grant partnership opportunities, and other community 
leadership roles. However, additional financial resources to continue 
the good work they do are truly appreciated. In Massachusetts, the 
State has freed up WIA 15 percent funds in the form of $100,000 grants 
to successful HPWIBs. While small in the scheme of overall budgets (the 
NSWIB has a budget of about $6 million of which about 65 percent is WIA 
funding), this type of grant provides flexibility for boards to 
continue their strategic activities, such as developing new labor 
market reports and blueprints, attending trainings, etc. We would urge 
Congress to codify the Massachusetts High Performing WIB definition 
into WIA and to provide resources to WIBs that reach and maintain this 
certification.
       Response to Questions of Senator Murray and Senator Enzi 
                            by Kathy Cooper
                      questions of senator murray
    Question 1. The President and others have recognized Washington's 
I-BEST program as one of the most innovative approaches to adult 
education in the country. The program has shown great results in 
helping adult learners achieve learning gains by integrating basic 
skills learning with occupational training. What specific barriers do 
you encounter in implementing the I-BEST program relating to rules and 
requirements under titles I and II of WIA?
    Answer 1. The I-BEST program is not a ready fit within titles I and 
II as they are currently written and interpreted. This continues to 
complicate I-BEST progress and limit our ability to partner with title 
I providers.

    <bullet> The purposes of title I do not require offering services 
to low-skilled, low-income workers or making investments in the 
education and training needed to develop the workforce.
    <bullet> Title I has been interpreted to require a sequence of 
service that does not match the needs or schedules of low-income, low-
skilled workers or the structure of I-BEST. In addition, community and 
technical colleges and adult basic education providers are not defined 
as automatic or priority providers.
    <bullet> The title I accountability system places weight on job 
placement and wage levels in short timeframes, incenting service to the 
highest skilled and easiest-to-place customers. I-BEST succeeds with 
low-wage workers, placing weight on measurable progress along a career 
pathway in a high demand field that addresses needs of local employers. 
Title I would need to weigh such measurable progress equally to job 
placement in order to support I-BEST--a wise course of action in the 
long term because I-BEST better develops the emerging workforce as it 
meets employer demand.
    <bullet> The success of I-BEST students in adult basic education, 
post-secondary education, and progress on career pathways is not a 
purpose of the current version of title II.
    <bullet> Current law and policy require that title II instruction 
focus only on educational and/or English language gains defined by 
Federal levels. They specifically restrict investment of funds for 
instruction defined as ``vocational''--which includes how to use a 
computer.
    <bullet> While the achievement levels of I-BEST students exceed 
that of students in traditional ABE classes, the achievement system 
itself focuses too many of our limited resources on documenting 
progress within arbitrary levels that change every few years and have 
no meaning or relevance to students, employers, or our title I 
partners.

    Question 2. How do you recommend that the goals of both titles be 
better aligned to serve adult learners in WIA reauthorization?
    Answer 2. The goals of the title I and title II should not be 
identical. It makes little sense for partners in the workforce 
development system to duplicate services. Instead the purposes should 
be intentionally and specifically complementary.

    <bullet> We recommend title I have a goal to create a comprehensive 
workforce development system that meets the skills and needs of 
existing and emerging employers at the same time as it supports under-
prepared adults and workers who need to advance to the next level of 
education and employment.
    <bullet> The goal we recommend for title II is to provide students 
with the skills and knowledge required for success in post-secondary 
education and progress on pathways to family-wage jobs. This goal 
aligns with the explicit workforce development goal for title I and 
reflects the vision from Tipping Point research done here and 
replicated nationally. The Tipping Point for self-sufficiency is 1 year 
of college credit and a vocational certificate recognized by local 
employers.

    Question 3. What are the core principles of the I-BEST program that 
make it effective and how can other programs emulate and implement 
those principles even if their adult education services are not 
provided within a State's community college system?
    Answer 3.
    <bullet> I-BEST begins with a clearly defined career pathway in a 
high demand field that is developed in partnership with local/area 
employers. Pathways must have multiple access points for students and 
reach as far as a 4-year degree, when possible.
    <bullet> I-BEST projects provide options for short-term training 
that typically lasts two quarters, but may be designed for between one 
and eight quarters. The initial program on the pathway must result in 
college-level credits, a college credential that has meaning in the 
local job market, and readiness for a job that pays a family wage.
    <bullet> Instruction integrates adult basic education and 
professional/technical skills and is based on an approved set of 
integrated learning outcomes.
    <bullet> Instruction is delivered by a team that includes an adult 
basic education instructor and professional/technical instructor who 
teach as a team at least 50 percent of the time.
    <bullet> Student support services and success strategies are 
provided from entities across the college structure and the community.
    <bullet> Each provider has a plan to support students as they 
transition to next steps on the pathway, whether students continue 
immediately or stop out for a period of employment.

    While I-BEST in Washington State benefits from the commitment of 
our community and technical college system, all core activities can be 
achieved by a variety of partnering entities. In fact, when we created 
an I-BEST pilot project targeting out-of-school youth--a difficult 
population with whom to succeed, colleges partnered with local 
workforce development councils and community-based organizations. These 
partners bring expertise in case management, employer engagement, and 
community-based resources that proved invaluable to this group.

    Question 4. What role should adult education programs play in the 
President's community college initiative? How can adult education 
providers and community colleges partner to create pathways for low-
skill adults into a post-secondary education program that leads to a 
credential of value in the labor market?
    Answer 4. Our Nation cannot meet the degree achievement goals set 
by President Obama for the community college initiative unless we 
address the demographic imperative that already drives the adult basic 
education system. Like most of the country, our State knows that the 
current number of under-prepared adults is greater than the number of 
all the young people who have or will graduate from high school in 
classes from 2000 to 2010.
    Adult basic education programs open the doorway to educational 
achievement for under-prepared adults. Adult basic education must be 
clearly included and supported in the initiative in order for it to 
succeed with our Nation's fastest growing populations. Whether adult 
basic education is provided within a community college system or by 
community-based partners, the keys to success are:

    <bullet> A clear purpose of student success in post-secondary 
education and progress on pathways to family-wage jobs.
    <bullet> An accountability system that measures and rewards 
progress toward that purpose and that matters to adult students and 
employers.
    <bullet> Flexibility to design and deliver instruction that leads 
to defined outcomes.
    <bullet> Partnerships that leverage State investments.
    <bullet> Adequate Federal funding to address the expanding services 
and unmet need.

    I-BEST is only one example of the way that college and adult basic 
education providers can partner to make good on education's promise of 
better skills and better lives. Reflecting I-BEST's documented success, 
the new law must create a pocket for innovation, providing funds to 
design new programs and support implementation beyond the capacity of 
current resources.

    Question 5. In your opinion, what should be the overall goal of 
adult education services provided by the Federal Government? How should 
that goal be reflected in a reauthorized WIA?
    Answer 5. The overall goal of the Federal Government's adult 
education services should be threefold:

    <bullet> maintain focus on the highest and broadest purposes of the 
reauthorized WIA;
    <bullet> distribute resources that support States to meet those 
purposes, extending to States maximum flexibility to tailor programs 
within the realm of effective practices; and
    <bullet> act as advocates that encourage States to innovate in 
order to increase the success of adult basic education students in 
post-secondary education and in progressing on career pathways.

    To those ends, we specifically recommend that the new law direct 
the Federal Government to:

    <bullet> immediately convene a broad spectrum of innovative system 
leaders and independent researchers in order to create a much-
simplified accountability system that measures meaningful progress 
along education and career pathways;
    <bullet> gather, analyze, and distribute data that States will use 
to identify and implement best practices; and
    <bullet> provide support to a third-party research center located 
in an organization recognized for independence and validity, charging 
that entity to identify evidenced-based practices that increase student 
success in post-secondary education and progress on career pathways; 
and
    <bullet> distribute dedicated funds for innovation, supported by 
waivers from requirements that restrict the innovation critical to 
progress.

    Question 6. What are some of the lessons you have learned from I-
BEST demonstration projects with young people?
    Answer 6. (a) Because I-BEST is a short-term program with tangible 
outcomes, includes wrap-around services, and is taught by a team of 
skilled instructors, it is an ideal foundation for services to young 
people.
    (b) Many young people require deliberate guidance to navigate 
career exploration, higher education, and the workplace. This includes 
skill building in areas termed ``soft skills'' or ``work readiness'' 
and frequently prioritized by employers.
    (c) Intensive and flexible support services must be readily 
available at the site of instruction. Barriers to success are 
multiple--ranging from a diploma held for unpaid parking tickets to 
homelessness and lack of computer access. Without the capacity and 
resources to readily respond to such barriers, each issue can stop 
students in their tracks.
    (d) Employer support must be cultivated in order for successful 
completers to be hired.
    (e) Partnerships between title I and II providers as well as 
between community-based and educational entities are critical. It 
continues to ``take a village'' to support young adults who need a 
ticket into the middle class.
                       questions of senator enzi
    Question 1. How did Washington State work with the reformed Adult 
Basic Education program so that staff had the professional development 
they needed to teach in a new system? What professional development did 
they need and who provided it?
    Answer 1. I-BEST professional development is created and delivered 
in a partnership between two groups. The first group is made up of 
staff from the State Board for Community and Technical Colleges' adult 
basic education, information technology, student services and workforce 
development offices. The second group is successful college 
practitioners with program expertise, experience, insights, advice and 
materials in the same four areas. In addition, a college system Center 
of Excellence in Education and Training has offered summer institutes 
with an I-BEST focus.
    I-BEST professional development activities focus primarily in four 
areas:

    <bullet> consideration of research and evidence-based practices 
linked to student success;
    <bullet> sharing of barriers and best practices;
    <bullet> creating integrated outcomes; and
    <bullet> teaching in teams.

    Practitioners identify professional development as a critical 
factor to their success. However, limitations in funds that can be used 
to support such professional development--notably, the 12.5 percent cap 
in ABE leadership dollars--currently curtails our efforts and acts as a 
barrier to I-BEST expansion.

    Question 2. What are the best strategies for building partnerships 
between post-secondary education and workforce development programs to 
promote a seamless system for our students and workers?
    Answer 2. Clearly, aligned goals and accountability systems are a 
necessary foundation for success in building partnerships between adult 
basic education and post-secondary providers--whether or not these 
providers sit in the same system. Adult basic education providers must 
have as their goal to provide students with the skills and knowledge 
required for success in post-secondary education and progress on 
pathways to family-wage jobs. The vision for the current adult basic 
education system cannot continue to stop far short of college-level 
skills.
    Postsecondary providers must also have a broader goal: to provide 
all adults with the skills and knowledge to gain certificates and 
degrees necessary to fully meet their academic and employment goals. 
Community and technical college systems are leaders in the sea change 
from viewing student failure in higher education as a mark of 
institutional rigor to creating innovative strategies that ensure a 
wider range of students gain the skills and knowledge to take their 
place in America's workforce and the middle class.
    Washington State is using a range of strategies to assist ABE and 
other non-
traditional students in successful transitions through post-secondary 
education. The first is a Student Achievement System that provides 
financial awards to colleges based on student attainment. Colleges earn 
points along a continuum from adult basic education through degree/
certificate attainment. This system provides highest rewards to those 
colleges that move ABE students across the entire continuum. The second 
effort focuses on student success strategies that include efforts like 
building student cohorts, deliberate instruction in how to navigate the 
college environment, and mandatory advising. The third provides 
additional financial resources to low-income students. Opportunity 
Grants are given to low-income students on career pathways in demand 
fields and have clearly demonstrated that additional financial support 
results in higher rates of retention and achievement. Finally, 
Washington State continues to believe that integration--moving two 
points on the educational pathway together--is the best way to ensure 
that students do not get lost moving from one point to the other. This 
year, we will design and fund I-BEST pilots that integrate 
developmental education with one or more general education classes 
required for 2-year degrees.
       Response to Questions of Senator Murray and Senator Enzi 
                            by Stephen Wing
                      questions of senator murray
    Question 1a. While companies like CVS Caremark are motivated to 
contribute to a better society, I know that businesses also have to do 
what's good for productivity, growth, and competitiveness.
    How has your investment in training and education for workers, even 
those who face multiple barriers to employment and your partnership 
with the workforce investment system been beneficial to your company's 
sustainability?
    Answer 1a. We have found that partnering with the workforce 
investment system is beneficial in multiple ways, most importantly to 
our business is that our retention rates are much higher. The system 
has become a branch of our human resources team. The One-Stop system 
uses our job descriptions and then recruits individuals that meet those 
requirements. Using their pool of potential employees, they pre-screen 
applicants so we only see candidates that meet our standards. Everyone 
wins in this scenario. The incentive for our hiring locations is that 
we get workers who share our core values. We can work with them to 
become skilled members of our team and the incentives such as tax 
credits and on-the-job training dollars are of great help to those 
potential employees.

    Question 1b. Have the return on your investment been worth it?
    Answer 1b. We strongly believe our investment has reaped multiple 
benefits. As we stated in our initial testimony, we have hired over 
65,000 former welfare recipients since 1996. We have found that these 
individuals have stayed with the company at a much higher rate than 
other employees in similar roles. They have received additional 
training and have been promoted to new positions. In developing these 
partnerships, we have been able to attain a competitive advantage over 
our competition by tapping into the workforce system and creating a 
trusting relationship.
    CVS Caremark not only looks at the Return On Investment (ROI), but 
considers how we can give back to the communities we serve. One example 
is our new partnership with the local One-Stops where we are going to 
give 100,000 free flu shots to the unemployed. We found that over 70 
percent of the unemployed this year do not plan to get a flu shot. We 
have set up partnerships in 20 key markets and are working with those 
local One-Stops to assist in giving out vouchers that can be redeemed 
for the shot at a CVS/pharmacy or Minute Clinic. In addition, we will 
also have a scheduled day when the shots will be given at the One-Stop 
location.

    Question 1c. Why do you think other employers don't leverage the 
workforce system the same way CVS Caremark has done? How can we change 
that?
    Answer 1c. There are many misconceptions regarding the system. Most 
think that the standards of the centers are poor and that they cannot 
supply the people needed for staffing. The University of Virginia 
Continuing Education Department is doing a week-long training 
conference for workforce investment system participants to learn how to 
work with their local businesses. It is an intense program where they 
will hear from business executives on what they are looking for in 
employees. They are also given projects to present to the entire group 
meant to promote discussion on how to work with businesses in finding 
new employees and how to work with them when they are displaced. It is 
an excellent program and we assist in the sponsorship of it. We suggest 
that this concept be enlarged to cover all States and local WIB 
participation.

    Question 1d. How do we create a more meaningful role for business 
in the workforce system?
    Answer 1d. One simple thing is to increase the incentives for 
companies to participate. The WOTC program and on-the-job training 
dollars should be designed to make it easier for companies to 
participate. During the mid-1990s we joined the Welfare to Work 
Partnership where four charter companies became thousands of companies 
and millions of people were hired. Another incentive may be to look at 
other targeted groups of individuals such as out-of-school youth and 
mature workers. We would be happy to work with the U.S. Department of 
Labor to assist in creating a more meaningful role for business.
                       questions of senator enzi
    Question 1. What functions, including strategic planning, would be 
incentives for employers to be meaningfully engaged on State and local 
workforce boards to produce coherent, effective workforce system that 
better serves both employers and workers?
    Answer 1. One key area that would make it more meaningful for 
business is to get them to be board members on the local workforce 
systems. One suggestion is to use the National Association of Workforce 
Boards (NAWB) in assisting in recruiting and educating businesses on 
how to become a member. Board membership needs to be meaningful 
including the ability to make decisions on programs and how monies 
should be spent locally.

    Question 2. How do we encourage business to partner with the 
workforce system through innovative partnerships like the CVS One-Stop 
operated here in Washington, DC?
    Answer 2. For over 9 years we have worked closely with the One-Stop 
system to hire targeted groups of employees. The mock up store gives 
the new employee an opportunity to learn the system and go through the 
company's training. When they start at the store they have had hands on 
training and a higher level of confidence. Thousands of Washington, DC 
residents have gained employment through this system. The ROI for this 
endeavor has been great and we have seen high retention rates. The One-
Stop and CVS Caremark share costs, rent is free for us, while we supply 
the equipment and staff the location with our trainers. We also agreed 
to hire 250 new workers that are from a targeted population in the 
district each year. In fact we now have six regional learning centers 
across the country in partnership with One-Stops. Our seventh center 
will open later this year in Washington, DC.
    We believe the key to getting business involvement is to be 
innovative and train employees to their skill levels. Companies need to 
see the value of working in the workforce investment system. We think 
the best ways are to show the companies that they can get involved just 
as we did. That they are able to do their own training and get quality 
new hires. That they can apply for tax credits and On-the-Job Training 
dollars that are easily secured. We could also do an Open House and 
invite business leaders to come to the center to see the facility in 
action and then ask for their feedback and replicate the program within 
their company in partnering with the One-Stop.
    As stated before, we would be glad to work with the U.S. Department 
of Labor on new and innovative ways to work with businesses to get them 
to the table. Smaller companies could partner up with larger companies 
to maximize the training dollars.
                                 ______
                                 
            Consortium for Citizens With Disabilities (CCD)
          workforce investment act reauthorization principles
                               july 2009
    <bullet> People with disabilities using the workforce investment 
system must be thought of as job seekers first. The workforce 
investment system should then respond to their needs from this 
assumption as it would any job seeker utilizing the system.
    <bullet> The workforce investment system should be reconstructed 
using the principles of universal design to ensure that any job seeker 
can access the full array of services available.

        <bullet> Training should be enhanced for workforce investment 
system staff to respond to differing levels of customer need.
        <bullet> The workforce investment system should be structured 
to access and utilize a variety of approaches and strategies to infuse 
disability awareness throughout local service delivery systems.
        <bullet> This reauthorization should strengthen the workforce 
investment systems commitment to physical, technological and 
programmatic accessibility.

    <bullet> People with disabilities must be included in any 
categories of priority of service and funds should be dedicated to 
meeting those needs. Workforce investment funds should prioritize 
targeted at-risk groups.
    <bullet> The workforce investment system should approach each job 
seeker as an individual and respond to his or her needs accordingly.

        <bullet> It should provide each job seeker with access to 
training needed to meet local labor market needs.
        <bullet> It should utilize strategies such as assistive 
technology, supported or customized employment, job restructuring, and 
flex arrangements that allow job seekers to maximize opportunities in 
the local labor market.
        <bullet> It should provide reasonable accommodations when 
appropriate.

    <bullet> A dedicated Federal funding stream should be established 
to adequately fund all of the infrastructure costs of our Nation's job 
training system.
    <bullet> The role of the workforce investment system in youth with 
disabilities transitioning from school to work and community life 
should be strengthened.
    <bullet> The workforce investment system should strengthen its 
coordination with vocational and educational programs for veterans with 
disabilities to ensure that wounded warriors access all services and 
benefits to which they are entitled.
    <bullet> The workforce investment system must be held accountable 
for its services to people with disabilities. This means that:

        <bullet> The performance measurement system should be 
redesigned so as to not create disincentives to serving people with 
disabilities.
        <bullet> Reporting requirements must be changed to include data 
on services to people with disabilities.
        <bullet> State and local system governance plans should 
explicitly outline strategies for serving individuals with 
disabilities.
        <bullet> Local systems should engage employment service 
providers with expertise in serving people with disabilities.
        <bullet> Governance bodies should assure that staff are 
appropriately trained to respond to the needs of job seekers with 
disabilities.

    <bullet> The employment interests of people with disabilities must 
be represented in the workforce investment system's governance 
structure.
    <bullet> The Secretary of Labor should ensure that personnel with 
expertise in disability policy and programs are embedded in the local 
and State system to promote linkages between public and private 
agencies and expand employment opportunities for people with 
disabilities.
    <bullet> We support authorizing and strengthening the Office of 
Disability Employment Policy's role in shaping and advancing policy on 
employment of people with disabilities.

    The Consortium for Citizens with Disabilities (CCD) is a coalition 
of national disability organizations and advocates for public policy 
that ensures the inclusion of children and adults with disabilities in 
all aspects of society. The Employment and Training Task Force is a 
smaller group within the coalition that addresses Federal disability 
employment issues, working to secure national public policy that 
advances self-determination, independence, empowerment, integration and 
inclusion in employment for individuals with disabilities.
    We hope this document will be useful as you move through the 
legislative process and look forward to working with you over the 
coming months.

            Sincerely,
    American Association on Intellectual and Developmental 
Disabilities; American Congress of Community Supports and Employment 
Services; American Council of the Blind; American Network of Community 
Options and Resources; APSE; Council of State Administrators of 
Vocational Rehabilitation; Easter Seals, Inc.; Inter-National 
Association of Business, Industry and Rehabilitation; Judge David L. 
Bazelon Center for Mental Health Law; National Collaborative on 
Workforce and Disability for Youth; National Disability Rights Network; 
National Down Syndrome Congress; National Industries for the Blind; 
National Rehabilitation Association; National Spinal Cord Injury 
Association; NISH; Paralyzed Veterans of America; The Arc of the United 
States; United Cerebral Palsy.
  Council of State Administrators of Vocational Rehabilitation (CSAVR)
    The Council of State Administrators of Vocational Rehabilitation 
(CSAVR) submits this statement on Modernizing the Workforce Investment 
Act (WIA) of 1998. CSAVR is composed of the chief administrators of the 
State Vocational Rehabilitation (VR) Programs serving individuals with 
physical and mental disabilities in the States, District of Columbia, 
and the territories. The Council, which was founded in 1940 to furnish 
input into the State-Federal Rehabilitation Program, provides a forum 
for State administrators to study, deliberate, and act upon matters 
affecting the rehabilitation and employment of individuals with 
disabilities. The Council serves as a resource for the formulation and 
expression of the collective points of view of the VR Directors across 
the country on all issues affecting the provision of quality 
employment, training, and rehabilitation services to individuals with 
all types of disabilities who are seeking to enter or re-enter the 
labor market.
    The Workforce Investment Act of 1998 (WIA; P.L. 105-220) 
established a new One-Stop Career Center system, administered by the 
U.S. Department of Labor (DOL), through which a number of federally 
funded education and training programs, e.g., Wagner-Peyser, post-
secondary vocational education, adult education, vocational 
rehabilitation, etc., recruit and serve their customers.
    The Rehabilitation Act of 1973, as amended (the Rehab Act), which 
was linked to workforce through Title IV of WIA in 1998, funds multiple 
programs and projects that provide comprehensive and complementary 
services and supports to empower eligible individuals with disabilities 
to maximize employment, economic self-sufficiency, independence, 
inclusion and integration into society. The VR Program, authorized 
under Title I of the Rehab Act, is the primary federally funded 
employment and training program specifically designed to assist 
individuals with disabilities, including individuals with the most 
significant disabilities, in overcoming barriers to employment.
    The VR Program operates across all sectors (public, private, non-
profit, for-profit), and at all jurisdictional levels (Federal, State 
and local). It is built on federally mandated principles that 
individuals with disabilities hold dear, including consumer driven 
planning; consumer empowerment; informed choice; individualized 
services and supports; due process protections; and the availability of 
advocacy services. When the Rehab Act was reauthorized in 1992 and 
1998, the VR Program saw increased consumer control, more emphasis on 
serving individuals with the most significant disabilities, and a focus 
on long-term, competitive employment outcomes.
    Under VR, a majority of individuals with disabilities, including 
those with the most significant disabilities, are presumed capable of 
benefiting from the VR services in terms of securing employment. 
Qualified VR counselors assist eligible individuals explore their 
abilities, potentials, and interests, and provide them with information 
on and access to specialized assessments, services and supports that 
are not available through generic employment and training programs. 
Qualified VR counselors provide guidance and counseling as eligible 
individuals use existing information and information from assessments 
and evaluations provided by VR to make informed choices about 
vocational goals, the services needed to pursue those goals, and the 
providers of those services. VR provides eligible individuals with 
disabilities a wide variety of services and supports to assist them in 
accomplishing specific employment outcomes consistent with their 
abilities, capabilities, interests, resources, and informed choices.
    Federally appropriated VR funds require a State match at a set 
ratio (78.7 percent Federal to 21.3 percent State). This funding 
mechanism creates a State/Federal partnership that has worked for over 
89 years. The Designated State Unit (DSU) responsible for implementing 
the State Plan for VR Services must make specific assurances and be 
responsible for the expenditure of VR funds.
    The services, supports and assistance available through VR may be 
provided directly or purchased from other qualified service providers. 
State VR agencies work cooperatively and in collaboration with 
significant numbers of community partners (State/Federal, public/
private, non-profit/for-profit) to provide the full range of services 
and supports that individuals with disabilities need to prepare for, 
enter, retain or advance in employment.
    The Rehab Act requires Congress to appropriate an annual increase 
for VR that is at least equal to the increase in the Consumer Price 
Index (CPI) over the previous fiscal year. While this mandate was 
intended to create a floor for the VR appropriation, Congress has not 
appropriated funds above the mandated CPI increase for a number of 
years. This is particularly problematic because the formula used to 
distribute these funds, which is based on a State's per capita income 
and population, results in significant variations in the increases in 
individual State allotments. When the increase is limited to the CPI 
increase and the formula is applied, not all States receive increases 
that equal the annual rate of inflation. Unfortunately, this has had a 
cumulative effect on a number of States, significantly reducing VR's 
ability in those States to meet the needs of unemployed Americans with 
disabilities.
       external factors driving increased demand for vr services
    A number of external factors are driving an increase in demand for 
VR services. Because of minimal increases in Federal funding, State VR 
agencies are struggling to meet these demands. These external factors 
include:
    Iraq & Afghanistan: VR agencies are providing services to veterans 
with disabilities and in recent survey of State agencies we identified 
over 16,000 joint cases between the VR program and the VA's--Vocational 
Rehabilitation & Employment Program (VR&E). VR also serves a number of 
veterans who are not eligible for the VA's VR&E program.
    America's Working Seniors: VR agencies are also seeing increasing 
demand from the aging workforce. More people are working longer for a 
number of reasons, including the loss of retirement funds and the 
increased cost of living. As we age, there are a number of disability 
related issues that surface. There is an increased need for helping the 
aging population retain work and/or reenter the workforce. Business has 
also been asking for assistance to keep individuals working and seeking 
the support of VR agencies in identifying the appropriate assistive 
technology and accommodations.
    Assistive Technology: Over the years, assistive technology (AT) has 
become a fundamental tool, making it possible for individuals with 
disabilities, including individuals with the most significant 
disabilities, to participate in training and employment programs and 
seek employment opportunities in the competitive labor market. While 
the cost of some AT has fallen, specialized products remain costly. 
Additional costs are incurred to maintain, repair and update AT and to 
provide training on the use of AT. VR agencies report that the number 
of customers benefiting from AT has doubled in 5 years and that VR's 
overall expenditure on AT increases each year.
    Special Education: The Federal appropriation for special education 
has increased significantly while VR has seen only the required CPI 
increase. Increases in special education funding have increased the 
demand for VR services as more students with disabilities exit special 
education and seek adult services and employment. This constitutes a 
movement from a system of entitlement to services to a system based on 
eligibility. VR does not have the resources to meet all the needs of 
students exiting special education, of youth with disabilities who have 
dropped out of school, or are in the juvenile justice system, or the 
growing demand from transition services while students with 
disabilities are still in school.
    TANF: Over 40 percent of the individuals left on our welfare rolls 
are individuals with disabilities or family members of individuals with 
disabilities. As a result, Welfare-to-Work programs for TANF recipients 
are increasingly turning to VR for assistance in serving this 
population.
    Ticket to Work: The work incentives provisions, the Ticket-to-Work 
Program, and particularly the extended access to health care authorized 
under the Ticket to Work and Work Incentives Improvement Act of 1999 
are intended to encourage millions of Americans who receive Social 
Security disability benefits to seek assistance in entering or re-
entering the workforce. To date, over 93 percent of the individuals 
participating in the Ticket Program have assigned their tickets to VR, 
placing an enormous burden on VR without providing any additional 
funding. Recent changes to the Ticket to Work regulations may provide 
some relief but the changes are too recent to have had much effect.
    Olmstead: As Federal and State efforts to implement the Supreme 
Court's Olmstead decision expand, more and more individuals with 
disabilities are being moved from institutions to community settings. 
As they establish themselves in the community and obtain the services 
and supports they need to live more independently, many will turn to VR 
for assistance in entering employment.
    Order of Selection: VR is severely under-funded to meet the 
mandates in the Rehab Act and the external challenges facing the 
Program. As a result, cost containment associated with administrative 
efficiencies cannot sustain the current level of service being 
delivered by the VR Program. Under the current appropriation, VR can 
assist only a small percentage of eligible individuals (i.e., an 
estimated one in twenty who could potentially benefit from services). 
At the end of fiscal year 2008, 36 State VR Agencies were on an Order 
of Selection, with 35,213 individuals on waiting lists for services. 
With the already high unemployment rate for people with disabilities 
expected to grow even faster in today's difficult economy, we expect 
that the demand for VR services will grow proportionately.
    Nonetheless, VR is one of the most cost effective programs ever 
created by Congress. Even with inadequate funding and in the face of 
many external challenges, VR is a program with a proven track record. 
In 2007 the Public VR program and its partners helped over 200,000 
people with disabilities find, return to, or retain employment. VR 
customers earned over $3.0 billion in wages, paid $966 million in 
Federal, State, & local taxes, and generated 36,000 new jobs. In fact, 
on average every person VR helps find or retain employment will ``pay 
back'' the cost of their rehabilitation services, through taxes, in 
just 2 to 4 years.
    In addition, data from the Social Security Administration reveals 
that for every dollar SSA reimburses VR, means SSA has saved $7 in 
benefits that it would have paid out, a net savings of $754 million to 
the Social Security (SSDI) and Supplemental Security Income (SSI) 
programs.
    The Department of Education's Longitudinal Study of the Public VR 
Program, released in 2002 and the last of study of its kind, tracked 
8,500 randomly selected applicants and consumers of the VR Program, 
from 37 State VR Agencies over a 5 year period. The findings of that 
study are impressive and include, among other things:
    Sixty-nine percent of the individuals who completed their VR 
service plans secured employment.
    Eighty-three percent of VR consumers who secured employment during 
the Study were still employed after 1 year;
    Seventy-six percent of those placed in employment were still 
employed after 3 years.
    <bullet> The average hourly earnings for these VR consumers 
increased from $7.33 per hour in year 1 to $9.62 per hour after 3 
years.
    <bullet> At exit from the VR program, 32 percent of these VR 
consumers were in competitive jobs and had earnings about 200 percent 
above poverty level.
    Seventy-five percent of the employment outcomes were competitive 
jobs in professional, managerial, technical, service or clerical/sales 
positions.
    Thirty-nine percent of consumers who participated in the 
Longitudinal Study had received some form of public assistance at entry 
to the Public VR Program. After case closure, 3 years later, this 
percentage declined to 26 percent.
    The quality of the relationship between the qualified VR counselor 
and the consumer was significant related to employment and earning 
levels.
    Even with this impressive record, the Public VR Program has been 
severely under-funded to provide assistance to Americans with 
disabilities, the segment of the American population with the highest 
unemployment record.
    When Congress passed the Workforce Investment Act in 1998, it set 
in motion significant changes in the workforce investment system, 
including governance, accountability and increased coordination and 
collaboration among federally funded partner programs. Among the 
organizing principles of WIA is universal access where a set of core 
services are intended to be available to any individual who needs them. 
A second principle is the concept of a One-Stop service delivery system 
whereby Federal assistance and services can be made available through 
partnership organizations which, in many cases, are located under one 
roof to facilitate ease of access and enhanced customer service. The 
One-Stop service delivery system, through statewide and local workforce 
development systems, was intended to increase the employment, 
retention, earnings, and skills attainment of participants, including 
individuals with disabilities.
    CSAVR recognizes the importance of VR's participation in the One-
Stop system created under WIA. Individuals with disabilities experience 
the highest unemployment rate of any segment of the American 
population. The One-Stop delivery system should be an additional 
vehicle for increased resources and employment opportunities for 
persons with disabilities. Nevertheless, significant barriers and 
challenges exist for individuals with disabilities who are seeking 
assistance through the One-Stop system.
    With regard to the pending reauthorization of WIA and the Rehab 
Act, CSAVR raises the following issues and makes the following 
recommendations.

Issue 1: Do No Harm

    CSAVR strongly supports ensuring the integrity of the funding 
authorized under the Rehab Act to meet the needs of individuals with 
disabilities. These programs, projects and services create a 
complementary, coordinated, and comprehensive service delivery system 
for individuals with disabilities who want to increase their 
independence and self-sufficiency. The system, which includes services 
(e.g., independent living services, evaluations and assessments, 
education and training, employment services, etc.), supports (assistive 
technology services and devices, interpreters, readers, personal 
assistance services, etc.), and a supporting infrastructure (monitoring 
and enforcement, technical assistance and training, research and 
demonstration projects, etc.), has been working well for individuals 
with disabilities for over 89 years.
    Consequently, one of CSAVR's primary policy priorities for 
reauthorization of WIA/Rehab Act is to maintain and expand the funding 
available to meet the diverse needs of individuals with disabilities, 
particularly those with significant disabilities, who are seeking to 
enter, re-enter or remain in the workforce. Many of these individuals 
must have access to specialized services and supports to participate in 
training and engage in employment. CSAVR supports eliminating the 
sequence of services that exists in the WIA program. Job seekers need 
to be able to access the services they need find employment without 
delays.
    CSAVR will also oppose any efforts to redirect funds currently 
authorized and appropriated for programs under the Rehabilitation Act 
to other purposes. CSAVR does not support the consolidation of funds 
currently appropriated for Supported Employment State Grants (SE), 
Projects with Industry (PWI), Recreation Projects, and Migrant and 
Seasonal Farm Worker Projects into VR's appropriation, particularly if 
these consolidated funds are used to provide VR's required CPI 
increase. Programs such as SE and PWI are important because they 
enhance VR's ability to meet specific needs of certain segments of the 
population of unemployed individuals with disabilities. SE funds 
enhance VR's ability to provide on-going, intensive services to 
individuals with the most significant disabilities, particularly those 
who need long-term supports to engage in employment. PWI's linkage with 
the business community and ability to providing job opportunities for 
individuals who are ``job-ready'' are particularly important for 
individuals whose disabilities may not be significant enough to receive 
VR services.

Issue 2: Secure a Dedicated Line-Item to Fund the Infrastructure Costs 
                    of One-Stop Career Centers

    The Public VR Program is a mandatory partner in the WIA and, as 
such, is required to contribute significant resources to support the 
infrastructure and other costs associated with the operation of One-
Stop Centers. While VR's partnership in State workforce investment 
systems is critically important, WIA has placed yet another financial 
burden on an already strained program; further reducing the percentage 
of VR funds that are available to provide services and supports to 
eligible individuals with disabilities who want to work. Rather than 
taking funds from mandatory partners, who are already under funded to 
serve specific populations, CSAVR supports the authorization of a 
dedicated line-item to fund the infrastructure costs of One-Stop 
Centers.

Issue 3: Adequacy of Resources Available to the VR Program

    Real and significant increased funding is required to maintain and 
enhance the quality of services provided by State VR Agencies and to 
facilitate employment outcomes for individuals with disabilities. CSAVR 
believes that the VR Program must have substantially increased 
resources to meet the unique and specialized rehabilitation needs of 
individuals with disabilities. A substantial increase in the Federal 
investment in this proven program must become a national priority. The 
mandated Consumer Price Index (CPI) increase in funding for the Public 
VR Program is an important provision in current law that should be 
maintained in the upcoming reauthorization. However, Congress must 
understand that this mandated CPI increase represents the minimum 
annual increase in Federal funding for the VR Program, and that 
increases in the overall Federal appropriation must be adequate to hold 
all States and territories harmless with regard to the previous year's 
appropriation while ensuring that each State allotment gets at least an 
increase equal to the CPI increase for the previous year. CSAVR 
believes that such increases are necessary to ensure the VR Program's 
ability to meet the letter and intent of the Rehab Act and keep up with 
the external challenges facing the Program.

Issue 4: Ensuring the Physical and Programmatic Accessibility of One-
                    Stops, Job Training Programs, Educational Programs 
                    and Other Service Programs

    The vision of the WIA legislation was to create a collaborative 
service delivery system that serves all Americans who encounter 
barriers to employment, including dislocated workers, the long-term 
unemployed, at-risk youth, and individuals with significant 
disabilities. Collaboration between VR and DOL-funded workforce 
investment services is intended to produce better information, more 
comprehensive services, easier access to services, and improved long-
term employment outcomes for individuals with disabilities.
    Under the Americans With Disabilities Act (ADA) and Section 504 of 
the Rehab Act, the One-Stop Career Centers created under WIA are 
required to be both physically and programmatically accessible. One-
Stop Centers and other service providers that receive Federal funding 
are responsible for serving individuals with disabilities under the 
same terms and conditions as they serve non-disabled individuals.
    While many, if not most, One-Stop Centers have achieved some level 
of physical accessibility, many challenges remain with regard to 
programmatic accessibility. If individuals with communicative, 
cognitive and sensory disabilities are to be able to access services in 
a One-Stop Center, information must be available in a range of 
alternate formats (large print, Braille, and disk). In addition, 
auxiliary aids and services (e.g., interpreters and readers) and 
assistive technology such as accessible software and related-
communicative equipment must be readily available to ensure the 
individuals with physical, mental, sensory and cognitive disabilities 
can access information and have meaningful participation in educational 
programs, vocational training, and other types of employment services 
provided through the One-Stop service delivery system. The provision of 
such accommodations is the responsibility the One-Stop Centers or the 
service providers used by the One-Stop Centers.
    As a required partner in the One-Stop system created under WIA, VR 
Programs may provide technical assistance on identifying and providing 
needed accommodations, and information on how to make physical 
facilities accessible to individuals with different types of 
disabilities. However, State VR Agencies should not be covering 
expenses associated with making One-Stop facilities and programs 
accessible to individuals with disabilities. That responsibility must 
remain with the One-Stop Centers and the entities they use to provide 
educational, employment and training services. In addition, State VR 
Agencies should not be asked to assume the expenses associated with the 
provision of core services in a One-Stop Center merely because some 
individuals with disabilities will be benefiting from those services.

Issue 5: Dedicated Funding to Provide Transition Services for Youth 
                    With Disabilities

    A number of research findings have clearly demonstrated the need to 
improve transition outcomes for students with disabilities. Youth with 
disabilities, especially those with significant disabilities, often 
have a difficult time completing high school. For those youth with 
disabilities who do complete high school, it is well documented that 
they have a difficult time enrolling in and completing post-secondary 
education and finding and keeping employment. In addition, students 
with disabilities have higher drop out rates than non-disabled 
students. One out of five adults with disabilities has not graduated 
from high school, compared to less than one out of ten adults without 
disabilities. Drop out rates for students with disabilities vary with 
the nature and significance of the disability. Youth with severe 
emotional disturbances (57.6 percent) and youth with learning 
disabilities (36 percent) have the highest drop out rates of all 
disability groups.
    Students with disabilities have higher rates of incarceration. More 
than one in three youths who enter correctional facilities have 
previously received special education services. Over the past several 
years, the number of students with disabilities in correctional 
facilities has risen at over twice the rate of the overall special 
education population. More than half of all young people with emotional 
disturbance are arrested at least once within 3 to 5 years of exiting 
school.
    Students with disabilities have low rates of college enrollment. 
Only 14 percent of youth with disabilities attend post-secondary school 
versus 53 percent in the general population. This is particularly 
troubling given that post-secondary credentials bring economic gains in 
the labor market. Nationally, 70 percent of youth with disabilities are 
unemployed 2 years after exiting from high school. Only 26 percent of 
working-age adults with disabilities have a job or own their own 
business. People with disabilities are nearly three times more likely 
than people without disabilities to be living in households with total 
incomes of $15,000 or less.
    In recent reauthorizations of the Individuals with Disabilities 
Education Act (IDEA) and the Rehab Act, the natural linkages between 
special education, transition services, and VR services have received 
some attention. However, without dedicated funding, transition services 
compete with the other mandates, priorities and external challenges of 
the VR Program. Currently, the transition provisions in these two laws 
are not always implemented in a carefully coordinated manner. In 
addition, the lack of specificity regarding shared funding 
responsibilities often results in conflicts that can delay or deny 
needed assistance.
    CSAVR believes the return on America's investment in special 
education is closely linked to VR's ability to assist transitioning 
youth with disabilities in exploring vocational options, and accessing 
post-secondary education, training and employment services. A July 2002 
report from The Longitudinal Study of VR Services, the last such study 
conducted, found that transitioning youth represent 13.5 percent of the 
consumers of VR services (i.e., approximately 135,000 youth with 
disabilities). It also found that 63 percent of young adults (below age 
25) who received VR services successfully went to work, with most 
entering competitive employment. When young adults with disabilities 
enter competitive employment immediately upon or shortly after exiting 
the educational system, their need for long-term public assistance 
(such as SSI, welfare benefits, food stamps, etc.) can be significantly 
reduced.
    The gaps in services provided under the entitlement of IDEA versus 
the eligibility of adult service systems often seem vast and 
insurmountable to youth with disabilities and their families. As a 
result, students with disabilities continue to struggle to attain 
success and independence in employment, post-secondary education, 
independent living, and healthy and active relationships in their 
communities.
    This Nation cannot afford to invest substantial resources in this 
segment of its youth population while providing few, if any, options 
after the school experience is completed. Transition programs must be 
strengthened and enhanced if we are to assist students in reaching 
their potential to become productive and active members of their 
communities. Transition planning must become a long-term educational 
process beginning in middle school. Transition goals and objectives 
should be the foundation of a student's educational program and guide 
the development of a student's IEP throughout the high school years.
    With the number of students in special education who need 
transition services increasing every year, the pressure on personnel in 
both the special education system and the VR system to provide 
transition services is growing. Currently there are no designated 
resources for transition services, either in IDEA or the Rehab Act. 
Transition services are listed among the services that may be funded 
under IDEA, Part B, and under Title I of the Rehab Act for those 
students who have been determined eligible for VR services and who have 
had an individualized plan for employment (IPE) developed in 
partnership with a qualified VR Counselor. The lack of dedicated 
resources often results in students not having access to needed 
transition services.
    CSAVR believes that in addition to strengthening linkages between 
special education and the VR Program, NEW targeted monies must be 
provided in both IDEA and the Rehabilitation Act for transition 
planning and the provision of transition services. These monies should 
supplement resources currently used for transition services under IDEA, 
Part B, and Title I of the VR Program and the COLA.
    Having a dedicated funding stream for transition services would 
allow both special education and VR to collaborate substantively, and 
provide quality, relevant transition services to students with 
disabilities in a timely manner.
    Further, a dedicated funding for VR will facilitate the creation of 
a cadre of Transition Counselors who specialize in working with schools 
and adult service systems to improve employment and educational 
outcomes for youth with disabilities. These specialists could provide 
career counseling, employment, job placement, and case management 
services to youth with disabilities.
    Dedicated funding would enhance the capacity of VR to support the 
efforts of local high schools to provide school-based employment 
services to youth with disabilities (e.g., running job clubs, providing 
technical support for school-based employment services, identifying 
trial work experiences, etc.). Dedicated VR funding would allow VR 
counselors to become highly visible in school settings and actively 
involved in working with teachers, parents, and employers to assist 
youth with disabilities in accessing post-secondary education, to 
connect youth with significant disabilities to adult services programs 
(including VR), and to place youth with disabilities in employment.

Issue 6: Retain the Rehabilitation Services Administration (RSA) Within 
                    the Department of Education (DOE)

    CSAVR strongly opposes any attempt to move the Rehabilitation 
Services Administration from the Department of Education to the 
Department of Labor. The VR program provides a wide array of services 
to a broad population, from teens to seniors. VR provides the services 
and supports that are necessary for an eligible individual to go to 
work which may include, but is not limited to, such things as medical 
assistance, assistive technology, and transportation.
    In particular, students with disabilities who are leaving the 
education system represent the single largest source of potential 
customers for VR services. CSAVR believes it is critical for all State 
VR Agencies to strengthen the continuum of services provided to these 
students to facilitate a smooth and beneficial transition from 
secondary education to post-secondary education and employment. The 
close relationship between VR and Special Education is critical to the 
planning and implementation of services that will ensure the success of 
transition students; and this relationship can best be maintained by 
retaining the RSA within the DOE.

Issue 7: Maintain the Status of the RSA Commissioner's Position in 
                    Current Law

    CSAVR will not support downgrading of the RSA Commissioner's 
position. CSAVR believes that downgrading the Office of the 
Commissioner of RSA would diminish the importance of the VR Program and 
devalue the employment of individuals with disabilities.

Issue 8: Ensuring the Integrity of the Designated State Unit (DSU)

    CSAVR believes that the VR Program must continue to be administered 
and implemented by a Designated State Unit (DSU) in each State to 
ensure that individuals with disabilities continue to have access to 
the highest quality job training and employment services and supports 
tailored to their unique and individualized needs. The Rehab Act must 
continue to require each State to designate in its State Plan a State 
Unit that has the sole responsibility for administering the State Plan 
for VR Services, while giving States the option of designating a 
separate State Unit to serve individuals who are blind or visually 
impaired.
    Each DSU must be an agency or a division within a State agency that 
is primarily concerned with the provision of VR services to individuals 
with disabilities; has a director that is solely responsible for the 
administration of that State Plan; employs staff who are engaged 90 
percent of the time on implementing the VR Program; and have 
organizational responsibilities equal to other major organizational 
units within State government. Services through the DSU must continue 
to be available statewide. CSAVR believes that development of the 
budget, management of finances, supervision of staff, determinations of 
eligibility, approval of individualized plans for employment, and 
decisions about case closures should be the sole responsibility of 
qualified professionals employed by the DSU, as should the overall 
management of the VR program. State-level oversight and accountability 
are necessary to ensure a consumer responsive, effective and efficient 
VR Program. Having a DSU with responsibility for the administration, 
management and implementation of the Program will help to ensure a 
viable, accountable, and effectively managed program of VR services.
    The DSU in each State is held accountable for the expenditure of 
Federal and State funds dedicated for the employment, training and 
support needs of individuals with significant disabilities. 
Accountability is a fundamental and critical element of the VR Program. 
DSUs make annual reports on how they have expended VR funds, providing 
extensive information on the individuals receiving services. Standards 
and indicators appropriate for VR were developed in response to the 
1992 amendments to the Rehab Act. They are used to evaluate the 
effectiveness of the VR program and to provide methods for measuring 
improvement. In addition, The Longitudinal Study of Vocational 
Rehabilitation Services mentioned earlier has provided extensive 
information that demonstrates the long-term results of the VR Program.
    To clarify lines of responsibility, CSAVR recommends that the act 
refer only to a Designated State Unit (permitting a free-standing State 
Agency to function as such a unit) and that specific language be added 
to the definition of the DSU to clarify exactly what functions are the 
responsibility of the DSU and, therefore, may not be delegated. CSAVR 
has developed suggested language to clarify the lines of authority for 
the administration and implementation of the VR Program and to ensure 
accountability for the expenditure of VR funds. This language (which 
would completely rewrite of Section 101(a)(2) DESIGNATED STATE AGENCY; 
DESIGNATED STATE UNIT) can be found in appendix I.

Issue 9: Representation of Disability Interest on Workforce Investment 
                    Boards

    Recognizing the expertise of individuals staffing the VR Program 
and the importance of considering the views of individuals with 
disabilities, CSAVR believes each State Workforce Investment Board 
(SWIB) must include in its membership at least one individual with a 
disability and the Director of the DSU administering the State Plan for 
VR Services (Directors in States that have a separate DSU that serves 
individuals who are blind or visually impaired). The representative of 
the DSU must be a person who has day-to-day responsibility for 
administering the VR Program or an individual designated by the VR 
Director. Nearly 4 years after implementation of the Workforce 
Investment Act (WIA), there are still States that are meeting the SWIB 
composition requirements by having the head of the umbrella agency 
housing the VR Program serve as the VR representative on the SWIB.
    To address this issue, CSAVR recommends amending Sec. 
111(b)(1)(C)(vi)(I) of WIA, which sets out the composition of the SWIB, 
by adding a new subsection 111(b)(1)(C)(vi)(II); and redesignating 
current (vi)(II) as (vi)(III). The amended section might read as 
follows:
    Sec. 111(b)(1)(C)(vi)(I) the lead State agency officials with 
responsibility for the programs and activities that are described in 
section 121(b) and carried out by One-Stop partners; and
    [New] (vi)(II) in the case of the Public Vocational Rehabilitation 
Program authorized under Title I of the Rehabilitation Act of 1973 (29 
U.S.C. 720 ET seq.), the Vocational Rehabilitation Director employed by 
the Designated State Unit or the Vocational Rehabilitation Directors in 
States that have a separate State entity that is responsible for the 
rehabilitation of individuals who are blind and visually impaired; and
    [Redesignated] (vi)(III) ``in any case in which no lead State 
agency official has responsibility for such a program, service or 
activity, a representative in the State with expertise relating to such 
program, service, or activity; and . . .''

Issue 10: Representation on Local Workforce Investment Boards

    Currently, WIA requires representatives of local community-based 
organizations (including organizations representing individuals with 
disabilities and veterans) to be included in the membership of Local 
Workforce Investment Boards (Local WIBs). As a result of this 
requirement, many Local WIBs include representatives of community 
rehabilitation programs (CRPs), the Public VR program, and individuals 
with disabilities. If Local WIBs are to be effective in meeting the 
needs of individuals with disabilities who are not eligible for VR 
services, individuals with disabilities and representatives of 
organizations serving individuals with disabilities must be included on 
these local boards. Consequently, CSAVR supports the continuation of 
the current requirement regarding organizations representing 
individuals with disabilities and veterans serving on Local WIBs and 
the addition of language requiring individuals with disabilities to 
serve on Local WIBs.

Issue 11: VR--Dual Customers--Employer Partnerships

    Over the years State VR agencies have also worked hard to develop 
stronger relationships with the business community. Recently CSAVR 
created a National Employment Team (NET) that is a network of the 80 
State VR agencies and their employer partners to focus on increasing 
the employment of VR consumers. The NET has working partnerships with 
major corporations such as Walgreens, Safeway Convergys, Microsoft, and 
also with Federal agencies such as the Internal Revenue Service (IRS) 
and the Department of Transportation (DOT), to name a few.
    Through the coordinated national team, VR's relationship with 
business effectively meets their employment needs while it incorporates 
``real time'' information from employers into VR's career planning and 
IPE process with consumers. This up front work with business opens the 
doors to national employment opportunities for VR consumers.
    The national model with the corporate connections allows VR to 
develop productive working relationships with businesses in multiple 
States. The top level support and a company-wide strategy have resulted 
in multiple employment outcomes. For example, in 2008 over 680 VR 
consumers were hired by Safeway which is headquartered in Pleasanton, 
CA but does business in multiple States across the country.
    Another one of VR's important business partners is Convergys. 
Convergys is an outsourcing company headquartered in Cincinnati, Ohio 
but doing business in 35 countries. Through the NET, VR has developed a 
corporate level relationship that resulted in employment opportunities 
in 29 States. VR consumers are being hired for positions in brick and 
mortar sites as well as in home agent positions which allows 
individuals with significant disabilities and those in rural areas to 
be employed in good paying positions with benefits.
    In the area of IT, VR is working closely with Convergys to find a 
solution that will support access for people who are blind and use 
screen readers. Screen readers vocalize the printed information that 
sighted people access on the computer screen. Convergys has a corporate 
IT and HR team working with a VR team that includes staff experts from 
five agencies across the country. The company is thrilled because VR is 
providing the technical expertise to work with the company to resolve 
the access issue so that they can employ the talents of individuals who 
are blind. Again, this type of working relationship will open up 
employment opportunities for people with disabilities in 29 States 
through this one initiative. It also serves as a corporate model to 
other business customers.
    The Act, Title I, Section 109, references VR's responsibility in 
educating employers about the Americans with Disabilities Act. This 
limited reference does not fully describe the role or relationship that 
VR must develop to support business in the recruitment, hiring, 
promotion, training and retention of qualified individuals with 
disabilities and to support the individual's success in the workplace. 
CSAVR supports language that would strengthen the dual customer model 
and the establishment of a grant funded program that would be targeted 
at promoting the ongoing development of relationships between State VR 
agencies and businesses as part of the dual customer model.

Issue 12: Inadequate Resources Available for VR to Meet the CSPD 
                    Requirements

    The role of the VR counselor is the cornerstone of the VR Program. 
As the key professional in the system, the counselor is responsible for 
interacting with individuals with disabilities who are seeking or 
receiving VR services to assist them in entering the workforce and 
becoming economically independent. VR counselors are uniquely qualified 
to assist individuals with disabilities in assessing their needs for 
individualized services and supports to achieve high quality employment 
outcomes.
    In 1998, Congress mandated that VR employ qualified counselors, 
i.e., counselors that meet the national standard or the highest State 
standard for persons in that profession (in most cases, requiring a 
master's degree). With minimal increases in funding and expanding 
external pressures, VR is finding it more and more difficult to attract 
and retain qualified individuals. With over one third of the incumbent 
counselors in some States not meeting the State standard for VR 
Counselors, VR must provide additional education and training to 
incumbent counselors to upgrade their qualifications. While special 
training grant funds have been made available for this purpose, they 
are not adequate to cover the cost of necessary education and training. 
State VR agencies have had to make up the shortfall in these training 
funds with case service funds.
    State VR agencies are facing a dwindling pool of potential 
qualified applicants for counselor positions. The situation is likely 
to become critical over the next 5 to 10 years because a significant 
percentage of individuals currently working for VR will be retiring. 
This situation calls for a serious focus on succession planning.
    As a result of all these factors, CSAVR will seek increased 
resources for Section 302 of the Rehab Act so that additional funding 
will be available for training rehabilitation professionals, 
particularly for in-services training for staff of DSU that are having 
problems meeting requirements for a Comprehensive System of Personnel 
Development found in Title I of the Rehab Act.
    CSAVR stands ready to provide any information about the VR program 
and what is happening in individual States, and we look forward to 
working with members of the Subcommittee and the full HELP Committee on 
reauthorization of the Workforce Investment Act. Please feel free to 
contact Paul J. Seifert, CSAVR Director of Government Relations at 301-
219-4719 if you have any questions or need any additional information.
                               APPENDIX I

CSAVR proposes the following rewrite of Section 101(a)(2) DESIGNATED 
                    STATE AGENCY; DESIGNATED STATE UNIT:

Section 101(a)(2) Designated state unit.--

    (A) The State plan shall designate a State unit as the sole State 
entity to administer the plan. The Designated State unit must be either 
a State agency with the primary function of implementing the State Plan 
for VR services or a division or unit within a larger State agency that 
is located at an organizational level and has an organizational status 
comparable to that of other major organizational units within other 
State Agencies. Under State law, a separate State Unit may be 
designated to provide vocational rehabilitation services to individuals 
who are blind and to be the sole State unit authorized to administer 
the part of the plan under which vocational rehabilitation services are 
provided for individuals who are blind. In the case of American Samoa, 
the appropriate State unit shall be the governor of American Samoa.
    (B) The State unit designated under subparagraph (A) shall--
      (i) be primarily concerned with vocational rehabilitation, or 
vocational and other rehabilitation, of individuals with disabilities, 
and be responsible for the administration of the State Plan for VR 
services;
      (ii) have a full-time director who shall be responsible for:

        (I) Policy formulation and implementation;
        (II) all decisions regarding the development, implementation 
and approval of the annual budget for the Public VR Program and all 
decisions regarding the development, implementation and approval of the 
allocation, administration, and expenditure of vocational 
rehabilitation funds authorized under Sec. 100(b);
        (III) supervision of professional staff and decisions about the 
Comprehensive System of Personnel Development implemented in accordance 
with Sec. 101(a)(7); and
        (IV) representing the Public VR Program on the State Workforce 
Investment Board created under Title I of the Workforce Investment Act;
      (iii) have staff employed on the rehabilitation work of the 
designated State unit all or substantially all of who are employed full 
time on such work and at such levels and in such capacities as the 
State Director determines to be adequate.
        (I) all decisions affecting eligibility for vocational 
rehabilitation services, for the nature and scope of available 
services, and the provision of these services; and
        (II) all decisions about the approval of individualized plans 
for employment and determinations to close the record of services of an 
individual who has achieved an employment outcome, in accordance with 
Sec. 361.56.
      (iv) The responsibilities assigned to the full-time VR Director 
in section 100 (a)(2)(B)(ii) are solely the responsibilities of the 
Director and may not be delegated to any other State official not 
subordinate to the Director.
      (v) The functions of the staff of the Designated State Unit 
outlined in subsection 101(a)(2)(B)(iii) are solely the responsibility 
of the Designated Sate Unit and may not be delegated to any other State 
unit or any other subdivision of the State Agency within which the 
Designated State Unit is housed.
    (C) Responsibility for Services for the Blind
    If the State has designated only one State Unit pursuant to 
subparagraph (A), the State may assign responsibility for the part of 
the State Plan under which vocational rehabilitation services are 
provided for individuals who are blind to another organizational unit, 
with the provisions of subparagraph (B) applying separately to each of 
the designated State units.
                                 ______
                                 
    National Organization for Competency Assurance 
                                            (NOCA),
                                      Washington, DC 20036,
                                                     July 16, 2009.
Subcommittee on Employment and Workplace Safety,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Right now, three-quarters of the fastest-growing occupations 
require more than a high school diploma. And so tonight, I ask every 
American to commit to at least one year or more of higher education or 
career training. This can be community college or a four year school; 
vocational training or an apprenticeship. But whatever the training may 
be, every American will need to get more than a high school diploma.
--President Obama, Address to Joint Session of Congress, February 24, 
2009.
                              introduction
    On behalf of the National Organization for Competency Assurance 
(NOCA), an international association representing over 400 
organizations \1\ that grant occupational certifications, I am pleased 
to provide the subcommittee with our views on the reauthorization of 
the Workforce Investment Act (WIA).
---------------------------------------------------------------------------
    \1\ A full list of NOCA's organizational members may be viewed at 
http://www.noca.org. NOCA members represent more than 10 million 
individuals worldwide and include certification programs of some 150 
professions and occupations. NOCA members certify individual skills in 
fields as diverse as construction, healthcare, automotive, and finance.
---------------------------------------------------------------------------
    wia reauthorization should recognize importance of certification
    NOCA recommends including information about occupational 
certification and licensure opportunities as a core service available 
through One-Stop employment and training career centers. The Department 
of Labor (DOL) launched its CareerOneStop \2\ web site several years 
ago. This user-friendly web site allows job seekers to easily search 
for certification options in a number of different fields and 
professions. NOCA recommends that Congress encourage the expansion of 
this valuable tool by authorizing DOL to raise awareness about the site 
to workers as well as career development professionals.
---------------------------------------------------------------------------
    \2\ http://www.careeronestop.org/.
---------------------------------------------------------------------------
    In 2003, both the Senate and the House passed different versions of 
WIA reauthorization. NOCA supported the Senate version of the WIA 
reauthorization (S. 1021) in particular as it included provisions 
directing One-Stop Centers to make available information about 
occupational certification and licensure opportunities to those seeking 
re-employment or new career directions. The Senate bill also called for 
a national study of the benefits of earning an occupational 
certification. The results of the study were to be presented to 
Congress and were required to include recommendations designed to 
promote the acquisition of occupational certifications.\3\ S. 1021 also 
authorized grants for the development of new certification programs for 
emerging competencies. Competencies relative to new technologies and 
emerging sectors will provide new job opportunities, and certifications 
based on the known regimes for certification programs, will provide the 
competency assurances to employers and the general public. We recommend 
that any WIA reauthorization undertaken by this committee include 
similar provisions.
---------------------------------------------------------------------------
    \3\ Sen. Feingold introduced S. 175, the Skills Standards 
Certification Evaluation Act of 2009, earlier this year which also 
calls for a national study to evaluate certifications and provide 
confirmation of their value to employers. S. 175 would only evaluate 
``skill certifications'' that receive Federal funding. It should be 
noted that occupational certifications are overwhelmingly regulated at 
the State level, hence there are only a small number of certifications 
that are codified into Federal law or recognized in Federal 
regulations.
---------------------------------------------------------------------------
             help dislocated workers pay for certification
    Spiraling costs are putting the dream of a higher education out of 
reach for many Americans. Many workers will not be able to achieve a 
valid occupational certification--which will serve many as the key to a 
new career--without receiving some form of financial assistance. At the 
same time, Federal dollars should not be put towards academically 
questionable programs.
    NOCA suggests allowing displaced workers to be eligible for 
financial aid to pay for the costs of taking an occupational 
certification exam. The Montgomery G.I. program was expanded a decade 
ago to allow veterans to use their education benefits towards this 
purpose and this could serve as a model for the committee when 
retooling of WIA begins. As with the Montgomery G.I. system, NOCA 
recommends that only those certifications that have been accredited by 
a nationally recognized accreditation body be eligible for any type of 
Federal financial aid or reimbursement.
    occupational certification leads to better jobs and better wages
    Many organizations in today's challenging economy have recognized 
their workforce as their most valuable asset. Likewise, as President 
Obama stated in his February 26 joint address to Congress, individuals 
recognize that now more than ever before they must acquire and maintain 
more comprehensive skill sets to ensure their own attractiveness and 
ability in the workplace.\4\
---------------------------------------------------------------------------
    \4\ 4 See also Su Bacon, ``Setting Strategy: Earning professional 
credentials has many benefits for businesses.'' Kansas City Star (Jul. 
2, 2007), available at http://www.kansascity.com/business/story/
174730.html.
---------------------------------------------------------------------------
    Certification offers a meaningful and a direct pathway to re-
employment for individuals eligible for assistance through the One-Stop 
system. Certification may be a part of the training for specific job 
skills required in local markets. Including information about the vast 
array of certification programs and opportunities available to job 
seekers when they visit One-Stops is an excellent way to assist 
individuals in obtaining new work and possibly better career 
opportunities.
    The value of acquiring an occupational certification is underscored 
in existing data. Research conducted by the American Board of Nursing 
Specialties (ABNS) (a NOCA member) ``document[s] a high level of 
agreement among certified nurses, non-certified nurses and nurse 
managers that certification is greatly valued among nurses.'' \5\ 
Respondents to the ABNS survey revealed that among the incentives their 
employers offer to promote and recognize nursing certifications are 
reimbursement of exam fees, a listing of their certifications on 
nametags and/or business cards, and receiving reimbursement for 
continuing education.\6\ Other surveys indicate that certification 
results in higher wages for credentialed employees, as well as 
bonuses.\7\
---------------------------------------------------------------------------
    \5\ Value of Certification Executive Summary. American Board of 
Nursing Specialties (May 2006), 4. Available at http://
www.nursingcertification.org/pdf/executive_summary.pdf.
    \6\ Ibid.
    \7\ Poll Indicates Certified Workers Earn More, press release, 
Sept. 5, 2003. Available at:http://www.noca.org/portals/0/
Poll%20results.doc. See also CertMag's 2006 Salary Survey. Available 
at: http://www.certmag.com/articles/templates/
CM_gen_Article_template.asp?articleid=2479 &zoneid=223. See also 12 
Money-Making Certifications to Boost Your Career, Yahoo! HotJobs. 
Available at: http://hotjobs.yahoo.com/career-articles-
12_money_making_certifications_to_ boost_your_career-653.
---------------------------------------------------------------------------
    Certification programs whose prerequisites and requirements 
displaced workers may quickly access--like those in the nascent 
``green'' jobs movement--would enable those workers to move back into 
gainful employment and possibly enhanced career opportunities. 
Certification of one's specialized skills learned from years on the job 
may well be one of the quickest pathways to reemployment.
    In many instances, an occupational certification does not require a 
4-year college degree. College is an expensive and time-consuming 
undertaking which may not represent a viable alternative for all job 
seekers. Persons who do not wish to pursue a bachelor's degree can 
pursue rewarding careers in fields such as automotive mechanic, 
construction trades, and medical assisting, among many others. Examples 
of occupations not requiring a baccalaureate degree include:

    <bullet> Court reporters. This profession remains in high demand. 
According to the National Court Reporters Association, 81 percent of 
those holding the Registered Professional Reporter (RPR) certification 
say their professional designation is important to them.\8\ Court 
reporters earn close to $64,000 annually on average.\9\
---------------------------------------------------------------------------
    \8\ See http://ncraonline.org/certification/Certification/rpr/
default.htm.
    \9\ See http://ncraonline.org/NCRA/pressroom/AboutCourtRep/.
---------------------------------------------------------------------------
    <bullet> Crane operator. The Bureau of Labor Statistics lists the 
annual mean salary for crane operators as $42,940.\10\ Most States 
require crane operators to have a certification obtained from an 
accredited certification body.
---------------------------------------------------------------------------
    \10\ http://www.bls.gov/oes/2007/may/oes537021.htm.
---------------------------------------------------------------------------
    <bullet> Automotive technician. According to the National 
Automotive Technicians Education Foundation, automotive technicians 
receiving the Automotive Service Excellent (ASE) certification can earn 
$60,000 or more per year.
    <bullet> X-ray technician. There continues to be a demand for 
trained professionals in the healthcare field. X-ray technicians can 
expect to earn a mean annual wage of over $51,000 according to BLS 
statistics.\11\

    \11\ http://www.bls.gov/oes/2007/may/oes292034.htm.
---------------------------------------------------------------------------
    These are just a small sampling of the occupations available to 
dislocated workers, new workforce entrants, and others seeking 
meaningful employment and living wages, who may choose not to go on to 
pursue a 2- or 4-year degree. Occupational certification is in most 
instances an affordable retraining option for many workers. A 2004 
survey conducted by NOCA indicatedthe average cost of certification 
tests is $350.\12\
---------------------------------------------------------------------------
    \12\ Average Certification Exam Fee Tops $350, press release, May 
20, 2004. Available at: http://www.noca.org/portals/0/exam%20fee--
header.pdf.
---------------------------------------------------------------------------
    The certification sector is also recognizing the changing face of 
the American workforce. While the United States has always been a 
nation of immigrants, U.S. Census figures indicate that the number of 
persons who speak a language other than English at home increased from 
31.8 million in 1990 to 47 million in 2000.\13\ In addition, while some 
immigrants enter the United States with high quality training and 
education, others lack advanced skills and will need to obtain training 
inorder to advance in the workforce.
---------------------------------------------------------------------------
    \13\ See Hyon B. Shin with Rosalind Bruno, Language Use and 
English-Speaking Ability: 2000. U.S. Census Bureau (Oct. 2003). 
Available at: http://www.census.gov/prod/2003pubs/c2kbr-29.pdf.
---------------------------------------------------------------------------
    Certification bodies are adapting swiftly to meet the needs of 
America's changing workforce. For example, many certification boards 
are administering their coursework and examinations in languages other 
than English. Certification examinations for numerous occupations are 
now administered on a global scale. A 2006 survey of NOCA member 
organizations revealed that over 50 percent of respondents administer 
their exams in countries other than the United States and that 37 
percent of respondents translate their exams into languages other than 
English.\14\
---------------------------------------------------------------------------
    \14\ NOCA International Staff Summary Report. National Organization 
for Competency Assurance (Oct. 20, 2006). Not available online.
---------------------------------------------------------------------------
    Certification bodies are also in full compliance with the Americans 
with Disabilities Act, thus allowing persons with disabilities to earn 
certifications with reasonable accommodation that does not compromise 
the validity or reliability of the testing process.
                         what is certification?
    The certification of professional and occupational skill sets 
affirms the importance and measurability of a knowledge and experience 
base for practitioners in a particular field, their employers, and the 
public at large. Certification represents a measureable demonstration 
of a particular individual's professional competence. In some 
professions certification is a requirement for employment or practice. 
In other professions and occupation, certification is a means of 
demonstrating mastery over skill sets and competencies required by the 
work place or consumers. In all instances, certification enhances the 
employability and career advancement of the individual practitioner or 
employee.
    A certification is generally developed when an industry or 
profession is able to identify a ``fundamental body of knowledge for 
the profession. There should be a relatively stable, expert-identified, 
peer-reviewed, objective, consensual set of tasks, activities and 
understanding that identifies what individuals in the profession do.'' 
\15\
---------------------------------------------------------------------------
    \15\ John E. Kasper, Ph.D., CAE, To Certify or . . . Not to 
Certify?, Forum Magazine (January 2009), 28.
---------------------------------------------------------------------------
    Numerous occupations, such as doctors, nurses, accountants, and 
physical therapists, require a license to practice the profession at 
the State level. Certification is distinct from licensure in that it is 
voluntary and frequently requires recertification to maintain the 
currency of the certification.
    about the national organization for competency assurance (noca)
    NOCA, the oldest and largest international organization 
representing over 400 certification agencies, testing companies, 
consulting firms and individuals involved in professional 
certification, was created in 1977 as the National Commission for 
Health Certifying Agencies (NCHCA) with Federal funding from the 
Department of Health and Human Services. Its mission was to develop 
standards for quality certification in the allied health fields and to 
accredit organizations that met those standards. With the growing use 
of certification in other fields, NCHCA's leaders recognized that what 
is essential for credible certification of individuals in the 
healthcare sector is equally essential for other sectors. With this 
vision, NCHCA evolved into the National Organization for Competency 
Assurance.
    NOCA also brings the expertise of its internationally recognized 
accrediting arm, the National Commission for Certifying Agencies 
(NCCA). NCCA uses a peer review process to evaluate adherence to its 
standards by certification programs and grants accreditation to those 
programs that have met those standards. These standards exceed the 
requirements set forth by the American Psychological Association and 
the U.S. Equal Employment Opportunity Commission and thus help to 
protect the health, safety, and welfare of the public.
    NCCA accredited programs certify individuals in a wide range of 
professions and occupations including nurses, automotive professionals, 
respiratory therapists, counselors, emergency technicians, and more. To 
date, NCCA has accredited over 200 programs representing 98 
organizations.\16\ NCCA is the largest accreditation program in the 
United States and recognition of NCCA accreditation is incorporated 
into many Federal and State statutes and regulations pertaining to the 
regulation of various occupations.
---------------------------------------------------------------------------
    \16\ A full list of programs achieving NCCA accreditation may be 
viewed at: http://www.noca.org/NCCAAccreditation/
AccreditedCertificationPrograms/tabid/120/Default.aspx.
---------------------------------------------------------------------------
                               conclusion
    The Nation's growing numbers of unemployed are desperate to get 
back to work in an occupation that allows them to support themselves 
and their families. Improving the prospects for reemployment into new 
career opportunities represents the core of the Workforce Investment 
Act. Individuals, whether employed or self-employed, know that now more 
than ever before they must acquire and maintain more comprehensive 
skill sets to ensure their own marketability and competence in the 
workplace.
    Certification represents an excellent pathway to employment 
opportunities for workers in all areas in the economy. It also serves 
as an important assurance for employers and the general public that 
individuals have attained the necessary skill sets to provide the 
services or carry out the scope of their employment.
    NOCA urges inclusion of those provisions that will confirm the role 
of certification in our economy and the workplace and make investments 
to ensure that occupational certification and licensure opportunities 
are made a solid part of the Workforce Investment system, confirm the 
value of occupational certification by an objective study, and help 
launch occupational certifications in emerging sectors.

            Respectfully Submitted,
                                        James Kendzel, MPH,
                                                Executive Director,
             National Organization for Competency Assurance (NOCA).

    [Whereupon, at 11:57 a.m., the hearing was adjourned.]





</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
